No. __-____
IN THE
_____________________________________________________________
COREY JOHNSON,
Applicant,
v.
UNITED STATES OF AMERICA,
Respondent.
_____________________________________________________________
On Application for Stay
Execution Date: January 14, 2021 at 6:00 P.M. E.T.
_____________________________________________________________
APPENDIX
__________________________________________________________________
Shay Dvoretzky*
Donald P. Salzman
David E. Carney
Wallis M. Hampton
Jonathan Marcus
Skadden, Arps, Slate, Meagher & Flom, LLP
1440 New York Avenue, NW
Washington, DC 20005
Ph: (202) 371-7246
Fax: (202) 661-8295
Email: david.carney@skadden.com
Counsel for Corey Johnson
*Counsel of record for Mr. Johnson, and
Member of the Bar of the Supreme Court

PAGE(S)
I. RELEVANT STATUTES
18 U.S.C. § 3596 ..................................................................................................... APP.1
21 U.S.C. § 841 ....................................................................................................... APP.2
21 U.S.C. § 848 (1988) (repealed 2006) ............................................................... APP.16
21 U.S.C. § 848 ..................................................................................................... APP.28
28 U.S.C. § 2255 ................................................................................................... APP.31
Fair Sentencing Act of 2010, Pub. L. No. 111-220, 124 Stat. 2372 .................... APP.33
First Step Act of 2018, Pub. L. No. 115-391, 132 Stat. 5194 ............................. APP.34
II. RELEVANT PROCEDURAL HISTORY
Second Superseding Indictment, No. 92CR68 (E.D. Va. July 20, 1992) ........... APP.35
Order and Memorandum Opinion re Section 2255 Petitions, No. 92CR68
(E.D. Va. May 1, 2003) ................................................................................... APP.57
Findings of Fact and Conclusions of Law, No. 92CR68 (E.D. Va. May 1,
2003), Dkt. 898 ............................................................................................. APP.182
United States v. Roane, 378 F.3d 382 (4th Cir. 2004) ...................................... APP.195
Order Denying Motion to Recall Mandate and Grant Rehearing, No. 03-26
(4th Cir. Nov. 22, 2005) ................................................................................ APP.223
Johnson v. United States, 546 U.S. 810 (2005)................................................. APP.224
Memorandum Opinion, No. 19-mc-145 (D.D.C. Nov. 20, 2019),
ECF No. 50.................................................................................................... APP.227
Memorandum Order Denying First Step Act Motion, No. 92CR68 (E.D.
Va. Nov. 19, 2020), ECF No. 75 ................................................................... APP.242
Notice of Execution Dates, No. 19-mc-145 (D.D.C. Nov. 20, 2020), ECF No.
330 ................................................................................................................. APP.256
Notice of Appeal re First Step Act, No. 92CR68 (E.D. Va. Nov. 20, 2020),
ECF No. 77.................................................................................................... APP.261
Memorandum Opinion Dismissing § 2255 Petition, No. 92CR68 (E.D. Va.
Jan. 2, 2021), ECF No. 99 ............................................................................ APP.263
Order Dismissing § 2255 Petition, No. 92CR68 (E.D. Va. Jan. 2, 2021),
ECF No. 102.................................................................................................. APP.285

Emergency Motion for Stay, No. 20-15 (4th Cir. Jan. 7, 2021), ECF No. 151 ..................................................................................................................... APP.286
Memorandum Opinion Granting Motions for Preliminary Injunction, No.
19-mc-145 (D.D.C. Jan. 12, 2021), ECF No. 394 ......................................... APP.308
Order Granting Motions for Preliminary Injunction, No. 19-mc-145
(D.D.C. Jan. 12, 21), ECF No. 395 ............................................................... APP.339
Order Denying Motions for Stay, Nos. 20-15, 21-1, 21-2 (4th Cir. Jan. 12,
2021), ECF No. 26 ........................................................................................ APP.340
III. SUPPORTING MATERIALS
Report of Daniel J. Reschly, Ph.D., Aug. 26, 2016 ........................................... APP.349
Curriculum Vitae of Daniel J. Reschly, Ph.D., May 15, 2020 .......................... APP.399
Report of J. Gregory Olley, Ph.D., Aug. 24, 2016 ............................................. APP.450
Curriculum Vitae of J. Gregory Olley, Ph.D., Oct. 2020 .................................. APP.497
Letter from Gary N. Siperstein, Ph.D. to Counsel for Corey Johnson, Dec.
16, 2016 ......................................................................................................... APP.515
Curriculum Vitae of Gary N. Siperstein, Ph.D., Sept. 2020 ............................ APP.528
Trial Tr., Feb. 10, 1993 ...................................................................................... APP.550
Declaration of Kenneth Barish, Ph.D. (staff psychologist at Pleasantville
Cottage School), July 22, 2014 ..................................................................... APP.633
Affidavit of Minnie Hodges (Corey’s maternal aunt), Apr. 30, 2011 ............... APP.644
Affidavit of Odette Noble (social worker at Elmhurst), Dec. 1, 2011 .............. APP.654
Gregory Judge, School Social Worker, Social History, Mar. 4, 1977 ............... APP.660
Cheryl Spillane, Learning Consultant, Bureau of Pupil Personnel
Services, Jersey City Public Schools, Learning Consultant Evaluation
to Child Study Team, Mar. 18, 1977............................................................ APP.663
Eleanor Glantz, Social Worker, Case Service, Dec. 11, 1978 ........................... APP.667
Leona Klerer, Mount Pleasant Cottage School Screening Upon Admission,
Feb. 22, 1982 ................................................................................................. APP.668
Ken Barish, Ph.D., Psychologist, Pleasantville Cottage School,
Psychological and Educational Evaluation, Apr. 29, 1983 ......................... APP.671
Withdrawn ......................................................................................................... APP.674
American Association on Intellectual and Developmental Disabilities
Definition Manual (“AAIDD-11”) (Excerpt) ................................................ APP.687
Diagnostic and Statistical Manual of Mental Disorders (“DSM-5”)
(Excerpt) ....................................................................................................... APP.711

2

136 Cong. Rec. S6873 (daily ed. May 24, 1990) (Excerpt) ................................ APP.724
Informal Preliminary Brief, With Request for Certificate of Appealability,
and a corresponding Emergency Motion of Corey Johnson For Stay of
Execution Pending Consideration and Disposition of Appeal on the
FDCP issues, No. 21-1 (4th Cir. Jan. 8, 2021), ECF No. 5-1 ...................... APP.735
Memorandum in Support of Initial Petition for Writ of Habeas Corpus
Pursuant to 28 U.S.C. Section 2255, No. 92CR68 (E.D. Va. June 15,
1998).............................................................................................................. APP.793
Gayle Turnquest, Caseworker, Pleasantville Cottage School, Current Assessment,
Jan. 31, 1983 .................................................................................................... APP.808
Order Denying Petition for Rehearing en banc, No. 20-15
(4th Cir. Jan. 14, 2021), ECF No. 31 ........................................................... APP.810
Emergency Motion for Stay of Execution Pending Appeal, No. 20-15 (4th
Cir. Jan. 14, 2021), ECF No. 32 ................................................................... APP.815

Dated: January 14, 2021

Respectfully submitted,
/s/ Shay Dvoretzky
Shay Dvoretzky*
Donald P. Salzman
David E. Carney
Wallis M. Hampton
Jonathan Marcus
Skadden, Arps, Slate, Meagher & Flom, LLP
1440 New York Avenue, NW
Washington, DC 20005
Ph: (202) 371-7246
Fax: (202) 661-8295
Email: david.carney@skadden.com
Counsel for Corey Johnson
*Counsel of record for Mr. Johnson, and
Member of the Bar of the Supreme Court

3

UNITED STATES CODE ANNOTATED
TITLE 18. CRIMES AND CRIMINAL PROCEDURE
PART II. CRIMINAL PROCEDURE
CHAPTER 228. DEATH SENTENCE
18 U.S.C. § 3596. Implementation of a sentence of death
*
*
*
*
*
(a) In general.--A person who has been sentenced to death pursuant to this chapter
shall be committed to the custody of the Attorney General until exhaustion of the
procedures for appeal of the judgment of conviction and for review of the sentence.
When the sentence is to be implemented, the Attorney General shall release the
person sentenced to death to the custody of a United States marshal, who shall
supervise implementation of the sentence in the manner prescribed by the law of
the State in which the sentence is imposed. If the law of the State does not provide
for implementation of a sentence of death, the court shall designate another State,
the law of which does provide for the implementation of a sentence of death, and
the sentence shall be implemented in the latter State in the manner prescribed by
such law.
(b) Pregnant woman.--A sentence of death shall not be carried out upon a woman
while she is pregnant.
(c) Mental capacity.--A sentence of death shall not be carried out upon a person
who is mentally retarded. A sentence of death shall not be carried out upon a
person who, as a result of mental disability, lacks the mental capacity to understand
the death penalty and why it was imposed on that person.
*

*

*

*

*

APP.1

UNITED STATES CODE ANNOTATED
TITLE 21. FOOD AND DRUGS
CHAPTER 13. DRUG ABUSE PREVENTION AND CONTROL
SUBCHAPTER I. CONTROL AND ENFORCEMENT
PART D. OFFENSES AND PENALTIES
21 U.S.C. § 841 Prohibited acts A
*

*

*

*

*

(a) Unlawful acts
Except as authorized by this subchapter, it shall be unlawful for any person
knowingly or intentionally-(1) to manufacture, distribute, or dispense, or possess with intent to
manufacture, distribute, or dispense, a controlled substance; or
(2) to create, distribute, or dispense, or possess with intent to distribute or
dispense, a counterfeit substance.
(b) Penalties
Except as otherwise provided in section 849, 859, 860, or 861 of this title, any
person who violates subsection (a) of this section shall be sentenced as follows:
(1)(A) In the case of a violation of subsection (a) of this section involving-(i) 1 kilogram or more of a mixture or substance containing a detectable
amount of heroin;
(ii) 5 kilograms or more of a mixture or substance containing a detectable
amount of-(I) coca leaves, except coca leaves and extracts of coca leaves from
which cocaine, ecgonine, and derivatives of ecgonine or their salts
have been removed;

APP.2

(II) cocaine, its salts, optical and geometric isomers, and salts of
isomers;
(III) ecgonine, its derivatives, their salts, isomers, and salts of isomers;
or
(IV) any compound, mixture, or preparation which contains any
quantity of any of the substances referred to in subclauses (I) through
(III);
(iii) 280 grams or more of a mixture or substance described in clause (ii)
which contains cocaine base;
(iv) 100 grams or more of phencyclidine (PCP) or 1 kilogram or more of a
mixture or substance containing a detectable amount of phencyclidine
(PCP);
(v) 10 grams or more of a mixture or substance containing a detectable
amount of lysergic acid diethylamide (LSD);
(vi) 400 grams or more of a mixture or substance containing a detectable
amount of N-phenyl-N-[1-(2-phenylethyl)-4-piperidinyl] propanamide or
100 grams or more of a mixture or substance containing a detectable amount
of any analogue of N-phenyl-N-[1-(2-phenylethyl)-4-piperidinyl]
propanamide;
(vii) 1000 kilograms or more of a mixture or substance containing a
detectable amount of marihuana, or 1,000 or more marihuana plants
regardless of weight; or
(viii) 50 grams or more of methamphetamine, its salts, isomers, and salts of
its isomers or 500 grams or more of a mixture or substance containing a
detectable amount of methamphetamine, its salts, isomers, or salts of its
isomers;
such person shall be sentenced to a term of imprisonment which may not be less
than 10 years or more than life and if death or serious bodily injury results from the
use of such substance shall be not less than 20 years or more than life, a fine not

APP.3

to exceed the greater of that authorized in accordance with the provisions of Title
18 or $10,000,000 if the defendant is an individual or $50,000,000 if the defendant
is other than an individual, or both. If any person commits such a violation after a
prior conviction for a serious drug felony or serious violent felony has become
final, such person shall be sentenced to a term of imprisonment of not less than 15
years and not more than life imprisonment and if death or serious bodily injury
results from the use of such substance shall be sentenced to life imprisonment, a
fine not to exceed the greater of twice that authorized in accordance with the
provisions of Title 18 or $20,000,000 if the defendant is an individual or
$75,000,000 if the defendant is other than an individual, or both. If any person
commits a violation of this subparagraph or of section 849, 859, 860, or 861 of this
title after 2 or more prior convictions for a serious drug felony or serious violent
felony have become final, such person shall be sentenced to a term of
imprisonment of not less than 25 years and fined in accordance with the preceding
sentence. Notwithstanding section 3583 of Title 18, any sentence under this
subparagraph shall, in the absence of such a prior conviction, impose a term of
supervised release of at least 5 years in addition to such term of imprisonment and
shall, if there was such a prior conviction, impose a term of supervised release of at
least 10 years in addition to such term of imprisonment. Notwithstanding any other
provision of law, the court shall not place on probation or suspend the sentence of
any person sentenced under this subparagraph. No person sentenced under this
subparagraph shall be eligible for parole during the term of imprisonment imposed
therein.
(B) In the case of a violation of subsection (a) of this section involving-(i) 100 grams or more of a mixture or substance containing a detectable
amount of heroin;
(ii) 500 grams or more of a mixture or substance containing a detectable
amount of-(I) coca leaves, except coca leaves and extracts of coca leaves from
which cocaine, ecgonine, and derivatives of ecgonine or their salts
have been removed;

APP.4

(II) cocaine, its salts, optical and geometric isomers, and salts of
isomers;
(III) ecgonine, its derivatives, their salts, isomers, and salts of isomers;
or
(IV) any compound, mixture, or preparation which contains any
quantity of any of the substances referred to in subclauses (I) through
(III);
(iii) 28 grams or more of a mixture or substance described in clause (ii)
which contains cocaine base;
(iv) 10 grams or more of phencyclidine (PCP) or 100 grams or more of a
mixture or substance containing a detectable amount of phencyclidine
(PCP);
(v) 1 gram or more of a mixture or substance containing a detectable amount
of lysergic acid diethylamide (LSD);
(vi) 40 grams or more of a mixture or substance containing a detectable
amount of N-phenyl-N-[1-(2-phenylethyl)-4-piperidinyl] propanamide or 10
grams or more of a mixture or substance containing a detectable amount of
any analogue of N-phenyl-N-[1-(2-phenylethyl)-4-piperidinyl] propanamide;
(vii) 100 kilograms or more of a mixture or substance containing a
detectable amount of marihuana, or 100 or more marihuana plants regardless
of weight; or
(viii) 5 grams or more of methamphetamine, its salts, isomers, and salts of
its isomers or 50 grams or more of a mixture or substance containing a
detectable amount of methamphetamine, its salts, isomers, or salts of its
isomers;
such person shall be sentenced to a term of imprisonment which may not be less
than 5 years and not more than 40 years and if death or serious bodily injury results
from the use of such substance shall be not less than 20 years or more than life, a

APP.5

fine not to exceed the greater of that authorized in accordance with the provisions
of Title 18 or $5,000,000 if the defendant is an individual or $25,000,000 if the
defendant is other than an individual, or both. If any person commits such a
violation after a prior conviction for a serious drug felony or serious violent felony
has become final, such person shall be sentenced to a term of imprisonment which
may not be less than 10 years and not more than life imprisonment and if death or
serious bodily injury results from the use of such substance shall be sentenced to
life imprisonment, a fine not to exceed the greater of twice that authorized in
accordance with the provisions of Title 18 or $8,000,000 if the defendant is an
individual or $50,000,000 if the defendant is other than an individual, or both.
Notwithstanding section 3583 of Title 18, any sentence imposed under this
subparagraph shall, in the absence of such a prior conviction, include a term of
supervised release of at least 4 years in addition to such term of imprisonment and
shall, if there was such a prior conviction, include a term of supervised release of at
least 8 years in addition to such term of imprisonment. Notwithstanding any other
provision of law, the court shall not place on probation or suspend the sentence of
any person sentenced under this subparagraph. No person sentenced under this
subparagraph shall be eligible for parole during the term of imprisonment imposed
therein.
(C) In the case of a controlled substance in schedule I or II, gamma hydroxybutyric
acid (including when scheduled as an approved drug product for purposes of
section 3(a)(1)(B) of the Hillory J. Farias and Samantha Reid Date-Rape Drug
Prohibition Act of 2000), or 1 gram of flunitrazepam, except as provided in
subparagraphs (A), (B), and (D), such person shall be sentenced to a term of
imprisonment of not more than 20 years and if death or serious bodily injury
results from the use of such substance shall be sentenced to a term of imprisonment
of not less than twenty years or more than life, a fine not to exceed the greater of
that authorized in accordance with the provisions of Title 18 or $1,000,000 if the
defendant is an individual or $5,000,000 if the defendant is other than an
individual, or both. If any person commits such a violation after a prior conviction
for a felony drug offense has become final, such person shall be sentenced to a
term of imprisonment of not more than 30 years and if death or serious bodily
injury results from the use of such substance shall be sentenced to life
imprisonment, a fine not to exceed the greater of twice that authorized in

APP.6

accordance with the provisions of Title 18 or $2,000,000 if the defendant is an
individual or $10,000,000 if the defendant is other than an individual, or both.
Notwithstanding section 3583 of Title 18, any sentence imposing a term of
imprisonment under this paragraph shall, in the absence of such a prior conviction,
impose a term of supervised release of at least 3 years in addition to such term of
imprisonment and shall, if there was such a prior conviction, impose a term of
supervised release of at least 6 years in addition to such term of imprisonment.
Notwithstanding any other provision of law, the court shall not place on probation
or suspend the sentence of any person sentenced under the provisions of this
subparagraph which provide for a mandatory term of imprisonment if death or
serious bodily injury results, nor shall a person so sentenced be eligible for parole
during the term of such a sentence.
(D) In the case of less than 50 kilograms of marihuana, except in the case of 50 or
more marihuana plants regardless of weight, 10 kilograms of hashish, or one
kilogram of hashish oil, such person shall, except as provided in paragraphs (4) and
(5) of this subsection, be sentenced to a term of imprisonment of not more than 5
years, a fine not to exceed the greater of that authorized in accordance with the
provisions of Title 18 or $250,000 if the defendant is an individual or $1,000,000 if
the defendant is other than an individual, or both. If any person commits such a
violation after a prior conviction for a felony drug offense has become final, such
person shall be sentenced to a term of imprisonment of not more than 10 years, a
fine not to exceed the greater of twice that authorized in accordance with the
provisions of Title 18 or $500,000 if the defendant is an individual or $2,000,000 if
the defendant is other than an individual, or both. Notwithstanding section 3583 of
Title 18, any sentence imposing a term of imprisonment under this paragraph shall,
in the absence of such a prior conviction, impose a term of supervised release of at
least 2 years in addition to such term of imprisonment and shall, if there was such a
prior conviction, impose a term of supervised release of at least 4 years in addition
to such term of imprisonment.
(E)(i) Except as provided in subparagraphs (C) and (D), in the case of any
controlled substance in schedule III, such person shall be sentenced to a term of
imprisonment of not more than 10 years and if death or serious bodily injury
results from the use of such substance shall be sentenced to a term of imprisonment

APP.7

of not more than 15 years, a fine not to exceed the greater of that authorized in
accordance with the provisions of Title 18 or $500,000 if the defendant is an
individual or $2,500,000 if the defendant is other than an individual, or both.
(ii) If any person commits such a violation after a prior conviction for a felony
drug offense has become final, such person shall be sentenced to a term of
imprisonment of not more than 20 years and if death or serious bodily injury
results from the use of such substance shall be sentenced to a term of imprisonment
of not more than 30 years, a fine not to exceed the greater of twice that authorized
in accordance with the provisions of Title 18 or $1,000,000 if the defendant is an
individual or $5,000,000 if the defendant is other than an individual, or both.
(iii) Any sentence imposing a term of imprisonment under this subparagraph
shall, in the absence of such a prior conviction, impose a term of supervised release
of at least 2 years in addition to such term of imprisonment and shall, if there was
such a prior conviction, impose a term of supervised release of at least 4 years in
addition to such term of imprisonment.
(2) In the case of a controlled substance in schedule IV, such person shall be
sentenced to a term of imprisonment of not more than 5 years, a fine not to exceed
the greater of that authorized in accordance with the provisions of Title 18 or
$250,000 if the defendant is an individual or $1,000,000 if the defendant is other
than an individual, or both. If any person commits such a violation after a prior
conviction for a felony drug offense has become final, such person shall be
sentenced to a term of imprisonment of not more than 10 years, a fine not to
exceed the greater of twice that authorized in accordance with the provisions of
Title 18 or $500,000 if the defendant is an individual or $2,000,000 if the
defendant is other than an individual, or both. Any sentence imposing a term of
imprisonment under this paragraph shall, in the absence of such a prior conviction,
impose a term of supervised release of at least one year in addition to such term of
imprisonment and shall, if there was such a prior conviction, impose a term of
supervised release of at least 2 years in addition to such term of imprisonment.
(3) In the case of a controlled substance in schedule V, such person shall be
sentenced to a term of imprisonment of not more than one year, a fine not to
exceed the greater of that authorized in accordance with the provisions of Title 18

APP.8

or $100,000 if the defendant is an individual or $250,000 if the defendant is other
than an individual, or both. If any person commits such a violation after a prior
conviction for a felony drug offense has become final, such person shall be
sentenced to a term of imprisonment of not more than 4 years, a fine not to exceed
the greater of twice that authorized in accordance with the provisions of Title 18 or
$200,000 if the defendant is an individual or $500,000 if the defendant is other
than an individual, or both. Any sentence imposing a term of imprisonment under
this paragraph may, if there was a prior conviction, impose a term of supervised
release of not more than 1 year, in addition to such term of imprisonment.
(4) Notwithstanding paragraph (1)(D) of this subsection, any person who violates
subsection (a) of this section by distributing a small amount of marihuana for no
remuneration shall be treated as provided in section 844 of this title and section
3607 of Title 18.
(5) Any person who violates subsection (a) of this section by cultivating or
manufacturing a controlled substance on Federal property shall be imprisoned as
provided in this subsection and shall be fined any amount not to exceed—
(A) the amount authorized in accordance with this section;
(B) the amount authorized in accordance with the provisions of Title 18;
(C) $500,000 if the defendant is an individual; or
(D) $1,000,000 if the defendant is other than an individual;
or both.
(6) Any person who violates subsection (a), or attempts to do so, and knowingly or
intentionally uses a poison, chemical, or other hazardous substance on Federal
land, and, by such use-(A) creates a serious hazard to humans, wildlife, or domestic animals,
(B) degrades or harms the environment or natural resources, or
(C) pollutes an aquifer, spring, stream, river, or body of water, shall be fined
in accordance with Title 18 or imprisoned not more than five years, or both.

APP.9

(7) Penalties for distribution
(A) In general
Whoever, with intent to commit a crime of violence, as defined in section 16
of Title 18 (including rape), against an individual, violates subsection (a) by
distributing a controlled substance or controlled substance analogue to that
individual without that individual's knowledge, shall be imprisoned not more
than 20 years and fined in accordance with Title 18.
(B) Definition
For purposes of this paragraph, the term “without that individual's
knowledge” means that the individual is unaware that a substance with the
ability to alter that individual's ability to appraise conduct or to decline
participation in or communicate unwillingness to participate in conduct is
administered to the individual.
(c) Offenses involving listed chemicals
Any person who knowingly or intentionally-(1) possesses a listed chemical with intent to manufacture a controlled
substance except as authorized by this subchapter;
(2) possesses or distributes a listed chemical knowing, or having reasonable
cause to believe, that the listed chemical will be used to manufacture a
controlled substance except as authorized by this subchapter; or
(3) with the intent of causing the evasion of the recordkeeping or reporting
requirements of section 830 of this title, or the regulations issued under that
section, receives or distributes a reportable amount of any listed chemical in
units small enough so that the making of records or filing of reports under
that section is not required;
shall be fined in accordance with Title 18 or imprisoned not more than 20 years in
the case of a violation of paragraph (1) or (2) involving a list I chemical or not

APP.10

more than 10 years in the case of a violation of this subsection other than a
violation of paragraph (1) or (2) involving a list I chemical, or both.
(d) Boobytraps on Federal property; penalties; “boobytrap” defined
(1) Any person who assembles, maintains, places, or causes to be placed a
boobytrap on Federal property where a controlled substance is being manufactured,
distributed, or dispensed shall be sentenced to a term of imprisonment for not more
than 10 years or fined under Title 18, or both.
(2) If any person commits such a violation after 1 or more prior convictions for an
offense punishable under this subsection, such person shall be sentenced to a term
of imprisonment of not more than 20 years or fined under Title 18, or both.
(3) For the purposes of this subsection, the term “boobytrap” means any concealed
or camouflaged device designed to cause bodily injury when triggered by any
action of any unsuspecting person making contact with the device. Such term
includes guns, ammunition, or explosive devices attached to trip wires or other
triggering mechanisms, sharpened stakes, and lines or wires with hooks attached.
(e) Ten-year injunction as additional penalty
In addition to any other applicable penalty, any person convicted of a felony
violation of this section relating to the receipt, distribution, manufacture,
exportation, or importation of a listed chemical may be enjoined from engaging in
any transaction involving a listed chemical for not more than ten years.
(f) Wrongful distribution or possession of listed chemicals
(1) Whoever knowingly distributes a listed chemical in violation of this subchapter
(other than in violation of a recordkeeping or reporting requirement of section 830
of this title) shall, except to the extent that paragraph (12), (13), or (14) of section
842(a) of this title applies, be fined under Title 18 or imprisoned not more than 5
years, or both.
(2) Whoever possesses any listed chemical, with knowledge that the recordkeeping
or reporting requirements of section 830 of this title have not been adhered to, if,
after such knowledge is acquired, such person does not take immediate steps to

APP.11

remedy the violation shall be fined under Title 18 or imprisoned not more than one
year, or both.
(g) Internet sales of date rape drugs
(1) Whoever knowingly uses the Internet to distribute a date rape drug to any
person, knowing or with reasonable cause to believe that-(A) the drug would be used in the commission of criminal sexual
conduct; or
(B) the person is not an authorized purchaser;
shall be fined under this subchapter or imprisoned not more than 20 years, or
both.
(2) As used in this subsection:
(A) The term “date rape drug” means—
(i) gamma hydroxybutyric acid (GHB) or any controlled substance
analogue of GHB, including gamma butyrolactone (GBL) or 1,4-butanediol;
(ii) ketamine;
(iii) flunitrazepam; or
(iv) any substance which the Attorney General designates, pursuant to
the rulemaking procedures prescribed by section 553 of Title 5, to be used in
committing rape or sexual assault.
The Attorney General is authorized to remove any substance
from the list of date rape drugs pursuant to the same rulemaking
authority.
(B) The term “authorized purchaser” means any of the following persons,
provided such person has acquired the controlled substance in accordance with this
chapter:

APP.12

(i) A person with a valid prescription that is issued for a legitimate
medical purpose in the usual course of professional practice that is
based upon a qualifying medical relationship by a practitioner
registered by the Attorney General. A “qualifying medical
relationship” means a medical relationship that exists when the
practitioner has conducted at least 1 medical evaluation with the
authorized purchaser in the physical presence of the practitioner,
without regard to whether portions of the evaluation are conducted by
other health professionals. The preceding sentence shall not be
construed to imply that 1 medical evaluation demonstrates that a
prescription has been issued for a legitimate medical purpose within
the usual course of professional practice.
(ii) Any practitioner or other registrant who is otherwise authorized by
their registration to dispense, procure, purchase, manufacture, transfer,
distribute, import, or export the substance under this chapter.
(iii) A person or entity providing documentation that establishes the
name, address, and business of the person or entity and which
provides a legitimate purpose for using any “date rape drug” for
which a prescription is not required.
(3) The Attorney General is authorized to promulgate regulations for recordkeeping and reporting by persons handling 1,4-butanediol in order to implement
and enforce the provisions of this section. Any record or report required by such
regulations shall be considered a record or report required under this chapter.
(h) Offenses involving dispensing of controlled substances by means of the
Internet
(1) In general
It shall be unlawful for any person to knowingly or intentionally—
(A) deliver, distribute, or dispense a controlled substance by means of the
Internet, except as authorized by this subchapter; or

APP.13

(B) aid or abet (as such terms are used in section 2 of Title 18) any activity
described in subparagraph (A) that is not authorized by this subchapter.
(2) Examples
Examples of activities that violate paragraph (1) include, but are not limited to,
knowingly or intentionally-(A) delivering, distributing, or dispensing a controlled substance by means
of the Internet by an online pharmacy that is not validly registered with a
modification authorizing such activity as required by section 823(f) of this
title (unless exempt from such registration);
(B) writing a prescription for a controlled substance for the purpose of
delivery, distribution, or dispensation by means of the Internet in violation of
section 829(e) of this title;
(C) serving as an agent, intermediary, or other entity that causes the Internet
to be used to bring together a buyer and seller to engage in the dispensing of
a controlled substance in a manner not authorized by sections 823(f) or
829(e) of this title;
(D) offering to fill a prescription for a controlled substance based solely on a
consumer's completion of an online medical questionnaire; and
(E) making a material false, fictitious, or fraudulent statement or
representation in a notification or declaration under subsection (d) or (e),
respectively, of section 831 of this title.
(3) Inapplicability
(A) This subsection does not apply to—
(i) the delivery, distribution, or dispensation of controlled substances
by nonpractitioners to the extent authorized by their registration under
this subchapter;
(ii) the placement on the Internet of material that merely advocates the
use of a controlled substance or includes pricing information without

APP.14

attempting to propose or facilitate an actual transaction involving a
controlled substance; or
(iii) except as provided in subparagraph (B), any activity that is
limited to—
(I) the provision of a telecommunications service, or of an
Internet access service or Internet information location tool (as
those terms are defined in section 231 of Title 47); or
(II) the transmission, storage, retrieval, hosting, formatting, or
translation (or any combination thereof) of a communication,
without selection or alteration of the content of the
communication, except that deletion of a particular
communication or material made by another person in a manner
consistent with section 230(c) of Title 47 shall not constitute
such selection or alteration of the content of the
communication.
(B) The exceptions under subclauses (I) and (II) of subparagraph (A)(iii)
shall not apply to a person acting in concert with a person who violates
paragraph (1).
(4) Knowing or intentional violation
Any person who knowingly or intentionally violates this subsection shall be
sentenced in accordance with subsection (b).
*

*

*

*

*

APP.15

UNITED STATES CODE
TITLE 21. FOOD AND DRUGS
21 U.S.C. § 848 (1988) (repealed 2006) Continuing criminal enterprise
*

*

*

*

*

(a) Penalties; forfeitures
Any person who engages in a continuing criminal enterprise shall be sentenced to a
term of imprisonment which may not be less than 20 years and which may be up to
life imprisonment, to a fine not to exceed the greater of that authorized in
accordance with the provisions of title 18 or $2,000,000 if the defendant is an
individual or $5,000,000 if the defendant is other than an individual, and to the
forfeiture prescribed in section 853 of this title; except that if any person engages
in such activity after one or more prior convictions of him under this section have
become final, he shall be sentenced to a term of imprisonment which may not be
less than 30 years and which may be up to life imprisonment, to a fine not to
exceed the greater of twice the amount authorized in accordance with the
provisions of title 18 or $4,000,000 if the defendant is an individual or $10,000,000
if the defendant is other than an individual, and to the forfeiture prescribed in
section 853 of this title.
(b) Life imprisonment for engaging in continuing criminal enterprise
Any person who engages in a continuing criminal enterprise shall be imprisoned
for life and fined in accordance with subsection (a) of this section, if—
(1) such person is the principal administrator, organizer, or leader of the
enterprise or is one of several such principal administrators, organizers, or
leaders; and
(2)(A) the violation referred to in subsection (d)(1) of this section involved
at least 300 times the quantity of a substance described in subsection
841(b)(1)(B) of this title, or
(B) the enterprise, or any other enterprise in which the defendant was the
principal or one of several principal administrators, organizers, or leaders,
received $10 million dollars in gross receipts during any twelve-month
period of its existence for the manufacture, importation, or distribution of a
substance described in section 841(b)(1)(B) of this title.

APP.16

(c) "Continuing criminal enterprise" defined
For purposes of subsection (a) of this section, a person is engaged in a continuing
criminal enterprise if—
(1) he violates any provision of this subchapter or subchapter II of this
chapter the punishment for which is a felony, and
(2) such violation is a part of a continuing series of violations of this
subchapter or subchapter II of this chapter—
(A) which are undertaken by such person in concert with five or more
other persons with respect to whom such person occupies a position of
organizer, a supervisory position, or any other position of
management, and
(B) from which such person obtains substantial income or resources.
(d) Suspension of sentence and probation prohibited
In the case of any sentence imposed under this section, imposition or execution of
such sentence shall not be suspended, probation shall not be granted, and the Act
of July 15, 1932 (D.C. Code, secs. 24-203-24-207), shall not apply.
(e) Death penalty
(1) In addition to the other penalties set forth in this section(A) any person engaging in or working in furtherance of a continuing
criminal enterprise, or any person engaging in an offense punishable
under section 841(b)(1)(A) of this title or section 960(b)(1) of this title
who intentionally kills or counsels, commands, induces, procures, or
causes the intentional killing of an individual and such killing results,
shall be sentenced to any term of imprisonment, which shall not be
less than 20 years, and which may be up to life imprisonment, or may
be sentenced to death; and
(B) any person, during the commission of, in furtherance of, or while
attempting to avoid apprehension, prosecution or service of a prison
sentence for, a felony violation of this subchapter or subchapter II of
this chapter who intentionally kills or counsels, commands, induces,
procures, or causes the intentional killing of any Federal, State, or
local law enforcement officer engaged in, or on account of, the

APP.17

performance of such officer's official duties and such killing results,
shall be sentenced to any term of imprisonment, which shall not be
less than 20 years, and which may be up to life imprisonment, or may
be sentenced to death.
(2) As used in paragraph (1)(b), the term "law enforcement officer" means a
public servant authorized by law or by a Government agency or Congress to
conduct or engage in the prevention, investigation, prosecution or
adjudication of an offense, and includes those engaged in corrections,
probation, or parole functions.
(g) Hearing required with respect to death penalty
A person shall be subjected to the penalty of death for any offense under this
section only if a hearing is held in accordance with this section.
(h) Notice by Government in death penalty cases
(1) Whenever the Government intends to seek the death penalty for an
offense under this section for which one of the sentences provided is death,
the attorney for the Government, a reasonable time before trial or acceptance
by the court of a plea of guilty, shall sign and file with the court, and serve
upon the defendant, a notice—
(A) that the Government in the event of conviction will seek the
sentence of death; and
(B) setting forth the aggravating factors enumerated in subsection (n)
of this section and any other aggravating factors which the
Government will seek to prove as the basis for the death penalty.
(2) The court may permit the attorney for the Government to amend this
notice for good cause shown.
(i) Hearing before court or jury
(1) When the attorney for the Government has filed a notice as required
under subsection (h) of this section and the defendant is found guilty of or
pleads guilty to an offense under subsection (e) of this section, the judge
who presided at the trial or before whom the guilty plea was entered, or any
other judge if the judge who presided at the trial or before whom the guilty
plea was entered is unavailable, shall conduct a separate sentencing hearing

APP.18

to determine the punishment to be imposed. The hearing shall be
conducted—
(A) before the jury which determined the defendant's guilt;
(B) before a jury impaneled for the purpose of the hearing if—
(i) the defendant was convicted upon a plea of guilty;
(ii) the defendant was convicted after a trial before the court
sitting without a jury;
(iii) the jury which determined the defendant's guilt has been
discharged for good cause; or
(iv) after initial imposition of a sentence under this section,
redetermination of the sentence under this section is necessary;
or
(C) before the court alone, upon the motion of the defendant and with
the approval of the Government.
(2) A jury impaneled under paragraph (1)(B) shall consist of 12 members,
unless, at any time before the conclusion of the hearing, the parties stipulate
with the approval of the court that it shall consist of any number less than
12.
(j) Proof of aggravating and mitigating factors
Notwithstanding rule 32(c) of the Federal Rules of Criminal Procedure, when a
defendant is found guilty of or pleads guilty to an offense under subsection (e) of
this section, no presentence report shall be prepared. In the sentencing hearing,
information may be presented as to matters relating to any of the aggravating or
mitigating factors set forth in subsections (m) and (n) of this section, or any other
mitigating factor or any other aggravating factor for which notice has been
provided under subsection (h)(1)(B) of this section. Where information is
presented relating to any of the aggravating factors set forth in subsection (n) of
this section, information may be presented relating to any other aggravating factor
for which notice has been provided under subsection (h)(1)(B) of this section.
Information presented may include the trial transcript and exhibits if the hearing is
held before a jury or judge not present during the trial, or at the trial judge's
discretion. Any other information relevant to such mitigating or aggravating factors

APP.19

may be presented by either the Government or the defendant, regardless of its
admissibility under the rules governing admission of evidence at criminal trials,
except that information may be excluded if its probative value is substantially
outweighed by the danger of unfair prejudice, confusion of the issues, or
misleading the jury. The Government and the defendant shall be permitted to rebut
any information received at the hearing and shall be given fair opportunity to
present argument as to the adequacy of the information to establish the existence of
any of the aggravating or mitigating factors and as to appropriateness in that case
of imposing a sentence of death. The Government shall open the argument. The
defendant shall be permitted to reply. The Government shall then be permitted to
reply in rebuttal. The burden of establishing the existence of any aggravating factor
is on the Government, and is not satisfied unless established beyond a reasonable
doubt. The burden of establishing the existence of any mitigating factor is on the
defendant, and is not satisfied unless established by a preponderance of the
evidence.
(k) Return of findings
The jury, or if there is no jury, the court, shall consider all the information received
during the hearing. It shall return special findings identifying any aggravating
factors set forth in subsection (n) of this section, found to exist. If one of the
aggravating factors set forth in subsection (n)(1) of this section and another of the
aggravating factors set forth in paragraphs (2) through (12) of subsection (n) of this
section is found to exist, a special finding identifying any other aggravating factor
for which notice has been provided under subsection (h)(1)(B) of this section, may
be returned. A finding with respect to a mitigating factor may be made by one or
more of the members of the jury, and any member of the jury who finds the
existence of a mitigating factor may consider such a factor established for purposes
of this subsection, regardless of the number of jurors who concur that the factor has
been established. A finding with respect to any aggravating factor must be
unanimous. If an aggravating factor set forth in subsection (n)(1) of this section is
not found to exist or an aggravating factor set forth in subsection (n)(1) of this
section is found to exist but no other aggravating factor set forth in subsection (n)
of this section is found to exist, the court shall impose a sentence, other than death,
authorized by law. If an aggravating factor set forth in subsection (n)(1) of this
section and one or more of the other aggravating factors set forth in subsection (n)
of this section are found to exist, the jury, or if there is no jury, the court, shall then
consider whether the aggravating factors found to exist sufficiently outweigh any
mitigating factor or factors found to exist, or in the absence of mitigating factors,
whether the aggravating factors are themselves sufficient to justify a sentence of

APP.20

death. Based upon this consideration, the jury by unanimous vote, or if there is no
jury, the court, shall recommend that a sentence of death shall be imposed rather
than a sentence of life imprisonment without possibility of release or some other
lesser sentence. The jury or the court, regardless of its findings with respect to
aggravating and mitigating factors, is never required to impose a death sentence
and the jury shall be so instructed.
(l) Imposition of sentence
Upon the recommendation that the sentence of death be imposed, the court shall
sentence the defendant to death. Otherwise the court shall impose a sentence, other
than death, authorized by law. A sentence of death shall not be carried out upon a
person who is under 18 years of age at the time the crime was committed. A
sentence of death shall not be carried out upon a person who is mentally retarded.
A sentence of death shall not be carried out upon a person who, as a result of
mental disability—
(1) cannot understand the nature of the pending proceedings, what such
person was tried for, the reason for the punishment, or the nature of the
punishment; or
(2) lacks the capacity to recognize or understand facts which would make
the punishment unjust or unlawful, or lacks the ability to convey such
information to counsel or to the court.
(m) Mitigating factors
In determining whether a sentence of death is to be imposed on a defendant, the
finder of fact shall consider mitigating factors, including the following:
(1) The defendant's capacity to appreciate the wrongfulness of the
defendant's conduct or to conform conduct to the requirements of law was
significantly impaired, regardless of whether the capacity was so impaired as
to constitute a defense to the charge.
(2) The defendant was under unusual and substantial duress, regardless of
whether the duress was of such a degree as to constitute a defense to the
charge.
(3) The defendant is punishable as a principal (as defined in section 2 of title
18) in the offense, which was committed by another, but the defendant's

APP.21

participation was relatively minor, regardless of whether the participation
was so minor as to constitute a defense to the charge.
(4) The defendant could not reasonably have foreseen that the defendant's
conduct in the course of the commission of murder, or other offense
resulting in death for which the defendant was convicted, would cause, or
would create a grave risk of causing, death to any person.
(5) The defendant was youthful, although not under the age of 18.
(6) The defendant did not have a significant prior criminal record.
(7) The defendant committed the offense under severe mental or emotional
disturbance.
(8) Another defendant or defendants, equally culpable in the crime, will not
be punished by death.
(9) The victim consented to the criminal conduct that resulted in the victim's
death.
(10) That other factors in the defendant's background or character mitigate
against imposition of the death sentence.
(n) Aggravating factors for homicide
If the defendant is found guilty of or pleads guilty to an offense under subsection
(e) of this section, the following aggravating factors are the only aggravating
factors that shall be considered, unless notice of additional aggravating factors is
provided under subsection (h)(1)(B) of this section:
(1) The defendant(A) intentionally killed the victim;
(B) intentionally inflicted serious bodily injury which resulted in the
death of the victim;
(C) intentionally engaged in conduct intending that the victim be
killed or that lethal force be employed against the victim, which
resulted in the death of the victim;
(D) intentionally engaged in conduct which—

APP.22

(i) the defendant knew would create a grave risk of death to a
person, other than one of the participants in the offense; and
(ii) resulted in the death of the victim.
(2) The defendant has been convicted of another Federal offense, or a State
offense resulting in the death of a person, for which a sentence of life
imprisonment or a sentence of death was authorized by statute.
(3) The defendant has previously been convicted of two or more State or
Federal offenses punishable by a term of imprisonment of more than one
year, committed on different occasions, involving the infliction of, or
attempted infliction of, serious bodily injury upon another person.
(4) The defendant has previously been convicted of two or more State or
Federal offenses punishable by a term of imprisonment of more than one
year, committed on different occasions, involving the distribution of a
controlled substance.
(5) In the commission of the offense or in escaping apprehension for a
violation of subsection (e) of this section, the defendant knowingly created a
grave risk of death to one or more persons in addition to the victims of the
offense.
(6) The defendant procured the commission of the offense by payment, or
promise of payment, of anything of pecuniary value.
(7) The defendant committed the offense as consideration for the receipt, or
in the expectation of the receipt, of anything of pecuniary value.
(8) The defendant committed the offense after substantial planning and
premeditation.
(9) The victim was particularly vulnerable due to old age, youth, or
infirmity.
(10) The defendant had previously been convicted of violating this
subchapter or subchapter II of this chapter for which a sentence of five or
more years may be imposed or had previously been convicted of engaging in
a continuing criminal enterprise.

APP.23

(11) The violation of this subchapter in relation to which the conduct
described in subsection (e) of this section occurred was a violation of section
845 of this title.
(12) The defendant committed the offense in an especially heinous, cruel, or
depraved manner in that it involved torture or serious physical abuse to the
victim.
(o) Right of defendant to justice without discrimination
(1) In any hearing held before a jury under this section, the court shall
instruct the jury that in its consideration of whether the sentence of death is
justified it shall not consider the race, color, religious beliefs, national origin,
or sex of the defendant or the victim, and that the jury is not to recommend a
sentence of death unless it has concluded that it would recommend a
sentence of death for the crime in question no matter what the race, color,
religious beliefs, national origin, or sex of the defendant, or the victim, may
be. The jury shall return to the court a certificate signed by each juror that
consideration of the race, color, religious beliefs, national origin, or sex of
the defendant or the victim was not involved in reaching his or her
individual decision, and that the individual juror would have made the same
recommendation regarding a sentence for the crime in question no matter
what the race, color, religious beliefs, national origin, or sex of the
defendant, or the victim, may be.
(2) Not later than one year from November 18, 1988, the Comptroller
General shall conduct a study of the various procedures used by the several
States for determining whether or not to impose the death penalty in
particular cases, and shall report to the Congress on whether or not any or all
of the various procedures create a significant risk that the race of a
defendant, or the race of a victim against whom a crime was committed,
influence the likelihood that defendants in those States will be sentenced to
death. In conducting the study required by this paragraph, the General
Accounting Office shall—
(A) use ordinary methods of statistical analysis, including methods
comparable to those ruled admissible by the courts in race
discrimination cases under title VII of the Civil Rights Act of 1964
[42 U.S.C. 2000e et seq.];
(B) study only crimes occurring after January 1, 1976; and

APP.24

(C) determine what, if any, other factors, including any relation
between any aggravating or mitigating factors and the race of the
victim or the defendant, may account for any evidence that the race of
the defendant, or the race of the victim, influences the likelihood that
defendants will be sentenced to death. In addition, the General
Accounting Office shall examine separately and include in the report,
death penalty cases involving crimes similar to those covered under
this section.
(p) Sentencing in capital cases in which death penalty is not sought or imposed
If a person is convicted for an offense under subsection (e) of this section and the
court does not impose the penalty of death, the court may impose a sentence of life
imprisonment without the possibility of parole.
(q) Appeal in capital cases; counsel for financially unable defendants
(1) In any case in which the sentence of death is imposed under this section,
the sentence of death shall be subject to review by the court of appeals upon
appeal by the defendant. Notice of appeal must be filed within the time
prescribed for appeal of judgment in section 2107 of title 28. An appeal
under this section may be consolidated with an appeal of the judgment of
conviction. Such review shall have priority over all other cases.
(2) On review of the sentence, the court of appeals shall consider the record,
the evidence submitted during the trial, the information submitted during the
sentencing hearing, the procedures employed in the sentencing hearing, and
the special findings returned under this section.
(3) The court shall affirm the sentence if it determines that—
(A) the sentence of death was not imposed under the influence of
passion, prejudice, or any other arbitrary factor; and
(B) the information supports the special finding of the existence of
every aggravating factor upon which the sentence was based, together
with, or the failure to find, any mitigating factors as set forth or
allowed in this section.
In all other cases the court shall remand the case for reconsideration under
this section. The court of appeals shall state in writing the reasons for its
disposition of the review of the sentence.

APP.25

(4)(A) Notwithstanding any other provision of law to the contrary, in every
criminal action in which a defendant is charged with a crime which may be
punishable by death, a defendant who is or becomes financially unable to
obtain adequate representation or investigative, expert, or other reasonably
necessary services at any time either—
(i) before judgment; or
(ii) after the entry of a judgment imposing a sentence of death but
before the execution of that judgment;
shall be entitled to the appointment of one or more attorneys and the
furnishing of such other services in accordance with paragraphs (5), (6), (7),
(8), and (9).
(B) In any post-conviction proceeding under section 2254 or 2255 of title 28
seeking to vacate or set aside a death sentence, any defendant who is or
becomes financially unable to obtain adequate representation or
investigative, expert, or other reasonably necessary services shall be entitled
to the appointment of one or more attorneys and the furnishing of such other
services in accordance with paragraphs (5), (6), (7), (8), and (9).
(5) If the appointment is made before judgment, at least one attorney so
appointed must have been admitted to practice in the court in which the
prosecution is to be tried for not less than five years, and must have had not
less than three years experience in the actual trial of felony prosecutions in
that court.
(6) If the appointment is made after judgment, at least one attorney so
appointed must have been admitted to practice in the court of appeals for not
less than five years, and must have had not less than three years experience
in the handling of appeals in that court in felony cases.
(7) With respect to paragraphs (5) and (6), the court, for good cause, may
appoint another attorney whose background, knowledge, or experience
would otherwise enable him or her to properly represent the defendant, with
due consideration to the seriousness of the possible penalty and to the unique
and complex nature of the litigation.
(8) Unless replaced by similarly qualified counsel upon the attorney's own
motion or upon motion of the defendant, each attorney so appointed shall
represent the defendant throughout every subsequent stage of available

APP.26

judicial proceedings, including pretrial proceedings, trial, sentencing,
motions for new trial, appeals, applications, for writ of certiorari to the
Supreme Court of the United States, and all available post-conviction
process, together with applications for stays of execution and other
appropriate motions and procedures, and shall also represent the defendant
in such competency proceedings and proceedings for executive or other
clemency as may be available to the defendant.
(9) Upon a finding in ex parte proceedings that investigative, expert or other
services are reasonably necessary for the representation of the defendant,
whether in connection with issues relating to guilt or sentence, the court
shall authorize the defendant's attorneys to obtain such services on behalf of
the defendant and shall order the payment of fees and expenses therefore,
under paragraph (10). Upon a finding that timely procurement of such
services could not practicably await prior authorization, the court may
authorize the provision of and payment for such services nunc pro tunc.
(10) Notwithstanding the rates and maximum limits generally applicable to
criminal cases and any other provision of law to the contrary, the court shall
fix the compensation to be paid to attorneys appointed under this subsection
and the fees and expenses to be paid for investigative, expert, and other
reasonably necessary services authorized under paragraph (9), at such rates
or amounts as the court determines to be reasonably necessary to carry out
the requirements of paragraphs (4) through (9).
(r) Refusal to participate by State and Federal correctional employees
No employee of any State department of corrections or the Federal Bureau of
Prisons and no employee providing services to that department or bureau under
contract shall be required, as a condition of that employment, or contractual
obligation to be in attendance at or to participate in any execution carried out under
this section if such participation is contrary to the moral or religious convictions of
the employee. For purposes of this subsection, the term "participation in
executions" includes personal preparation of the condemned individual and the
apparatus used for execution and supervision of the activities of other personnel in
carrying out such activities.
*

*

*

*

*

APP.27

UNITED STATES CODE ANNOTATED
TITLE 21. FOOD AND DRUGS
CHAPTER 13. DRUG ABUSE PREVENTION AND CONTROL
SUBCHAPTER I. CONTROL AND ENFORCEMENT
PART D. OFFENSES AND PENALTIES
21 U.S.C. § 848 Continuing criminal enterprise
*

*

*

*

*

(a) Penalties; forfeitures
Any person who engages in a continuing criminal enterprise shall be sentenced to a
term of imprisonment which may not be less than 20 years and which may be up to
life imprisonment, to a fine not to exceed the greater of that authorized in
accordance with the provisions of Title 18 or $2,000,000 if the defendant is an
individual or $5,000,000 if the defendant is other than an individual, and to the
forfeiture prescribed in section 853 of this title; except that if any person engages
in such activity after one or more prior convictions of him under this section have
become final, he shall be sentenced to a term of imprisonment which may not be
less than 30 years and which may be up to life imprisonment, to a fine not to
exceed the greater of twice the amount authorized in accordance with the
provisions of Title 18 or $4,000,000 if the defendant is an individual or
$10,000,000 if the defendant is other than an individual, and to the forfeiture
prescribed in section 853 of this title.
(b) Life imprisonment for engaging in continuing criminal enterprise
Any person who engages in a continuing criminal enterprise shall be imprisoned
for life and fined in accordance with subsection (a), if—
(1) such person is the principal administrator, organizer, or leader of the
enterprise or is one of several such principal administrators, organizers, or
leaders; and
(2)(A) the violation referred to in subsection (c)(1) involved at least 300
times the quantity of a substance described in subsection 841(b)(1)(B) of this
title, or
(B) the enterprise, or any other enterprise in which the defendant was the
principal or one of several principal administrators, organizers, or leaders,
received $10 million dollars in gross receipts during any twelve-month

APP.28

period of its existence for the manufacture, importation, or distribution of a
substance described in section 841(b)(1)(B) of this title.
(c) “Continuing criminal enterprise” defined
For purposes of subsection (a), a person is engaged in a continuing criminal
enterprise if-(1) he violates any provision of this subchapter or subchapter II the
punishment for which is a felony, and
(2) such violation is a part of a continuing series of violations of this
subchapter or subchapter II—
(A) which are undertaken by such person in concert with five or more
other persons with respect to whom such person occupies a position of
organizer, a supervisory position, or any other position of
management, and
(B) from which such person obtains substantial income or resources.
(d) Suspension of sentence and probation prohibited
In the case of any sentence imposed under this section, imposition or execution of
such sentence shall not be suspended, probation shall not be granted, and the Act
of July 15, 1932 (D.C.Code, secs. 24-203 - 24-207), shall not apply.
(e) Death penalty
(1) In addition to the other penalties set forth in this section—
(A) any person engaging in or working in furtherance of a continuing
criminal enterprise, or any person engaging in an offense punishable under
section 841(b)(1)(A) of this title or section 960(b)(1) of this title who
intentionally kills or counsels, commands, induces, procures, or causes the
intentional killing of an individual and such killing results, shall be
sentenced to any term of imprisonment, which shall not be less than 20
years, and which may be up to life imprisonment, or may be sentenced to
death; and
(B) any person, during the commission of, in furtherance of, or while
attempting to avoid apprehension, prosecution or service of a prison
sentence for, a felony violation of this subchapter or subchapter II who

APP.29

intentionally kills or counsels, commands, induces, procures, or causes the
intentional killing of any Federal, State, or local law enforcement officer
engaged in, or on account of, the performance of such officer's official duties
and such killing results, shall be sentenced to any term of imprisonment,
which shall not be less than 20 years, and which may be up to life
imprisonment, or may be sentenced to death.
(2) As used in paragraph (1)(B), the term “law enforcement officer” means a
public servant authorized by law or by a Government agency or Congress to
conduct or engage in the prevention, investigation, prosecution or adjudication of
an offense, and includes those engaged in corrections, probation, or parole
functions.
(g) to (p) Repealed. Pub.L. 109-177, Title II, § 221(2), Mar. 9, 2006, 120 Stat. 231
(q) Repealed. Pub.L. 109-177, Title II, §§ 221(4), 222(c), Mar. 9, 2006, 120 Stat.
231, 232
(r) Repealed. Pub.L. 109-177, Title II, § 221(3), Mar. 9, 2006, 120 Stat. 231
(s) Special provision for methamphetamine
For the purposes of subsection (b), in the case of continuing criminal enterprise
involving methamphetamine or its salts, isomers, or salts of isomers, paragraph
(2)(A) shall be applied by substituting “200” for “300”, and paragraph (2)(B) shall
be applied by substituting “$5,000,000” for “$10 million dollars”.

APP.30

UNITED STATES CODE ANNOTATED
TITLE 28. JUDICIARY AND JUDICIAL PROCEDURE
PART VI. PARTICULAR PROCEEDINGS
CHAPTER 153. HABEAS CORPUS
28 U.S.C. § 2255 Federal custody; remedies on motion attacking sentence
*

*

*

*

*

(a) A prisoner in custody under sentence of a court established by Act of Congress
claiming the right to be released upon the ground that the sentence was imposed in
violation of the Constitution or laws of the United States, or that the court was
without jurisdiction to impose such sentence, or that the sentence was in excess of
the maximum authorized by law, or is otherwise subject to collateral attack, may
move the court which imposed the sentence to vacate, set aside or correct the
sentence.
(b) Unless the motion and the files and records of the case conclusively show that
the prisoner is entitled to no relief, the court shall cause notice thereof to be served
upon the United States attorney, grant a prompt hearing thereon, determine the
issues and make findings of fact and conclusions of law with respect thereto. If the
court finds that the judgment was rendered without jurisdiction, or that the
sentence imposed was not authorized by law or otherwise open to collateral attack,
or that there has been such a denial or infringement of the constitutional rights of
the prisoner as to render the judgment vulnerable to collateral attack, the court
shall vacate and set the judgment aside and shall discharge the prisoner or
resentence him or grant a new trial or correct the sentence as may appear
appropriate.
(c) A court may entertain and determine such motion without requiring the
production of the prisoner at the hearing.
(d) An appeal may be taken to the court of appeals from the order entered on the
motion as from a final judgment on application for a writ of habeas corpus.
(e) An application for a writ of habeas corpus in behalf of a prisoner who is
authorized to apply for relief by motion pursuant to this section, shall not be
entertained if it appears that the applicant has failed to apply for relief, by motion,
to the court which sentenced him, or that such court has denied him relief, unless it

APP.31

also appears that the remedy by motion is inadequate or ineffective to test the
legality of his detention.
(f) A 1-year period of limitation shall apply to a motion under this section. The
limitation period shall run from the latest of—
(1) the date on which the judgment of conviction becomes final;
(2) the date on which the impediment to making a motion created by governmental
action in violation of the Constitution or laws of the United States is removed, if
the movant was prevented from making a motion by such governmental action;
(3) the date on which the right asserted was initially recognized by the Supreme
Court, if that right has been newly recognized by the Supreme Court and made
retroactively applicable to cases on collateral review; or
(4) the date on which the facts supporting the claim or claims presented could have
been discovered through the exercise of due diligence.
(g) Except as provided in section 408 of the Controlled Substances Act, in all
proceedings brought under this section, and any subsequent proceedings on review,
the court may appoint counsel, except as provided by a rule promulgated by the
Supreme Court pursuant to statutory authority. Appointment of counsel under this
section shall be governed by section 3006A of title 18.
(h) A second or successive motion must be certified as provided in section 2244 by
a panel of the appropriate court of appeals to contain—
(1) newly discovered evidence that, if proven and viewed in light of the evidence
as a whole, would be sufficient to establish by clear and convincing evidence that
no reasonable factfinder would have found the movant guilty of the offense; or
(2) a new rule of constitutional law, made retroactive to cases on collateral review
by the Supreme Court, that was previously unavailable.
*

*

*

*

*

APP.32

FAIR SENTENCING ACT OF 2010
PUBLIC LAW 111-220, 124 STAT. 2372
AUGUST 3, 2010
(21 U.S.C. § 801 note)
SEC. 2. COCAINE SENTENCING DISPARITY REDUCTION.
(a) CSA.—Section 401(b)(1) of the Controlled Substances Act (21 U.S.C.
841(b)(1)) is amended—
(1) in subparagraph (A)(iii), by striking ‘‘50 grams’’ and inserting ‘‘280 grams’’;
and
(2) in subparagraph (B)(iii), by striking ‘‘5 grams’’ and inserting ‘‘28 grams’’.
(b) IMPORT AND EXPORT ACT.—Section 1010(b) of the Controlled
Substances Import and Export Act (21 U.S.C. 960(b)) is amended—
(1) in paragraph (1)(C), by striking ‘‘50 grams’’ and inserting ‘‘280 grams’’; and
(2) in paragraph (2)(C), by striking ‘‘5 grams’’ and inserting ‘‘28 grams’’.
SEC. 3. ELIMINATION OF MANDATORY MINIMUM SENTENCE FOR
SIMPLE POSSESSION.
Section 404(a) of the Controlled Substances Act (21 U.S.C. 844(a)) is amended by
striking the sentence beginning ‘‘Notwithstanding the preceding sentence,’’.

APP.33

FIRST STEP ACT OF 2018
PUBLIC LAW 115-391, 132 STAT. 5222
DECEMBER 21, 2018
(21 U.S.C. § 841 note)
SEC. 404. APPLICATION OF FAIR SENTENCING ACT.
(a) DEFINITION OF COVERED OFFENSE.—In this section, the term ‘‘covered
offense’’ means a violation of a Federal criminal statute, the statutory penalties for
which were modified by section 2 or 3 of the Fair Sentencing Act of 2010 (Public
Law 111–220; 124 Stat. 2372), that was committed before August 3, 2010.
(b) DEFENDANTS PREVIOUSLY SENTENCED.—A court that imposed a
sentence for a covered offense may, on motion of the defendant, the Director of the
Bureau of Prisons, the attorney for the Government, or the court, impose a reduced
sentence as if sections 2 and 3 of the Fair Sentencing Act of 2010 (Public Law
111–220; 124 Stat. 2372) were in effect at the time the covered offense was
committed.
(c) LIMITATIONS.—No court shall entertain a motion made under this section to
reduce a sentence if the sentence was previously imposed or previously reduced in
accordance with the amendments made by sections 2 and 3 of the Fair Sentencing
Act of 2010 (Public Law 111–220; 124 Stat. 2372) or if a previous motion made
under this section to reduce the sentence was, after the date of enactment of this
Act, denied after a complete review of the motion on the merits. Nothing in this
section shall be construed to require a court to reduce any sentence pursuant to this
section.

APP.34

APP.35

APP.36

APP.37

APP.38

APP.39

APP.40

APP.41

APP.42

APP.43

APP.44

APP.45

APP.46

APP.47

APP.48

APP.49

APP.50

APP.51

APP.52

APP.53

APP.54

APP.55

APP.56

APP.57

APP.58

APP.59

APP.60

APP.61

APP.62

APP.63

APP.64

APP.65

APP.66

APP.67

APP.68

APP.69

APP.70

APP.71

APP.72

APP.73

APP.74

APP.75

APP.76

APP.77

APP.78

APP.79

APP.80

APP.81

APP.82

APP.83

APP.84

APP.85

APP.86

APP.87

APP.88

APP.89

APP.90

APP.91

APP.92

APP.93

APP.94

APP.95

APP.96

APP.97

APP.98

APP.99

APP.100

APP.101

APP.102

APP.103

APP.104

APP.105

APP.106

APP.107

APP.108

APP.109

APP.110

APP.111

APP.112

APP.113

APP.114

APP.115

APP.116

APP.117

APP.118

APP.119

APP.120

APP.121

APP.122

APP.123

APP.124

APP.125

APP.126

APP.127

APP.128

APP.129

APP.130

APP.131

APP.132

APP.133

APP.134

APP.135

APP.136

APP.137

APP.138

APP.139

APP.140

APP.141

APP.142

APP.143

APP.144

APP.145

APP.146

APP.147

APP.148

APP.149

APP.150

APP.151

APP.152

APP.153

APP.154

APP.155

APP.156

APP.157

APP.158

APP.159

APP.160

APP.161

APP.162

APP.163

APP.164

APP.165

APP.166

APP.167

APP.168

APP.169

APP.170

APP.171

APP.172

APP.173

APP.174

APP.175

APP.176

APP.177

APP.178

APP.179

APP.180

APP.181

APP.182

APP.183

APP.184

APP.185

APP.186

APP.187

APP.188

APP.189

APP.190

APP.191

APP.192

APP.193

APP.194

APP.223

Case 1:19-mc-00145-TSC Document 50 Filed 11/20/19 Page 1 of 15

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

In the Matter of the
Federal Bureau of Prisons’ Execution
Protocol Cases,
LEAD CASE: Roane et al. v. Barr
THIS DOCUMENT RELATES TO:
Bourgeois v. U.S. Dep’t of Justice, et al.,
12-cv-0782
Lee v. Barr, 19-cv-2559
Purkey v. Barr, et al., 19-cv-03214

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

Case No. 19-mc-145 (TSC)

MEMORANDUM OPINION
On July 25th of this year, the U.S. Department of Justice (“DOJ”) announced plans to
execute five people. See Press Release, Dep’t of Justice, Federal Government to Resume Capital
Punishment After Nearly Two Decade Lapse (July 25, 2019), https://www.justice.gov/opa/
pr/federal-government-resume-capital-punishment-after-nearly-two-decade-lapse. The DOJ
intends to execute Daniel Lewis Lee on December 9, 2019; Lezmond Mitchell on December 11,
2019; Wesley Ira Purkey on December 13, 2019; Alfred Bourgeois on January 13, 2020; and
Dustin Lee Honken on January 15, 2020. Id. To implement these executions, the Federal
Bureau of Prisons (“BOP”) adopted a new execution protocol: the “2019 Protocol.” Id; (ECF No.
39-1 (“Administrative R.”) at 1021–1075).
Four of the five individuals with execution dates 1 (collectively, “Plaintiffs”), have filed
complaints against the DOJ and BOP (collectively, “Defendants”), alleging that the 2019

1

Mitchell has not filed a complaint in this court.
1

APP.227

Case 1:19-mc-00145-TSC Document 50 Filed 11/20/19 Page 2 of 15

Protocol is unlawful and unconstitutional on numerous grounds. 2 See Purkey v. Barr, 19-cv03214 (D.D.C.), Doc. # 1 (Oct. 25, 2019); Lee v. Barr, 1:19-cv-02559 (D.D.C.), Doc. #1 (Aug.
23, 2019); Bourgeois v. U.S. Dep’t of Justice, et al., 1:12-cv-00782 (D.D.C.), Doc. # 1 (May 5,
2012); ECF. No. 38 (“Honken Compl.”). The court consolidated the cases and ordered Plaintiffs
to complete the necessary 30(b)(6) depositions on or before February 29, 2020 and to amend
their complaints on or before March 31, 2020. (See ECF No. 1 (“Consolidation Order”); Min.
Entry, Aug. 15, 2019.) Because Plaintiffs are scheduled to be executed before their claims can
be fully litigated, they have asked this court, pursuant to Federal Rule of Civil Procedure 65 and
Local Rule 65.1, to preliminarily enjoin the DOJ and BOP from executing them while they
litigate their claims. (ECF No. 34 (“Purkey Mot. for Prelim. Inj.”); ECF No. 29 (“Honken Mot.
for Prelim. Inj.”); ECF No. 13 (“Lee Mot. for Prelim. Inj.”); ECF No. 2 (“Bourgeois Mot. for
Prelim. Inj.”)) Having reviewed the parties’ filings, the record, and the relevant case law, and for
the reasons set forth below, the court hereby GRANTS Plaintiffs’ Motions for Preliminary
Injunction.
I. BACKGROUND
Beginning in 1937, Congress required federal executions to be conducted in the manner
prescribed by the state of conviction. See 50 Stat. § 304 (former 18 U.S.C. 542 (1937)),
recodified as 62 Stat. § 837 (former 18 U.S.C. 3566). After the Supreme Court instituted a de

2

Bourgeois’ complaint was filed in 2012 and relates to a separate execution protocol. See
Bourgeois v. U.S. Dep’t of Justice, et al., 1:12-cv-00782 (D.D.C.), Doc. # 1 (May 5, 2012). In
addition, his Motion for Preliminary Injunction (ECF. No. 2 (“Bourgeois Mot. for Prelim. Inj.”))
does not articulate his bases for a preliminary injunction, but instead argues that a preliminary
injunction is warranted because the plaintiffs in the Roane litigation were granted a preliminary
injunction. Despite the shortcomings of Bourgeois’ briefing, this court has determined that he
meets the requirements of a preliminary injunction, as do the three other plaintiffs in the
consolidated case, whose motions are fully briefed.
2

APP.228

Case 1:19-mc-00145-TSC Document 50 Filed 11/20/19 Page 3 of 15

facto moratorium on the death penalty in Furman v. Georgia, 408 U.S. 238, 239–40 (1972), and
then lifted it in Gregg v. Georgia, 428 U.S. 153, 187 (1976), Congress reinstated the death
penalty for certain federal crimes but did not specify a procedure for implementation. See AntiDrug Abuse Act of 1988, Pub. L. 100–690, § 7001, 102 Stat. 4181 (enacted Nov. 18, 1988).
Four years later, under the direction of then-Attorney General William Barr, the DOJ published a
proposed rule to establish a procedure for implementing executions. Implementation of Death
Sentences in Federal Cases, 57 Fed. Reg. 56536 (proposed Nov. 30, 1992). The proposed rule
noted that the repeal of the 1937 statute “left a need for procedures for obtaining and executing
death orders.” Id. The final rule, issued in 1993, provided a uniform method and place of
execution. See 58 Fed. Reg. 4898 (1993), codified at 28 C.F.R. pt. 26 (setting method of
execution as “intravenous injection of a lethal substance.”)
But a year later, Congress reinstated the traditional approach of following state practices
through passage of the Federal Death Penalty Act (“FDPA”). See Pub. L. No. 103–322, 108
Stat. 1796 (1994), codified at 18 U.S.C. §§ 3591–3599. The FDPA establishes that the U.S.
Marshal “shall supervise implementation of the sentence in the manner prescribed by the law of
the State in which the sentence is imposed.” Id. § 3596(a). The FDPA provides no exceptions to
this rule and does not contemplate the establishment of a separate federal execution procedure.
Plaintiffs’ cases are governed by the FDPA because when the death penalty portions of the
ADAA were repealed in 2006, the FDPA was “effectively render[ed] . . . applicable to all federal
death-eligible offenses.” United States v. Barrett, 496 F.3d 1079, 1106 (10th Cir. 2007).
Given the conflict between the FDPA’s state-by-state approach and the uniform federal
approach adopted by DOJ’s 1993 rule (28 C.F.R. pt. 26), the DOJ and BOP supported proposed
legislation to amend the FDPA to allow them to carry out executions under their own procedures.

3

APP.229

Case 1:19-mc-00145-TSC Document 50 Filed 11/20/19 Page 4 of 15

One bill, for example, would have amended § 3596(a) to provide that the death sentence “shall
be implemented pursuant to regulations prescribed by the Attorney General.” H.R. 2359, 104th
Cong. § 1 (1995). In his written testimony supporting the bill, Assistant Attorney General
Andrew Fois wrote that “H.R. 2359 would allow Federal executions to be carried out . . .
pursuant to uniform Federal regulations” and that “amending 18 U.S.C. § 3596 [would] allow for
the implementation of Federal death sentences pursuant to Federal regulations promulgated by
the Attorney General.” Written Testimony on H.R. 2359 Before the Subcomm. on Crime of the
H. Comm. on the Judiciary, 104th Cong. 1 (1995) (Statement of Andrew Fois, Assistant Att’y
Gen. of the United States). None of the proposed amendments were enacted, and the FDPA
continues to require the federal government to carry out executions in the manner prescribed by
the states of conviction.
In 2005, three individuals facing death sentences sued, alleging that their executions were
to be administered under an unlawful and unconstitutional execution protocol. Roane v.
Gonzales, 1:05-cv-02337 (D.D.C.), Doc. #1 ¶ 2. The court preliminarily enjoined their
executions. Roane, Doc. #5. Three other individuals on death row intervened, and the court
enjoined their executions. See Roane, Doc. #23, 27, 36, 38, 67, 68. A seventh individual on
death row subsequently intervened and had his execution enjoined as well. See id. Doc. #333.
During this litigation, the government produced a 50-page document (“2004 Main Protocol”)
outlining BOP execution procedures. Roane, Doc. #179–3. The 2004 Main Protocol cites 28
C.F.R. pt. 26 for authority and does not mention the FDPA. See id. at 1. The government then
produced two three-page addenda to the 2004 Main Protocol. See Roane, Doc. #177-1
(Addendum to Protocol, Aug. 1, 2008) (the “2008 Addendum”); Roane, Doc. #177-3
(Addendum to Protocol, July 1, 2007) (“2007 Addendum”). In 2011 the DOJ announced that the

4

APP.230

Case 1:19-mc-00145-TSC Document 50 Filed 11/20/19 Page 5 of 15

BOP did not have the drugs needed to implement the 2008 Addendum. See Letter from Office of
Attorney General to National Association of Attorneys General, (Mar. 4, 2011),
https://files.deathpenaltyinfo.org/legacy/documents/2011.03.04.Holder.Letter.pdf. The
government told the court that the BOP “has decided to modify its lethal injection protocol but
the protocol revisions have not yet been finalized.” Roane, Doc. #288 at 2. In response, the
court stayed the Roane litigation.
No further action was taken in the cases for seven years, until July of this year, when
DOJ announced a new addendum to the execution protocol (“2019 Addendum”) (Administrative
R. at 870–871), that replaces the three-drug protocol of the 2008 Addendum with a single drug:
pentobarbital sodium. See id at ¶ C. In addition to the 2019 Addendum, the BOP adopted a new
protocol to replace the 2004 Main Protocol (the 2019 Main Protocol). (Administrative R. at
1021–1075.)
The court held a status conference in the Roane action on August 15, 2019. (See Min.
Entry, Aug. 15, 2019). In addition to the Roane plaintiffs, the court heard from counsel for three
other death-row inmates, including Bourgeois, all of whom cited the need for additional
discovery on the new protocol. (See ECF No. 12 (“Status Hr’g Tr.”)). The government
indicated that it was unwilling to stay the executions, and the court bifurcated discovery and
ordered Plaintiffs to complete 30(b)(6) depositions by February 28, 2020 and to file amended
complaints by March 31, 2020. (See Min. Entry, Aug. 15, 2019.)
Lee filed a complaint challenging the 2019 Addendum on August 23, 2019 (see Lee v.
Barr, 1:19-cv-02559 (D.D.C.), Doc. 1), and a motion for a preliminary injunction on September
27, 2019, (Lee Mot. for Prelim. Inj.). On August 29, 2019 Bourgeois moved to preliminarily
enjoin his execution. (Bourgeois Mot. for Prelim. Inj.) Honken filed an unopposed motion to

5

APP.231

Case 1:19-mc-00145-TSC Document 50 Filed 11/20/19 Page 6 of 15

intervene in Lee v. Barr, which was granted. (ECF No. 26. (“Honken Mot. to Intervene”).) He
then filed a motion for a preliminary injunction on November 5, 2019. (Honken Mot. for Prelim.
Inj.) Purkey filed a complaint and a motion for preliminary injunction under a separate case
number, 1:19-cv-03214, which was consolidated with Roane. Thus, the court now has before it
four fully briefed motions to preliminarily enjoin the DOJ and BOP from executing Lee, Purkey,
Bourgeois, and Honken.
II. ANALYSIS
A preliminary injunction is an “extraordinary remedy” that is “never awarded as of
right.” Winter v. Nat. Res. Def. Council, Inc., 555 U.S. 7, 24 (2008) (citing Munaf v. Geren, 553
U.S. 674, 689–90 (2008)). Courts consider four factors on a motion for a preliminary injunction:
(1) the likelihood of plaintiff’s success on the merits, (2) the threat of irreparable harm to the
plaintiff absent an injunction, (3) the balance of equities, and (4) the public interest. Id. at 20
(citations omitted); John Doe Co. v. Consumer Fin. Prot. Bureau, 849 F.3d 1129, 1131 (D.C.
Cir. 2017). The D.C. Circuit has traditionally evaluated claims for injunctive relief on a sliding
scale, such that “a strong showing on one factor could make up for a weaker showing on
another.” Sherley v. Sebelius, 644 F.3d 388, 392 (D.C. Cir. 2011). It has been suggested,
however, that a movant’s showing regarding success on the merits “is an independent, freestanding requirement for a preliminary injunction.” Id. at 393 (quoting Davis v. Pension Ben.
Guar. Corp., 571 F.3d 1288, 1296 (D.C. Cir. 2009) (Kavanaugh, J., concurring)). Here,
Plaintiffs’ claims independently satisfy the merits requirement.
A. Likelihood of Success on the Merits
Plaintiffs allege, inter alia, that the 2019 Protocol exceeds statutory authority and
therefore under the Administrative Procedure Act (“APA”), it must be set aside. Under the APA,

6

APP.232

Case 1:19-mc-00145-TSC Document 50 Filed 11/20/19 Page 7 of 15

a reviewing court “shall . . . hold unlawful and set aside agency action, findings, and conclusions
found to be . . . in excess of statutory jurisdiction, authority, or limitations, or short of statutory
right.” 5 U.S.C. § 706(2)(C). Plaintiffs argue that the 2019 Protocol exceeds statutory authority
by establishing a single procedure for all federal executions rather than using the FDPA’s stateprescribed procedure. (Purkey Mot. for Prelim. Inj. at 16; Honken Mot. for Prelim. Inj. at 34–35;
Lee Mot. for Prelim. Inj. at 5–6, 17). Given that the FDPA expressly requires the federal
government to implement executions in the manner prescribed by the state of conviction, this
court finds Plaintiffs have shown a likelihood of success on the merits as to this claim.
Defendants argue that the 2019 Protocol “is not contrary to the FDPA” because the
authority given to DOJ and BOP through § 3596(a) of the FDPA “necessarily includes the
authority to specify . . . procedures for carrying out the death sentence.” (ECF No. 16 (“Defs.
Mot. in Opp. To Lee Mot. for Prelim. Inj.”) at 34.) Section 3596(a) states:
When the [death] sentence is to be implemented, the Attorney
General shall release the person sentenced to death to the custody of
a United States marshal, who shall supervise implementation of the
sentence in the manner prescribed by the law of the State in which
the sentence is imposed. If the law of the State does not provide for
implementation of a sentence of death, the court shall designate
another State, the law of which does provide for the implementation
of a sentence of death, and the sentence shall be implemented in the
latter State in the manner prescribed by such law.
18 U.S.C. § 3596(a) (emphasis added). Because a United States Marshal is to
“supervise” the process, it does appear that at least some authority is granted to the Marshal. But
it goes too far to say that such authority necessarily includes the authority to decide procedures
without reference to state policy. The statute expressly provides that “the implementation of the
sentence” shall be done “in the manner” prescribed by state law. Id. Thus, as between states and
federal agencies, the FDPA gives decision-making authority regarding “implementation” to the

7

APP.233

Case 1:19-mc-00145-TSC Document 50 Filed 11/20/19 Page 8 of 15

former. Accordingly, the 2019 Protocol’s uniform procedure approach very likely exceeds the
authority provided by the FDPA.
Defendants contest the meaning of the words “implementation” and “manner.” As they
interpret § 3596(a), Congress only gave the states the authority to decide the “method” of
execution, e.g., whether to use lethal injection or an alternative, not the authority to decide
additional procedural details such as the substance to be injected or the safeguards taken during
the injection. The court finds this reading implausible. First, the statute does not refer to the
“method” of execution, a word with particular meaning in the death penalty context. See id.
Instead, it requires that the “implementation” of a death sentence be done in the “manner”
prescribed by the state of conviction. Id. “Manner” means “a mode of procedure or way of
acting.” Manner, MERRIAM-WEBSTER’S COLLEGIATE DICTIONARY 756 (11th ed. 2014.) The
statute’s use of the word “manner” thus includes not just execution method but also execution
procedure. To adopt Defendants’ interpretation of “manner” would ignore its plain meaning. As
one district court concluded, “the implementation of the death sentence [under the FDPA]
involves a process which includes more than just the method of execution utilized.” United
States v. Hammer, 121 F. Supp. 2d 794, 798 (M.D. Pa. 2000). 3

3

Defendants cite three cases to suggest that “manner” means “method”: Higgs v. United States,
711 F. Supp. 2d 479, 556 (D. Md. 2010); United States v. Bourgeois, 423 F.3d 501 (5th Cir.
2005); and United States v. Fell, No. 5:0-cr-12-01, 2018 WL 7270622 (D. Vt. Aug. 7 2018).
Higgs interpreted the FDPA to require the federal government to follow a state’s chosen method
of execution but not to follow any other state procedure. 711 F. Supp. 2d at 556. This
interpretation, however, was stated in dicta and is not supported by persuasive reasoning. Id.
Bourgeois did not reach the question of what the words “implementation” and “manner” mean in
18 U.S.C. § 3596(a). 423 F.3d 501 (5th Cir. 2005). Instead, it evaluated only whether the
sentence violated Texas law. Id. at 509. The opinion appeared to assume that § 3596(a) only
requires the federal government to follow the state-prescribed method of execution, but it
provided no basis for that assumption. Id.at 509. In Fell, the district court held that the creation
of a federal death chamber does not violate the FDPA. Fell, slip op., at 4. This holding affirms
the notion that the federal government has some authority in execution procedure (such as the
8

APP.234

Case 1:19-mc-00145-TSC Document 50 Filed 11/20/19 Page 9 of 15

Moreover, legislative efforts to amend the FDPA further support this court’s
interpretation of the terms “manner” and “implementation.” As noted above, in 1995, the year
after the FDPA became law, the DOJ supported bills amending the statute to allow the DOJ and
BOP to create a uniform method of execution, indicating that the FDPA as drafted did not permit
federal authorities to establish a uniform procedure. The amendments were never enacted.
Defendants argue that reading the FDPA as requiring adherence to more than the state’s
prescribed method of execution leads to absurd results. (See, e.g., Defs. Mot. in Opp. to Purkey
Mot. for Prelim. Inj. at 28.) They contend that if the state’s choice of drug is to be followed, the
federal government would have to “stock all possible lethal agents used by the States.” Id. But
the FDPA contemplates and provides for this very situation: it permits the United States Marshal
to allow the assistance of a state or local official and to use state and local facilities. 18 U.S.C.
§ 3596(a). Moreover, the practice of following state procedure and using state facilities has a
long history in the United States. Before the modern death penalty, the relevant statute provided
that the:
manner of inflicting the punishment of death shall be the manner
prescribed by the laws of the State within which the sentence is
imposed. The United States marshal charged with the execution of
the sentence may use available State or local facilities and the
services of an appropriate State or local official . . .
50 Stat. § 304 (former 18 U.S.C. 542 (1937)), recodified as 62 Stat. § 837 (former 18 U.S.C.
3566) (1948). The federal government carried out executions in accordance with this statute for
decades, including those of Julius and Ethel Rosenberg in New York’s Sing Sing prison, and
Victor Feguer in the Iowa State Penitentiary. See Feguer v. United States, 302 F.2d 214, 216

place of execution), but it does not conflict with the proposition that the FDPA requires the
federal government to follow state procedure as to more than simply the method of execution.
9

APP.235

Case 1:19-mc-00145-TSC Document 50 Filed 11/20/19 Page 10 of 15

(8th Cir. 1962) (noting sentence of death by hanging imposed pursuant to § 3566 and Iowa law);
Rosenberg v. Carroll, 99 F. Supp. 630, 632 (S.D.N.Y. 1951) (applying § 3566 to uphold state
law confinement prior to execution). Thus, far from creating absurd results, requiring the federal
government to follow more than just the state’s method of execution is consistent with other
sections of the statute and with historical practices. For all these reasons, this court finds that the
FDPA does not authorize the creation of a single implementation procedure for federal
executions.
Defendants argue that the 2019 Protocol derives authority from 28 C.F.R. § 26.3(a),
which provides that executions are to be carried out at the time and place designated by the
Director of the BOP, at a federal penal or correctional institution, and by injection of a lethal
substance or substances under the direction of the U.S. Marshal. (Defs. Mot. in Opp. to Lee Mot.
for Prelim. Inj. at 31.) However, this argument is undercut by the fact that, as with the 2019
Protocol itself, 28 C.F.R. Pt. 26 also conflicts with the FDPA. As noted above, 28 C.F.R. Pt. 26
was promulgated in 1993 (before the FDPA was enacted) to implement the Anti-Drug Abuse Act
of 1988, 21 U.S.C. § 848(e) (the “ADAA”), which does not specify how federal executions are
to be carried out. 28 C.F.R. § 26.3(a) filled that gap by providing an implementation procedure.
But when Congress passed its own requirements for the implementation procedure in the FDPA,
those requirements conflicted with 28 C.F.R. § 26.3(a).
Defendants concede that “where a regulation contradicts a statute, the latter prevails.”
(Defs. Mot. in Opp. to Lee Mot. for Prelim. Inj. at 31.) They argue instead that the regulation
does not conflict with the FDPA as applied to Plaintiffs because lethal injection (the method
required by 28 C.F.R. § 26.3(a)(4)) is either permitted or required in the Plaintiffs’ states of

10

APP.236

Case 1:19-mc-00145-TSC Document 50 Filed 11/20/19 Page 11 of 15

conviction (Texas, Arkansas, Missouri, and Indiana 4). (ECF No. 37 (“Defs. Mot. in Opp. to
Purkey Mot. for Prelim. Inj.”) at 26–27; ECF No. 36 (“Defs. Mot. in Opp. to Honken Mot. for
Prelim. Inj.”) at 19–20; Defs. Mot. in Opp. to Lee Mot. for Prelim. Inj at 31–32.) 5 Two of those
states—Texas and Missouri—use a single dose of pentobarbital for executions. (Administrative
R. at 99, 104.)
But this overlap does not, in and of itself, reconcile 28 C.F.R. pt. 26 with the FDPA. 28
C.F.R. Pt. 26 remains inconsistent with the FDPA because it establishes a single federal
procedure, while the FDPA requires state-prescribed procedures. In addition, 28 C.F.R. §
26.3(a)(2) requires use of a federal facility, while the FDPA permits the use of state facilities.
Compare 28 C.F.R. § 26.3(a)(2) with 18 U.S.C. § 3597. There are also inconsistencies between
the FDPA’s required state procedures and the 2019 Protocol. For example, states of conviction
establish specific and varied safeguards on how the intravenous catheter is to be inserted. 6 The
2019 Protocol, however, provides only that the method for insertion of the IV is to be selected
based on the training, experience, or recommendation of execution personnel. (Administrative
R. at 872.) Thus, the fact that the states of conviction and 28 C.F.R. § 26.3(a) all prescribe lethal
injection as the method of execution is not enough to establish that the regulation is valid as
applied to Plaintiffs.

4

Honken was convicted in Iowa, which does not have a death penalty. The FDPA requires a
court to designate a death penalty state for any individual convicted in a state without the death
penalty, and the court designated Indiana. (Honken Mot. for Prelim. Inj. at 37.)
5

Defendants do not assert this argument as to Bourgeois (likely because he did not raise 28
C.F.R. Part 26 in his motions), but does include Texas’ execution protocol—which requires
lethal injection—in the Administrative Record. (Administrative R. at 83-91.)
6

See, e.g., Administrative R. at 90-91 (Texas); Administrative R. at 70-71 (Missouri); Honken
Mot. for Prelim. Inj. Ex. 6 at 16–17 (Indiana).
11

APP.237

Case 1:19-mc-00145-TSC Document 50 Filed 11/20/19 Page 12 of 15

Defendants further argue that even if 28 C.F.R. § 26.3(a) did not conflict with the FDPA
by requiring lethal injection, the DOJ would still adopt lethal injection as its method of execution
for these Plaintiffs. (See e.g., Defs. Mot. in Opp. to Lee Mot. for Prelim. Inj at 32–33.) On this
basis, they ask the court to sever section 26.3(a)(4)—which establishes lethal injection as the
federal method—and affirm the rest of 28 C.F.R. § 26.3(a). Id. Defendants cite Am. Petroleum
Inst. V. EPA, 862 F.3d 50 (D.C. Cir. 2017), for the proposition that the court “will sever and
affirm a portion of an administrative regulation” if it can say “without any substantial doubt that
the agency would have adopted the severed portion on its own.” Id. at 71 (emphasis added). The
court declines to take this approach for several reasons. First, it is premised on the strained
reading of the FDPA that this court has already rejected. Moreover, the court cannot say
“without any substantial doubt” that DOJ “would have adopted the severed portion on its own.”
Id. Even were the court to engage in such speculation, it seems plausible that if 28 C.F.R. §
26.3(a) instructed the BOP to follow state procedure, rather than to implement lethal injection,
that BOP would in fact adopt whatever specific procedures were required by each state. Finally,
even if the court severed the language in 28 C.F.R. § 26.3(a) that conflicts with the FDPA,
another problem would arise: that is the very language that purportedly authorizes the creation of
a single federal procedure. If the court severs it, then 28 C.F.R. § 26.3(a) would no longer
contain the support for a single federal procedure that Defendants claim it does.
More importantly, Defendants’ arguments regarding the regulation’s applicability to
these Plaintiffs take us far afield from the task at hand. The arguments do not control the court’s
inquiry of whether the 2019 Protocol exceeds statutory authority. Based on the reasoning set
forth above, this court finds that insofar as the 2019 Protocol creates a single implementation
procedure it is not authorized by the FDPA. This court further finds that because 28 C.F.R. §

12

APP.238

Case 1:19-mc-00145-TSC Document 50 Filed 11/20/19 Page 13 of 15

26.3 directly conflicts with the FDPA, it does not provide the necessary authority for the 2019
Protocol’s uniform procedure. There is no statute that gives the BOP or DOJ the authority to
establish a single implementation procedure for all federal executions. To the contrary,
Congress, through the FDPA, expressly reserved those decisions for the states of conviction.
Thus, Plaintiffs have established a likelihood of success on the merits of their claim that the 2019
Protocol exceeds statutory authority. Given this finding, the court need not reach Plaintiffs’
other claims.
B. Irreparable Harm
To constitute irreparable harm, “the harm must be certain and great, actual and not
theoretical, and so imminent that there is a clear and present need for equitable relief to prevent
irreparable harm,” and it “must be beyond remediation.” League of Women Voters of U.S. v.
Newby, 838 F. 3d 1, 7–8 (D.C. Cir. 2016) (citing Chaplaincy of Full Gospel Churches v.
England, 454 F.3d 290, 297 (D.C. Cir. 2006)) (internal quotation marks and brackets omitted).
Here, absent a preliminary injunction, Plaintiffs would be unable to pursue their claims,
including the claim that the 2019 Protocol lacks statutory authority, and would therefore be
executed under a procedure that may well be unlawful. This harm is manifestly irreparable.
Other courts in this Circuit have found irreparable harm in similar circumstances. See,
e.g., Damus v. Nielsen, 313 F. Supp. 3d 317, 342 (D.D.C. 2018) (finding irreparable injury where
plaintiffs faced detention under challenged regulations); Stellar IT Sols., Inc. v. U.S.C.I.S., Civ.
A. No. 18-2015 (RC), 2018 WL 6047413, at *11 (D.D.C. Nov. 19, 2018) (finding irreparable
injury where plaintiff would be forced to leave the country under challenged regulations); FBME
Bank Ltd. v. Lew, 125 F. Supp. 3d 109, 126–27 (D.D.C. 2015) (finding irreparable injury where
challenged regulations would threaten company’s existence); N. Mariana Islands v. United

13

APP.239

Case 1:19-mc-00145-TSC Document 50 Filed 11/20/19 Page 14 of 15

States, 686 F. Supp. 2d 7, 19 (D.D.C. 2009) (finding irreparable injury when challenged
regulations would limit guest workers).
Plaintiffs have clearly shown that, absent injunctive relief, they will suffer the irreparable
harm of being executed under a potentially unlawful procedure before their claims can be fully
adjudicated. Given this showing, the court need not reach the various other irreparable harms
that Plaintiffs allege.
C. Balance of Equities
Defendants assert that if the court preliminarily enjoins the 2019 Protocol they will suffer
the harm of a delayed execution date. (See, e.g., Def. Mot. in Opp. to Purkey Mot. for Prelim.
Inj. at 43.) While the government does have a legitimate interest in the finality of criminal
proceedings, the eight years that it waited to establish a new protocol undermines its arguments
regarding the urgency and weight of that interest. Other courts have found “little potential for
injury” as a result of a delayed execution date. See, e.g., Harris v. Johnson, 323 F. Supp. 2d 797,
809 (S.D. Tex. 2004). This court agrees that the potential harm to the government caused by a
delayed execution is not substantial.
D. Public Interest
The public interest is not served by executing individuals before they have had the
opportunity to avail themselves of legitimate procedures to challenge the legality of their
executions. On the other hand, “[t]he public interest is served when administrative agencies
comply with their obligations under the APA.” N. Mariana Islands, 686 F. Supp. 2d at 21.
Accordingly, this court finds that the public interest is served by preliminarily enjoining the
execution of the four Plaintiffs because it will allow them to determine whether administrative
agencies acted within their delegated authority, and to ensure that they do so in the future.

14

APP.240

Case 1:19-mc-00145-TSC Document 50 Filed 11/20/19 Page 15 of 15

III. CONCLUSION
This court finds that at least one of Plaintiffs’ claims has a likelihood of success on the
merits and that absent a preliminary injunction, they will suffer irreparable harm. It further finds
that the likely harm that Plaintiffs would suffer if this court does not grant injunctive relief far
outweighs any potential harm to the Defendants. Finally, because the public is not served by
short-circuiting legitimate judicial process, and is greatly served by attempting to ensure that the
most serious punishment is imposed lawfully, this court finds that it is in the public interest to
issue a preliminary injunction. Accordingly, each of Plaintiffs’ motions for preliminary
injunctions is hereby GRANTED.

15

APP.241

Case 3:92-cr-00068-DJN Document 75 Filed 11/19/20 Page 1 of 14 PageID# 2222

APP.242

Case 3:92-cr-00068-DJN Document 75 Filed 11/19/20 Page 2 of 14 PageID# 2223

APP.243

Case 3:92-cr-00068-DJN Document 75 Filed 11/19/20 Page 3 of 14 PageID# 2224

APP.244

Case 3:92-cr-00068-DJN Document 75 Filed 11/19/20 Page 4 of 14 PageID# 2225

APP.245

Case 3:92-cr-00068-DJN Document 75 Filed 11/19/20 Page 5 of 14 PageID# 2226

APP.246

Case 3:92-cr-00068-DJN Document 75 Filed 11/19/20 Page 6 of 14 PageID# 2227

APP.247

Case 3:92-cr-00068-DJN Document 75 Filed 11/19/20 Page 7 of 14 PageID# 2228

APP.248

Case 3:92-cr-00068-DJN Document 75 Filed 11/19/20 Page 8 of 14 PageID# 2229

APP.249

Case 3:92-cr-00068-DJN Document 75 Filed 11/19/20 Page 9 of 14 PageID# 2230

APP.250

Case 3:92-cr-00068-DJN Document 75 Filed 11/19/20 Page 10 of 14 PageID# 2231

APP.251

Case 3:92-cr-00068-DJN Document 75 Filed 11/19/20 Page 11 of 14 PageID# 2232

APP.252

Case 3:92-cr-00068-DJN Document 75 Filed 11/19/20 Page 12 of 14 PageID# 2233

APP.253

Case 3:92-cr-00068-DJN Document 75 Filed 11/19/20 Page 13 of 14 PageID# 2234

APP.254

Case 3:92-cr-00068-DJN Document 75 Filed 11/19/20 Page 14 of 14 PageID# 2235

APP.255

Case 1:19-mc-00145-TSC Document 330 Filed 11/20/20 Page 1 of 5

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
In the Matter of the
Federal Bureau of Prisons’ Execution
Protocol Cases
Case No. 19-mc-0145 (TSC)

LEAD CASE: Roane, et al. v. Barr
THIS DOCUMENT RELATES TO:
Bourgeois v. DOJ, No. 14-0782
Roane, et al. v. Barr, No. 05-2337

NOTICE OF EXECUTION DATES
The United States hereby notifies the Court that the Director of the Federal Bureau
of Prisons, upon the direction of the Attorney General and in accordance with 28 C.F.R.
Part 26, has scheduled the executions of Alfred Bourgeois for December 11, 2020; Cory
Johnson for January 14, 2021; and Dustin Higgs for January 15, 2021. Bourgeois is the
plaintiff in Bourgeois v. DOJ, No. 14-0782 (D.D.C.). Higgs and Johnson are plaintiffs in
Roane v. Barr, No. 05-2337 (D.D.C.). Both cases are part of this consolidated matter.
*

*

*

APP.256

Case 1:19-mc-00145-TSC Document 330 Filed 11/20/20 Page 2 of 5

JEFFREY BOSSERT CLARK
Acting Assistant Attorney General

MICHAEL R. SHERWIN
Acting United States Attorney

JEAN LIN
Special Litigation Counsel

DANIEL F. VAN HORN,
D.C. Bar #924092
Chief, Civil Division

JONATHAN KOSSAK,
D.C. Bar #991478
CRISTEN C. HANDLEY,
MO Bar #69114
BRADLEY P. HUMPHREYS,
D.C. Bar #988057
Trial Attorneys
Federal Programs Branch
Civil Division, Department of Justice
1100 L Street, N.W.
Washington, District of Columbia 20005
(202) 514-3716
jean.lin@usdoj.gov
jonathan.kossak@usdoj.gov
christen.handley@usdoj.gov
bradley.humphreys@usdoj.gov

By: /s/ Johnny Walker
JOHNNY H. WALKER, D.C. Bar #991325
Assistant United States Attorney
555 4th Street, N.W.
Washington, District of Columbia 20530
Telephone: 202 252 2575
Email: johnny.walker@usdoj.gov
Counsel for Defendants

Dated: November 20, 2020

2

APP.257

Case 1:19-mc-00145-TSC Document 330 Filed 11/20/20 Page 3 of 5

CERTIFICATE OF SERVICE
I hereby certify that on November 20, 2020, I caused a true and correct copy of
foregoing to be served on all following counsel of record via the Court’s CM/ECF system.
Joshua C. Toll
King & Spalding LLP
(202) 737-8616
jtoll@kslaw.com

Ginger D. Anders
Jonathan S. Meltzer
Brendan Gants
Munger, Tolles & Olson LLP
(202) 220-1100
ginger.anders@mto.com

Margaret O’Donnell
(502) 320-1837
mod@dcr.net

Counsel for Plaintiff Brandon Bernard

Counsel for Plaintiff Anthony Battle

Alex Kursman
Shawn Nolan
Federal Community Defender Office,
E.D. Pa.
(215) 928-0520
alex_kursman@fd.org
shawn_nolan@fd.org

Scott W. Braden
Arkansas Federal Defender Office
(501) 324-6114
Scott_Braden@fd.org
Jennifer Ying
Andrew Moshos
Morris, Nichols, Arsht & Tunnell LLP
(302) 658-9300
jying@mnat.com
amoshos@mnat.com

Counsel for Plaintiff Alfred Bourgeois

Counsel for Plaintiff Norris G. Holder, Jr.

Joseph Luby
Federal Community Defender Office,
E.D. Pa.
(215) 928-0520
joseph_luby@fd.org

Amy Lentz
Steptoe & Johnson, LLP
(202) 429.1320
alentz@stepoe.com
Counsel for Plaintiff Orlando Hall

Counsel for Plaintiff Chadrick Fulks

3

APP.258

Case 1:19-mc-00145-TSC Document 330 Filed 11/20/20 Page 4 of 5

Shawn Nolan
Federal Community Defender Office,
E.D. Pa.
(215) 928-0520
shawn_nolan@fd.org

Gregory S. Smith
(202) 460-3381
gregsmithlaw@verizon.net
Counsel for Plaintiff William LeCroy

Counsel for Plaintiff Dustin Higgs

Jon Jeffress
KaiserDillon PLLC
(202) 640-2850
jjeffress@kaiserdillon.com

Donald P. Salzman
Charles F. Walker
Steven M. Albertson
Skadden, Arps, Slate, Meagher & Flom
LLP
(202) 371-7983
donald.salzman@skadden.com

Timothy Kane
Shawn Nolan
Federal Community Defender Office,
E.D. Pa.
(215) 928-0520
timothy_kane@fd.org
shawn_nolan@fd.org

Counsel for Plaintiff Corey Johnson

Counsel for Plaintiff Dustin Lee Honken

David S. Victorson
Hogan Lovells US LLP
(202) 637-5600
david.victorson@hoganlovells.com

Shawn Nolan
Federal Community Defender Office,
E.D. Pa.
(215) 928-0528
shawn_nolan@fd.org

Pieter Van Tol
Hogan Lovells US LLP
(212) 918-3000
pieter.vantol@hoganlovells.com

Gary E. Proctor
Law Offices of Gary E. Proctor, LLC
(410) 444-1500
garyeproctor@gmail.com

Counsel for Plaintiff Daniel Lewis Lee

Counsel for Plaintiff Jeffrey Paul

4

APP.259

Case 1:19-mc-00145-TSC Document 330 Filed 11/20/20 Page 5 of 5

Gerald W. King, Jr.
Jeffrey Lyn Ertel
Federal Defender Program, Inc.
(404) 688-7530
Gerald_King@fd.org
Jeff_Ertel@fd.org

Alan E. Schoenfeld
Ryan M. Chabot
Wilmer Cutler Pickering Hale and Dorr
LLP
(212) 230-8880
Alan.Schoenfeld@WilmerHale.com
Ryan.Chabot@WilmerHale.com

Brandon D. Almond
Troutman Sanders LLP
Washington, D.C. 20004
(202) 274-2864
brandon.almond@troutmansanders.com

Andres C. Salinas
Wilmer Cutler Pickering Hale and Dorr
LLP
(202) 663-6289
Andres.Salinas@WilmerHale.com

Counsel for Richard Tipton, III

Counsel for Wesley I. Purkey

Dale A. Baich
Jennifer M. Moreno
Federal Public Defender
District of Arizona
(602) 382-2816
dale_baich@fd.org
jennifer_moreno@fd.org

Amy Karlin
Interim Federal Public Defender
Celeste Bacchi
Jonathan C. Aminoff
Deputy Federal Public Defenders
(213) 894-2854
celeste_bacchi@fd.org

Counsel for Plaintiff Keith Nelson

Counsel for Plaintiff Julius O. Robinson

Paul F. Enzinna
Ellerman Enzinna PLLC
(202)753-5553
penzinna@ellermanenzinna.com

Evan Miller
Vinson & Elkins LLP
(202) 639-6605
emiller@velaw.com

Counsel for Plaintiff James H. Roane, Jr.

Counsel for Bruce Webster

/s/Johnny Walker
Assistant United States Attorney
Counsel for Defendants

5

APP.260

Case 3:92-cr-00068-DJN Document 77 Filed 11/20/20 Page 1 of 2 PageID# 2248

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Richmond Division
UNITED STATES OF AMERICA
v.
COREY JOHNSON,
Defendant.

:
:
:
:
:
:
:

Case No. 3:92CR68 (DJN)
CAPITAL CASE

NOTICE OF APPEAL
Notice is hereby given that the defendant in the above-captioned case hereby appeals to
the United States Court of Appeals for the Fourth Circuit from the Memorandum Order denying
Defendant’s Motion for a Reconsideration of Sentence Hearing Pursuant to the First Step Act
entered in this case on the 19th day of November 2020.
Respectfully submitted,
Dated: November 20, 2020

/s/
David E. Carney, VA Bar # 43914
Donald P. Salzman*
Lotus D. Ryan, VA Bar # 71425
Skadden, Arps, Slate, Meagher & Flom, LLP
1440 New York Avenue, NW
Washington, DC 20005
Telephone: (202) 371-7246
Fax: (202) 661-8295
Email: david.carney@skadden.com
Alexander C. Drylewski*
Judith A. Flumenbaum*
Skadden, Arps, Slate, Meagher & Flom, LLP
One Manhattan West
New York, NY 10001
Telephone: (212) 735-3000
*Admitted Pro Hac Vice
Counsel for Corey Johnson

APP.261

Case 3:92-cr-00068-DJN Document 77 Filed 11/20/20 Page 2 of 2 PageID# 2249

CERTIFICATE OF SERVICE
I hereby certify that on the 20th day of November 2020, I electronically filed the
foregoing with the Clerk of Court using the CM/ECF system, which will then send notification
of such filing to all parties and counsel included on the Court’s Electronic Mail notice list.

/s/
David E. Carney, VA Bar # 43914
Skadden, Arps, Slate, Meagher & Flom, LLP
1440 New York Avenue, NW
Washington, DC 20005
Telephone: (202) 371-7246
Fax: (202) 661-8295
Email: david.carney@skadden.com

2
APP.262

Case 3:92-cr-00068-DJN Document 99 Filed 01/02/21 Page 1 of 22 PageID# 3665

APP.263

Case 3:92-cr-00068-DJN Document 99 Filed 01/02/21 Page 2 of 22 PageID# 3666

APP.264

Case 3:92-cr-00068-DJN Document 99 Filed 01/02/21 Page 3 of 22 PageID# 3667

APP.265

Case 3:92-cr-00068-DJN Document 99 Filed 01/02/21 Page 4 of 22 PageID# 3668

APP.266

Case 3:92-cr-00068-DJN Document 99 Filed 01/02/21 Page 5 of 22 PageID# 3669

APP.267

Case 3:92-cr-00068-DJN Document 99 Filed 01/02/21 Page 6 of 22 PageID# 3670

APP.268

Case 3:92-cr-00068-DJN Document 99 Filed 01/02/21 Page 7 of 22 PageID# 3671

APP.269

Case 3:92-cr-00068-DJN Document 99 Filed 01/02/21 Page 8 of 22 PageID# 3672

APP.270

Case 3:92-cr-00068-DJN Document 99 Filed 01/02/21 Page 9 of 22 PageID# 3673

APP.271

Case 3:92-cr-00068-DJN Document 99 Filed 01/02/21 Page 10 of 22 PageID# 3674

APP.272

Case 3:92-cr-00068-DJN Document 99 Filed 01/02/21 Page 11 of 22 PageID# 3675

APP.273

Case 3:92-cr-00068-DJN Document 99 Filed 01/02/21 Page 12 of 22 PageID# 3676

APP.274

Case 3:92-cr-00068-DJN Document 99 Filed 01/02/21 Page 13 of 22 PageID# 3677

APP.275

Case 3:92-cr-00068-DJN Document 99 Filed 01/02/21 Page 14 of 22 PageID# 3678

APP.276

Case 3:92-cr-00068-DJN Document 99 Filed 01/02/21 Page 15 of 22 PageID# 3679

APP.277

Case 3:92-cr-00068-DJN Document 99 Filed 01/02/21 Page 16 of 22 PageID# 3680

APP.278

Case 3:92-cr-00068-DJN Document 99 Filed 01/02/21 Page 17 of 22 PageID# 3681

APP.279

Case 3:92-cr-00068-DJN Document 99 Filed 01/02/21 Page 18 of 22 PageID# 3682

APP.280

Case 3:92-cr-00068-DJN Document 99 Filed 01/02/21 Page 19 of 22 PageID# 3683

APP.281

Case 3:92-cr-00068-DJN Document 99 Filed 01/02/21 Page 20 of 22 PageID# 3684

APP.282

Case 3:92-cr-00068-DJN Document 99 Filed 01/02/21 Page 21 of 22 PageID# 3685

APP.283

Case 3:92-cr-00068-DJN Document 99 Filed 01/02/21 Page 22 of 22 PageID# 3686

APP.284

Case 3:92-cr-00068-DJN Document 102 Filed 01/02/21 Page 1 of 1 PageID# 3698

APP.285

USCA4 Appeal: 20-15

Doc: 15-1

Filed: 01/07/2021

Pg: 1 of 22

Total Pages:(1 of 493)

EXECUTION SCHEDULED FOR JANUARY 14, 2021
No. 20-15
__________________________________________________________________
IN THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
__________________________________________________________________
UNITED STATES OF AMERICA,
Plaintiff – Appellee,
v.
COREY JOHNSON, A/K/A O, A/K/A CO,
Defendant – Appellant.
__________________________________________________________________
CAPITAL CASE
EMERGENCY MOTION OF COREY JOHNSON FOR STAY OF
EXECUTION PENDING CONSIDERATION AND DISPOSITION OF
APPEAL
__________________________________________________________________
Donald P. Salzman
Jonathan Marcus
David E. Carney
Skadden, Arps, Slate, Meagher & Flom LLP
1440 New York Avenue, NW
Washington, DC 20005
(202) 371-7983
donald.salzman@skadden.com
Counsel for Appellant

APP.286

USCA4 Appeal: 20-15

Doc: 15-1

Filed: 01/07/2021

Pg: 2 of 22

Total Pages:(2 of 493)

TABLE OF CONTENTS
Page
INTRODUCTION ..................................................................................................... 1
I.

MR. JOHNSON HAS A STRONG LIKELIHOOD OF PREVAILING
ON HIS FIRST STEP ACT CLAIM ............................................................... 7
A.

Mr. Johnson Is Eligible for Sentence Reconsideration Because
His § 848 Violations Are “Covered Offenses” ..................................... 9

B.

If Mr. Johnson Were Given the Resentencing Hearing to Which
He Is Entitled, He Could Make a Strong Showing In Support of
a Sentence of Life without Possibility of Parole, rather than
Death.................................................................................................... 12

II.

MR. JOHNSON FACES IRREPARABLE HARM ABSENT A STAY ...... 15

III.

THE BALANCE OF EQUITIES TIPS IN FAVOR OF A STAY ................ 16

IV.

THE PUBLIC INTEREST FAVORS A STAY ............................................ 17

V.

MR. JOHNSON DID NOT DELAY IN BRINGING THIS ACTION ......... 18

CONCLUSION ........................................................................................................ 18

i
APP.287

USCA4 Appeal: 20-15

Doc: 15-1

Filed: 01/07/2021

Pg: 3 of 22

Total Pages:(3 of 493)

Appellant, Corey Johnson, respectfully requests a stay of his execution, set
for Thursday, January 14, pending this Court’s consideration of his appeal of the
denial of his claim for relief under Section 404 of the First Step Act.1 In support of
his stay request, he submits the following:
INTRODUCTION
Section 404 of the First Step Act of 2018, Pub. L. No. 115-391, 132 Stat.
5194, passed in late 2018 by a bipartisan Congress, was designed to give
retroactive effect to the Fair Sentencing Act of 2010, Pub. L. No. 111-220, 124
Stat. 2372, by giving federal prisoners, convicted of crimes stemming from
involvement in crack distribution violations, one chance—no more, but also no
less—for a new sentencing proceeding at which they can present evidence in
support of a reduced sentence.2 The chance to revisit these penalties was deemed
so important by Congress that Section 404 was made available to federal prisoners

1

Counsel advised the government of its intent to file this Motion, and the
government expressed its intention to oppose the Motion. Mr. Johnson did not file
for a stay in the district court because the district court’s opinion made clear that
such an effort would be futile, excusing any obligation.
2

Section 404 was adopted largely in recognition that the enormous sentencing
disparities that had existed for crimes involving crack versus crimes involving
powder cocaine were unwarranted and had, in turn, created racial disparities in
sentencing that could not be countenanced. See United States v. Wirsing, 943 F.3d
175, 177-78 (4th Cir. 2019). Corey Johnson is African American.
1
APP.288

USCA4 Appeal: 20-15

Doc: 15-1

Filed: 01/07/2021

Pg: 4 of 22

Total Pages:(4 of 493)

as an initial—not a successive—action, even if they had exhausted all other
avenues of direct and post-conviction appeal.
Since its passage, thousands of prisoners across the country have sought
relief under Section 404 and questions regarding its coverage and interpretation
have come before this Court on several occasions. In analyzing applicants’ claims,
this Court has said they must show only that they committed a “covered offense”
—a violation for which the penalties for the “statute of conviction” have been
modified even slightly by the Fair Sentencing Act. This Court has emphasized that
Congress gave no indication when passing the First Step Act that it “intended a
complicated and eligibility-limiting determination at the ‘covered offense’ stage of
the analysis,” Wirsing, 943 F.3d at 186, nor is it necessary that the Fair Sentencing
Act explicitly modified the “statute of conviction.” United States v. Woodson, 962
F.3d 812, 816 (4th Cir. 2020). If a showing of eligibility is made, the applicant is
entitled to have his or her sentence reconsidered, without qualification, and the
sentencer must take into account current law and mitigating evidence developed
post-conviction. 18 U.S.C. § 3553.
Mr. Johnson is a federal death row prisoner. In 1993, he was convicted of
multiple offenses, including murders in the course of a continuing criminal
enterprise (“CCE”) in violation of 21 U.S.C. § 848, all stemming from crack

2
APP.289

USCA4 Appeal: 20-15

Doc: 15-1

Filed: 01/07/2021

Pg: 5 of 22

Total Pages:(5 of 493)

distribution activities; he was sentenced to death for all but one of the CCE
murders.
On August 19, 2020,3 like many others before him, Mr. Johnson sought a
sentence reduction from death to life without possibility of parole, pursuant to
Section 404 of the First Step Act for violations of 21 U.S.C. § 848. He brought
this action after other federal courts in Virginia and elsewhere had determined that
§ 848 CCE crimes were “covered offenses,” and some litigants were given
sentencing relief.
Mr. Johnson demonstrated to the district court that his crimes were covered
offenses and asked that his sentences therefore be reconsidered. Mr. Johnson
requested that, consistent with federal law and capital jurisprudence, his sentence
reconsideration be conducted by a jury, and he proffered evidence showing that the
sentencer would have ample reason to consider a sentence less than death. See
Memorandum in Support of Motion for Reconsideration of Sentence Hearing
Pursuant to the First Step Act of 2018 (the “Motion”) at APP.28-58.
In Mr. Johnson’s case, the district court, contrary to its sister courts in the
Western District of Virginia, held that Mr. Johnson’s violations of § 848 were not
“covered offenses.” The court further held that, because no explicit provision was

3

This was months before the Department of Justice set his execution date.
3
APP.290

USCA4 Appeal: 20-15

Doc: 15-1

Filed: 01/07/2021

Pg: 6 of 22

Total Pages:(6 of 493)

made for relief in capital cases, the First Step Act excluded them. The district
court also announced that, even if Mr. Johnson’s violations had been covered
offenses, it
refuses to overturn the will of the community. It is not the Court’s
role to revisit the jury’s determination, especially when doing so
would run contrary to the goals of the First Step Act.
The district court stated it would, therefore, not entertain any such sentence
reduction. Memorandum Order (the “Johnson Memorandum Order” or “Johnson
Order”) at APP.443.
On November 20, 2020, days after the district court denied his motion and
Mr. Johnson had filed a notice to appeal that decision to this Court, the government
set an execution date for Mr. Johnson of January 14, 2021.
Mr. Johnson’s case is the first to seek relief from the First Step Act for a
death-sentenced prisoner for convictions under 21 U.S.C. § 848. Two other such
capital cases (those of his codefendants) are also pending before this Court. But
the district courts have had occasion to consider whether the Act includes § 848
offenses in the context of non-capital crimes, and contrary to the finding of the
district court in Mr. Johnson’s case, several held that violations of § 848 do indeed
constitute “covered offenses” and have reconsidered the defendants’ sentences.
Thus, in seeking this relief, Mr. Johnson asks only for the same relief that has been
granted others: a determination of eligibility followed by the opportunity to

4
APP.291

USCA4 Appeal: 20-15

Doc: 15-1

Filed: 01/07/2021

Pg: 7 of 22

Total Pages:(7 of 493)

persuade the appropriate sentencer that, given the evidence he could now present in
mitigation of punishment, a sentence of life without possibility of parole is
sufficient, and no more than necessary, to adequately punish him and protect the
public.
Mr. Johnson is entitled to a stay of execution pending consideration of this
claim because he can demonstrate to this Court that he has a “significant possibility
of success on the merits,” Hill v. McDonough, 547 U.S. 573, 584 (2006), that “he
is likely to suffer irreparable harm in the absence of [this] preliminary relief, that
the balance of equities tips in his favor, and that an injunction is in the public
interest.” Glossip v. Gross, 576 U.S. 862, 876 (2015) (citation omitted).
Mr. Johnson is likely to succeed on the merits of his claim because: (1)
others have already won on the question of eligibility that he presents (and it is a
categorical determination);4 (2) the district court erred as a matter of law when
announcing it was not the court’s role to overturn the 1993 jury sentencing
determination, when this Court’s holdings mandate the consideration of factors not
available at the time the original sentence was imposed; and (3) Mr. Johnson has a

4

Mr. Johnson is aware of two cases in which § 848(e) offenses were deemed
covered offenses, reduced sentences were imposed, and the government has not
appealed these outcomes. See Order, United States v. Peterson, No. 94-CR-46-3H
(E.D.N.C. Dec. 17, 2020) (reducing defendant’s sentence from life to 384 months);
Order, United States v. Brown, 03-CR0612 (E.D. Va. Sept. 21, 2020) (reducing
defendant’s sentence from 30 years to 23 years).
5
APP.292

USCA4 Appeal: 20-15

Doc: 15-1

Filed: 01/07/2021

Pg: 8 of 22

Total Pages:(8 of 493)

compelling case for sentence reduction, given the strong evidence that he is
intellectually disabled; the fact that, despite the government’s arguments in 1993
that he would be a “future danger,” he has been a model inmate with a practically
unblemished record for more than two decades; deep remorse; and other evidence
that, despite the severity of his crimes, would support a sentence of life
imprisonment rather than death.
Mr. Johnson, therefore, asks only that this Court stay his execution until it
has time to deliberate thoughtfully, in the time-honored manner to which every
litigant is entitled.
ARGUMENT
Courts in the Fourth Circuit treat a motion to stay an execution as a request
for a preliminary injunction. See, e.g., Prieto v. Clarke, No. 15CV587, 2015 WL
5793903 (E.D. Va. Oct. 1, 2015). “A plaintiff seeking a preliminary injunction
must establish that he is likely to succeed on the merits, that he is likely to suffer
irreparable harm in the absence of preliminary relief, that the balance of equities
tips in his favor, and that an injunction is in the public interest.” Glossip, 576 U.S.
at 876 (quoting Winter v. Nat. Res. Def. Council, Inc., 555 U.S. 7, 20 (2008)). As
to the first of these factors, the Supreme Court has explained that a stay applicant
must make “a strong showing that he is likely to succeed on the merits” and that
“[t]he first two factors . . . are the most critical.” Nken v. Holder, 556 U.S. 418,

6
APP.293

USCA4 Appeal: 20-15

Doc: 15-1

Filed: 01/07/2021

Pg: 9 of 22

Total Pages:(9 of 493)

434 (2009) (citation omitted). In addition to these factors, courts consider “the
extent to which the inmate has delayed unnecessarily in bringing the claim” at
issue. Nelson v. Campbell, 541 U.S. 637, 649-50 (2004).
Mr. Johnson is entitled to a stay under these standards.5
I.

MR. JOHNSON HAS A STRONG LIKELIHOOD OF PREVAILING
ON HIS FIRST STEP ACT CLAIM
Mr. Johnson has a significant likelihood of success on the merits of his First

Step Act claim. Mr. Johnson is eligible for relief under the First Step Act because,
like others with similar claims who have prevailed,6 he was convicted of offenses

5

The First Step Act was meant to provide applicants a discrete opportunity to
have their sentences reconsidered without the procedural hurdles applicable to
most post-conviction challenges. The government has compromised that
opportunity for Mr. Johnson by setting an execution date in the middle of his
litigation.
6

See, e.g., United States v. Davis, No. 93-CR-30025, 2020 WL 1131147, at *2
(W.D. Va. Mar. 9, 2020) (“[A] defendant’s § 848(e)(1)(A) conviction is a covered
offense because it relies on the drug quantity thresholds set by § 841 and,
therefore, requires a jury finding that the defendant committed a murder in
furtherance of a drug conspiracy to sell 280 or more grams of cocaine base.”),
appeal dismissed, No. 20-6383 (4th Cir. Oct. 20, 2020); Order, United States v.
Fells, 94-CR-46 (E.D.N.C. Dec. 17, 2020); United States v. Brown, No. 08-CR00011-1, 2020 WL 3106320, at *4 (W.D. Va. 2020); Order at 5, United States v.
Kelly, No. 94-CR-163 (E.D. Va. June 5, 2020) (sentencing reduction granted;
government has not appealed); Wright v. United States, 425 F. Supp. 3d 588, 598
(E.D. Va. 2019); Order at 1, United States v. Groves, No. 94-CR-97 (E.D.N.C.
Nov. 21, 2019); United States v. Dean, No. 97-276(3), 2020 WL 2526476, at *3
(D. Minn. May 18, 2020); United States v. Jimenez, No. 92-CR-550-01, 2020 WL
2087748, at *2 (S.D.N.Y. Apr. 30, 2020); Mem.-Dec. and Order at 4, United States
v. Hines, No. 94-CR-150 (N.D.N.Ya. Nov. 8, 2019), ECF No. 607; Mem.-Dec. and

7
APP.294

USCA4 Appeal: 20-15

Doc: 15-1

Filed: 01/07/2021

Pg: 10 of 22

Total Pages:(10 of 493)

under 21 U.S.C. § 848, and the Fair Sentencing Act modified the penalties of 21
U.S.C. § 848, his “statute of conviction.” As a result of his eligibility, and under
this Circuit’s case law, he should be able to present to a sentencer the extensive
evidence he now has, including, inter alia, a strong showing of intellectual
disability7 and a virtually unblemished prison record spanning more than two
decades, proving that he has adjusted to the strictures of prison without committing
any further violence. United States v. Chambers, 956 F.3d 667, 675 (4th Cir.
2020).
Mr. Johnson’s application for relief does not rest on a blank slate in this
Court. To the contrary, this Court has laid out clear standards that fully support
both his eligibility to have his sentence reconsidered8 and the principles that

Order at 4, United States v. Walker, No. 95-CR-101 (N.D.N.Y. Oct. 25, 2019),
ECF No. 620; Dec. and Order at 4, United States v. Robinson, No. 98-CR-60 (E.D.
Wis. Sept. 27, 2019), ECF No. 606.
7

Mr. Johnson has presented a strong case of intellectual disability, which has
never been presented to any court and which should render him ineligible for
execution, in other pleadings before this Court. That issue does not need to be
reached in this appeal or in this stay motion: if a stay is granted so that he can
proceed under the First Step Act, all of that evidence could be considered by the
sentencer in determining punishment.
8

Wirsing, 943 F.3d at 186 (Courts should look only to whether penalties were
modified for the “statute of conviction,” and not engage in “complicated and
eligibility-limiting determination[s] at the ‘covered offense’ stage of the [First Step
Act] analysis.”); United States v. Gravatt, 953 F.3d 258, 264 (4th Cir. 2020) (Had
Congress intended for the First Step Act not to apply in certain circumstances, “it
could have included that language,” and this Court has accordingly “decline[d] to

8
APP.295

USCA4 Appeal: 20-15

Doc: 15-1

Filed: 01/07/2021

Pg: 11 of 22

Total Pages:(11 of 493)

circumscribe the exercise the sentencer’s discretion in deciding whether to reduce
his or her sentence. Chambers, 956 F.3d at 675.
A.

Mr. Johnson Is Eligible for Sentence Reconsideration Because His
§ 848 Violations Are “Covered Offenses”

When a claim is brought by a defendant for First Step Act relief, the Act
requires the court to engage in a two-part process. First, the court is required to
determine whether the defendant has committed a “covered offense.” Mr. Johnson
was convicted of violations of 21 U.S.C. § 841 (Counts 32 and 33) and § 848
(Counts 2, 8, 11, 17-19, 24, and 25). Each of these violations constitutes a
“covered offense” under section 404 of the First Step Act because each is a
violation of a “Federal criminal statute, the statutory penalties for which were
modified by section 2 or 3 of the Fair Sentencing Act.”9
This Court has held that eligibility turns only on whether the penalties for
the “statute of conviction” under which a violation has charged have been modified

expand the limitations crafted by Congress.”); Woodson, 962 F.3d at 816 (A
modification to a penalty can be slight, does not have to be explicitly mentioned in
section 2 or 3 of the Fair Sentencing Act, and the defendant’s sentencing range
does not have to change in order for him or her to have a “covered offense.”).
9

Mr. Johnson confines his discussion hereafter to the § 848 offenses because the
district court has already determined that his § 841 offenses are “covered
offenses.”

9
APP.296

USCA4 Appeal: 20-15

Doc: 15-1

Filed: 01/07/2021

Pg: 12 of 22

Total Pages:(12 of 493)

by the First Step Act. Wirsing, 943 F.3d at 186.10 Some of these courts, both in
this Circuit and elsewhere, have determined that the statute of conviction for any
subsection of § 848 violations is 21 U.S.C. § 848 as a whole. See, e.g., Brown,
2020 WL 3106320; United States v. Moore, No. 95-CR-509-2, 2020 WL 4748154
(N.D. Ill. Aug. 17, 2020). These analyses are compelling because the term “statute
of conviction” has a natural meaning, because § 848 is brief and concise, and
because each provision of § 848 is dependent on the central subsection 848(c),
which defines a CCE. The other subsections lay out penalties and additional
elements, but all revolve around a defendant’s participation in a CCE. Brown,
2020 WL 3106320, at *4.
These district courts have further determined, and, in some cases, the
government has conceded, that the penalties for both subsections 848(b) and
848(e), which predicate violations on underlying § 841(b)(1) violations, have been
modified by the Fair Sentencing Act. Accordingly, § 848, the statute of

10

See also United States v. Boulding, 960 F.3d 774, 779 (6th Cir. 2020); United
States v. Shaw, 957 F.3d 734, 739 (7th Cir. 2020) (holding that “the statute of
conviction alone determines eligibility for First Step Act relief”); United States v.
Jackson, 964 F.3d 197, 206 (3d Cir. 2020) (“[Section] 404 eligibility turns on a
defendant’s statute of conviction.”).

10
APP.297

USCA4 Appeal: 20-15

Doc: 15-1

Filed: 01/07/2021

Pg: 13 of 22

Total Pages:(13 of 493)

conviction, has been modified by the Fair Sentencing Act, and defendants who
violated § 848 are eligible for reconsideration of their sentences.11
Even if Mr. Johnson’s “statute of conviction” were to be deemed subsection
848(e), as the district court below determined, that subsection was itself modified
by the Fair Sentencing Act. Davis, 2020 WL 1131147, at *2; accord Gravatt, 953
F.3d at 263.
The district court was wrong to parse the statute even further by breaking
subsection 848(e) into its component parts. Doing so runs contrary to the language
of Wirsing, which concluded that Congress did not intend the eligibility
determination to be complicated or eligibility-limiting. Wirsing, 943 F.3d at 186.
Nor, contrary to the opinion of the district court, does the fact that the sentencing
range of an individual defendant would not have changed as a result of the Fair
Sentencing Act defeat eligibility under this first prong. Woodson, 962 F.3d at 81617.

11

See, e.g., Order at 5, United States v. Kelly, No. 94-CR-163-4 (E.D. Va. June 5,
2020); Wright, 425 F. Supp. 3d at 598; Order at 1, United States v. Groves, No. 94CR-97 (E.D.N.C. Nov. 21, 2019); Dean, 2020 WL 2526476, at *3; Jimenez, 2020
WL 2087748, at *2; Mem.-Dec. and Order at 4, United States v. Hines, No. 94CR-150 (N.D.N.Y. Nov. 8, 2019), ECF No. 607; Mem.-Dec. and Order at 4,
United States v. Walker, No. 95-CR-101 (N.D.N.Y. Oct. 25, 2019), ECF No. 620;
Dec. and Order at 4, United States v. Robinson, No. 98-CR-60 (E.D. Wis. Sept. 27,
2019), ECF No. 606.
11
APP.298

USCA4 Appeal: 20-15

Doc: 15-1

Filed: 01/07/2021

Pg: 14 of 22

Total Pages:(14 of 493)

For each of these reasons, discussed more thoroughly in Mr. Johnson’s
Opening Brief dated December 28, 2020 (“Brief”) (Brief at 19-44), Mr. Johnson is
likely to succeed in demonstrating his entitlement to sentence reconsideration
under Section 404.
B.

If Mr. Johnson Were Given the Resentencing Hearing to Which
He Is Entitled, He Could Make a Strong Showing In Support of a
Sentence of Life without Possibility of Parole, rather than Death

In order to prevail on his appeal in this Court, Mr. Johnson need only
demonstrate he has committed a “covered offense,” a showing that would trigger a
remand for reconsideration of his sentence.12 Thus, in order to show a likelihood
of success on the merits warranting a stay, he need not go any further.
It is nevertheless worth noting two important points: First, the district court
erred in its discussion of sentence reconsideration, even if it were determined—
which it should not be—that the court, rather than a jury, should consider whether
to impose a new sentence. The district court treated the extensive evidence Mr.
Johnson proffered dismissively and ticked through the sentencing factors listed in

12

Mr. Johnson has argued in his appeal as he did in the district court that,
consistent with 21 U.S.C. § 848(l), 18 U.S.C. § 3593, and long-established
principles of capital jurisprudence, he must be resentenced by a jury, not by the
court. See, e.g., Ring v. Arizona, 536 U.S. 584, 609 (2002); Hurst v. Florida, 136
S. Ct. 616, 624 (2016); United States v. Stitt, 552 F.3d 345, 354-55 (4th Cir. 2008).
The district court erred when it rejected this argument and found that not only
should no new jury be imposed, but the court itself did not have the authority to
upend the decision made by Mr. Johnson’s 1993 jury.
12
APP.299

USCA4 Appeal: 20-15

Doc: 15-1

Filed: 01/07/2021

Pg: 15 of 22

Total Pages:(15 of 493)

18 U.S.C. § 3553 mechanically at best. Then, ultimately, the district court
announced that, in any event, it was not the court’s “role” to re-examine the
sentences that had been imposed by Mr. Johnson’s 1993 jury—despite this Court’s
previous holdings that evidence of positive prison adjustment, post-conviction
mitigation, and current law must be taken into account in a First Step Act sentence
reconsideration.
Second, the evidence the district court refused to consider was substantial
and was never heard by that 1993 jury. This included:
• Evidence, science, and law demonstrating that Mr. Johnson is a
person with intellectual disability. This evidence includes three
opinions of nationally renowned experts who specialize in
identifying and diagnosing intellectual disability.
• Mr. Johnson suffered horrific abuse, neglect, and abandonment
throughout his childhood.
• As is often the case with people with intellectual impairments who
lack life skills—particularly those who were physically and
emotionally abused as children—Mr. Johnson was a follower, not
a leader, who was easily manipulated and would do anything to
please others. This element of his character is critical to an
understanding of his role in the crimes for which he was convicted.
• Mr. Johnson has an essentially flawless prison record, and a
sentence reconsideration would not encourage future crime or
endanger the public. Mr. Johnson has been incarcerated for 28
years, and during that time he has been a model federal inmate.
• Mr. Johnson’s sentence is disproportionate compared to sentences
imposed on his co-defendant Vernon Lance Thomas, who like Mr.
Johnson has intellectual disability and was spared the death penalty
despite being found guilty of four murders in furtherance of a

13
APP.300

USCA4 Appeal: 20-15

Doc: 15-1

Filed: 01/07/2021

Pg: 16 of 22

Total Pages:(16 of 493)

CCE, and is disproportionate compared to other similarly situated
defendants.
• Mr. Johnson was only 22 at the time of his arrest. Now, Mr.
Johnson is 52 years old and poses no threat to the prison
population at large.
• Mr. Johnson has demonstrated sincere remorse. Even with his
limited ability to express himself, he conveyed his profound regret
and accepted responsibility for his crimes at his sentencing
hearing.
This Court has held, contrary to the opinion of the district court, that such postconviction evidence should be considered by the sentencer. Chambers, 956 F.3d at
674.13
In announcing that it is not the role of the courts to upend the sentencing
decision of a jury issued 27 years ago, the district court erred as a matter of law.
The entire point of the First Step Act is to provide reconsideration of sentences
imposed before passage of the Fair Sentencing Act and a stay is necessary in order
for this evidence to be considered. Chambers, 956 F.3d at 672, 674.

13

See also United States v. White, No. 19-3058, 2020 WL 7702705, at *1 (D.C.
Cir. Dec. 29, 2020) (“[I]t is unclear whether the court properly weighed the factors
listed in 18 U.S.C. § 3553(a). And there is nothing to indicate that the District
Court weighed the mitigating factors raised by Appellants.”); United States v.
Martin, No. 19-3905, 2020 WL 3251021, at *2 (6th Cir. June 16, 2020) (finding
that the “district court erred in limiting what information it could consider for
resentencing under the First Step Act”).
14
APP.301

USCA4 Appeal: 20-15

II.

Doc: 15-1

Filed: 01/07/2021

Pg: 17 of 22

Total Pages:(17 of 493)

MR. JOHNSON FACES IRREPARABLE HARM ABSENT A STAY
Mr. Johnson will suffer irreparable harm absent a stay because in the

absence of immediate relief, no court, could reverse the harm caused by moving
forward. See Mountain Valley Pipeline, LLC v. 6.56 Acres of Land, Owned by
Sandra Townes Powell, 915 F.3d 197, 218 (4th Cir. 2019) (“[I]rreparable harm is
often suffered when . . . the district court cannot remedy the injury following a
final determination on the merits.” (alterations in original) (quoting Prairie Band
of Potawatomi Indians v. Pierce, 253 F.3d 1234, 1250 (10th Cir. 2001)). “In cases
involving the death penalty when an execution date has been set, as here, it is a
certainty that irreparable harm will result if the court of appeals’ decision is not
stayed.” Beaver v. Netherland, 101 F.3d 977, 979 (4th Cir. 1996); see also Oken v.
Sizer, 321 F. Supp. 2d 658, 666 (D. Md. 2004) (“[T]he irreparable harm to one
seeking a stay of execution is ordinarily obvious.”); Battaglia v. Stephens, 824
F.3d 470, 475 (5th Cir. 2016) (“[I]n a capital case, the possibility of irreparable
injury weighs heavily in the movant’s favor.” (citation omitted)).
Mr. Johnson’s execution date has been set and is imminent. Without a stay
to allow this Court to consider his arguments, Mr. Johnson will suffer irreparable
harm.

15
APP.302

USCA4 Appeal: 20-15

III.

Doc: 15-1

Filed: 01/07/2021

Pg: 18 of 22

Total Pages:(18 of 493)

THE BALANCE OF EQUITIES TIPS IN FAVOR OF A STAY
Here, Mr. Johnson is requesting a stay only long enough to have his First

Step Act claim adjudicated by this Court. Although the government normally has
a “strong interest” in “proceeding with its judgment,” Nelson, 541 U.S. at 649-50
(citation omitted), no such interest exists here, where the government itself has
caused a decade-long delay in bringing Mr. Johnson’s case to this point. The
government initially set an execution date for Mr. Johnson in 2006 but was unable
to carry the execution out at that time because of flaws in its execution protocol.
Tasked by the courts with the job of replacing its flawed protocol, the government
passed the next eight years, from 2011 to 2019, without any execution protocol at
all. Mem. Op. at 14, In re the Fed. Bureau of Prisons’ Execution Protocol Cases,
No. 19-mc-145 (D.D.C. Nov. 20, 2019), ECF No. 50. The Department of Justice
then set a new execution date after Mr. Johnson had already initiated his First Step
Act litigation. The government thus has no basis to argue now that a delay of the
several weeks it would take to complete briefing in this case and have this Court
resolve Mr. Johnson’s claim would infringe its interests.14

14

Under the briefing schedule set by this Court the government's opposition brief
is due on January 19, 2021
16
APP.303

USCA4 Appeal: 20-15

IV.

Doc: 15-1

Filed: 01/07/2021

Pg: 19 of 22

Total Pages:(19 of 493)

THE PUBLIC INTEREST FAVORS A STAY
The public interest favors granting a stay. Here Mr. Johnson is asking only

for a matter of weeks to have this Court (and, if necessary, the Supreme Court)
carefully consider the applicability and implementation of the First Step Act to his
case, time that was cut short only by the unilateral setting by the government of
this execution date. The public as a whole, as exemplified by a bipartisan
Congress and two Presidents, passed the First Step Act 25 years after Mr.
Johnson’s trial to fix serious flaws in the law under which he was charged and
sentenced, and have made Section 404 broadly applicable to correct those flaws.
These elected officials represent the whole of the public and have provided a
mechanism designed to allow people who committed covered offenses to have
their sentences reconsidered. A chief consideration was the disparate treatment on
the basis of race that prejudiced those convicted of crack cocaine offenses. These
elected officials believed this was such an important interest that they gave every
person a way back into court, without an authorization requirement, even if the
person had long before exhausted his or her appeals. Thus, it is plainly in the
public interest that the government not be permitted to execute Mr. Johnson to
deny him the opportunity the law intended to give him to ensure that his sentence
was not tainted by racially driven disparate treatment.

17
APP.304

USCA4 Appeal: 20-15

V.

Doc: 15-1

Filed: 01/07/2021

Pg: 20 of 22

Total Pages:(20 of 493)

MR. JOHNSON DID NOT DELAY IN BRINGING THIS ACTION
Mr. Johnson has not been dilatory in his pursuit of a remedy under the First

Step Act. In fact, Mr. Johnson filed his claim under it in August, 2020, just weeks
after determinations had been made in non-capital cases that 21 U.S.C. § 848 was a
covered offense, and after this Court determined that sentence reconsideration
included consideration of post-conviction conduct. Davis, 2020 WL 1131147, at
*2; Jimenez, 2020 WL 2087748, at *2; Order, United States v. Kelly, No. 94-CR163-4 (E.D. Va. June 5, 2020). There was no unreasonable delay.
CONCLUSION
For all the foregoing reasons, and to prevent the irredeemable injustice that
would occur were Mr. Johnson’s execution to go forward before his rights can be
adjudicated, he respectfully asks this Court to enter a stay pending consideration
and determination of his First Step Act appeal.
Dated: January 7, 2021

Respectfully submitted,
/s/ Donald P. Salzman
Donald P. Salzman
Jonathan Marcus
David E. Carney
Skadden, Arps, Slate, Meagher & Flom, LLP
1440 New York Avenue, NW
Washington, DC 20005
(202) 371-7983
donald.salzman@skadden.com
Counsel for Corey Johnson

18
APP.305

USCA4 Appeal: 20-15

Doc: 15-1

Filed: 01/07/2021

Pg: 21 of 22

Total Pages:(21 of 493)

CERTIFICATE OF COMPLIANCE
1.

This motion contains 4539 words, excluding the parts of the brief exempted

from the word count by Fed. R. App. P. Rule 27(d)(2) and Rule 32(f).
2.

This motion complies with the font, spacing, and type size requirements set

forth in Fed. R. App. P. Rule 32(a)(5).
/s/ Donald P. Salzman

APP.306

USCA4 Appeal: 20-15

Doc: 15-1

Filed: 01/07/2021

Pg: 22 of 22

Total Pages:(22 of 493)

CERTIFICATE OF SERVICE
I certify that on this 7th day of January 2021, the foregoing document was
served on all parties or their counsel of record though the CM/ECF system, which
will then send notification of such filing to all parties and counsel included on the
Court’s Electronic Mail notice list.

/s/ Donald P. Salzman
Donald P. Salzman
Skadden, Arps, Slate, Meagher & Flom LLP
1440 New York Avenue, NW
Washington, DC 20005
(202) 371-7983
donald.salzman@skadden.com
Counsel for Corey Johnson

APP.307

Case 1:19-mc-00145-TSC Document 394 Filed 01/12/21 Page 1 of 31

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

In the Matter of the
Federal Bureau of Prisons’ Execution
Protocol Cases,
LEAD CASE: Roane, et al. v. Barr
THIS DOCUMENT RELATES TO:
Roane v. Barr, 05-cv-2337

)
)
)
)
)
)
)
)
)
)
)

Case No. 19-mc-145 (TSC)

MEMORANDUM OPINION
With over 376,000 Americans dead and more than twenty-one million infected, the
COVID-19 pandemic “need[s] no elaboration.” Merrill v. People First of Ala., 141 S. Ct. 25, 26
(2020) (Sotomayor, J., dissenting). And with each day bringing a new record number of
infections, “the COVID-19 pandemic remains extraordinarily serious and deadly.” Roman Cath.
Diocese of Brooklyn v. Cuomo, 141 S. Ct. 63, 73 (2020) (Kavanaugh, J., concurring).
Among the most susceptible to the spread of COVID-19 is the prison inmate population.
As several outbreaks have shown, “COVID-19 can overtake a prison in a matter of weeks.”
Valentine v. Collier, 141 S. Ct. 57, 62 (2020) (Sotomayor, J., dissenting) (discussing one facility
which recorded over 200 cases, 5 deaths, and 12 hospitalizations in less than three weeks). This
is unsurprising given that most inmates are unable to socially distance, have limited access to
adequate testing, and are often housed in buildings with poor circulation.
Despite the pandemic, and the current record high rates of infections and fatalities,
Defendants intend to go forward with the scheduled executions of Plaintiffs Cory Johnson and
Dustin Higgs on January 14 and 15, 2021, although both men have been diagnosed with COVID-

1
APP.308

Case 1:19-mc-00145-TSC Document 394 Filed 01/12/21 Page 2 of 31

19. Higgs and Johnson are housed at the Federal Correctional Institution in Terre Haute,
Indiana, a facility experiencing its own “massive COVID-19 outbreak.” Michael Balsamo &
Michael R. Sisak, Execution staff have COVID-19 after inmate put to death, AP News (Dec. 8,
2020), https://apnews.com/article/prisons-coronavirus-pandemic-executions-terre-haute-indianae80af6a566bbff50ed5e9a097c305dbb.
Defendants intend to carry out the executions according to the procedures set forth in the
Federal Bureau of Prisons 2019 Execution Protocol (the 2019 Protocol), which includes a lethal
injection of five grams of pentobarbital. Plaintiffs received notice of their diagnoses less than a
month before their executions—after Defendants assured the court that “allegations regarding the
prevalence of COVID-19 at [] Terre Haute . . . are dated” and that adequate procedures were in
place to protect the inmate population. (ECF No. 306-1 at 10 n.3.) Plaintiffs have asked the
court to enjoin their executions, arguing that injection of a lethal dose of pentobarbital given their
COVID-19 infections will cause them to suffer an excruciating death. Specifically, they argue
that damage to their lungs and other organs will cause them to experience the sensation of
drowning caused by flash pulmonary edema almost immediately after injection but before they
are rendered unconscious.
Defendants argue that Plaintiffs’ claims here are the same as those previously rejected by
the Supreme Court. (See ECF No. 380, Defs. Opp’n at 17.) 1 The court disagrees. Plaintiffs have

1

Citing Sixth Circuit precedent, Defendants also argue that “even if any of the inmates did
briefly experience the effects of ‘flash’ pulmonary edema prior to becoming insensate, it would
not suffice to establish a violation of the Eighth Amendment.” (Def. Opp’n at 16 (citing In re
Ohio Execution Protocol Litig., 946 F.3d 287, 298 (6th Cir. 2019) (holding that pulmonary
edema does not “qualify as the type of serious pain prohibited by the Eighth Amendment.”)).)
This is at odds with D.C. Circuit precedent, which found that flash pulmonary edema could
indeed give rise to an Eighth Amendment violation. See Execution Protocol Cases, 980 F.3d at
132. Defendants similarly contend that in Bucklew, the Supreme Court “rejected an Eighth
Amendment challenge to a single-drug pentobarbital protocol “as applied to a prisoner with a
2
APP.309

Case 1:19-mc-00145-TSC Document 394 Filed 01/12/21 Page 3 of 31

pleaded as-applied Eighth Amendment challenges based on their specific health conditions.
Moreover, they allege that their health has been worsened by their infection with COVID-19, an
illness which has resulted in a global pandemic for the better part of a year. Given these unique
circumstances, the court held an evidentiary hearing to assess the credibility of the parties’ expert
opinions.
Having heard and reviewed the expert testimony, the court finds that Plaintiffs are likely
to succeed on the merits of their as-applied Eighth Amendment challenge. Specifically, they
have demonstrated that as a result of their COVID-19 infection, they have suffered significant
lung damage such that they will experience the effects of flash pulmonary edema one to two
seconds after injection and before the pentobarbital has the opportunity to reach the brain. This
will subject Plaintiffs to a sensation of drowning akin to waterboarding, a side effect that could
be avoided were Defendants to implement certain precautions, such as administering a pre-dose
analgesic or carrying out the execution by firing squad.
For the reasons set forth below, and in light of these unprecedented circumstances, the
court will grant a limited injunction to allow Plaintiffs the opportunity to adequately recover
from COVID-19, at which point it will evaluate whether to extend the injunction in light of any
new medical evidence submitted by the parties.
I.

BACKGROUND

After a hiatus of more than fifteen years, on July 25, 2019, the Department of Justice
announced plans to resume federal executions. See Press Release, Dep’t of Justice, Federal

unique medical condition that could only have increased the baseline risk of pain associated with
pentobarbital.” (Defs. Opp’n at 17 (discussing Bucklew, 140 S. Ct. at 2159).) The D.C. Circuit
disagrees. “Allegations regarding flash pulmonary edema were not [] before the Supreme Court
in Bucklew.” Execution Protocol Cases, 980 F.3d at 131.
3
APP.310

Case 1:19-mc-00145-TSC Document 394 Filed 01/12/21 Page 4 of 31

Government to Resume Capital Punishment After Nearly Two Decade Lapse (July 25, 2019),
https://www.justice.gov/opa/pr/federal-government-resume-capital-punishment-after-nearly-twodecade-lapse. To implement these executions, the Federal Bureau of Prisons (BOP) adopted a
new execution protocol: the 2019 Protocol. (ECF No. 39-1, Admin. R. at 1021–75.)
On September 1, 2020, the court granted Higgs’ unopposed motion to intervene in Roane
v. Gonzales, No. 05-2337, a case brought by several death row inmates (including Plaintiff Cory
Johnson) challenging the legality of the 2019 Protocol. (ECF Nos. 229, 229-1.) 2 Higgs’ claims
were largely the same as those asserted by the other Plaintiffs, with one exception: he brought an
as-applied challenge under the Eighth Amendment, alleging that because of his asthma and
because he believed that had contracted COVID-19 in February 2020, he faced a unique and
individualized risk of serious harm if executed using pentobarbital. (ECF No. 229-1 ¶¶ 166–72.)
Defendants moved to dismiss Higgs’s as-applied claim, (see ECF No. 306), arguing that
the claim was speculative because Higgs did not allege that he had tested positive for COVID19, nor had he actually suffered lung damage from the disease. The court agreed and granted the
motion on December 9, 2020. (ECF Nos. 354–55.)
During a status conference on December 17, 2020, Higgs’ counsel reported that Higgs
had tested positive for COVID-19. Higgs was granted leave to file a Second Amended and
Supplemental Complaint, (ECF No. 370), in which he alleges that his heart condition, combined
with his asthma, puts him at a greater risk of pulmonary edema, which is further aggravated by

2

The case originated as a challenge to the federal government’s death penalty procedures in
2005 but was subsequently amended to challenge the 2019 Protocol.
4
APP.311

Case 1:19-mc-00145-TSC Document 394 Filed 01/12/21 Page 5 of 31

his COVID-19 diagnosis. 3 Higgs also filed a second motion for a preliminary injunction. (ECF
No. 371, Higgs Mot.)
On December 16, 2020, Johnson also tested positive for COVID-19 and was also
permitted to file a supplemental complaint and motion for a preliminary injunction. (See ECF
No. 372; ECF No. 373.) Johnson’s allegations are similar to Higgs’ except Johnson does not
allege any underlying medical conditions, and he has experienced slightly different symptoms.
(See generally ECF No. 375, Johnson Mot.)
Defendants argue that Plaintiffs have shown only that there is competing testimony
between credible experts, which is insufficient to succeed on a method-of-execution Eighth
Amendment claim.
On January 4 and 5, the court held an evidentiary hearing to assess the expert testimony
proffered on Plaintiffs’ COVID-19 related claims. Drs. Kendall von Crowns and Todd Locher
testified for Defendants and Drs. Gail Van Norman and Michael Stephen testified for Plaintiffs. 4
II.

ANALYSIS

A preliminary injunction is an “extraordinary remedy” requiring courts to assess four
factors: (1) the likelihood of the plaintiff’s success on the merits, (2) the threat of irreparable
harm to the plaintiff absent an injunction, (3) the balance of equities, and (4) the public interest.
Winter v. Nat. Res. Def. Council, Inc., 555 U.S. 7, 20, 24 (2008) (citations omitted); John Doe
Co. v. Consumer Fin. Prot. Bureau, 849 F.3d 1129, 1131 (D.C. Cir. 2017). The D.C. Circuit has
traditionally evaluated claims for injunctive relief on a sliding scale, such that “a strong showing

3

Higgs has another Amended and Supplemental Complaint and accompanying motion for a
preliminary injunction pending before the court. (See ECF Nos. 343–44.) The court will address
that motion for a preliminary injunction in a separate opinion.
4

The court also briefly heard from Dr. Mitchell Glass, who was slated to testify in favor of
Plaintiffs, but his testimony was stricken on Defendants’ unopposed motion.
5
APP.312

Case 1:19-mc-00145-TSC Document 394 Filed 01/12/21 Page 6 of 31

on one factor could make up for a weaker showing on another.” Sherley v. Sebelius, 644 F.3d
388, 392 (D.C. Cir. 2011). It has been suggested, however, that a movant’s showing regarding
success on the merits “is an independent, free-standing requirement for a preliminary
injunction.” Id. at 393 (quoting Davis v. Pension Benefit Guar. Corp., 571 F.3d 1288, 1296
(D.C. Cir. 2009) (Kavanaugh, J., concurring)).
A. Likelihood of Success on the Merits
Plaintiffs bringing an Eighth Amendment challenge to a method of execution face a high
bar. They must demonstrate that the 2019 Protocol presents a “substantial risk of serious harm,”
and they must identify an alternative method of execution that will significantly reduce the risk
of serious pain and that is feasible and readily implemented. Glossip v. Gross, 576 U.S. 863, 877
(2015) (quoting Baze v. Rees, 553 U.S. 35, 50 (2008)); see also Bucklew v. Precythe, 139 S. Ct.
1112, 1129 (2019) (confirming that “anyone bringing a method of execution claim alleging the
infliction of unconstitutionally cruel pain must meet the Baze-Glossip test.”). Indeed, the
Supreme Court “has yet to hold that a State’s method of execution qualifies as cruel and
unusual.” Bucklew, 139 S. Ct. at 1124.
The court has been down this road before. In July, it enjoined four executions on the
basis that the use of pentobarbital would subject Plaintiffs to suffer a cruel and unusual death in
violation of the Eighth Amendment. In so ruling, the court found that Plaintiffs had provided
scientific evidence that “overwhelmingly” indicated they would suffer the effects of flash
pulmonary edema, including a sensation of drowning, while they were still conscious. (ECF
No. 135 at 9.) The court weighed the declarations of several experts, including Drs. Gail Van
Norman and Joseph Antognini.

6
APP.313

Case 1:19-mc-00145-TSC Document 394 Filed 01/12/21 Page 7 of 31

On appeal, the Supreme Court vacated this court’s injunction, concluding that Plaintiffs
were unlikely to succeed on the merits of their Eighth Amendment claim. See Barr v. Lee, 140
S. Ct. 2590, 2591 (2020). The Court noted that pentobarbital “has become a mainstay of state
executions . . . [h]as been used to carry out over 100 executions, without incident,” and was
upheld “as applied to a prisoner with a unique medical condition that could only have increased
any baseline risk of pain associated with pentobarbital as a general matter.” Id. The Court
acknowledged Plaintiffs’ expert declarations regarding flash pulmonary edema but noted that
“the government has produced competing evidence of its own, indicating that any pulmonary
edema occurs only after the prisoner had died or been rendered fully insensate.” Id. In light of
the competing evidence—and despite this court’s assessment that Plaintiffs’ evidence was more
credible—the Supreme Court found that Plaintiffs had “not made the showing required to justify
last-minute relief.” Id. It further emphasized that “[l]ast-minute stays” must be “the extreme
exception, not the norm.” Id. (quoting Bucklew, 139 S. Ct. at 1134).
Given the Supreme Court’s decision in Lee, this court subsequently dismissed Plaintiffs’
general Eighth Amendment claim, finding that “no amount of new evidence will suffice to prove
that the pain pentobarbital causes reaches unconstitutional levels.” (ECF No. 193 at 4.) The
D.C. Circuit reversed. “By pleading that the federal government’s execution protocol involves a
‘virtual medical certainty’ of severe and torturous pain that is unnecessary to the death process
and could readily be avoided by administering a widely available analgesic first, the Plaintiffs’
complaint properly and plausibly states an Eighth Amendment claim.” In Re Fed. Bureau of
Prisons Execution Protocol Cases, 980 F.3d 123, 133 (D.C. Cir. 2020). However, the Court of
Appeals noted that Plaintiffs had a “difficult task ahead [] on the merits” and that if all they could
produce was a “‘scientific controvers[y]’ between credible experts battling between ‘marginally

7
APP.314

Case 1:19-mc-00145-TSC Document 394 Filed 01/12/21 Page 8 of 31

safer alternative[s],’ their claim is likely to fail on the merits.” Id. at 135 (quoting Baze v. Rees,
553 U.S. 35, 51 (2008)).
1. Substantial Risk of Serious Harm
In order to succeed on their Eighth Amendment claim, Plaintiffs must show that
execution under the 2019 Protocol presents a risk of severe pain that is “sure or very likely to
cause serious illness and needless suffering” and gives rise to “sufficiently imminent dangers,”
such that prison officials cannot later plead “that they were subjectively blameless.” Baze, 553
U.S. at 49–50 (citations omitted). Although the Supreme Court has cautioned against federal
courts becoming “boards of inquiry charged with determining ‘best practices’ for executions,” id.
at 51, this question necessarily requires some weighing of scientific evidence. See, e.g., Glossip,
576 U.S. at 881 (affirming district court’s findings that midazolam was “highly likely” to render
inmates unable to feel pain during execution).
It is undisputed that both Higgs and Johnson have been diagnosed with COVID-19 and
have been exhibiting symptoms consistent with that diagnosis, including shortness of breath, an
unproductive cough, headaches, chills, fatigue, etc. To date, neither has been hospitalized or
required treatment in an intensive care unit.
It is further undisputed that Plaintiffs will suffer flash pulmonary edema as a result of the
2019 Protocol, “a medical condition in which fluid rapidly accumulates in the lungs causing
respiratory distress and sensation of drowning and asphyxiation.” See Execution Protocol Cases,
980 F.3d at 131. Thus, the question is whether these two Plaintiffs will experience the symptoms
of flash pulmonary edema while they are still conscious, an issue that has been the subject of
much debate amongst the experts in this case. After the Supreme Court’s decision in Lee, this
court has found that the question of whether an inmate, absent aggravating factors, will suffer

8
APP.315

Case 1:19-mc-00145-TSC Document 394 Filed 01/12/21 Page 9 of 31

flash pulmonary edema while sensate is one on which reasonable minds can differ. (See ECF
No. 261 at 38.) 5
But the issue presently before the court is whether Plaintiffs will suffer flash pulmonary
edema while sensate given the extensive lung damage they have suffered from COVID-19. The
court had not previously received expert testimony on this issue. And having no meaningful way
to resolve the dispute on the expert declarations alone, it exercised its discretion and held an
evidentiary hearing.
“A preliminary injunction may be granted on less formal procedures and on less
extensive evidence than a trial on the merits, but if there are genuine issues of material fact
raised . . . an evidentiary hearing is required.” Cobell v. Norton, 391 F.3d 251, 261 (D.C. Cir.
2004) (internal citations omitted); but see LCvR 65.1(d) (“The practice in this jurisdiction is to
decide preliminary injunction motions without live testimony where possible.” (emphasis
supplied)). And where “a court must make credibility determinations to resolve key factual
disputes in favor of the moving party, it is an abuse of discretion for the court to settle the
question on the basis of documents alone, without an evidentiary hearing.” Cobell, 391 F.3d at
262 (citing Prakash v. Am. Univ., 727 F.2d 1174, 1181 (D.C. Cir. 1984)); see also Alan Wright
& Arthur R. Miller, 11A Fed. Prac. & Proc. Civ. § 2949 (3d ed. 1998) (explaining that when a
motion for a preliminary injunction “depends on resolving a factual conflict by assessing the

5

In denying injunctive relief for Plaintiffs’ Food, Drug, and Cosmetic Act claim, the court
previously found that they had failed to demonstrate that they were sure to suffer flash
pulmonary edema while they were sensate. (See ECF No. 261 at 40.) But in doing so, the court
did not find that Defendants’ experts had definitively answered the question. Rather, the court
found that given the expert testimony—which did not involve individual medical records—
Plaintiffs had failed to meet their burden. Furthermore, that dispute centered on the question of
whether every plaintiff executed with pentobarbital would suffer flash pulmonary edema before
being rendered insensate. The dispute here involves aggravating factors not previously before
the court.
9
APP.316

Case 1:19-mc-00145-TSC Document 394 Filed 01/12/21 Page 10 of 31

credibility of opposing witnesses, it seems desirable to require that the determination be made on
the basis of their demeanor during direct and cross-examination, rather than on the respective
plausibility of their affidavits.”).
i. COVID-19 Lung Damage – Higgs
Dr. Gail Van Norman, an anesthesiologist and professor in the Department of
Anesthesiology and Pain Medicine at the University of Washington in Seattle, opined that “the
COVID-19 virus leads to significant lung damage” and that “[f]or prisoners experiencing
COVID-related lung damage at the time of their execution, flash pulmonary edema will occur
even earlier in the execution process, and before brain levels of pentobarbital have peaked.”
(ECF No. 374-1, Van Norman Supp. Decl. at 1.) “To a reasonable degree of medical certainty,
these prisoners will experience sensations of drowning and suffocation sooner than a person
without COVID-related lung damage and, therefore, their conscious experience of the symptoms
of pulmonary edema will be prolonged.” (Id.) She explained that COVID-19 causes “severe
damage to many areas in the airways and lungs, but most specifically to the alveolar-capillary
membrane, which is also the site of damage of massive barbiturate overdose.” (Id. at 2.) These
effects “can be seen by radiography in . . . at least 79% of patients who have symptomatic
COVID-19 infection, even when such infections are mild.” (Id.) Damage to the lungs may
eventually resolve, though studies indicate that “severe pulmonary functional changes have been
demonstrated for more than 90 days after infection.” (Id.; see also id. at 5 (listing studies).) She
reiterated these points during her direct examination.
The court found Dr. Van Norman highly credible. She testified that she has personally
tended to patients hospitalized with COVID-19 who needed airway management, which included
administering anesthesia. (See ECF No. 389, H’rg Tr. at 145.) She also testified that when

10
APP.317

Case 1:19-mc-00145-TSC Document 394 Filed 01/12/21 Page 11 of 31

pentobarbital is injected, it flows first to the heart and is then pumped to the lungs before going
to the rest of the body. (Id. at 147.) Because pentobarbital is caustic, a high concentration dose
will burn the alveoli-capillary membrane in the lungs within a second or two of injection. (Id. at
192.) A person with COVID-19 related lung damage will experience flash pulmonary edema
before the pentobarbital reaches the brain. (Id. at 147–48.) Dr. Van Norman also explained that
while pentobarbital’s anesthetic effect can take anywhere from thirty seconds to two-and-a-half
minutes, it takes longer to reach peak effectiveness. (Id. at 150.) Thus, Plaintiffs will suffer the
effects of flash pulmonary edema anywhere from thirty seconds to two-and-a-half minutes after
injection.
Dr. Van Norman provided credible and persuasive responses to criticism of her opinions.
In his fifth amended declaration, Defendants’ expert, Dr. Joseph Antognini criticized Dr. Van
Norman for not: 1) providing published evidence that asymptomatic or mildly symptomatic
patients have increased propensity for pulmonary edema when administered lethal doses of
pentobarbital; 2) providing published evidence that pulmonary damage increases the risk of
pulmonary edema from pentobarbital; and 3) specifying when the onset of the pulmonary edema
might occur in someone who has suffered COVID-19 lung damage. (ECF No. 380-2, Antognini
5th Supp. Decl. ¶¶ 3–5.) As to the first two criticisms, Dr. Van Norman explained that there are
no such studies because no physician or scientist has administered massive overdoes of
intravenous pentobarbital to COVID-19 patients. (Id. at 153.) Dr. Van Norman also stated that,
in her opinion, inmates with lung damage from COVID-19 will experience flash pulmonary
edema within a second or two after injection, before pentobarbital has reached the brain. (Id. at

11
APP.318

Case 1:19-mc-00145-TSC Document 394 Filed 01/12/21 Page 12 of 31

192 (explaining that pentobarbital is “a caustic chemical” which is “going to attack an already
leaky membrane”).) 6
The court found Dr. Antognini’s opinions less helpful. 7 Although he faulted Dr. Van
Norman for not providing support for her conclusions, Dr. Antognini’s opinions regarding the
effect of a pentobarbital injection on a person with COVID-19 symptoms were themselves
conclusory. In fact, Dr. Antognini cited two studies in his entire declaration, neither of which
involved COVID-19. His declaration did not indicate whether he even treats COVID-19
patients. (Antognini Fifth Supp. Decl. ¶ 5.) Relying in large part on his prior testimony, he
stated that “unconsciousness occurs when a clinical dose of pentobarbital is administered (around
500 mg—a tenth of the execution dose).” (Id.) This statement does not address Dr. Van
Norman’s explanation that injected pentobarbital will begin to attack damaged lungs before it
reaches the brain, and Dr. Antognini did not proffer how long it would take for an inmate to be
rendered unconscious. Thus, his declaration did not adequately refute Dr. Van Norman’s
opinions.
Dr. Michael Stephen corroborated Dr. Van Norman’s theory regarding lung damage.
During his testimony, Dr. Stephen, an associate professor in the Department of Medicine and
Division of Pulmonary and Critical Care at Thomas Jefferson University, who actively treats and
reviews x-rays of COVID-19 patients, interpreted x-rays of Higgs’ lungs taken in October 2018
and December 2020. Dr. Stephen testified that Higgs’ lungs were severely hyperinflated, as

6

On cross examination, Dr. Van Norman admitted that she was opposed to the death penalty, but
the court has no reason to believe her opposition has biased her scientific assessments,
particularly in light of other evidence in the record.
7

Defendants did not call Dr. Antognini as a witness and Plaintiffs declined to call him for crossexamination.
12
APP.319

Case 1:19-mc-00145-TSC Document 394 Filed 01/12/21 Page 13 of 31

shown by the fact that on the x-ray, his lungs could not fit on one lung plate. (H’rg Tr. at 99.)
Consequently, he explained, the radiologist had to take three views, which in Dr. Stephen’s
experience was very rare absent a very serious obstructive lung disease such as asthma. (Id.) Dr.
Stephen also explained that chest x-rays typically only show seven to nine ribs, but Higgs’ x-ray
films showed eleven ribs, which indicated that Higgs has so much air in his lungs from poorly
controlled asthma that his diaphragm is being pushed down, causing the x-ray to capture more
ribs than it normally would. (Id.) Dr. Stephen also noted evidence of a tabletop (or flat)
diaphragm that has become exaggerated between 2018 and 2020, suggesting severely poorly
controlled asthma. (Id. at 99–100.)
Dr. Stephen’s testimony was particularly persuasive and helpful, as he walked the court
through a comparison of Higgs’ lung images to show the extensive damage caused by COVID19. As was readily apparent, the right lung exhibited more opacity in certain areas in 2020 than
in 2018. (Id. at 95.) Dr. Stephen described these opacities as interstitial markings, which are
more visible as a result of inflammation caused by “viral pneumonia from COVID-19.” (Id. at
97.) Because of this inflammation, he concluded that Higgs’ alveoli-capillary membrane has
already been breached by COVID-19 particles, and white blood cells are flooding into his lungs
to combat them. (Id. at 97.) Thus, he concluded, Higgs’ heart will be pumping very hard to
supply blood to the inflamed parts of the lung, a condition that places Higgs at high risk for
pulmonary edema. (Id. at 98.)
To rebut Drs. Van Norman and Stephen’s testimony, Defendants submitted a declaration
from Dr. Todd Locher. Interpreting studies relied upon by Drs. Van Norman and Stephen, Dr.
Locher opined that “asymptomatic and mildly symptomatic cases [of COVID-19] have a lower
percentage of lung involvement.” (ECF No. 381-1, Locher Decl. ¶ 11.) After reviewing both

13
APP.320

Case 1:19-mc-00145-TSC Document 394 Filed 01/12/21 Page 14 of 31

Higgs’ and Johnson’s medical records, Dr. Locher concluded that both men were experiencing
“minimal symptoms.” (Id. ¶ 12.) With regard to Higgs’ x-rays, Dr. Locher agreed with Dr.
Justin Yoon, the interpreting radiologist proffered by the government, that there was no “acute
cardiopulmonary process” and that Higgs had clear lungs “except for an unchanged right apical
reticular nodular density.” (Id.) He concluded that there was “no evidence [] of lung
involvement due to COVID-19.” (Id.)
Dr. Locher further noted that “there is no evidence in the medical literature suggesting an
injection with pentobarbital would somehow exacerbate symptoms or physiologic abnormalities
in patients with COVID-19.” (Id. ¶ 14.) Thus, he concluded, “if pulmonary edema were to
occur upon the injection of 5 g of pentobarbital, it is not likely that these inmates would
experience pulmonary edema more quickly or severely than inmates who have been diagnosed
with COVID-19.” (Id.)
The court is unpersuaded by this testimony. For one, as Dr. Van Norman explained,
there have been no studies involving the injection of large doses of pentobarbital in COVID-19
patients, nor would one expect any. Dr. Locher also stated that a chest x-ray is not as sensitive as
a CT scan in detecting lung involvement for COVID-19, but nevertheless concluded that “any
findings on a CT scan would likely be minor in view of a normal chest x-ray.” (Id. ¶ 13.) He
appeared to be relying on a less accurate measurement to postulate that a more accurate one
would be less useful.
Dr. Locher’s live testimony cast further doubt on his credibility. On cross-examination, it
was unclear how closely he had reviewed the relevant medical records. For instance, his
declaration stated that Higgs was not experiencing any symptoms on December 29, 2020, despite
the fact that Higgs’ medical records indicates he had a persistent cough. (Compare Locher Decl.

14
APP.321

Case 1:19-mc-00145-TSC Document 394 Filed 01/12/21 Page 15 of 31

¶ 12 (“On 12/29/2020, the medical record reports no shortness of breath, sore throat or other
symptoms”), with ECF No. 380-4, Smilege Decl. at 58 (“Cough (Duration/Describe:
persistent”).) Similarly, Dr. Locher’s declaration states that Johnson exhibited no symptoms of
COVID-19 on December 22 and 23, whereas the records clearly indicate Johnson reported a
headache on December 22. (Compare Locher Decl. ¶ 12, with Smiledge Decl. at 138.) Dr.
Locher confirmed during cross-examination that a headache is indeed a common symptom of
COVID-19. (H’rg Tr. at 65.) These inaccuracies alone do not cast Dr. Locher’s entire testimony
in doubt, but they do call into question the amount of time he spent reviewing the evidence,
particularly in light of his conclusion that Higgs and Johnson have had mild cases of COVID-19,
and the implication that their cases have mostly resolved. (See Locher Decl. ¶ 12.) Indeed, Dr.
Locher stated that it would not surprise him if either Higgs or Johnson reported persistent
shortness of breath into January. (Hr’g Tr. at 72.)
More concerning was Dr. Locher’s interpretation of Higgs’ x-rays. In his declaration, Dr.
Locher agreed with Dr. Yoon, the reviewing radiologist that Higgs’ 2020 x-ray indicated a
“stable chest examination without acute cardiopulmonary process” and that Higgs has “[c]lear
lungs except for unchanged right apical reticular density” when compared to the 2018 x-rays.
(Locher Decl. ¶ 12.) He reiterated his opinion that Higgs’ 2020 x-ray was “unchanged compared
to the previous file dated in October 2018” aside from a small upper right lobe shadow. (H’rg
Tr. at 60.) Comparing the two images, one does not have to be an expert to see that this
statement is inaccurate. As Dr. Stephen pointed out, the right lung in the 2020 image has more
prevalent cloudier streaks when compared to the same lung in 2018. The opacity is present in
the left lung, but not to the same extent, which suggests that this is not merely an imaging error.
It is troubling that Dr. Locher did not account for these obvious differences between the two

15
APP.322

Case 1:19-mc-00145-TSC Document 394 Filed 01/12/21 Page 16 of 31

scans, even when asked about Dr. Stephen’s assessment by Defendants’ counsel during direct
examination. Instead, he merely stated his disagreement with Dr. Stephen. (See id.)
And while Dr. Locher reached the same conclusion as Dr. Yoon, the court has little
information on Yoon, who was not called to testify and who did not submit a declaration in
support of his conclusions. 8 The court does not know if Dr. Yoon routinely reviews x-rays of
COVID-19 patients.
Based on the declarations and live testimony, the court finds that Higgs has shown that if
his execution proceeds as scheduled—less than a month after his COVID-19 diagnosis—he will
suffer flash pulmonary edema within one or two seconds of injection but before the pentobarbital
reaches the brain and renders him unconscious. Though the Eighth Amendment does not
guarantee a painless death, it does prohibit needless suffering. See Baze, 553 U.S. at 49–50. The
pulmonary edema that Higgs will endure while he is still conscious would not occur were his
execution to be delayed. A brief injunction will allow Higgs’ lungs to sufficiently recover so
that he may be executed in a humane manner. Thus, Higgs has successfully demonstrated a
substantial risk of serious harm. 9
ii. COVID-19 Lung Damage – Johnson
Despite the lack of x-ray evidence in Johnson’s case, the court reaches the same
conclusion for Johnson for several reasons. The assessment of the live testimony above applies

8

Dr. Yoon’s interpretation of Higgs’ 2020 x-ray is included in Higgs’ BOP medical record. (See
Smiledge Decl. at 107.)
9

Higgs also alleges that his COVID-19 diagnosis, given his severe asthma, makes it more likely
that he will experience flash pulmonary edema while still conscious. Higgs does not allege that
his asthma alone will cause him to suffer these effects. Having already found that Higgs’
COVID-19 symptoms will cause him to suffer from flash pulmonary edema while sensate, the
court need not determine whether and to what effect asthma has damaged his lungs.
16
APP.323

Case 1:19-mc-00145-TSC Document 394 Filed 01/12/21 Page 17 of 31

with equal force to Johnson’s COVID-19 as-applied claim. It is undisputed that Johnson is
suffering from symptoms of COVID-19, which, as Drs. Van Norman and Stephen have shown,
means he has suffered damage to his alveoli-capillary membrane. Were he to be injected with
pentobarbital in his current state, the drug would travel first to his heart and then to his lungs. As
the drug courses through his lungs, it will burn the alveoli-capillary membrane which has already
been damaged from COVID-19, triggering flash pulmonary edema, all before the pentobarbital
even reaches his brain and begins to have an anesthetizing effect.
And though Johnson’s lungs have not been x-rayed (despite a request by Plaintiffs, see
ECF No. 386), the court can infer from the expert testimony that Johnson has suffered COVID19 related lung damage. Here again, Dr. Antognini’s declaration failed to adequately account for
the biological sequence of events that occurs after injection, particularly given COVID-19
symptoms. And Dr. Locher’s failure to account for obvious changes in Higgs’ x-ray undermines
his opinion that patients with mild COVID-19 symptoms are unlikely to suffer extensive lung
damage.
The record contains several pulse oximetry readings taken from Johnson over the course
of his illness, the interpretation of which was also debated amongst the experts. But the court
found this evidence less helpful. As Dr. Van Norman explained in a supplemental declaration
she prepared for Johnson, “[a] clear change from 99% to 97%, as Mr. Johnson’s pulse oximetry
results show, is clinically significant and indicates significant changes have occurred in gas
exchange in the lungs, particularly in the setting of early COVID-19 infection.” (ECF No. 3743, Van Norman Decl. Re Johnson ¶ 11.) She explained that “pulse oximetry is both a late and
relatively crude method of examining impairments in oxygen exchange in the lungs.” (Id. ¶ 9.)

17
APP.324

Case 1:19-mc-00145-TSC Document 394 Filed 01/12/21 Page 18 of 31

Thus, “a person’s oxygen level can fall by 80% and still show 100% SaO2 [(the reading captured
by a pulse oximetry test)].” (Id. ¶ 10.)
Dr. Antognini disputed this characterization. In his view, “[i]t is misleading to state that
going from 99% to 97% is a trend,” a change which is “clinically insignificant” because
Johnson’s pulse oximetry readings have been in the normal range. (Antognini 5th Supp. Decl.
¶ 7.) Dr. Antognini also explained that “[p]ulse oximetry readings are subject to variation and
depend considerably on the placement of the probe, the amount of circulation to the finger,
motion artifact, etc.” (Id.)
Dr. Van Norman did not address this critique and did not appear to account for the fact
that pulse oximetry readings are subject to variation or that, despite a drop in his pulse oximetry
readings, Johnson’s oxygen saturation level have remained in the normal range. In fact, even if
the court accepts Dr. Van Norman’s assertion that a decrease in pulse oximetry could signal a
steep deprivation of oxygen, it is unclear whether that has occurred in Johnson’s case and to
what extent. (See Van Norman Decl. Re Johnson ¶ 9.) In any event, Dr. Van Norman confirmed
that “[e]ven if [Johnson’s] pulse oximetry readings had not decreased at this point in his
infection, the studies I previously cited indicate that he is experiencing ongoing damage to the
alveolar capillary membrane that will persist for a prolonged period of time after symptoms
resolve.” (Id. ¶ 12.) The court further notes that Johnson received a 98% reading in a pulse
oximetry test performed on January 2, 2021. (See ECF No. 387-1 at 3.) Because the
interpretation of these results is unclear, the court will accord them minimal weight.
Nevertheless, given the testimony proffered for Higgs and the relative weight the court
has afforded the experts, Johnson has demonstrated a substantial risk of serious harm.

18
APP.325

Case 1:19-mc-00145-TSC Document 394 Filed 01/12/21 Page 19 of 31

iii. Heart Issues – Higgs
Higgs’ claim based on his heart conditions was less compelling and, standing alone,
would not be enough to show a likelihood of success on an as-applied challenge. Ultimately,
Higgs has not convincingly shown that his heart conditions make him more likely to suffer the
effects of flash pulmonary edema before he is rendered insensate.
Higgs suffers from various heart conditions, including structural heart disease (by virtue
of left atrial enlargement) and mitral valve disease (with moderate mitral valve regurgitation and
anterior leaflet dysfunction). (Stephen Decl. ¶ 12.) Dr. Stephen explained that Higgs’ enlarged
left atrium ineffectively pumps blood to the left ventricle, putting Higgs at risk for fluid backup
in his lungs (pulmonary edema). (Id. ¶ 13.) An injection of pentobarbital, a cardiac depressant,
will induce a sudden onset of congestive heart failure and flash pulmonary edema. (Id. ¶ 14.)
Dr. Joel Zivot offered similar opinions in his declaration. (See generally ECF No. 374-6 ¶¶ 7–9,
19.)
Again, Dr. Locher’s declaration was of little value to the court. Dr. Locher confirmed
that studies show that “COVID-19 can affect cardiac structure and function which may lead to
pulmonary edema.” (Locher Decl. ¶ 8.) He qualified his statement by noting that such studies
were only performed on symptomatic and hospitalized patients, although he also acknowledges
that Higgs is symptomatic. Dr. Locher’s other opinions on the issue exhibited the same
inconsistencies as his assessment of COVID-19 related lung damage. For instance, Dr. Locher
stated that “there is no way for anyone to know if Mr. Higgs has any cardiac decompensation
without performing a physical exam, laboratory studies such as serum troponin level . . .[or] a
current EKG and echocardiogram.” (Id. ¶ 8). He then went on to say that such an evaluation
would not be helpful for a patient with minimal or no symptoms. (Id.) Dr. Locher also

19
APP.326

Case 1:19-mc-00145-TSC Document 394 Filed 01/12/21 Page 20 of 31

contended that there is no evidence in the medical literature to suggest mitral regurgitation would
lead to earlier or more severe pulmonary edema after an injection of five grams of pentobarbital.
(Id. ¶ 8). The court does not find this argument persuasive—it is not surprising that there is a
lack of evidence in the medical literature, given that individuals with mitral regurgitation (or any
individuals) are not routinely injected with a lethal dose of pentobarbital.
Dr. Crowns’ declaration was more persuasive. 10 He opined that Higgs’ mitral valve
prolapse/regurgitation is a common condition that presents no symptoms in most people. (ECF
No. 380-5, Crowns Decl. ¶ 4.) He further stated that Higgs has not shown signs that he is
progressing to heart failure. (Id. ¶ 5.) A May 2019 echocardiogram revealed a preserved left
ventricular ejection fraction well within a “normal” range. (Id.) And during a cardiac
consultation in November 2020, Higgs denied any chest pain, palpitations or shortness of breath,
and confirmed that he can participate in vigorous exercise. (Id.) Thus, Crowns opined that
Higgs is not suffering from heart failure and his heart condition would not cause him to
experience flash pulmonary edema while sensate. (Id. ¶ 6.) 11
The court has no meaningful way of resolving this dispute. Unlike the expert testimony
regarding his lung damage, Higgs’ cardiac history indicates that he has a heart abnormality that
has not materially impacted his overall health. And despite the abnormality, Higgs’ cardiac

10

Plaintiffs point out that in an earlier evidentiary hearing, Dr. Crowns described “a case report
of an individual who developed flash pulmonary edema [upon administration of pentobarbital],
but he had underlying heart issues, specifically mitral valve issues . . . So, in his situation, his
flash pulmonary edema was the result of a compromised heart.” (Higgs Mot. at 9 (quoting ECF
No. 271 at 18).) Dr. Crowns asserted that this statement was taken out of context, noting that the
study to which he was referring included one patient who had clear symptoms of heart failure.
(Crowns Decl. ¶¶ 3–4.)
11

Though Plaintiffs established that Crowns is not an expert in anesthesiology, the court finds
his assessment of Higgs’ cardiac health credible.
20
APP.327

Case 1:19-mc-00145-TSC Document 394 Filed 01/12/21 Page 21 of 31

measurements fall within a normal range. Higgs’ experts opine that his heart conditions weaken
his heart and are therefore highly likely to cause him to suffer flash pulmonary edema while
sensate. But given credible expert testimony on both sides, and absent abnormal measurements
showing deteriorating cardiac health, the court cannot find that Higgs has a substantial risk of
suffering flash pulmonary edema during his execution because of his heart condition.
Higgs also theorizes that his COVID-19 diagnosis will further aggravate his heart
condition. However, there is no evidence showing that Higgs has suffered cardiac damage as a
result of his COVID-19 diagnosis. Indeed, none of the experts raised any flags about Higgs’
cardiac measurements. And while the court accepts the scientific conclusion—proffered by both
sides—“that COVID-19 can affect cardiac structure and function which may lead to pulmonary
edema” (Locher Decl. ¶ 8), Higgs’ own expert testified that COVID-19 impacts patients in
different ways, (see Stephen Decl. ¶ 11). Based on the evidence before it, the court cannot
conclude that Higgs will succeed on this as-applied challenge.
2. Known and Available Alternatives
i. Pre-dose of opioid pain or anti-anxiety medication
Plaintiffs proffer evidence that a pre-dose of certain opioid pain medications, such as
morphine or fentanyl, will significantly reduce the risk of severe pain during the execution.
(Higgs Mot. at 11–12 (quoting ECF No. 25, Decl. of Craig Stevens, ¶¶ 15–16).) Defendants
argue that no state currently uses analgesics in its execution procedures, that pentobarbital alone
is sufficiently painless, and that BOP has concluded that a one-drug protocol is preferable,
because it will reduce “the risk of errors during administration” and “avoid the complications
inherent in obtaining multiple lethal injection drugs and in navigating the expiration dates of
multiple drugs.” (Defs. Opp’n at 29–30 (citation omitted).)

21
APP.328

Case 1:19-mc-00145-TSC Document 394 Filed 01/12/21 Page 22 of 31

The court finds Defendants’ positions unavailing. While they contend that “no State adds
an opioid to an execution protocol using pentobarbital,” and the government is therefore not
required to do so, (Id. at 30 (citing Bucklew, 139 S. Ct. at 1130)), this argument misses the mark.
As this court has previously noted, Nebraska recently used a pre-dose of fentanyl to reduce the
risk of serious pain during an execution (ECF No. 135 at 15), whereas in Bucklew, the plaintiff
presented only “reports from correctional authorities in other States indicating that additional
study [was] needed to develop a protocol” for the proposed execution mechanism. Bucklew, 139
S. Ct. at 1129. Even if Defendants were correct, however, the fact that other states do not use
pain medication would not be dispositive. See Bucklew, 139 S. Ct. at 1136 (Kavanaugh, J.,
concurring) (“I write to underscore the Court’s additional holding that the alternative method of
execution need not be authorized under current state law. . . . Importantly, all nine Justices today
agree on that point.”).
Finally, Defendants contend that BOP has “legitimate reasons” for choosing not to use a
pre-dose of an opioid because it has concluded that a one-drug protocol will reduce “the risk of
errors during administration” and “avoid the complications inherent in obtaining multiple lethal
injection drugs and in navigating the expiration dates of multiple drugs.” (Defs. Opp’n at 30
(citations to Admin. R. omitted).) The court does not question BOP’s conclusions regarding the
administrative efficiency of a one-drug protocol. It does, however, question Defendants’
conclusion that the administrative ease of administering and procuring a single drug over two
drugs—apparently without having made a good faith attempt at the latter, cf. Glossip, 576 U.S. at
878–79—is a “legitimate penological reason” to select a particular method of execution despite
evidence that the risk of pain associated with that method is “substantial when compared to a
known and available alternative.” Bucklew, 139 S. Ct. at 1125 (quoting Glossip, 576 U.S. at

22
APP.329

Case 1:19-mc-00145-TSC Document 394 Filed 01/12/21 Page 23 of 31

878); see also Henness v. DeWine, 141 S. Ct. 7, 9 (2020) (Sotomayor, J., statement on denial of
certiorari).
The Supreme Court has previously found a “legitimate penological reason” where a
particular drug “hasten[ed] death,” Baze, 553 U.S. at 57–58 (plurality op.); where a state chose
“not to be the first to experiment with a new method of execution” that had “no track record of
successful use,” Bucklew, 139 S. Ct. at 1130 (citation omitted); and where a state was unable to
procure particular drugs “despite a good-faith effort to do so,” Glossip, 576 U.S. at 868–79
(detailing state’s efforts and implying without stating that this reason was “legitimate”).
Defendants have presented no evidence that they have tried to either procure or administer the
two-drug protocol proffered by Plaintiffs, or that any such efforts were unsuccessful. Cf. Admin.
R. at 869 (asserting that manufacturers would “most likely” resist efforts to use fentanyl in
executions); Execution Protocol Cases, 980 F.3d at 133 (“The combination of drugs as part of
lethal injection protocols has been used by both states and the federal government, and is still
used in a number of jurisdictions. The two-drug protocol also fits squarely within the plain text
of the federal execution protocol.” (citations omitted)). Nor have Defendants provided this court
with any authority to support their contention that administrative concerns are a sufficient
“legitimate penological reason” under the Supreme Court’s Eighth Amendment jurisprudence.
In sum, Plaintiffs have proposed a simple addition to the execution procedure that is
likely to be as effective as it is easily and quickly administered. See Bucklew, 139 S. Ct. at 1129.
ii. Firing squad.
Alternatively, Plaintiffs proffer execution by firing squad. (Higgs Mot. at 12–13; ECF
No. 92 ¶ 114(c).) Because that method of execution is feasible, readily implemented, and would
significantly reduce the risk of severe pain, it satisfies the Blaze-Glossip requirements for

23
APP.330

Case 1:19-mc-00145-TSC Document 394 Filed 01/12/21 Page 24 of 31

proposed alternatives. Execution by firing squad is currently legal in three states, Utah,
Oklahoma, and Mississippi, and can hardly be described as “untried” or “untested” given its
historical use as a “traditionally accepted method of execution.” Bucklew, 139 S. Ct. at 1125,
1130. Moreover, the last execution by firing squad in the United States occurred just over a
decade ago, on June 18, 2010, in Utah.
Both the historical use of firing squads in executions and more recent evidence suggest
that, in comparison to the 2019 Protocol, execution by firing squad would significantly reduce
the risk of severe pain. See, e.g., Deborah Denno, Is Electrocution an Unconstitutional Method
of Execution? The Engineering of Death Over the Century, 35 Wm. & Mary L. Rev. 551, 688
(1994) (“A competently performed shooting may cause nearly instant death”); Austin Sarat,
Gruesome Spectacles: Botched Executions and America’s Death Penalty app. A at 177 (2014)
(calculating that while 7.12% of the 1,054 executions by lethal injection between 1900 and 2010
were “botched,” none of the 34 executions by firing squad had been, the lowest rate of any
method). 12
Defendants point to two cases from other Circuits in which courts appeared skeptical of
these conclusions. (Defs. Opp’n at 30–31.) But again, they overlook the Supreme Court’s

12

Defendants contend that Sarat “does not discuss execution by firing squad” and that “there is
insufficient data in the cited appendix to draw any statistically significant conclusions,” given
that there “were only two executions by firing squad” since 1980. Setting aside the
inconsistency of Defendants’ arguments—first claiming that Sarat does not discuss firing squads,
and then critiquing the data Sarat provides on that precise subject—Defendants simply
misrepresent the facts. Although Sarat’s work does not contain a specific chapter devoted to
execution by firing squad, it does contain specific mentions of firing squads throughout the main
text and associated footnotes, see Sarat, supra at 4, 10–11, 167, 219 n.131, and the referenced
appendix provides data on all executions performed in the United States from 1900 through
2010, including the rate of botched executions separated by execution method. Id. app. A at 177.
While only two executions by firing squad have been performed since 1980, Defendants
inexplicably choose to ignore the first statistics provided in the Appendix, which note that there
were 34 executions by firing squad between 1900 and 2010, none of which were botched. Id.
24
APP.331

Case 1:19-mc-00145-TSC Document 394 Filed 01/12/21 Page 25 of 31

guidance in Bucklew that a plaintiff’s burden in identifying an alternative method of execution
“can be overstated” and that there is “little likelihood that an inmate facing a serious risk of pain
will be unable to identify an available alternative.” 139 S. Ct. at 1128–29. Indeed, members of
the Court, including at least one Justice in the Bucklew majority, have opined that the firing
squad may be an immediate and sufficiently painless method of execution. See, e.g., id. at 1136
(Kavanaugh, J., concurring); Arthur v. Dunn, 137 S. Ct. 725, 733–34 (2017) (Sotomayor, J.,
dissenting from denial of cert.) (“In addition to being near instant, death by shooting may also be
comparatively painless.”). Moreover, given that use of the firing squad is “well established in
military practice,” Baze, 553 U.S. at 102 (Thomas, J., concurring in the judgment), Defendants
are, if anything, more capable than state governments of finding “trained marksmen who are
willing to participate,” and who possess the skill necessary to ensure death is near-instant and
comparatively painless. Cf. McGehee v. Hutchinson, 854 F.3d 488, 494 (8th Cir. 2017).
Defendants also argue that the court should defer to the government’s “legitimate
reason[]” for choosing not to adopt the firing squad as a method of execution—that legitimate
reason being the government’s interest in “preserving the dignity of the procedure” in light of
what they deem the “‘consensus’ among the States that lethal injection is more dignified and
humane.” (Defs. Opp’n at 32–33 (quoting Baze, 553 U.S. at 57, 62 (plurality op.).) Yet in Baze,
the plurality opinion, joined by three Justices, found that the “consensus” to which Defendants
refer went “not just to the method of execution, but also to the specific three-drug combination”
at issue in that case. Baze, 553 U.S. at 53. The same plurality also found that the state’s decision
to administer a paralytic agent as part of its execution protocol did not offend the Eighth
Amendment where the state’s interest in “preserving the dignity of the procedure” by preventing
convulsions that “could be misperceived as signs of consciousness or distress” was coupled with

25
APP.332

Case 1:19-mc-00145-TSC Document 394 Filed 01/12/21 Page 26 of 31

the “the States' legitimate interest in providing for a quick, certain death,” and the paralytic had
the effect of “hastening death.” Id. at 57–58.
In his opinion concurring in the judgment in Baze, Justice Stevens noted that concern
with the “dignity of the procedure” alone constituted a “woefully inadequate justification.”
“Whatever minimal interest there may be in ensuring that a condemned inmate dies a dignified
death, and that witnesses to the execution are not made uncomfortable . . . is vastly outweighed
by the risk that the inmate is actually experiencing excruciating pain.” Id. at 73 (Stevens, J.,
concurring in the judgment); cf. Bucklew, 139 S. Ct. at 1130 (finding that “choosing not to be the
first to experiment with a new method of execution” that had “no track record of successful use”
constituted a “legitimate reason.” (citation omitted)). Defendants’ argument that the perception
of a method of execution as less dignified or “more primitive” is a “legitimate penological
reason” for declining to adopt a different protocol thus misconstrues the standard set by the
Supreme Court’s precedent on this issue.
The court does not find that execution by firing squad would be an acceptable alternative
in every case. In this case, however, Defendants could readily adopt Plaintiffs’ proposal.
Finally, Defendants argue that Plaintiffs’ stated preference for execution by firing squad
is disingenuous. But Plaintiffs have argued for it at length throughout this litigation, (see, e.g.,
ECF No. 92), and have shown that it is readily implemented, available, and would significantly
reduce the risk of severe pain. Cf. Bucklew, 139 S. Ct. at 1136 (Kavanaugh, J., concurring)
(rejecting possibility of execution by firing squad where the plaintiff had chosen not to plead it as
an alternative).

26
APP.333

Case 1:19-mc-00145-TSC Document 394 Filed 01/12/21 Page 27 of 31

iii. Postponement
Plaintiffs have alternatively proffered the option of delaying their execution until they
have recovered from COVID-19. (Higgs Mot. at 13–14.) This is not, as precedent requires, “a
known and available alternative method of execution,” see Glossip, 576 U.S. at 864, but rather
an alternative date of execution. Even so, the court is likewise unpersuaded by Defendants’
contention that postponing the executions “directly contradicts [Plaintiffs’] general Eighth
Amendment claim and belies every argument they have made in support of that claim over the
last 15 months.” (Defs. Opp’n at 34.) If lethal injection of pentobarbital will create a significant
risk of suffering even in otherwise healthy persons, as Plaintiffs have long attested, then the risk
to an individual with severe respiratory illness, such COVID-19, would only be heightened. This
proposal therefore does not contradict Plaintiff’s other arguments.
Plaintiffs have identified two available and readily implementable alternative methods of
execution that would significantly reduce the risk of serious pain: a pre-dose of opioid pain or
anti-anxiety medication, or execution by firing squad. Thus, they have established a likelihood
of success on the merits of their claims that the 2019 Protocol’s method of execution constitutes
cruel and unusual punishment in violation of the Eighth Amendment.
B. Irreparable Harm
In order to prevail on a request for preliminary injunction, irreparable harm “must be
certain and great, actual and not theoretical, and so imminent that there is a clear and present
need for equitable relief to prevent irreparable harm,” and it “must be beyond remediation.”
League of Women Voters of U.S. v. Newby, 838 F.3d 1, 7–8 (D.C. Cir. 2016) (citing Chaplaincy
of Full Gospel Churches v. England, 454 F.3d 290, 297 (D.C. Cir. 2006)) (internal quotation
marks and brackets omitted). Here, without injunctive relief, Plaintiffs would be subjected to an

27
APP.334

Case 1:19-mc-00145-TSC Document 394 Filed 01/12/21 Page 28 of 31

excruciating death in a manner that is likely unconstitutional. This harm is manifestly
irreparable. See Karem v. Trump, 960 F.3d 656, 667 (D.C. Cir. 2020) (explaining that
“prospective violation[s] of . . . constitutional right[s] constitute[] irreparable injury for
[equitable-relief] purposes” (internal quotation marks omitted)).
Other courts in this Circuit have found irreparable harm in similar, but less dire
circumstances. See, e.g., Damus v. Nielsen, 313 F. Supp. 3d 317, 342 (D.D.C. 2018) (finding
irreparable injury where plaintiffs faced detention under challenged regulations); Stellar IT Sols.,
Inc. v. USCIS, No. 18-2015, 2018553 U.S. at 49 WL 6047413, at *11 (D.D.C. Nov. 19, 2018)
(finding irreparable injury where plaintiff would be forced to leave the country under challenged
regulations); FBME Bank Ltd. v. Lew, 125 F. Supp. 3d 109, 126–27 (D.D.C. 2015) (finding
irreparable injury where challenged regulations would threaten company’s existence); N.
Mariana Islands v. United States, 686 F. Supp. 2d 7, 19 (D.D.C. 2009) (finding irreparable
injury where challenged regulations would limit guest workers).
Defendants argue that Plaintiffs have failed to demonstrate irreparable harm given “the
absence of any evidence that [Plaintiffs], as a result of contracting COVID-19, will experience
pulmonary edema prior to falling insensate.” (Defs. Opp’n at 36.) But, for the reasons discussed
above, the court has found otherwise. Furthermore, Defendants appear to imply that if Plaintiffs
experience flash pulmonary edema for thirty seconds, at most, that would not constitute
irreparable harm. (See id. at 35–36.) The court has already addressed this argument. See supra
n.1. The Eighth Amendment does not permit “substantial” and “needless” suffering so long as it
will only be experienced for a short time. See Baze, 553 U.S. at 49–50. Here, the risk of
substantial suffering can be avoided by using one of Plaintiffs’ proffered alternatives or by
waiting several weeks to allow Plaintiffs to recover from a novel disease before executing them.

28
APP.335

Case 1:19-mc-00145-TSC Document 394 Filed 01/12/21 Page 29 of 31

Thus, Plaintiffs have sufficiently shown they will suffer irreparable harm if their executions
proceed as planned.
C. Balance of Equities
The need for closure in this case—particularly for the victims’ families—is significant.
See Calderon v. Thompson, 523 U.S. 538, 556 (1998) (“Only with an assurance of real finality
can the [government] execute its moral judgment in a case . . . [and] the victims of crime move
forward knowing the moral judgment will be carried out.”). And this court is mindful of the
Supreme Court’s caution against last minute stays of execution. See Bucklew, 139 S. Ct. at 1134.
But the government’s ability to enact moral judgment is a great responsibility and, in the case of
a death sentence, cannot be reversed. After suspending federal executions for over seventeen
years, the government announced a new Execution Protocol and a resumption of executions in
July 2019, and since July of this year has executed eleven inmates. Any potential harm to the
government caused by a brief stay is not substantial. Indeed, the government has not shown that
it would be significantly burdened by staying these two executions for several more weeks until
Plaintiffs have recovered from COVID-19. Accordingly, the court sees no reason why this
execution must proceed this week. Thus, the balance of the equities favors a stay.
D. Public Interest
The court is deeply concerned that the government intends to execute two prisoners who
are suffering from COVID-19 infection, particularly given that the disease impacts individuals in
drastically different ways and can have particularly devastating long-term effects, even for those
with mild symptoms. This is to say nothing of the fact that executing inmates who are positive
for COVID-19 in a facility with an active COVID-19 outbreak will endanger the lives of those
performing the executions and those witnessing it. This is irresponsible at best, particularly

29
APP.336

Case 1:19-mc-00145-TSC Document 394 Filed 01/12/21 Page 30 of 31

when a temporary injunction will reduce these risks. The public interest is not served by
executing individuals in this manner. See Harris v. Johnson, 323 F. Supp. 2d 797, 810 (S.D.
Tex. 2004) (“Confidence in the humane application of the governing laws . . . must be in the
public’s interest.”).
Thus, the court finds that all four factors weigh in favor of injunctive relief, and once
again finds itself in the unenviable position of having to issue yet another last-minute stay of
execution. Nonetheless, this is the nature of death penalty litigation, and this court has had a
disproportionate number of such claims given the nature of the case. Moreover, this result could
not have been avoided given that Plaintiffs were diagnosed with COVID-19 in late December, at
which point Plaintiffs filed amended complaints. The court held an evidentiary hearing to assess
the likelihood of success on the merits of these claims and scheduled that hearing at the earliest
possible date.
III.

CONCLUSION

The court finds that Plaintiffs have demonstrated a likelihood of success on the merits
and that absent a preliminary injunction, Plaintiffs will suffer irreparable harm. It further finds
that the likely harm that Plaintiffs would suffer if the court does not grant injunctive relief far
outweighs any potential harm to Defendants. Finally, because the public is greatly served by
attempting to ensure that the most serious punishment is imposed in a manner consistent with our
Constitution, the court finds that it is in the public interest to issue a preliminary injunction.

30
APP.337

Case 1:19-mc-00145-TSC Document 394 Filed 01/12/21 Page 31 of 31

Accordingly, for the reasons set forth above, the court will GRANT Plaintiffs’ motions
for a preliminary injunction. The injunction will remain in effect until March 16, 2021. 13 A
corresponding order will be issued simultaneously.
Date: January 12, 2021

Tanya S. Chutkan
TANYA S. CHUTKAN
United States District Judge

13

The court calculated this date based on Dr. Van Norman’s assessment that COVID-19-related
lung damage can persist for as long as ninety days after infection. (See Van Norman Decl. at 6.)
Both Plaintiffs tested positive for COVID-19 on December 16, 2020. The court will not enjoin
these executions indefinitely, however. Accordingly, it will consider extending the injunction
only if Plaintiffs can provide demonstrated evidence of continued lung damage from COVID-19.
And the court expects that Defendants will, in good faith, comply with reasonable requests for
follow-up medical assessment which, at the bare minimum, should include an x-ray for each
Plaintiff in several weeks.
31
APP.338

Case 1:19-mc-00145-TSC Document 395 Filed 01/12/21 Page 1 of 1

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

In the Matter of the
Federal Bureau of Prisons’ Execution
Protocol Cases,
LEAD CASE: Roane, et al. v. Barr
THIS DOCUMENT RELATES TO:
Roane v. Barr, 05-cv-2337

)
)
)
)
)
)
)
)
)
)
)

Case No. 19-mc-145 (TSC)

ORDER
For the reasons set forth in the accompanying Memorandum Opinion, (ECF No. 394), the
motions for a preliminary injunction filed by Plaintiffs Dustin Higgs and Cory Johnson, (ECF
Nos. 371, 375), are hereby GRANTED. The court finds that Plaintiffs have demonstrated a
likelihood of success on the merits and that, absent a preliminary injunction, Plaintiffs will suffer
irreparable harm. It further finds that the likely harm that Plaintiffs would suffer if the court does
not grant injunctive relief far outweighs any potential harm to Defendants. Finally, because the
public is greatly served by attempting to ensure that the most serious punishment is imposed in a
manner consistent with our Constitution, the court finds that it is in the public interest to issue a
preliminary injunction.
It is hereby ORDERED that Defendants (along with their respective successors in office,
officers, agents, servants, employees, attorneys, and anyone acting in concert with them) are
enjoined from executing Plaintiffs Dustin Higgs and Cory Johnson until March 16, 2021.
Date: January 12, 2021

Tanya S. Chutkan
TANYA S. CHUTKAN
United States District Judge
1
APP.339

USCA4 Appeal: 20-15

Doc: 26

Filed: 01/12/2021

Pg: 1 of 9

FILED: January 12, 2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
___________________
No. 20-15
(3:92-cr-00068-DJN-2)
___________________
UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
COREY JOHNSON, a/k/a O, a/k/a CO
Defendant - Appellant
___________________
No. 21-1
(3:92-cr-00068-DJN-2)
(3:20-cv-00957-DJN)
___________________
UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
COREY JOHNSON, a/k/a O, a/k/a CO
Defendant - Appellant
-----------------------------THE CONSTITUTION PROJECT AT THE PROJECT ON GOVERNMENT
OVERSIGHT

APP.340

USCA4 Appeal: 20-15

Doc: 26

Filed: 01/12/2021

Pg: 2 of 9

Amicus Supporting Appellant
___________________
No. 21-2
(3:92-cr-00068-DJN-2)
___________________
In re: COREY JOHNSON, a/k/a O, a/k/a CO
Movant
___________________
ORDER
___________________
Upon consideration of submissions relative to the motions for stay of execution filed
in Case No. 20-15, United States v. Corey Johnson, Case No. 21-1, United States v. Corey
Johnson, and Case No. 21-2, In re: Corey Johnson, the court denies the motions for stay
of execution.
In No. 20-15, Judge Wilkinson and Judge Floyd voted to deny the motion for stay,
and Judge Motz voted to grant the motion.
In Nos. 21-1 and 21-2, Judge Wilkinson, Judge Motz, and Judge Floyd all voted to
deny the motions for stay of execution.
Judge Wilkinson wrote a separate opinion. Judge Motz wrote a separate opinion,
concurring in the denial of the motions in No. 21-1 and No. 21-2 and dissenting from the
denial of the motion in No. 20-15.
For the Court
/s/ Patricia S. Connor, Clerk
2
APP.341

USCA4 Appeal: 20-15

Doc: 26

Filed: 01/12/2021

Pg: 3 of 9

WILKINSON, Circuit Judge:
I vote to deny a stay of execution and to deny all the subsidiary motions directed
toward that singular end. The Supreme Court has warned against this flurry of last-minute
motions designed to achieve a stay by virtue of allowing the courts severely limited
consideration time. See Bucklew v. Precythe, 139 S. Ct. 1112, 1134 (2019) (instructing
courts to “police carefully against attempts to use [] challenges as tools to interpose
unjustified delay” and explaining that stay requests can be denied if they are filed at the
last minute). “Last-minute stays . . . should be the extreme exception, not the norm.” Barr.
v. Lee, 140 S. Ct. 2590, 2591 (2020) (internal quotation marks omitted). Here, Johnson had
ample time to raise the issues that are only now advanced before us, giving us (and the
Supreme Court) just a few days before the scheduled execution date. The very numerosity
of filings, both statutory and constitutional, betrays a manipulative intention to circumvent
not only the strictures of AEDPA but the Supreme Court’s warnings against procedural
gamesmanship designed to bring the wheels of justice to a halt. We should not reward such
dilatory tactics.
It is disheartening to say the least to watch the Supreme Court’s warnings
disregarded. “Both the State and the victims of crime have an important interest in the
timely enforcement of a sentence.” Hill v. McDonough, 547 U.S. 573, 584 (2006). Yet
these interests have been ignored while Johnson’s case has dragged on through the federal
system for decades. Now Johnson seeks more delay, assaulting us with a barrage of lastminute claims, focusing primarily on the contention that he is intellectually disabled and

3
APP.342

USCA4 Appeal: 20-15

Doc: 26

Filed: 01/12/2021

Pg: 4 of 9

cannot be executed under Atkins v. Virginia, 536 U.S. 304 (2002), or the Federal Death
Penalty Act of 1994, 18 U.S.C. § 3596(c).
There has been no dearth of process here, and we squarely rejected his contention
that he is intellectually disabled under Atkins. In 1993, a jury convicted Johnson of twentyseven counts, including seven murders. At sentencing, the defense retained an eminently
qualified University of Virginia psychologist, who gave a lengthy presentation to the jury
showing that Johnson had experienced a difficult childhood and suffered from a learning
disability, though he had to concede that Johnson was not intellectually disabled.
Unpersuaded, the jury recommended seven death sentences. After a failed direct appeal,
Johnson brought his first habeas petition in 1998, arguing inter alia that he could not be
executed because he was intellectually disabled. The district court denied the petition and
we affirmed, holding that he was not intellectually disabled and specifically rejecting his
argument that he could not be executed under Atkins, the case Johnson now rests his hopes
upon. United States v. Roane, 378 F.3d 382, 408-09 (4th Cir. 2004).
Since then, there have been seven more habeas petitions, accompanied by endless
motions, district court decisions, rejected appeals, and denied certiorari petitions. Johnson
has raised dozens of other claims that many different judges have rejected as meritless. The
courts have given exhaustive attention to petitioner’s case, and at some point allowing these
proceedings to travel further along this indefinite and interminable road brings the rule of
law into disrepute.
I should say finally that there is not the slightest question of innocence here. Johnson
has committed multiple murders of a horrific nature, and even in the depressing annals of
4
APP.343

USCA4 Appeal: 20-15

Doc: 26

Filed: 01/12/2021

Pg: 5 of 9

capital crimes, his case stands out. As Judge Novak recounted below, Johnson is a brutal
“serial killer” who was involved in at least ten murders as an enforcer for a large-scale
narcotics operation. United States v. Johnson, No. 3:92cr68, 2021 WL 17809, at *1-2 (E.D.
Va. Jan. 2, 2021). The time has long since passed for the judgment of the jury and that of
so many courts thereafter to be carried out.

5
APP.344

USCA4 Appeal: 20-15

Doc: 26

Filed: 01/12/2021

Pg: 6 of 9

DIANA GRIBBON MOTZ, Circuit Judge, concurring in No. 21-1 and No. 21-2, dissenting
in No. 20-15:

I.
I vote to deny the motions to stay execution in cases No. 21-1 and No. 21-2. I
believe the motion in No. 21-2 is untimely. However, the claim asserted by Petitioner
Johnson in No. 21-1 is both timely and raises grave concerns about the propriety of now
executing him. I write separately to explain why I believe binding precedent nonetheless
requires denial of that motion.
Since Johnson first contested his sentence on intellectual disability grounds, medical
standards have evolved, “[r]eflecting improved understanding . . . of how mental disorders
are expressed and can be recognized by trained clinicians.” Moore v. Texas, 137 S. Ct.
1039, 1053 (2017). In light of these advances, courts now routinely recalibrate decadesold IQ test scores, recognizing the “statistically-proven phenomenon” that such test scores
are artificially inflated. Thomas v. Allen, 607 F.3d 749, 757 (11th Cir. 2010); see also
Walker v. True, 399 F.3d 315, 322–23 (4th Cir. 2005). Additionally, Johnson has, in the
intervening years, uncovered contemporaneous records from his adolescence that, at the
very least, raise significant questions about his intellectual functioning. No federal court
has ever assessed this evidence or considered whether it forecloses a lawful imposition of
the death penalty in Johnson’s case.

6

APP.345

USCA4 Appeal: 20-15

Doc: 26

Filed: 01/12/2021

Pg: 7 of 9

The death penalty is “unusual in its pain, in its finality, and in its enormity,” long
understood to exist “in a class by itself.” Furman v. Georgia, 408 U.S. 238, 287, 289
(1972) (Brennan, J., concurring). Indeed, whenever “a defendant’s life is at stake,” courts
are “particularly sensitive to insure that every safeguard is observed.” Gregg v. Georgia,
428 U.S. 153, 187 (1976). Congress created one such safeguard in 18 U.S.C. § 3596(c),
which provides that “a sentence of death shall not be carried out upon a person who is
mentally retarded.” As Justice Sotomayor recently observed, the “text and structure” of
this provision “lend significant support” to the view that the Government may not lawfully
“‘carr[y] out’ a death sentence” when a prisoner “is” “intellectually disabled under current
diagnostic standards.” Bourgeois v. Watson, 141 S. Ct. 507, 509 (2020) (Sotomayor, J.,
dissenting) (quoting 18 U.S.C. § 3596(c)). The majority of the Court, however, refused to
endorse this conclusion.
To obtain a stay of execution, Johnson must demonstrate “that he has a significant
possibility of success on the merits.” Dunn v. McNabb, 138 S. Ct. 369 (2017). Given
recent Supreme Court precedent, I cannot conclude that Johnson has met this burden.
Accordingly, I must vote to deny the motion in No. 21-1.

II.
I vote to grant a stay of execution in No. 20-15 because Petitioner Johnson presents
a timely and serious challenge under the First Step Act that should be resolved prior to his
execution. Thus, I dissent from the court’s order denying a stay of execution in No. 20-15.
7

APP.346

USCA4 Appeal: 20-15

Doc: 26

Filed: 01/12/2021

Pg: 8 of 9

In my view, Johnson cannot be faulted for delay in bringing this motion because the
claim has only been available to him for a brief time. Of course, we must follow the
Supreme Court’s instruction that courts “apply ‘a strong equitable presumption against the
grant of a stay where a claim could have been brought at such a time as to allow
consideration of the merits without requiring entry of a stay.’” Hill v. McDonough, 547
U.S. 573, 584 (2006) (quoting Nelson v. Campbell, 541 U.S. 637, 650 (2004)). But this is
not a case where the “claim could have been brought more than a decade ago.” Gomez v.
U.S. Dist. Court, 503 U.S. 653, 654 (1992). The First Step Act of 2018, Pub. L. No. 115391, 132 Stat. 5194, has been in effect only since December 21, 2018. And Johnson
brought this claim in the district court months before his execution date was set, so it can
hardly be described as “designed to achieve a stay.” Concurrence at 1. The reason this
matter is before us on the eve of Johnson’s execution stems from the fact of the
Government’s chosen scheduling, not any “dilatory tactics” attributable to Johnson. Id.
On the merits, I am persuaded that Johnson’s claim that his conviction under 21
U.S.C. § 848(e)(1)(A) is a covered offense under the First Step Act presents a novel
question that is deserving of further consideration. In determining what is a covered
offense, we look to the “statute of conviction.” United States v. Woodson, 962 F.3d 812,
816 (4th Cir. 2020). Johnson presents compelling arguments that his statute of conviction
is 21 U.S.C. § 848 — a cohesive statute centered on the definition of “continuing criminal
enterprise” in § 848(c) — for which the penalties of various subsections have indisputably
been modified. Alternatively, Johnson argues that, even viewing his statute of conviction
8

APP.347

USCA4 Appeal: 20-15

Doc: 26

Filed: 01/12/2021

Pg: 9 of 9

as § 848(e), Congress modified penalties for offenses embedded within that subsection, i.e.
§ 841(b)(1)(A). I believe these claims present difficult and important issues necessitating
adequate consideration by this court. Indeed, we recently calendared a case for oral
argument presenting these very questions. See No. 20-6505, United States v. Jenkins.
Accordingly, I vote to grant a stay of Johnson’s execution in No. 20-15 while this
serious and potentially meritorious claim remains unresolved.

9

APP.348

APP.349

APP.350

APP.351

APP.352

APP.353

APP.354

APP.355

APP.356

APP.357

APP.358

APP.359

APP.360

APP.361

APP.362

APP.363

APP.364

APP.365

APP.366

APP.367

APP.368

APP.369

APP.370

APP.371

APP.372

APP.373

APP.374

APP.375

APP.376

APP.377

APP.378

APP.379

APP.380

APP.381

APP.382

APP.383

APP.384

APP.385

APP.386

APP.387

APP.388

APP.389

APP.390

APP.391

APP.392

APP.393

APP.394

APP.395

APP.396

APP.397

APP.398

Rev. 5-15-20
DANIEL J. RESCHLY
Biographical Summary
Dan Reschly is Professor of Education and Psychology Emeritus in Peabody College,
Vanderbilt University where he Chaired Department of Special Education from 19982006, gaining the #1 national ranking for the first time in 2003. From 1975 to 1998
Reschly directed the Iowa State University School Psychology Program where he
achieved the rank of Distinguished Professor of Psychology. Reschly earned graduate
degrees at the University of Iowa and the University of Oregon and served as a school
psychologist in Iowa, Oregon, and Arizona. Reschly has published on identification of
disabilities (Mild ID, SLD, minority issues), response to intervention, and policy issues in
special education. In recent years he has served as an expert witness in trials involving
claims of mild intellectual disability in death penalty cases. In 2015 Reschly was
recognized as the second most cited author in the history of school psychology and is
among the top 5 contributors to service and leadership. He has been active in state and
national leadership roles including President of the National Association of School
Psychologists (NASP), Editor of the School Psychology Review, Chair of NASP-NCATE
Graduate Program Approval, President of the Society for the Study of School Psychology,
and Chair of the Council of Directors of School Psychology Programs. Reschly served on
the National Academy of Sciences Panels on Standards-based Reform and the Education of
Students with Disabilities and Minority Students in Special and Gifted Education. He chaired
the National Academy Panel on Mental Retardation: Determining Benefits for Social
Security. He has received the NASP Lifetime Achievement Award, three NASP
Distinguished Service Awards, the Stroud Award, appointment to Fellow of the American
Psychological Association and the American Psychological Society, 1996 Outstanding
Alumnus University of Oregon, 2000 NASP Lifetime Achievement Award, and the 2007
NASP Legend Award.
Personal Data
Birthplace:
Address:
Telephone:
e-mail:

Wayland, IA – Married, three children
1023 Coffee Ridge, Spring Hill, TN 37174
Office/Cell 615-708-7910
dan.reschly@gmail.com or dan.reschly@vanderbilt.edu

Educational Background
BS
MA
PhD

1966 Iowa State University, Honors Program, History/Psychology/Education
1968 University of Iowa, NDEA Fellowship, School Psychology/Special Education
1971 University of Oregon, EPDA Fellowship, Educational Psychology/School
Psychology

APP.399

Reschly: p. 2

Professional Employment History
1967-1969: School Psychologist, Louisa County Schools, Wapello, IA
1969:
Director of Summer Head Start Program, Louisa County, IA
1970-1971: School Psychology Intern, Albina Youth Opportunity Center and Portland
Oregon Public Schools
1971-1975: Assistant Professor, Department of Educational Psychology, University of
Arizona, Tucson, AZ
1975-1998: Associate Professor/Professor/Distinguished Professor and Director of the
School Psychology Program, Joint Appointment to Department of
Psychology (75%) and Professional Studies in Education (25%), Iowa State
University (Promotions: to Professor in 1980; to Distinguished Professor
1991)
1996-1998: Associate Dean, College of Education, Iowa State University and Director of
Research Institute for Studies in Education
1998-2014 Professor of Education and Psychology and Chair (1998-2006), Department
of Special Education, Peabody College, Vanderbilt University
2014Professor of Education and Psychology Emeritus, Department of Special
Education, Peabody College, Vanderbilt University
Licensure
Nationally Certified School Psychologist (14126), renewed through June 30, 2021
State Licensure as a School Psychologist in Iowa, Oregon, and Arizona (Inactive)
Iowa Teaching Certification Endorsements in Special Education, K-12 Teaching
Endorsement in Mental Retardation, Secondary Social Studies
Major Areas of Professional Interest
Teaching:
Research:

Psychology and education of persons with disabilities, mild intellectual
disability, special education policy
Mild Intellectual Disability, School psychology services, high incidence
disabilities (mild MR and SLD), minority overrepresentation

Professional Memberships
National Association of School Psychologists, American Psychological Association
(Divisions 15, 16, & 33), American Association on Intellectual and Developmental
Disabilities, Council for Exceptional Children,
Publications (refereed journals, book chapters and books)
Reschly, A. L., & Reschly, D. J. (2014). School consultation and response to intervention:
Convergence, divergence, and future directions for research and practice. In W. P.
Erchul & S. M. Sheridan (Eds), Handbook of research in school consultation (pp. 495512). New York: Routledge.

APP.400

Reschly: p. 3

Reschly, D. J. (2014). Identifying and treating educational disabilities. In I. B. Weiner & R. K.
Otto (Eds.). Handbook of forensic psychology (4th ed.) (pp. 197-218). New York: John
Wiley.
Reschly, D. J. (2014). Response to intervention and the identification of specific learning
disabilities. Topics in Language Disorders, 34, 39-58.
Oliver, R. M. & Reschly, D. J. (2014). Special education teacher preparation in classroom
organization and behavior management. In, P. T. Sindelar, E. D. McCray, M. T. Brownell,
& B. Lignugaris-Kraft (Eds.). Handbook of research on special education teacher
preparation (288-302). New York: Routledge, Taylor, & Francis.
Reschly, D. J. (2013). Assessing mild intellectual disability: Issues and best practices. In D. H.
Saklofske, C. R. Reynolds, & V. L. Schwean, & (Eds.). The Oxford handbook of child
psychological assessment (pp. 683-697). New York: Oxford University Press.
Gresham, F. M., & Reschly, D. J. (2011). Standard of practice and Flynn Effect testimony in death
penalty cases. Intellectual and Developmental Disabilities, 49(3), 131-140.
Oliver, R. M., Wehby, J. H., Reschly, D. (2011). The effects of teachers’ classroom management
practices on disruptive or aggressive student behavior. Campbell Systematic Reviews, 4,
1-55. http://campbellcollaboration.org. Also listed in Crime Solutions at
www.crimesolutions.gov
Oliver, R. M., & Reschly, D. J. (2010). Special education teacher preparation in classroom
management: Implications for students with emotional and behavioral disorders.
Behavioral Disorders, 35, 188-199.
Gresham, F. M., Reschly, D. J., & Shinn, M. R. (2010). RTI as a driving force in educational
improvement: Historical, legal, research, and practice perspectives. In M.R. Shinn &
H.M. Walker (Eds.). Interventions for achievement and behavior problems in a three-tier
model including RTI (2nd ed., pp. 47-77). Bethesda, MD: National Association of School
Psychologists.
Reschly, D. J., & Bergstrom, M K. (2009). Response to intervention. In T. B. Gutkin & C. R.
Reynolds (Eds.) The handbook of school psychology (4th ed., pp. 434-460). New York:
Wiley.
Reschly, D. J. (2009). Documenting the developmental origins of mild mental retardation.
Applied Neuropsychology, 16, 124-134.
Reschly, D. J. (2009). Prevention of Disproportionate Special Education Representation Using
Response to Intervention. Washington DC: Learning Point Associates.
http://www.tqsource.org/forum/documents/TQ_Issue_Paper_RTI_Disproportionality.
pdf
Reschly, D. J., & Wood-Garnett, S. (2009). Teacher Preparation and Response to Intervention at
Middle and High Schools. Washington DC: :Learning Point Associates, National
Comprehensive Center for Teacher Quality.
http://www.tqsource.org/publications/September2009Brief.pdf
Reschly, D. J., Holdheide, L. R., Behrstock, E., & Weber, G. (2009). Enhancing teacher
preparation, development and support. In L. R. Goe (Ed.), America’s opportunity:
Teacher effectiveness and equity in K-12 classrooms (pp. 41-69). Washington DC:
Learning Point Associates, National Comprehensive Center on Teacher Quality.
Reschly, D. J. (2008). School psychology RTI paradigm shift and beyond. In A. Thomas & J.
Grimes (Eds.) Best practices in school psychology V (5th ed., pp. 3-15). Bethesda, MD:
National Association of School Psychologists.

APP.401

Reschly: p. 4

Smartt, S. M., & Reschly, D. J. (2007). Barriers to the preparation of highly qualified teachers in
reading. Chicago: Learning Point Associates, National Comprehensive Center on
Teacher Quality.
Holdheide, L. R., & Reschly, D. J. (2008). Teacher Preparation to Deliver Inclusive Services to
Students with Disabilities. Washington DC: Learning Point Associates, National
Comprehensive Center on Teacher Quality.
http://www.tqsource.org/publications/TeacherPreparationtoDeliverInclusiveServices
.pdf
Oliver, R. M., & Reschly, D. J. (2007). Improving student outcomes in general and special
education: Effective classroom management. Washington, DC: Learning Point
Associates, National Comprehensive Center for Teacher Quality.
http://www.tqsource.org/topics/effectiveClassroomManagement. pdf
Reschly, D. J., Smartt, S. M., & Oliver, R. M. (2007). Innovation configurations to improve
teacher preparation in reading, behavior management, and inclusive practices. In C.
Dwyer (Ed), Biennial Report of the National Comprehensive Center on Teacher Quality
(23-45). Chicago: Learning Point Associates, National Comprehensive Center on
Teacher Quality.
Reschly D. J. (2006). Legal influences on the identification and treatment of educational
disabilities. In I. B. Weiner & A. K. Hess, (Eds.). Handbook of forensic psychology (3rd ed.,
pp. 167-189.). New York: John Wiley & Sons.
Batsche, G., Elliott, J., Graden, J. L., Grimes, J., Kovaleski, J. F., Prasse, D., Reschly, D. J., Schrag, J.,
& Tilly III, W. D. (2005). Response to intervention. Alexandria, VA: National Association
of State Directors of Special Education. (Authors listed alphabetically) (60,000 copies
sold as of December 2006)
Reschly, D. J. (2005). LD identification: Primary intervention, secondary intervention, then
what? Journal of Learning Disabilities, 38, 510-515.
Fletcher, J. M., & Reschly, D. J. (2005). Changing procedures for identifying learning
disabilities: The danger of perpetuating old ideas. The School Psychologist, 59 (1), 1015.
1. Fletcher, J. M., Coulter, W. A., Reschly, D. J., Vaughn, S. (2004). Alternative
approaches to the definition and identification of learning disabilities: Some
questions and answers.
304-331.
2. Reschly, D. J. (2004). Paradigm shift, outcomes criteria, and behavioral
interventions: Foundations for the future of school psychology.
408-416.

Hosp, J. L., & Reschly, D. J. (2004). Disproportionate representation of minority students in
special education: Academic, demographic, and economic predictors. Exceptional
Children, 70, 185-199.
Reschly, D. J., & Hosp, J. L. (2004) State SLD policies and practices. Learning Disability
Quarterly, 27, 197-213.
Fuchs, D., Deshler, D. D., & Reschly, D. J. (2004). National research center on learning disabilities:
Multimethod Studies of Identification and Classification Issues. Learning Disability
Quarterly, 27, 189-195.

APP.402

Reschly: p. 5

Reschly, D. J. (2003). School psychology. In I. B. Weiner (Ed.) Comprehensive Handbook of
Psychology, Volume VII Educational Psychology (W. M. Reynolds & G. E. Miller, Eds.) (pp.
431-453). Hoboken, NJ: John Wiley.
Hosp, J. L., & Reschly, D. J. (2003). Referral rates for intervention or assessment: A metaanalysis of racial differences. Journal of Special Education, 37, 67-80.
Reschly, D. J. (2002). Minority overrepresentation: The silent contributor to LD prevalence
and diagnostic confusion. In R. Bradley, L. Danielson, & D. P. Hallahan (Eds.)
Identification of learning disabilities: Research to practice (pp. 361-368). Mahwah, NJ:
Lawrence Erlbaum.
Hosp, J. L., & Reschly D. J. (2002). Regional differences in school psychology practice. School
Psychology Review, 31, 11-29.
Reschly, D. J., & Ysseldyke, J. E. (2002). Paradigm shift: The past is not the future. In A. Thomas
& J. Grimes (Eds.) Best practices in school psychology IV (4th ed., pp. 3-20). Bethesda,
MD: National Association of School Psychologists.
Reschly, D. J., & Grimes, J. P. (2002). Best practices in intellectual assessment. In A. Thomas & J.
Grimes (Eds.) Best practices in school psychology IV (4th ed., pp. 1337-1350). Bethesda,
MD: National Association of School Psychologists.
Hosp, J. L., & Reschly D. J. (2002). Predictors of restrictiveness of placement for AfricanAmerican and Caucasian students. Exceptional Children, 68, 225-238.
Reschly, D. J., Myers, T. G., & Hartel, C. R. (Eds.) (2002). Mental retardation: Determining
eligibility for Social Security benefits. Washington DC: National Academy Press.
Artiles, A. J., Harry, B., Reschly, D. J., & Chinn, P. C. (2002). Over-identification of students of
color in special education: A critical overview. Multicultural Perspectives, 4(1), 3-10.
Reschly, D. J., & Robinson-Zanartu, C. (2000). Evaluation of aptitudes. In G. Goldstein & M.
Hersen (Eds.), Handbook of psychological assessment (3rd ed., pp 183-201). New York:
Pergamon.
Reschly, D. J. (2000). Assessment and eligibility determination in the Individuals with
Disabilities Act of 1997. In C. F. Telzrow & M. Tankersley, M. (Eds.) IDEA amendments of
1997: Practice guidelines for school-based teams (pp. 65-104). Bethesda, MD: National
Association of School Psychologists.
Reschly, D. J. (2000). The present and future status of school psychology in the United States.
School Psychology Review, 29, 507-522.
Reschly, D. J. (1999). Assessing educational disabilities. In A. Hess & I. Weiner (Eds.), The
handbook of forensic psychology, (2nd ed., pp. 127-150). New York: Wiley.
Reschly, D. J., & Bersoff, D. N. (1999). Law and school psychology. In C. R. Reynolds & T. B.
Gutkin (Eds.) Handbook of School Psychology (3rd ed., pp. 1077-1112). New York: John
Wiley Inc.
Reschly, D. J., Tilly, W. D. III, & Grimes, J. P. (Eds.) (1999). Special education in transition:
Functional assessment and noncategorical programming Longmont, CO: Sopris West.
Reschly, D. J., & Tilly, W. D. III (1999). Reform trends and system design alternatives. In D. J.
Reschly, W. D. Tilly III, & J. P. Grimes (Eds.) Special education in transition: Functional
assessment and noncategorical programming (pp. 19-48). Longmont, CO: Sopris West.
Tilly, W. D. III, Reschly, D. J., & Grimes, J. P. (1999). Disability determination in problem solving
systems: Conceptual foundations and critical components. In D. J. Reschly, W. D. Tilly
III, & J. P. Grimes (Eds.) Special education in transition: Functional assessment and
noncategorical programming (pp. 285-321). Longmont, CO: Sopris West.

APP.403

Reschly: p. 6

MacMillan, D. L., & Reschly, D. J. (1998). The disproportionate representation of AfricanAmericans in special education: The case for greater specificity or reconsideration of
the variables examined. Journal of Special Education, 32, 15-24.
Lund, A. R., Reschly, D. J., & Martin, L. M. (1998). School psychology personnel needs:
Correlates of current patterns and historical trends. School Psychology Review, 27, 106120.
Ysseldyke, J., Dawson, P., Lehr, C., Reschly, D., Reynolds, M., & Telzrow, C. (1997). School
psychology: A blueprint for training and practice II. Bethesda, MD: National Association
of School Psychologists.
Reschly, D. J. (1997). Diagnostic and treatment utility of intelligence tests. In Flanagan, D. P.,
Genshaft, J. L., & Harrison, P. L. (Eds.) Beyond traditional intellectual assessment:
Contemporary and emerging theories, tests, and issues (pp. 437-456). New York:
Guilford Press.
MacMillan, D., & Reschly, D. J. (1997). Issues in definition and classification. In W. E. MacLean
(Ed.), Ellis’ Handbook of mental deficiency: Psychological theory and research (3rd ed.,
pp. 47-74). Hillsdale, NJ: Lawrence Erlbaum.
Reschly, D. J., & Wilson, M. S. (1997). Characteristics of school psychology graduate education:
Implications for the entry level discussion and doctoral level specialty definition.
School Psychology Review, 26, 74-92.
Reschly, D. J. (1997). Utility of individual ability measures and public policy choices for the
21st century. School Psychology Review, 26, 234-241.
Reschly, D. J. (1997). Disproportionate minority representation in general and special education
programs: Patterns, issues, and alternatives. Des Moines, IA: Mountain Plains Regional
Resource Center, Drake University. (147 pages). ERIC ED 415632
http://www.eric.ed.gov/PDFS/ED415632.pdf
Robinson-Zanartu, C., & Reschly, D. J. (1997). Evaluacion de las aptitudes. In G. Buela-Casal & J.
F. Navarro (Eds.), Manual de evaluacion psicologica, (pp. 559-588). Madrid: Siglo
Veintiuno de Espana Editores, SA
Wilson, M. S., & Reschly, D. J. (1996). Assessment in school psychology training and practice.
School Psychology Review, 25, 9-23.
Reschly, D. J. (1996). Identification and assessment of children with disabilities. The Future of
Children: Special Education for Children with Disabilities, 6(1), 40-53.
Reschly, D. J. (1996). “Role change and diversity”; “Employment trends”, “Role restriction”,
“Adaptive Behavior”, “Turf issues.” In T. Fagan & P. Warden (Eds.), Historical
Encyclopedia of School Psychology (pp. ). Westport, CT: Greenwood Publishing Group.
Reschly, D. J. (1996). Functional assessment and special education decision making. In W.
Stainback & S. Stainback (Eds.), Controversial issues confronting special education:
Divergent perspectives (2nd ed., pp. 115-128). Boston: Allyn & Bacon.
Reschly, D. J. (1996). IQ and Special Education: History, Current Status, and Alternatives.
Washington D.C.: National Academy of Sciences (Commissioned Paper)
Reschly, D. J., & Ysseldyke, J. E. (1995). School psychology paradigm shift. In A. Thomas & J.
Grimes (Eds.) Best practices in school psychology III (3rd ed., pp. 17-31). Washington DC:
National Association of School Psychologists.
Reschly, D. J., & Wilson, M. S. (1995). School psychology practitioners and faculty: 1986 to
1991-1992 trends in demographics, roles, satisfaction, and system reform. School
Psychology Review, 24, 62-80.

APP.404

Reschly: p. 7

Wilson, M. S., & Reschly, D. J. (1995). Gender and school psychology: Questions, answers, and
issues. School Psychology Review, 24, 45-61.
Reschly, D. J., & Grimes, J. P. (1995). Best practices in intellectual assessment. In A. Thomas & J.
Grimes (Eds.), Best practices in school psychology (3rd ed., pp. 763-773). Washington,
DC: National Association of School Psychologists.
Reschly, D. J., (1995). Psychological practice in the schools: System change in the heartland. In
R. C. Talley & R. J. Short (Eds.), Creating a new vision of school psychology: Emerging
models of psychological practice in the schools (pp. 23-27). Washington D C: American
Psychological Association.
Flugum, K. R., & Reschly, D. J. (1994). Pre-referral interventions: Quality indices and outcomes.
Journal of School Psychology, 32, 1-14.
Reschly, D. J. (1993). Consequences and incentives: Implications for inclusion/exclusion
decisions regarding students with disabilities in state and national assessment
programs. In J. E. Ysseldyke & M. L. Thurlow (Eds.), Views on inclusion and testing
accommodations for students with disabilities (pp. 35-46). Minneapolis, MN: University
of Minnesota, National Center on Educational Outcomes.
Reschly, D. J. (1993). A review of continuing education programs. In J. E. Zins, T. R. Kratochwill,
& S. E. Elliott (Eds.), The handbook of consultation services for children (pp. 394-418).
San Francisco: Jossey-Bass.
Reschly, D. J. (1992). Mental retardation: Conceptual foundations, definitional criteria, and
diagnostic operations. In S. R. Hooper, G. W. Hynd, & R. E. Mattison, (Eds.),
Developmental disorders: Diagnostic criteria and clinical assessment (pp. 23-67).
Hillsdale, NJ: Lawrence Erlbaum.
Reschly, D. J. (1992). Special education decision making and functional/behavioral
assessment. In W. Stainback & S. Stainback (Eds.), Controversial issues confronting
special education: Divergent perspectives (pp. 127-138). Boston: Allyn & Bacon.
Reprinted in E. L. Meyen, G. A. Vergason, & R. J. Whelan (Eds.), Challenges facing special
education (pp. 227-241). Denver, CO: Love Publishing Co.
Reschly, D. J. & McMaster-Beyer, M. (1991). Influences of degree level, institutional
orientation, college affiliation, and accreditation status on school psychology graduate
education. Professional Psychology: Research and Practice, 22, 368-374.
Reschly, D. J. & Grimes, J. P. (1991). State department and university cooperation: Evaluation
of continuing education in consultation and curriculum based assessment. School
Psychology Review, 20, 519-526.
Reschly, D. J. & Ward, S. M. (1991). Use of adaptive measures and overrepresentation of black
students in programs for students with mild mental retardation. American Journal of
Mental Retardation, 96, 257-268.
Reschly, D. J. (1991). The effects of placement litigation on psychological and educational
classification. Diagnostique, 17, 6-20.
Reschly, D. J. (1991). Bias in cognitive assessment: Implications for future litigation and
professional practices. Diagnostique, 17, 86-90.
Reschly, D. J. (1990). Found: Our Intelligences: What do they mean? Journal of
Psychoeducational Assessment, 8, 259-267.
Reschly, D. J. & Wilson, M. S. (1990). Cognitive processing vs. traditional intelligence:
Diagnostic utility, intervention implications, and treatment validity. School Psychology
Review, 19, 443-458.

APP.405

Reschly: p. 8

Reschly, D. J. & Connolly, L. M. (1990). Comparisons of school psychologists in the city and the
country: Is there a “rural” school psychology? School Psychology Review, 19, 534-549.
Reschly, D. J. (1990). Review of “Assessment and Placement of Minority Students.” School
Psychology Review, 19, 575-577.
Reschly, D. J. (1990). Adaptive behavior. In A. Thomas & J. Grimes (Eds.), Best practices in
school psychology (2nd ed., pp. 29-42). Washington, DC: National Association of School
Psychologists.
Reschly, D. J. (1990). Aptitude tests in educational classification and placement. In G. Goldstein
& M. Hersen (Eds.), Handbook of psychological assessment (2nd ed., pp. 148-172). New
York: Pergamon.
Reschly, D. J., & Grimes, J. P. (1990). Intellectual assessment. In A. Thomas & J. Grimes (Eds.),
Best practices in school psychology (2nd ed., pp. 425-439). Washington, DC: National
Association of School Psychologists.
Reschly, D. J. (1990). Mild mental retardation: Persistent themes, change dynamics, and future
prospects. In M. C. Wang, M. C. Reynolds, & H. J. Walberg (Eds.), Special education
research and practice: Synthesis of findings (pp. 81-99). Oxford, England: Pergamon
Press.
McMaster, M., Reschly, D., & Peters, J. (1989). The directory of graduate programs in school
psychology. Washington, DC: National Association of School Psychologists (includes a
30 page summary and narrative reporting the results of a survey of all programs).
Reschly, D. J., & Gresham, F. M. (1989). Current neuropsychological diagnosis of learning
problems: A leap of faith. In C. R. Reynolds (Ed.), Child neuropsychology: techniques of
diagnosis and treatment, (pp. 503-519). New York: Plenum.
Reschly, D. J. (1989). Incorporating adaptive behavior deficits into instructional programs. In
G. A. Robinson, J. R. Patton, E. A. Polloway, & L. R. Sargent (Eds.), Best practices in mild
mental retardation, (pp. 39-63). Reston, VA: Council for Exceptional Children, Division
on Mental Retardation.
Reschly, D. J. (1988). Minority mild mental retardation overrepresentation and special
education reform. Exceptional Children, 54, 316-323.
Reschly, D. J. (1988). Larry P.! Larry P.! Why the California sky fell on IQ testing. Journal of
School Psychology, 26, 199-205.
Reschly, D. J., Kicklighter, R. H., & McKee, P. (1988a). Recent placement litigation, Part I:
Regular education grouping: Comparison of Marshall (1984, 1985) & Hobson (1967,
1969). School Psychology Review, 17, 7-19.
Reschly, D. J., Kicklighter, R. H., & McKee, P. (1988b). Recent placement litigation, Part II:
Minority EMR overrepresentation: Comparison of Larry P. (1979, 1984, 1986) with
Marshall (1984, 1985) and S-1 (1986). School Psychology Review, 17, 20-36.
Reschly, D. J., Kicklighter, R. H., & McKee, P. (1988c). Recent placement litigation, Part III:
Analysis of differences in Larry P., Marshall, and S-1 and implications for future
practices. School Psychology Review, 17, 37-48.
McDougall, L. M., Reschly, D. J., & Corkery, J. M. (1988). Changes in referral interviews with
teachers after behavioral consultation training. Journal of School Psychology, 26, 225232.
Reschly, D. J. (1988). Special education reform: School psychology revolution. School
Psychology Review, 17, 459-475.

APP.406

Reschly: p. 9

Reschly, D. J. (1988). Obstacles, starting points, and doldrums notwithstanding:
Reform/revolution from outcomes criteria. School Psychology Review, 17, 495-501.
Reschly, D. J. (1988). Assessment issues, placement, litigation, and the future of mild mental
retardation classification and programming. Education and Training of the Mentally
Retarded, 17, 285-301.
Sabers, D. L., Feldt, L. S., & Reschly, D. J. (1988). Appropriate and inappropriate uses of
estimated true scores. Journal of Special Education, 22, 358-366.
Reschly, D. J. (1988). Minority EMR overrepresentation: Legal issues, research findings, and
reform trends. In M. C. Wang, M. C. Reynolds, & H. J. Walberg (Eds.), The handbook of
special education: Research and practice, Vol. II (pp. 23-41). Oxford, England: Pergamon
Press, Ltd. [Also edited the five chapter section on mild mental retardation and wrote
section introduction.]
Reschly, D. J. (1988). Alternative delivery systems: Legal and ethical issues. In J. L. Graden, J. E.
Zins, & M. J. Curtis (Eds.), Alternative educational delivery systems: Enhancing
instructional options for all students (pp. 525-552). Washington, DC: National
Association of School Psychologists.
Gresham, F. M., & Reschly, D. J. (1987). Dimensions of social competence: Method factors in
the assessment of adaptive behavior, social skills, and peer acceptance. Journal of
School Psychology, 25, 367-381.
Gresham, F. M. & Reschly, D. J. (1987). Sociometric differences between mildly handicapped
and non-handicapped black and white students. Journal of Educational Psychology, 79,
195-197.
Gresham, F. M., Reschly, D. J., & Carey, M. P. (1987). Teachers as “tests.” Classification accuracy
and concurrent validation in the identification of learning disabled children. School
Psychology Review, 16, 543-553.
Reschly, D. J. (1987). Learning characteristics of mildly handicapped students: Implications for
classification, placement, and programming. In W. C. Wang, M. C. Reynolds, & H. J.
Walberg (Eds.), The handbook of special education: Research and practice (Vol. 1-3, pp.
xxx-xxx). Oxford, England: Pergamon Press.
Reschly, D. J. (1987). Assessing educational handicaps. In A. Hess & I. Weiner (Eds.), The
handbook of forensic psychology, (pp. 155-187). New York: Wiley.
Gresham, F. M. & Reschly, D. J. (1987). Issues in the conceptualization, classification, and
assessment of social skills in the mildly handicapped. In T. R. Kratochwill (Ed.),
Advances in school psychology, Vol. VI, (pp. 203-247). Hillsdale, NJ: Lawrence Erlbaum,
Inc.
Reschly, D. J., & Graham-Clay, S. L. (1987). Psychological abuse from prejudice and cultural
bias. In M. R. Brassard, R. Germain, & S. N. Hart (Eds.), The psychological maltreatment
of children and youth, (pp. 137-145). New York: Pergamon Press.
Reschly, D. J., & Gresham, F. M. (1987). Adaptive behavior and the mildly handicapped. In T. R.
Kratochwill (Ed.), Advances in school psychology, Vol. VI, (pp. 265-298). Hillsdale, NJ:
Lawrence Erlbaum, Inc.
Reschly, D. J. (1986). Functional psychoeducational assessment: Trends and issues. Special
Service in the Schools (Special Issues on Emerging Perspectives on Assessment of
Exceptional Children), 2, 57-69. [Also reprinted in R. E. Bennett & C. A. Maher (Eds.)
1986, Emerging perspectives on assessment of exceptional children. New York: Haworth
Press, Inc.]

APP.407

Reschly: p. 10

Prasse, D. P., & Reschly, D. J. (1986). Larry P.: A case of segregation, testing, or program
efficacy? Exceptional Children, 52, 333-346.
Gresham, F. M., & Reschly, D. J. (1986). Social skill deficits and low peer acceptance of
mainstreamed learning disabled children. Learning Disability Quarterly, 9, 23-32.
Reschly, D. (1986). Economic and cultural factors in childhood exceptionality. In R. Brown & C.
Reynolds (Eds.), Psychological perspectives on childhood exceptionality: A handbook,
(pp. 423-466). New York: Wiley Interscience.
Reschly, D. (1985). Best practices: Adaptive behavior. In A. Thomas & J. Grimes (Eds.), Best
practices in school psychology, (pp. 353-368). Washington, DC: National Association of
School Psychologists.
Fleig, G. S., & Reschly, D. J. (1985). Special education and the law. In L. Sametz & C. S.
McLoughlin (Eds.), Educators and the law, (pp. 84-109). Springfield, IL: Charles C.
Thomas.
Reschly, D. (1984). A reaction to “A national survey of students; and practitioners’ perceptions
of training.” School Psychology Review, 13, 405-406.
Reschly, D. (1984). Beyond test bias: The National Academy Panel’s analysis of minority EMR
overrepresentation. Educational Researcher, 13(3), 15-19.
Reschly, D. (1984). Advances II: Two steps forward, and … [Review of Advances in School
Psychology, Vol. 2] Contemporary Psychology, 29, 68-69.
Reschly, D. (1984). Aptitude tests in educational classification and placement. In G. Goldstein
& M. Hersen (Eds.), Handbook of psychological assessment. Elmsford, NY: Pergamon
Press.
Reschly, D. (1984). Assessment and decision making. In J. E. Ysseldyke (Ed.), School
psychology: The state of the art. Minneapolis, MN: National School Psychology Inservice
Training Network, University of Minnesota.
Graham-Clay, S., & Reschly, D. (1984). Legal and ethical issues in behavior modification. In C.
A. Maher & S. C. Foreman (Eds.), Providing effective educational services in school
organizations: A behavioral approach. Hillsdale, NJ: Erlbaum.
Ross-Reynolds, J., & Reschly, D. (1983). An investigation of item bias on the WISC-R with four
sociocultural groups. Journal of Consulting and Clinical Psychology, 51, 144-146. (Full
report at ERIC Document Reproduction Service No. ED 222 529)
Reschly, D. (1983). Legal issues in psychoeducational assessment. In G. Hynd (Ed.), The school
psychologist: Contemporary perspectives (xxx-xxx). Syracuse, NY: Syracuse University
Press.
Reschly, D. (1982). School psychology today: Progress, not impasse. Professional Psychology
Research and Practice, 13, 990-998.
Patrick, J., & Reschly, D. (1982). Relationship of state education criteria and demographic
variables to prevalence of mental retardation. American Journal of Mental Deficiency,
86, 351-360.
Reschly, D. (1982). Assessing mild mental retardation: The influence of adaptive behavior,
sociocultural status, and prospects for nonbiased assessment. In C. R. Reynolds & T. B.
Gutkin (Eds.), The handbook of school psychology. (pp. 209-242) New York: Wiley.
Reschly, D. (1982). Psychological services. In H. Mitzel (Ed.), Encyclopedia of educational
research, 5th ed. New York: MacMillan.

APP.408

Reschly: p. 11

Kazimour, K. K. & Reschly, D. (1981). Investigation of norms and concurrent validity for the
Adaptive Behavior Inventory for Children. American Journal of Mental Deficiency, 85,
512-520.
Reschly, D. (1981). Evaluation of the effects of SOMPA measures on classification of students
as mildly retarded. American Journal of Mental Deficiency, 86, 16-20.
Reschly, D. (1981). Psychological testing in educational classification and placement. American
Psychologist, 36, 1094-1102.
Reschly, D. (1981). Nonbiased assessment and the mildly retarded. In T. Oakland, Nonbiased
assessment. Minneapolis, MN: National School Psychology Inservice Training Network,
University of Minnesota.
Reschly, D. (1980). Psychological evidence in the Larry P. Opinion: A case of right problem–
wrong solution? School Psychology Review, 9, 136-148.
Reschly, D. (1980). School Psychologists and assessment in the future. Professional Psychology:
Research and Practice, 11, 841-848.
Reschly, D., & Sabers, D. (1979). Analysis of test bias in four groups with the regression
definition. Journal of Educational Measurement, 16, 1-9.
Reschly, D., & Lamprecht, M. (1979). Expectancy effects of labels: Fact or artifact? Exceptional
Children, 46, 55-58.
Reschly, D., & Reschly, J. (1979). Validity of WISC-R factor scores in predicting teacher ratings
of achievement and attention among four groups. Journal of School Psychology, 17, 355361.
Phye, G., & Reschly, D. (Eds.). (1979). School psychology: Perspectives and issues. New York:
Academic Press.
Reschly, D. (1979). Nonbiased assessment. In G. Phye & D. Reschly (Eds.), School psychology:
Perspectives and issues (xxx-xxx). New York: Academic Press.
Reschly, D. (1978). WISC-R factor structures among Anglos, Blacks, Chicanos, and Native
American Papagos. Journal of Consulting and Clinical Psychology, 46, 417-422.
Reschly, D., & Davis, R. (1977). Comparability of WISC and WISC-R scores among borderline
and mildly retarded children. Journal of Clinical Psychology, 33, 1045-1048.
Hall, G., & Reschly, D. (1977). Effects of differing external feedback conditions on rates of selfreinforcement. Journal of General Psychology, 97, 109-115.
Reschly, D. (1976). School psychology consultation: “Frenzied, faddish or fundamental?”
Journal of School Psychology 14, 105-113.
Also reprinted in M. Curtis & J. Zins (Eds.), The theory and practice of school consultation.
Springfield, IL: Charles. C. Thomas.
Reschly, D., & Jipson, F. (1976). Ethnicity, geographic locale, age, sex, and urban-rural
residence as variables in the prevalence of mild mental retardation. American Journal
of Mental Deficiency, 81, 154-161.
Also reprinted in S. Chess & S. Thomas (Eds.) Annual progress in child psychiatry and child
development: Tenth annual edition, (612-624). New York: Brunner/Mazel.
Reschly, D., & Sabers, D. (1974). Open education: Have we been there before? Kappan, 55, 675677.
Brown, D., Reschly, D., & Sabers, D. (1974). Using group contingencies with time out and
positive reinforcement to modify aggressive behaviors in a Head Start classroom.
Psychological Record, 24, 491-496.

APP.409

Reschly: p. 12

Brown, D., Reschly, D., & Wasserman, H. (1974). Effects of surreptitious modeling upon
teacher classroom behaviors. Psychology in the Schools, 11, 366-369.
Reprinted in K. O’Leary & S. O’Leary (Eds.), Classroom management: The successful use of
behavior modification (2nd ed.) 211-215. New York: Pergamon Press
Reprinted in L. J. Carroll (Ed.), Contemporary School Psychology (pp. xxx-xxx). Brandon,
VT: Clinical Psychology Publishing Co.
Reschly, D. (1973). Consistency of self-reinforcement rates over different tasks: Sex, task
success, and ability as determinants of rates of self-reinforcement. Psychological
Record, 23, 237-242.
Reschly, D., & Mittman, A. (1973). The relationship of self-esteem status and task ambiguity to
the self-reinforcement behavior of children. Developmental Psychology, 9, 16-19.
Other Publications (Technical Reports/Monographs/Newsletter)
•
•

•

•

•

•

•

•

Reschly, D. (1972). Technical Report: EPDA Summer Institute. Tucson, AZ: Arizona
Center for Educational Research and Development.
Reschly, D. et al. (1974). The development and use of instructional objectives for open
education classrooms. Tucson, AZ: University of Arizona, Arizona Center for
Educational Research and Development.
Reschly, D. (1978). Nonbiased assessment and school psychology. Des Moines, IA: Iowa
Department of Public Instruction. (ERIC Document Reproduction Service No. ED 157
240)
Reschly, D. (1980). Nonbiased assessment. Unpublished monograph, Iowa State
University, Ames. (ERIC Document Reproduction Service No. ED 209 810; EC 140
324) (Distributed to all school psychologists in Iowa, Illinois, Kansas, and Florida)
Reschly, D., Grimes, J., & Ross-Reynolds, J. (1981). State norms for IQ, adaptive
behavior, and sociocultural background: Implications for nonbiased assessment
(Project Report). Des Moines, IA: Department of Public Instruction. (ERIC Document
Reproduction Service No. ED 209-811, EC 140 315)
Reschly, D., Gresham, F., & Graham-Clay, S. (1984). Multi-factored nonbiased
assessment: Convergent and discriminant validity of social and cognitive measures with
black and white regular and special education students (Final Project Report). Ames,
IA: Iowa State University, Department of Psychology. ED No 252 034.
Reschly, D. J. NASP Presidential Editorials
“What’s good about school psychology?” 1984, 13(1), 1-2.
“The professional development imperative.” 1984, 13(2), 1-2.
“Professional standards ARE practical.” 1984, 13(3), 1-2.
“Expanding roles or guild interests.” 1984, 13(4), 1-2.
“Diversity in school psychology.” 1985, 13(5), 1,8.
“The NASP-APA relationship: A good news-bad news story.” 1985, 13(6), 1-2.
“The scourge of racism.” 1985, 13(7), 1.
“LD or not LD? Simple solutions to complex problems.” 198513(8), 1-2.
Reschly, D. J., & Casey, A. (1986). Behavioral consultation. Ames, IA: Iowa State
University, Department of psychology, Project RE-AIM. (67 pp.) (Distributed to all
school psychologists in Iowa)

APP.410

Reschly: p. 13

•

•

•

•

•

•
•
•

•
•

•

•

•

•

•

Reschly, D. J. (1987). Behavioral consultation. In M. Wang (Ed.), What works in the
education of special needs students. Washington, DC: Department of Education, Office
of Special Education and Rehabilitation Services.
Reschly, D. J. (1987). Adaptive behavior in classification and programming. St. Paul,
MN: Minnesota Department of Education. Revised and expanded in 1988 for the state
of Florida.
Reschly, D. J. (1987). “Disproportionality”, (pp. 526-528), “Labeling”, (pp. 901-903),
“Marshall v. Georgia” (pp. 989-992), “PASE V. Hannon”, (pp. 1156-1157). In C. R.
Reynolds & L. Mann (Eds.), Encyclopedia of special education. New York: Wiley
Interscience.
Reschly, D. J., Genshaft, J., & Binder, M. S. (1987). The 1986 NASP survey: Comparison of
practitioners, NASP leadership, and university faculty on key issues. Washington, DC:
National Association of School Psychologists. ED 300 733.
Reschly, D. J., Robinson, G. A., Volmer, L. M., & Wilson, L. R. (1988). Iowa mental
disabilities research project final report. Des Moines, IA: Iowa Department of
Education, Bureau of Special Education.
Reschly, D. J. (1989). Videotape: Adaptive behavior: Definition and assessment.
Washington D. C.: National Association of School Psychologists.
Reschly, D. J. (1989). Videotape: Adaptive behavior: Designing interventions and
monitoring progress. Washington D. C.: National Association of School Psychologists.
Reschly, D. J. (1990). Classification of students for special education: Alternative models
and criteria (47 pp.). Sacramento, CA: California Department of Education Policy
Analysis Paper.
Connolly, L. & Reschly, D. J. (1990). Personnel shortages: The school psychology crisis
of the 1990s. NASP Communique, 19(3), 1,12.
Flugum, K., Ward, S., Golbert, K., Yoo, T-Y., Reschly, D. J., & Robinson, G. A. (1990).
Baseline comparison of Year 1 and Year 2 Renewed Service Delivery System trial sites.
Des Moines, IA: Iowa Department of Education, Bureau of Special Education.
Reschly, D. J., Robinson, G. A., Ward, S., Flugum, K., Golbert, K., & Yoo, T-Y. (1990).
Baseline results for Phase II RSDS trial sites. Des Moines, IA: Iowa Department of
Education, Bureau of Special Education.
Reschly, D. J., Robinson, G. A., & Ward, S. (1990). Evaluation of the Renewed Services
Delivery System: (Research Report #1). Des Moines, IA: Bureau of Special Education,
Iowa Department of Education.
Reschly, D. J., Robinson, G. A., Ward, S., Flugum, K., & Yoo, T-Y. (1990). Baseline results
for Phase II trial sites: (Research Report #2). Des Moines, IA: Bureau of Special
Education, Iowa Department of Education.
Flugum, K., Ward, S., Golbert, K., Yoo, T-Y, Reschly, D. J., & Robinson, G. A. (1990).
Comparison of baseline results for Phase I and II trial sites: (Research Report #3). Des
Moines, IA: Bureau of Special Education, Iowa Department of Education.
Flugum, K. & Reschly, D. J. (1991). Quality indices and the outcomes of prereferral
interventions: (Research Report #4). Des Moines, IA: Bureau of Special Education,
Iowa Department of Education.

APP.411

Reschly: p. 14

•

•
•

•

•

•

•
•

•
•

Reschly, D. J., & Flugum, K. R. (1992). Special education and related services:
Characteristics of current services and implications for reform. Des Moines, IA: Iowa
Department of Education, Bureau of Special Education.
Reschly, D. J., & Tilly, W. D. (1993). The WHY of system reform. Communique, 22(1),
1, 4-6.
Reschly, D. J., & Starkweather, A. R. (1997). Evaluation of an alternative special
education assessment and classification program in the Minneapolis Public Schools.
Minneapolis, MN: Minnesota Department of Children, Families, and Learning,
Division of Special Education (82 pages).
Reschly, D. J., & Tilly, W. D. (1997). Effects of the systems change process on the
implementation of transition services. Des Moines, IA: Iowa Department of Education,
Bureau of Special Education (32 pages).
Ysseldyke, J. E., Thurlow, M. L., Kozleski, E., & Reschly, D. (Eds.) (1998).
Accountability for the results of educating students with disabilities. Minneapolis MN:
National Center for Educational Outcomes, University of Minnesota, College of
Education and Human Development.
Reschly, D. J., & Hughes, G. (1999, March). Review of Special Schools Placement Data
for Roma and Non-Roma Children in Ostrava, Czech Republic. Unpublished report,
Department of Special Education, Vanderbilt University, Nashville TN.
Reschly, D. J. (2002). Change dynamics in special education assessment: Historical
and cotemporary patterns. Peabody Journal of Education, 77(2), 117-136.
Gresham, F., Reschly, D., Tilly, W. D., Fletcher, J., Burns, M., Crist, T., Prasse, D.,
Vanderwood, M., & Shinn, M. (2004). Comprehensive evaluation of learning
disabilities: A response-to-intervention perspective. School Psychology Communique,
xx, xx-xx.
Reschly, D. J. (2006). Response to Intervention: Why Now? Video California
Department of Education. http://www4.scoe.net/rti/materials.cfm?menuChoice=2
Reschly, D. J., Holdheide, L. R., Smartt, S. M., & Oliver, R. M. (2007). Evaluation of
special education teacher preparation coursework in reading, behavior, and inclusive
practices. Springfield, IL: Illinois State Board of Education.

Administrative Law Judge Decisions:
-Reschly, D. J. In Re: David F.. Renee M. v. Mason City Community School District and
Northern Trails Area Education Agency 2, 7 D.o.E. 74, Administrative docket # 2027,
May, 1989.
-Reschly, D. J. In Re: Hussun H., Aldona H. v. Sioux City Community School District and
Western Hills Area Education Agency 12, 7 D.o.E. App. Dec. 144, Admin. Doc. #2029,
June, 1989
-Reschly, D. J. In Re: Leonna N., Vera N. v. West Burlington Community School District
and Great River Area Education Agency 16, 7 D.o.E. App. Dec. 144, Admin. Doc. #2021,
October, 1989.
-Reschly, D. J., In Re: Michael H., Des Moines Community School District v. Mary A., 7
D.o.E., App. Dec. 387, Admin. Doc. S.E. #13, June, 1990.

APP.412

Reschly: p. 15

-Reschly, D. J., In Re: Christopher L., Victoria L. v. Ottumwa Community School District
and Southern Prairie Area Education Agency 15, D.o.E. App. Dec. 125, Admin. Doc. S.E.
#21, November, 1990.
-Reschly, D. J. In Re: Timothy B. (June 12, 1991), Timothy B. v. Keokuk Community School
District, SE-35, Individuals with Disabilities Education Law Report, 18, 874
-Reschly, D. J., In Re: Jill C. (April 12, 1993), Jill C. v. Sioux City Community School District,
Individuals with Disabilities Education Law Report, 20, 107.
Reschly, D. J. In re: Laura L. (December 28, 1993). Laura L. v. Burlington Community
School District, SE-96, Individuals with Disabilities Education Law Report, 20, 1014.
-Reschly, D. J. In Re Nick B. Gail B. v. Ottumwa Community School District & Southern
Prairie Area Education Agency XV, Admin. Doc. SE-102, 11 DoE App. Dec. 331,
September 13, 1994, Individuals with Disabilities Education Law Report, 22, 740.
-Reschly, D. J. In Re In re John M. Glen and Rita K., v. Des Moines Independent School
District and Heartland Area Education Agency XI, Admin. Doc. SE-109, Cite as 12 D.o.E.
App. Dec. 168, December, 1994. Individuals with Disabilities Education Law Report, 22,
176.
-Reschly, D. J. In Re Travis H. Sandra Y. v. Newton Community School District and
Heartland Area Education Agency XI, Admin. Doc. SE-146, Cite as 12 D.o.E. App. Dec.
288, March, 1995. Individuals with Disabilities Education Law Report, 22, 915.
-Reschly, D. J. In Re Ryan U. Burlington Community School District and Great River AEA
16 v. Mr. and Mrs. Allen Underwood, Admin. Doc. SE-151, Cite as 12 D.o.E. App. Dec. 360,
September, 1995. Individuals with Disabilities Education Law Report, 23, 162.
-Reschly, D. J. In Re Robert T. John T. and Leigh T. v. Marion Independent School District
and Grant Wood AEA 10, Admin. Doc. SE-160, Cite as 13 D.o.E. App. Dec. 40, January 29,
1996, February 21, 1996. Individuals with Disabilities Education Law Report,
-Reschly, D. J. In Re Jonathan G. Frank and Judy G. v. Cedar Rapids Community School
District, June 28, 1996.
-Reschly, D. J. In Re: Amanda S., Amanda S. v. Webster City Community School District,
SE-185, May 22, 1997. Individuals with Disabilities Education Law Report, 26, 80
-Reschly, D. J. In Re: Theodor A., Theodor A. v. Fairfield Community School District, SE192, September 2, 1997. Individuals with Disabilities Education Law Report, 26, 1090.
-Reschly, D. J. In Re: Stefan S. Stefan S. v. Ankeny Community School District and
Heartland Area Education Agency 11, SE 194, March 6, 1998. Individuals with
Disabilities Education Law Report, 27, 1007
Grants
•
•

•

Reschly, D., & Jipson, F. (1974-1975). Arizona Department of Education, Prevalence of
handicapped students by sociocultural group and region. $92,700.
Reschly, D., & Gresham, F. (1981-1982). Federal Department of Education, Use of
social competence measures to facilitate parent/teacher involvement, and nonbiased
assessment. $48,769.
Reschly, D. (1985-1986). Iowa Department of Education, Project excellence,
continuing education of school psychologists. $26,880.

APP.413

Reschly: p. 16

•
•

•
•
•
•
•

•

•

•

•

Reschly, D., & Andre, T. (1986-1987). Iowa Department of Education, Investigation of
programs for children and youth with mental disabilities. $14,904.
Grimes, J. P., & Reschly, D. (1986-1988). United States Department of Education,
Project RE-AIM (Relevant educational assessment and intervention model), total award
$175,000; ISU portion $51,140.
Reschly, D., & Casey, A. (1987-1988). Iowa Department of Education, Extension and
expansion of the analysis and evaluation of mental disabilities programs, $24,991.
Reschly, D. J., & Reiher, T. C. (1987-1988). Iowa Department of Education, Iowa
behavior disorders research project, $19,602.
Reschly, D. J. (1987). National Association of School Psychologists Contract to edit
Directory of school psychology graduate programs, $7,845.
Reschly, D. J., & Reiher, T. C. (1988-1989). Iowa Department of Education, Iowa
Behavior Disorders Research Project Extension, $24,950.
Reschly, D. J. (1989-1992). Bureau of Special Education, Iowa Department of
Education, “Evaluation of Renewed Services Delivery System for At Risk and
Handicapped Children and Youth,” $210,700.
Peterson, C. & Reschly, D. (1994-1999). “School Psychologists in Early Childhood
Preservice Training Project.” Personnel Preparation Program, U. S. Department of
Education. ($433,913).
Reschly, D. J. (1994-1996). Evaluation of Conventional and Alternative Special
Education Assessment Procedures with Diverse Populations in an Urban School
Environment. Minnesota Department of Education, Bureau of Special Education. ($90,
000).
Fuchs, D., Reschly, D., & Deshler, D. (Co-Directors) (2001-2006). The National
Research Center in Learning Disabilities. U.S. Department of Education, Office of
Special Education Programs ($3,500,000).
Coulter, T., Dwyer, C., Laine, S., & Reschly, D., (Principal Investigators), National
Comprehensive Center on Teacher Quality, (2005-2010) $5,000,000, US Department
of Education.
Reschly is the PI for the Vanderbilt University subcontract, 2005-2006 funding
at $225,000; 2006-2007 funding at $248,920; 2007-2008 funding at $250,207;
2008-2009 funding at 250,000; 2009-2010 funding at $261, 066; 2010-2011 at
$261,970; 2011-2012 at $270,000.

Refereed Papers Presented
•

•

•

Reschly, D. (1972). Rates of self-reinforcement as a function of task ambiguity and selfesteem status. Paper presented at the meeting of the Rocky Mountain Psychological
Association. Las Cruces, NM.
Reschly, D. & Sabers, D. (1972). An empirical study of attitudes toward open education.
Paper presented at the meeting of the Rocky Mountain Educational Research
Association. Las Cruces, NM.
Reschly, D., & Swanson, R. (1973, May). An investigation of word difficulty of the
adjective check list. Paper presented at the meeting of the Rocky Mountain
Psychological Association. Las Vegas.

APP.414

Reschly: p. 17

•

•

•

•

•

•
•
•

•

•

•

•

•

•

•

Reschly, D. (1974, March). Diverse meanings of consultation as a means of providing
school psychological services. Paper presented at the meeting of the National
Association of School Psychologists. Las Vegas.
Reschly, D., Brown, D., Wasserman, H., & Davis, R. (1974, March). Use of covert
modeling and self-management procedures in modifying inappropriate teacher
behaviors and children’s hyperactivity. Paper presented at the meeting of the National
Association of School Psychologists. Las Vegas.
Sabers, D., Reschly, D., & Meredith, K. (1974, April). Age differences in degree of
acquiescence on positively and negatively scored attitude scale items. Paper presented
at the meeting of the National Council on Measurement in Education. San Francisco.
Reschly, D. (1975, April). Empirical data on traditional and pluralistic assessment
procedures with culturally different children. Paper presented at the meeting of the
National Association of School Psychologists. Atlanta.
Reschly, D. (1975, April). Chair. Practical differences among three approaches to school
psychology consultation. Symposium conducted at the meeting of the National
Association of School Psychologists.
Reschly, D. (1975, April). Key variables in behavioral consultation. Paper presented at
the meeting of the National Association of School Psychologists.
Reschly, D. (1976, March). Chair. Issues in behavioral consultation. Symposium
conducted at the meeting of the National Association of School Psychologists.
Reschly, D. (1976, March). Problems and tentative solutions for evaluating the
outcomes of behavioral interventions in the schools. Paper presented at the meeting of
the National Association of School Psychologists.
Reschly, D., Sabers, D., & Meredith, K. (1976, April). Analysis of different concepts of
cultural fairness using WISC-R and MAT scores from four ethnic groups. Paper
presented at the meeting of the American Educational Research Association. (ERIC
Document Reproduction Service No. ED 126 111)
Reschly, D. (1977, March). Chair. Continuing Education for School Psychologists:
Content, Method, and Means. Symposium conducted at the meeting of the National
Association of School Psychologists.
Reschly, D. (1977, March). School psychologists’ evaluations of training programs and
in service needs. Paper presented at the meeting of the National Association of School
Psychologists.
Reschly, D. (1977, March). Nonbiased assessment: Differing conceptions and empirical
results. Paper presented at the meeting of the National Association of School
Psychologists.
Reschly, D. (1978, March). Predictive validity of WISC-R factor scores: Implications for
nonbiased assessment. Paper presented at the meeting of the National Association of
School Psychologists.
Reschly, D. (1978, May). Comparison of bias in assessment using conventional and
pluralistic measures. Paper presented at the meeting of the Council for Exceptional
Children. (ERIC Document Reproduction Service No. ED 153 386)
Reschly, D. (1979, March). Research with the WISC-R: Implications for assessment of
minorities. In Assessment of minorities. Symposium conducted at the meeting of the
National Association of School Psychologists.

APP.415

Reschly: p. 18

•

•

•

•

•

•

•
•

•

•

•

•

•

•

Reschly, D. (1979, March). Journal policies in school psychology. In Editors of school
psychology journals. Symposium conducted at the meeting of the National Association
of School Psychologists.
Reschly, D. (1980, April). Journal policies in school psychology. In Editors of school
psychology journals. Symposium conducted at the meeting of the National Association
of School Psychologists.
Reschly, D., & Kazimour, K. (1980, April). Generalizability of SOMPA standardization
data to other populations. Paper presented at the meeting of the National Association
of School Psychologists.
Reschly, D. (1981, April). WISC-R differential validity: Psychological evidence vs court
opinions. Paper presented at the meeting of the National Association of School
Psychologists.
Reschly, D. (1981, April). Journal policies in school psychology. In Editors of school
psychology journals. Symposium conducted at the meeting of the National Association
of School Psychologists.
Reschly, D. (1981, April). Continuing education needs of school psychologists. In
Leadership in school psychology. Symposium conducted at the meeting of the National
Association of School Psychologists.
Reschly, D. (1982, March). SOMPA research: First facts. Paper presented at the
meeting of the National Association of School Psychologists.
Reschly, D. (1982, March). Neuropsychological vs behavioral models: To explain or to
change? Invited paper presented at the meeting of the National Association of School
Psychologists.
Reschly, D. (1983, March). Convergent and discriminant validity of the Children’s
Adaptive Behavior Scale. Paper presented at the meeting of the National Association
of School Psychologists.
Reschly, D. (1983, March). Neuropsychological vs behavioral models: To explain or to
change? Invited paper presented at the meeting of the National Association of School
Psychologists.
Reschly, D. (1983, April). The right questions (finally): Comments on the National
Academy of Sciences report on mild mental retardation classification/placement. In
Placing children in special education: Findings of the National Academy of Sciences
panel. Symposium conducted at the meeting of the American Educational Research
Association, Montreal, Canada. (Invited)
Reschly, D. J. (1984, April). ABIC and ELP validity: The search for psychological
meaning and educational relevance. Paper presented at the meeting of the National
Association of School Psychologists, Philadelphia, PA.
Reschly, D. J. (1984, April). School neuropsychology: Excess baggage in
psychoeducational assessment. Paper presented at the meeting of the National
Association of School Psychologists, Philadelphia, PA.
Reschly, D. J., Graham-Clay, S., & Gresham, F. M. (1984, May). Adaptive behavior
measures with mildly retarded students: The name IS the same but the results are
different. Paper presented at the meeting of the American Association on Mental
Deficiency.

APP.416

Reschly: p. 19

•

•

•

•

•

•

•

•

•

•

•

•

•

•

Reschly, D. J. (1984, July). Mild mental retardation: An international perspective. Paper
presented at the meeting of the VII International School Psychology Colloquium,
Orleans, France. (Invited)
Reschly, D. J. (1985, April). Psychometric differences between nonimpaired and mildly
impaired black students. Paper presented at the meeting of the National Association of
School Psychologists, Las Vegas, NV.
Reschly, D. J. (1985, April). School neuropsychology: Excess baggage in
psychoeducational assessment. Paper presented at the meeting of the National
Association of School Psychologists, Las Vegas, NV.
Reschly, D. J. (1985, August). Myths and realities in minority special education
overrepresentation. Invited paper in Placement of children in special education:
Scientific issues and policy trends. Board of Scientific Affairs Symposium conducted at
the Annual Convention of the American Psychological Association, Los Angeles, CA.
Reschly, D. J., & Kicklighter, R. J. (1985, August). Comparison of black and white EMR
students from Marshall v. Georgia. Paper presented at the meeting of the American
Psychological Association, Los Angeles, CA.
Reschly, D. J. (1985, December). Invited participant and speaker. Wingspread
Conference on the Education of Students with Special Needs: Research Findings and
Implications for Policy and Practice, Racine, WI.
Reschly, D. J. (1986, April). The research integration project and special education
reform: Implications for school psychologists. Paper presented at the meeting of the
National Association of School Psychologists, Hollywood, FL.
Reschly, D. J. (1986, April). Discussant. New directions in the assessment of behavior
disorders. Symposium conducted at the meeting of the National Association of School
Psychologists, Hollywood, FL.
Reschly, D. J. (1986, April). Chair. Refereed journals in school psychology. Editor’s
Roundtable conducted at the meeting of the National Association of School
Psychologists, Hollywood, FL.
Corkery, J., McDougall, L., & Reschly, D. (1986, April). Testing or intervention? Effects
of behavioral interviews with referral agents. Paper presented at the meeting of the
National Association of School Psychologists, Hollywood, FL.
Reschly, D. J. (1986, May). Moderator and Discussant. The special education reform
movement: Implications for students now classified as mildly mentally retarded.
American Association on Mental Deficiency, Denver, CO.
Reschly, D. J. (1986, May). The quiet revolution: Changes in educational criteria,
placement, and programming for the mildly retarded. Invited paper in Sociocultural
mental retardation: Perspectives and issues in prevention and treatment.
Multidisciplinary Session conducted at the Annual Convention of the American
Association on Mental Deficiency, Denver, CO.
Reschly, D. J. (1986, August). Adaptive behavior: Issues in classification, placement,
program planning, and interventions. In Social competence characteristics of mildly
handicapped children. Symposium conducted at the Annual Convention of the
American Psychological Association, Washington, DC.
Reschly, D., & Casey, A. (1987, March). Effects of behavioral consultation training on
school psychologists. In Special/regular education reform: Preparing for the revolution

APP.417

Reschly: p. 20

•

•

•

•

•

•

•

•

•

•

•

•

•

in school psychology. Symposium conducted at the Annual Convention of the National
Association of School Psychologists, New Orleans, LA.
Grimes, J., & Reschly, D. (1987, March). Project RE-AIM goals and initial outcomes.
Paper presented at the meeting of the National Association of School Psychologists,
New Orleans, LA.
Reschly, D. (1987, May). The influence of the AAMD classification manual on placement
bias litigation. Invited paper presented at the meeting of the American Association on
Mental Deficiency, Los Angeles, CA.
Reschly, D. (1987, May). Development of the S-1 Federal Court defense against
allegations of discrimination due to minority EMR overrepresentation. Invited paper
presented at the Annual Convention of the American Association on Mental
Deficiency, Los Angeles, CA.
Reschly, D. (1987, May). The continuing saga of minority misclassification litigation. In
symposium conducted at the meeting of the American Association on Mental
Deficiency, Los Angeles, CA.
Reschly, D. (1987, August). Evaluation of RE-AIM. In Alternative designs for alternative
delivery systems. Symposium conducted at the meeting of the American Psychological
Association, New York, NY.
Reschly, D. (1987, August). A statewide consultation project. In Behavioral
consultation research: A synthesis of the Mardi Gras symposium. Symposium at the
Annual Convention of the American Psychological Association, New York, NY.
Reschly, D. (1988, April). Chair. Special education reform/school psychology revolution.
Symposium at the Annual Convention of the National Association of School
Psychologists, Chicago, IL.
Binder, M., Marks, R., & Reschly, D. J. (1988, April). RE-AIM results: Participants’
evaluation of training and commitment to reforms. In Special education reform/school
psychology revolution. Symposium conducted at the meeting of the National
Association of School Psychologists, Chicago, IL.
Grimes, J. P., & Reschly, D. J. (1988, April). The relevant educational assessment and
intervention models. In Special education reform/school psychology revolution.
Symposium conducted at the meeting of the National Association of School
Psychologists, Chicago, IL.
Pierce, K., Reschly, D., Casey, A., & Derr, S. (1988, April). RE-AIM results: Acquisition of
behavior consultation skills, consultee evaluations, and student outcomes. In Special
education reform/school psychology revolution. Symposium conducted at the meeting
of the National Association of School Psychologists, Chicago, IL.
Reschly, D. (1989, March). Legal and ethical issues in the design of alternative delivery
systems. Paper presented at the Annual Convention of the National Association of
School Psychologists, Boston, MA.
Reschly, D. J., & McMaster-Beyer, M. (1990, April). Trends and non-trends in school
psychology graduate education. Paper presented at the meeting of the National
Association of School Psychologists, San Francisco, CA.
Prasse, D. P., & Reschly, D. J. (1990, April). Legal challenges to special education
reform. Paper presented at the meeting of the National Association of School
Psychologists, San Francisco, CA.

APP.418

Reschly: p. 21

•

•

•

•

•

•

•

•

•

•

•

•

•
•
•

Reschly, D. J. (1990, April). The Iowa Renewed Services Delivery System baseline
results: Implications for national reform plans. Paper presented at the Annual
Convention for the national Association of School Psychologists, San Francisco, CA.
Reschly, D. (1990, July). Trends in the graduate education of school psychologists in the
United States. Paper presented at the Thirteenth Annual International School
Psychology Colloquium, Salve Regina College, Newport, RI.
Reiher, T. C., & Reschly, D. J. (1990, October). Teacher ratings of support services for
Iowa behaviorally disordered students. Paper presented at the meeting of the Iowa
Council for Exceptional Children, Des Moines, IA.
Reschly, D. J. (1991, March). University faculty shortages: A 1989-1991 study of filled
and unfilled vacancies. Annual Convention of the National Association of School
Psychologists, Dallas.
Reschly, D. J. (1991, March). Symposium Organizer and Chair. Personnel shortages:
The school psychology crisis of the 1990s and beyond. Meeting of the National
Association of School Psychologists, Dallas, TX.
Reschly, D. J., & Ullman, J. (1991, March). Redefining service delivery options for
school psychologists: Current status and the Iowa experience. In Training initiatives
in school psychology: Programs and perspectives. Symposium conducted at the
meeting of the National Association of School Psychologists, Dallas, TX.
Reschly, D. J., & McMaster-Beyer, M. (1991, March). Program enrollment and
graduates: A twenty-year decline. Paper presented at the meeting of the National
Association of School Psychologists, Dallas TX.
Reschly D. J., & Connolly, L. M. (1991, March). University faculty shortages: A 19891991 study of filled and unfilled vacancies. In Personnel shortages: The school
psychology crisis of the 1990s and beyond. Symposium conducted at the meeting of the
National Association of School Psychologists, Dallas, TX.
Reschly, D. J., Flugum, K., & Golbert, K. (1991, August). Influences of intervention
quality on the outcomes of prereferral interventions. Annual Convention of the
American Psychological Association, San Francisco.
Reschly, D. J. & Starkweather, A. (1992, March). Alternative educational delivery
systems: The emerging consensus among practitioners and faculty. Paper presented at
the meeting of the National Association of School Psychologists, Nashville, TN.
Reschly, D. J. (1992, March). School psychology faculty and practitioners’
demographics, job satisfaction, and role preferences. Paper presented at the meeting of
the National Association of School Psychologists, Nashville, TN.
Reschly, D. J. (1992, March). IQ testing: Our past, not our future. Invited address. In
The Future of Psychological Assessment. Symposium conducted at the meeting of the
National Association of School Psychologists, Nashville, TN.
Reschly, D. J. & Flugum, (1992). Prediction of consultation short- and long-term
outcomes. Annual Convention of the American Psychological Association, Toronto.
Reschly, D. J. (1993, August). School psychology and minority overrepresentation.
Paper. SSSP. Toronto.
Andresen, K. R., & Reschly, D. J. (1993). Effects of the conceptualization of student
problems on teacher self-efficacy. Annual Convention of the National Association of
School Psychologists. Washington DC

APP.419

Reschly: p. 22

•
•
•

•

•

•

•

•

•

•

•

•

•

•

Reschly, D. J. (1993, March). The future of assessment. Debate. Annual Convention of
the National Association of School Psychologists, Washington D.C.
Reschly, D. J. (1993, March). Functional assessment for classification and intervention.
Preconvention Workshop. NASP.
Reschly, D. J. (1994, March). System reform implications for the training of school
psychologists. Annual Convention of the National Association of School Psychologists,
Seattle.
Reschly, D. J. (1994, March). Analysis of minority overrepresentation research and
litigation: Implications for system reform. Annual Convention of the National
Association of School Psychologists, Seattle.
Reschly, D. J. (1994, March). Assessment issues and NASP Policy. Invited presentation.
In The future of psychological assessment. Symposium. Annual Convention of the
National Association of School Psychologists, Seattle.
Reschly, D. J. (1994, August). Behavior Assessment Technology and the Revision of
the Standards for Educational and Psychological Testing, Symposium. Annual
Convention American Psychological Association, Los Angeles.
Reschly, D. J. (1994, August). Variables related to behavioral consultation outcomes.
In Behavior consultation: Advances in research and practice. Symposium. Annual
Convention American Psychological Association, Los Angeles.
Reschly, D. J. (1995, January). IQ and Special Education: History, Current Status, and
Alternatives. Invited Address. Board on Testing and Assessment, National Research
Council, National Academy of Sciences, LaJolla, CA.
Reschly, D. J., Starkweather, A. R., Birtwistle, J., & Dawson, M. M. (1995, July). Role
Preferences and Priorities: Comparisons of British (Educational) and American (School)
Psychologists. Paper Presented at the XVIII International School Psychology
Colloquium, University of Dundee, Dundee, Scotland.
Reschly, D. J. (1995, August). Characteristics of school psychology graduate education
and school-based practice: Implications for doctoral specialty definition. Paper
presented at the meeting of the Council of Directors of School Psychology Programs
Second Annual School Psychology Training Conference, American Psychological
Association, New York, NY.
Reschly, D. J. (1995, August). System change in the heartland. Paper presented at the
Second Annual Institute for Administrators of School Psychological Services,
American Psychological Association, New York.
Reschly, D. J. (1995, August). Politics or science—The Bell Curve controversy. In
symposium presented at the meeting of the American Psychological Association, New
York.
Reschly, D. J. (1996, April). Approaches to the Analysis and Resolution of
Disproportionate Minority Participation in General and Special Education Programs,
Mini-Skills Workshop, National Association of School Psychologists Annual Convention,
Atlanta.
Reschly, D. J., & Wilson, M. S. (1996, August). Psychologists’ Choices of Assessment
Instruments: Malpractice Litigation Looking for a Place to Happen? American
Psychological Association Symposium Paper, Annual Convention, Toronto

APP.420

Reschly: p. 23

•

•

•

•

•

•

•

•

•
•

•

•

•

Reschly, D. J. (1997, March). Analysis and Prevention of Disproportionate Minority
Representation in General and Special Education Programs. Annual Convention of the
National Association of School Psychologists, Anaheim.
Reschly, D. J. (1998, April). Review and critique of the responsibilities of test users in the
proposed APA/AERA/NCME standards. Paper presented as part of symposium,
“Standards for educational and psychological testing in the 21st century.” Annual
Convention of the National Association of School Psychologists, Anaheim, CA.
Ikeda, M. J., & Reschly, D. J. (1997). Application of problem solving to low incidence
conditions and evaluation of effects of problem solving. Presented as part of a day long
workshop at the National Association of School Psychologists Annual Conference,
Anaheim, CA, April 1997.
Reschly, D. J. (1997). Patterns of disproportionate representation and strategies to
reduce overrepresentation in special education. Paper presented at the Annual
Convention of the National Association for Multicultural Education, Albuquerque,
New Mexico.
Reschly, D. J. (1998, April). Securing school psychology’s future: Data-based decision
making and outcomes criteria. Preconvention Workshop, Annual Convention of the
National Association of School Psychologists, Orlando FL.
Reschly, D. J. (1998, April). Special education categorical diagnoses: Communicating
too little and too much. Paper presented as part of symposium, “Boxes, little boxes, no
more little boxes: A shift from categorical to noncategorical needs-based special
education.” Annual Convention of the National Association of School Psychologists,
Orlando FL.
Reschly, D. J. (1998, April). Profile analysis: Reification of error. Paper presented as
part of symposium, “A critical appraisal of Kaufman’s Intelligent Testing with the
WISC-III. Annual Convention of the National Association of School Psychologists,
Orlando FL.
Reschly, D. J. (1998, April). Debate: School psychology and mental health: Is it time to
sever the connection. (with Irwin Hyman). Annual Meeting of the Trainers of School
Psychologists, Orlando FL.
Reschly, D. J. (1998, August). School psychology: Is there evidence of change? Annual
Convention of the American Psychological Association, San Francisco.
Reschly, D. J. (1999, August). Dilemmas for psychologists who determine disability
status in educational settings. Annual Convention of the American Psychological
Association, Boston.
Reschly, D. J., Ikeda, M. (2000, March). Comparisons of school psychologists with and
without IQ: Roles, assessment practices, and job satisfaction. Annual Convention of the
National Association of School Psychologists,, New Orleans, LA.
Reschly, D. J., & Hosp, J. (2000, August). Regional and Setting Differences in School
Psychology Practice. Annual Convention of the American Psychological Association,
Washington DC.
Reschly, D. J. (2001, April). Minority overrepresentation: New legal requirements,
alternative criteria, and solutions. Mini-skills Workshop, Annual Convention of the
National Association of School Psychologists, Washington DC.

APP.421

Reschly: p. 24

•

•

•

•

•

•
•

•

•

•
•
•
•
•

•

Reschly, D. J. (2001, April). Black School Psychologists: Roles, Satisfaction, Assessment
Practices, and Reform Attitudes. Poster, Annual Convention of the National Association
of School Psychologists, Washington DC.
Reschly, D. J. (2001, August). Black School Psychologists’ Evaluations of Reform
Themes and Special Education Acceptability. Poster, Annual Convention of the
American Psychological Association, San Francisco.
Reschly, D. J. (2001, August). Reform-Revolution Revisited: Outcomes Criteria and
School Psychology Change in the 21st Century. Invited address, Division 16 at the
Annual Convention of the American Psychological Association, San Francisco.
Reschly, D. J. & Rosenfield, S. (February, 2002). Minority Overrepresentation: Legal
Issues and Intervention Alternatives. Annual Convention of the National Association
of School Psychologists, Chicago.
Reschly, D. J. (February, 2002). State and National Disproportionality Patterns by
Disability and Sociocultural Group. Mini-skills Workshop, Annual Convention of the
National Association of School Psychologists, Chicago.
Reschly, D. J., & Harry, B. (April 2002). Minority Overrepresentation in Special
Education: The NRC Report. Council for Exceptional Children, New York.
Reschly, D. J. (2002, August). Symposium organizer and chair, The National Research
Council Report on SSA Eligibility in MR and paper Combining Information on
Intelligence and Adaptive Behavior in Eligibility Decisions. Annual Convention of the
American Psychological Association, Chicago.
Reschly, D. J., Hosp, J. L., & Schmied, C. M. (February 2003). And Miles to Go….State SLD
Requirements and National Recommendations. International Conference of the
Learning Disabilities Association. Chicago
Ysseldyke, J. E., Reschly, D. J., & Vanderwood, M. (April 2003). Full-day Workshop on
Assessment. National Association of School Psychologists Annual Convention.
Toronto.
Reschly, D. J. (2003, April). Redefinition of Learning Disabilities. Council for
Exceptional Children Annual Convention, Seattle.
Reschly, D. J. (March 2003). Demise of IQ-Achievement Discrepancy: What Are the
Alternatives. National Association of School Psychologists Annual Convention, Dallas
Reschly, D. J. (March 2004).
Reschly, D. J., Ysseldyke, J. E., & Vanderwood, M. (April 2004). Full-day Workshop on
Assessment. National Association of School Psychologists Annual Convention. Dallas.
Reschly, D.J. (April 2004). Trends in State SLD Criteria. Presented as part of the
Symposium, NRCLD’s Classification Studies, Focus Groups, and State Surveys. Council
for Exceptional Children Annual Convention. New Orleans.
Reschly, D. J. (June 2004). Alternative Approaches to Disability Classification. Third
Anglo-American Conference on Special Education and School Reform. Cambridge
England.

Note: Refereed presentations at national learned society meetings 2005-2006 to be added

APP.422

Reschly: p. 25

•

•

•

•

•

•

•

•

•

•

•

•

•

•

Reschly, D. J. (2007, April 19). Specific learning disabilities identification policies:
Choices and consequences. Paper Annual Convention of the Council for Exceptional
Children, Louisville, KY.
Reschly, D. J. (2007, March 29). Paradigm shift and beyond: Improving results for all.
Invited general session address, Annual Convention National Association of School
Psychologists, New York City.
Reschly, D. J., & Patton, J. M. (2007, March 30). Overrepresentation policy, prevention,
early intervention/treatment, and system change. Invited 4 hour pre-convention
workshop Annual Convention National Association of School Psychologists, New York
City.
Reschly, D. J. (2007, August 19). Organized symposium, Controversies in determination
of mental retardation in death penalty appeals and presented paper,
Misunderstandings in death penalty appeals: Varying MR conceptions and criteria.
Annual Convention American Psychological Association, San Francisco.
Reschly, D. J. (2009). Consequences of school psychologists’ decisions: Death penalty
and SSI outcomes. Annual Convention of the National Association of School
Psychologists, Boston.
Reschly, D. J. (2009, August 7). Organized symposium, Death Penalty Court Decisions
and Mental Retardation Classification and Research, and presented paper,
Authoritative Conceptions of Mental Retardation and Atkins Decisions. Annual
Convention of the American Psychological Association. Toronto.
Reschly, D. J. (2009, August 6). School psychology paradigm shift: or Cronbach’s two
disciplines of scientific psychology. Annual Convention of the American Psychological
Association. Toronto.
Reschly, D. J., & McGraner, K. L. (2010, March). Improving teacher preparation with
evidence-based innovation configurations in reading and math. Annual Convention of
the Council for Exceptional Children, Nashville, TN.
Reschly, D. J., & Gresham, F. M. (2010, August). Standard of practice and Flynn Effect
testimony in death penalty appeals. Annual Convention of the American Psychological
Association, San Diego.
Welsh, J. S. & Reschly, D. J. (2011, February 23). Survival skills for litigation:
Preparation, testimony, and the Daubert challenge. Invited Workshop, National
Association of School Psychologists, San Francisco.
Oliver, R. M., & Reschly, D. J. (2011, February 25). State SLD identification policies: A
changing landscape since the reauthorization of IDEA 2004. Poster Annual Convention
National Association of School Psychologists, San Francisco.
Reschly, D. J. (2011, April). Evaluating teacher effectiveness: What does it mean for
special educators. Annual Convention of the Council for Exceptional Children,
Washington DC.
Welsh, J. S. & Reschly, D. J. (2012). Survival skills for litigation: Preparation, testimony,
and the Daubert challenge. Invited Workshop, National Association of School
Psychologists, Philadelphia.
Welsh, J. S. & Reschly, D. J. (2013). Survival skills for litigation: Preparation, testimony,
and the Daubert challenge. Invited Workshop, National Association of School
Psychologists, Seattle.

APP.423

Reschly: p. 26

Other Presentations
Colloquia at the following universities (listed in chronological order)
University of Wisconsin-Eau Claire, University of British Columbia, University of Utah,
University of Oklahoma, University of Arizona, Wichita State University, Memphis State
University, James Madison University, University of Georgia (twice), Pennsylvania State
University (twice), New York University, University of Pittsburgh, University of Oregon
(twice), Indiana State University, Illinois State University (twice), Louisiana State
University, San Diego State University, University of California-Riverside (twice), Ohio
State University, Syracuse University, University of Kentucky, Governor’s State University
(IL), Northern Illinois University, Vanderbilt University, University of South Carolina,
Mississippi State University, University of Texas (twice), University of Minnesota, Iowa
State University, City University of New York-Queens, University of Iowa, University of
Otago (NZ), Massey University (NZ)
Colloquium topics have included empirical studies on bias in assessment, legal issues,
mild mental retardation classification issues, and school psychology professional issues.
Keynote Addresses and Workshops in 47 States (Over 300 presentations)
•

•

•

•
•

•

•
•
•

Reschly, D. (1976, February). Use of behavioral consultation techniques in
interventions for chronically disruptive students. Presentation. Iowa Department of
Public Instruction Workshop for School Psychologists.
Reschly, D. (1976, August). Issues in the classification, assessment, and interventions for
children with emotional disabilities. Presentation. Iowa Department of Public
Instruction Workshop for School Psychologists, Waterloo, IA.
Reschly, D. (1976, October). Adaptive behavior assessment and interventions with
mentally retarded students. Presentation. Iowa Department of Public Instruction
Workshop for School Psychologists, Ames, IA.
Reschly, D. (1976, November). Behavioral consultation in schools. Presentation. Iowa
Department of Public Instruction Workshop for School Psychologists, Des Moines, IA.
Reschly, D. (1976, November). Recent research in intellectual assessment.
Presentation. Metropolitan Nashville Inservice Meeting for School Psychologists,
Nashville, TN.
Reschly, D. (1977, April). Behavioral consultation with parents and teachers.
Presentation. University of Wisconsin-Eau Claire, Sixth Annual School Psychology
Institute, Eau Claire, WI.
Reschly, D. (1977, May). Nonbiased assessment and school psychologists. Presentation.
Michigan Association of School Psychologists.
Reschly, D. (1977, May). Legal challenges to school psychological assessment.
Presentation. Area Education Agency IX, Davenport, IA.
Reschly, D. (1977, October). Adaptive behavior assessment with the mildly retarded.
Presentation. Area Education Agency VII, Waterloo, IA.

APP.424

Reschly: p. 27

•
•

•

•

•
•

•
•
•

•
•
•

•
•
•
•

•
•

Reschly, D. (1977, November). School Psychologists and assessment in the future. P.
O. Wagner Memorial Address, Ohio School Psychologist Association.
Reschly, D. (1977, December). Nondiscrimination in placement: The challenge to school
psychologists. Presentation. South Dakota Association of School Psychologists,
Vermillion, SD.
Reschly, D. (1978, February). The measurement and use of adaptive behavior in special
education classification and programming. Presentation. Special Study Institute for
Intern School Psychologists, Division of Special Education, Ohio Department of
Education, Columbus, OH.
Reschly, D. (1979, January). Assessment of adaptive behavior in mental disabilities
diagnosis and programming. Presentation. Area Education Agency VI, Marshalltown,
IA.
Reschly, D. (1979, April). Nonbiased assessment and mild mental retardation.
Presentation. Area Education Agency V, Ft. Dodge, IA.
Reschly, D. (1979, May). Measurement and use of adaptive behavior. Workshop.
Council Bluffs Public Schools and Iowa Department of Public Instruction, Council
Bluffs, IA.
Reschly, D. (1979, July). What’s new in assessment. Colloquium. University of British
Columbia, Vancouver, BC.
Reschly, D. (1979, October). Bias in assessment: What are the issues? Keynote address.
Georgia Association of School Psychologists Fall Workshop.
Reschly, D. (1979, September). University personnel as a support system for
psychological research in the schools. Presentation. Iowa Department of Public
Instruction Workshop for School Psychologists.
Reschly, D. (1979, December). Bias in assessment: What are the issues? Keynote
address. Iowa Educational Research and Evaluation Association.
Reschly, D. (1980, April). Bias in assessment: Differing conceptions and empirical
results. Colloquium. University of Utah, Salt Lake City, UT.
Oakland, T., & Reschly, D. (1980, April). Nonbiased assessment. Preconvention
Workshop. National Association of School Psychologists Annual Convention,
Washington, DC.
Reschly, D. (1980, April). Overview of PL 94-142. Presentation. Morningside College,
Sioux City, IA.
Reschly, D. (1980, April). Characteristics of handicapped children. Presentation.
Morningside College, Sioux City, IA.
Reschly, D. (1980, May). Adaptive behavior and nonbiased assessment. Workshop.
University of Wisconsin-Eau Claire, Ninth Annual School Psychology Institute.
Reschly, D. (1980, May). Bias in assessment: Differing conceptions and empirical
results. Keynote address. South Carolina Association of School Psychologists Spring
Convention.
Reschly, D. (1980, May). Adaptive behavior: Background, assessment, and practices.
Workshop. Iowa Department of Public Instruction Special Institute.
Reschly, D. (1980, June). Nondiscriminatory assessment: Quality indicators. Workshop.
Indianapolis Public Schools.

APP.425

Reschly: p. 28

•
•
•
•
•
•
•
•
•
•
•
•
•
•
•

•
•
•

•
•
•

Reschly, D. (1980, June). Invited participant, Spring Hill Symposium on the Future of
Psychology in the Schools. Minneapolis, MN.
Reschly, D. (1980, July & August). Psychoeducational assessment. Workshop. Louisiana
State Department of Education.
Reschly, D. (1980, September). Trends in school psychological assessment. Keynote
address. Association of School Psychologists.
Reschly, D. (1980, October). Nondiscriminatory assessment. Workshop. Colorado
Society of School Psychologists Fall Convention.
Reschly, D. (1980, October). Recent research on test bias. Colloquium. University of
Oklahoma.
Reschly, D. (1980, November). What’s right about school psychology. Keynote address.
Oklahoma School Psychological Association Fall Convention.
Reschly, D. (1980, November). Nonbiased assessment. Workshop. Oklahoma School
Psychological Association Fall Convention.
Reschly, D. (1980, December). Nonbiased assessment. Workshop. Illinois Department
of Education and Illinois School Psychologists Association, Suburban Chicago.
Reschly, D. (1981, January). Nonbiased assessment. Workshop for Illinois School
Psychologists Association and the Chicago Public Schools.
Reschly, D. (1981, January). Empirical studies of test bias. Colloquium. University of
Arizona.
Reschly, D. (1981, January). Nonbiased assessment. Workshop. Arizona State School
Psychologists Association.
Reschly, D. (1981, February). School psychology and the issue of bias. Colloquium.
Wichita State University, Wichita, KS.
Reschly, D. (1981, February). Research on SOMPA. Workshop. Wichita Public Schools,
Wichita, KS.
Reschly, D. (1981, February). Trends in psychoeducational assessment. Workshop.
Heartland Area Education Agency 11.
Oakland, T., & Reschly, D. (1981, April). Nonbiased assessment. Preconvention
Workshop. National Association of School Psychologists Annual Convention, Houston,
TX.
Reschly, D. (1981, May). Nondiscriminatory assessment. Workshop. Texas
Psychological Association.
Reschly, D. (1981, May). Research on performance of minorities on standardized tests.
Colloquium. Memphis State University.
Reschly, D. (1981, July). Trends in research, court opinions, and legislation regarding
bias. Colloquium. James Madison University Annual Summer Institute for School
Psychologists.
Reschly, D. (1981, August). Psychoeducational assessment. Workshop. Louisiana State
Department of Education.
Reschly, D. (1981, September). Assessment of social skills. Workshop. Iowa
Department of Public Instruction.
Reschly, D. (1981, October). Current trends in school psychology. Keynote address.
Oklahoma School Psychology Association Fall Convention.

APP.426

Reschly: p. 29

•
•
•
•
•

•
•
•
•
•
•
•

•

•

•

•

•
•

Reschly, D. (1981, October). Behavioral consultation. Workshop. Oklahoma School
Psychology Association Fall Convention.
Reschly, D. (1981, November). Invited participant. Olympia Conference on Planning
the Future of School Psychology.
Reschly, D. (1981, November). Nonbiased assessment. Workshop. Florida Association
of School Psychologists.
Reschly, D. (1982, January). Professional issues related to assessment of adaptive
behavior. Workshop. Grant Wood Area Education Agency 10, Cedar Rapids, IA.
Reschly, D. (1982, April). Current developments in school psychology. Continuing
Education Presentation. Mississippi Bend Area Education Agency 9 School
Psychologists.
Reschly, D. (1982, April). Fair and useful assessment for minority students. Workshop.
Illinois State Board of Education, Mt. Vernon, IL.
Reschly, D. (1982, April). Placement bias litigation and psychoeducational assessment.
Invited paper. Buros-Nebraska Symposium on Measurement and Testing.
Reschly, D. (1982, May). Discrimination in special education assessment: Myth and
reality. Colloquium. University of Georgia.
Reschly, D. (1982, September). Assessing adaptive behavior. Inservice. Arrowhead
Education Agency.
Reschly, D. (1982, October). Nontest based assessment of children. Workshop. North
Carolina School Psychology Association Fall Conference, Wrightsville Beach, NC.
Reschly, D. (1982, October). School psychology today: Progress, not impasse.
Colloquium. Pennsylvania State University.
Reschly, D. (1982, October). Use of social competence data in classification/placement
and program planning/intervention decisions. Workshop. Sixteenth Annual
Pennsylvania School Psychologists Conference.
Reschly, D. (1983, January). School psychology in the decade ahead: Old problems, new
solutions. Keynote address. New Jersey Association of School Psychologists Winter
Meeting.
Reschly, D. (1983, January). Use of social competence information in
classification/placement decisions. Seminar. New York City Association of School
Psychologists.
Reschly, D. (1983, January). Use of social skills and adaptive behavior data in
programming: IEP objectives and least restrictive environment. Keynote address.
Cuyahoga Special Education Service Center, Cuyahoga, OH.
Reschly, D. (1983, March). Beyond test bias: Appropriate assessment and programming
for handicapped minority students. Keynote address. Mississippi Association for
Psychology in the Schools Spring Meeting.
Reschly, D. (1983, April). Recent developments in ability testing. Presentation. Iowa
Psychological Association Continuing Education, Ames, IA.
Reschly, D., & Fleig, G. (1983, May). Conflicting assessment information: Separating the
wheat from the chaff. Invited workshop. Fourth National Institute on Legal Problems
of Educating the Handicapped.

APP.427

Reschly: p. 30

•

•
•
•
•
•
•
•

•
•
•

•
•

•

•

•

•

•
•

Reschly, D. (1983, June). Learning problems: Handicaps or cultural differences?
Appropriate assessment for minority students. Workshop. Central Ohio Special
Education Regional Resource Center, Columbus, OH.
Reschly, D. (1983, September). Screening and monitoring referrals. Workshop.
Schaumberg Public Schools, Schaumberg, IL.
Reschly, D. (1983, October). Keynote address. Georgia Association of School
Psychologists, Rock Eagle, GA.
Reschly, D. (1983, October). Keynote address. Washington Association of School
Psychologists, Wenatchee, WA.
Reschly, D. (1983, October). Recent advances in assessment. Workshop. AEA VII staff,
Waterloo, IA.
Reschly, D. (1983, November). Keynote address. North Dakota and Northwest
Minnesota School Psychologists, Moorhead, MN.
Reschly, D. (1983, November). Assessment of adaptive behavior. Keynote address and
workshop. South Carolina Association of School Psychologists Fall Convention.
Reschly, D. (1983, November). Assessment for the Teaching/Learning Process.
Keynote address at the Ontario Institute for Studies in Education International
Symposium on Exceptional Students, Toronto, Canada.
Reschly, D. (1984, February). School Psychology Workshop. Gary, IN.
Reschly, D. (1984, February). School Psychology Workshop. NSSEO Inservice,
Palentine, IL.
Reschly, D. (1984, March). Current issues and recent advances in assessment of the
handicapped. State of Virginia Department of Education Workshop for Related
Services Personnel.
Reschly, D. (1984, April). Recent developments in ability testing and nonbiased
assessment. Seminar. Iowa Psychological Association Continuing Education, Ames, IA.
Reschly, D. (1984, May). Beyond test bias and minority overrepresentation. General
Session Address. Fifth National Institute on Legal Problems of Educating the
Handicapped, Chicago, IL.
Reschly, D. (1984, May). Assumptions in placement bias litigation: A research agenda in
mild mental retardation. First Annual Pittsburgh Symposium on Research with the
Handicapped, Pittsburgh, PA.
Reschly, D. (1984, May). Adaptive behavior and social skills in classification and
placement decisions. Thirteenth Annual School Psychology Institute, University of
Wisconsin, Eau Claire, WI.
Reschly, D. J. (1984, July). Mild mental retardation: An international perspective.
Paper presented at the VII International School Psychology Colloquium, Orleans,
France.
Reschly, D. (1984, September). Choices and alternatives for compliance with
psychoeducational legal requirements. Iowa DPI Conference on Reevaluation of
Assessment Practices.
Reschly, D. (1984, September). Due process and testing practices. AEA7, Waterloo, IA.
Reschly, D. (1984, September). Social competence: Research and interventions.
Kentucky Association of School Psychologists, Lexington, KY.

APP.428

Reschly: p. 31

•

•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•

Reschly, D. (1984, October). Avoiding placement bias litigation: Lessons from Larry P.,
PASE, and Marshall. Presentation. National Association of Directors of Special
Education.
Reschly, D. (1984, October). Potpourri of school psychology issues. Iowa School
Psychology Association.
Reschly, D. (1984, October). Social skills assessment and intervention. Northern New
England School Psychology Conference.
Reschly, D. (1984, November). Adaptive behavior research, assessment, and training.
Florida Association of School Psychologists.
Reschly, D. (1984, November). Social competence: Adaptive behavior and social skills.
Tennessee Association of School Psychologists.
Reschly, D. (1984, November). Understanding psychoeducational assessment evidence.
Workshop. Due Process Hearing Officers, Virginia Department of Education.
Reschly, D. (1984, November). Fair and useful assessment: Current trends. Workshop.
Washington Public Schools, Washington, DC.
Reschly, D. (1984, December). Legal influences on intellectual assessment. Colloquium.
University of Arizona, Tucson, AZ.
Reschly, D. (1984, December). Trends in assessment. Workshop. Clark County Public
Schools, Las Vegas, NV.
Reschly, D. (1985, May). Colloquium. University of Oregon, Eugene, OR.
Reschly, D. (1985, May). Workshop and Keynote Address. Oregon School
Psychologists Association, Portland, OR.
Reschly, D. (1985, June). Presentation. State Department Conference on Identification
and Assessment, Maryland State Department of Education, Baltimore, MD.
Reschly, D. (1985, October). Workshop. Florida State Department of Education,
Tampa, FL.
Reschly, D. (1985, October). Colloquium. School Psychology Faculty and Students.
Indiana University, Bloomington, IN.
Reschly, D. (1985, October). Social competence. Workshop. Canton, OH.
Reschly, D. (1985, November). Address. University of Arizona Conference on
Assessment of Minorities, Tucson, AZ.
Reschly, D. (1986, January). Assessment of adaptive behavior. Presentation. South
Suburban (Chicago) Special Education Cooperative, Chicago, IL.
Reschly, D. (1986, February). Non-biased assessment. Colloquium. Illinois State
University, Normal, IL.
Reschly, D. (1986, March). Adaptive behavior assessment. Keynote address. Minnesota
Association for Education of Mentally Retarded Students.
Reschly, D. (1986, April). Assessment of social competence for classification and
programming. Workshop. Wisconsin School Psychologists Association.
Reschly, D. (1986, May). Keynote address. Minnesota Department of Education
Conference on Special Education Assessment, Minneapolis, MN.
Reschly, D. (1986, May). Keynote Address. Arizona Association of School
Psychologists Spring Convention, Phoenix, AZ.

APP.429

Reschly: p. 32

•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•

•

Reschly, D. (1986, June). Address. New Jersey Conference on Special Education,
Newark, NJ.
Reschly, D. (1986, July). Continuing education videotapes for school psychologists.
Arkansas State Department of Education.
Reschly, D. (1986, September). Two-day RE-AIM workshop. Atlantic, IA.
Reschly, D. (1986, September). Two-day RE-AIM workshop. Des Moines, IA.
Reschly, D. (1986, October). Keynote address and workshop. Arkansas School
Psychology Association, Little Rock, AK.
Reschly, D. (1986, October). MD data analysis. Iowa Association of School
Psychologists, Altoona, IA.
Reschly, D. (1986, November). Mental retardation classification criteria. Workshop.
Minnesota State Department of Education, Minneapolis, MN.
Reschly, D. (1986, November). Assessment of adaptive behavior. Workshop. Minnesota
State Department of Education, Brainard, MN.
Reschly, D. (1987, January). Workshop & Keynote Address. Northern Ohio School
Psychology and Special Education meetings, Richfield, OH.
Reschly, D. (1987, January). RE-AIM Continuing Education Presentation. Cedar Rapids,
IA.
Reschly, D. (1987, January). RE-AIM Continuing Education Presentation. Elkader, IA.
Reschly, D. (1987, February). Workshop. Northwest Ohio School Psychologists,
Wapakoneta, OH.
Reschly, D. (1987, February). Workshop. West Central Ohio SERCC, Bluffton College,
Bluffton, OH.
Reschly, D. (1987, March). Large scale training and evaluation of the impact of
behavioral consultation. Colloquium. Louisiana State University, Baton Rouge, LA.
Reschly, D. (1987, April). Invited Address. Seminar for Federal Judges sponsored by
the Danforth Foundation, Park City, UT.
Reschly, D. (1987, May). General Session Address. Eighth National Institute on Law
and Education of the Handicapped, Scottsdale, AZ.
Reschly, D. (1987, June). Behavioral consultation. Workshop. New Jersey School
Psychologists, Freehold, NJ.
Reschly, D. (1987, September). Keynote address. Minnesota State School
Psychologists Meeting, Minneapolis, MN.
Reschly, D. (1987, October). Adaptive behavior. Keynote address and workshop.
Nebraska State School Psychologists Fall Convention, Lincoln, NE.
Reschly, D. (1987, November). Behavioral consultation. Workshop. Egg Harbor, NJ.
Reschly, D. (1987, December). Keynote address and workshop. New Jersey
Association of School Psychologists, Clark, NJ.
Reschly, D. (1988, January). Assessment issues and legal developments. General
Session Address. CEC-MR International Conference, Mental retardation: Emerging
challenges for the future, Honolulu, HI.
Reschly, D. (1988, March). Assessment and legal issues. Presentation. Iowa Conference
on Futures in Mental Disabilities.

APP.430

Reschly: p. 33

•
•
•
•

•
•
•
•
•
•

•
•
•

•

•
•
•
•
•
•
•

Reschly, D. (1988, May). Why the sky fell on IQ testing, but only in California.
Colloquium. University of California-Riverside, Riverside, CA.
Reschly, D. (1988, May). Preparation for the 1990s revolution in the practice of school
psychology. Colloquium. San Diego State University, San Diego, CA.
Reschly, D. (1988, May). Tangible evidence vs expert opinion: The psychologist’s
contribution to legal proceedings. Presentation. Iowa Psychological Association.
Reschly, D. (1988, June). Expanding special Olympics opportunities to junior and senior
high school students with mild mental retardation. Joseph P. Kennedy, Jr., Foundation
Symposium, Arlington, VA.
Reschly, D. (1988, October). Keynote address and workshops. Virginia Association of
School Psychologists-Virginia Psychological Association Fall Convention, Norfolk, VA.
Reschly, D. (1988, October). Keynote address. Indiana Association of School
Psychologists, Indianapolis, IN.
Reschly, D. (1988, November). Adaptive behavior. Workshops and Keynote address.
Fall Conference of Florida Association of School Social Workers, Orlando, FL.
Reschly, D. (1988, November). Workshop. School Psychologists, Bakersfield Public
Schools Administration Center, Bakersfield, CA.
Reschly, D. (1988, December). Presentation. Arkansas Department of Education Staff,
Little Rock, AK.
Reschly, D. (1989, January). Terminology and classification in mental retardation.
Invited presentation. Committee on Terminology and Classification – Mental
Retardation, National Headquarters of the American Association on Mental
Retardation, Alexandria, VA.
Reschly, D. (1989, January). Seminar for administrative law judges. University of
Iowa, Iowa City, IA.
Reschly, D. (1989, February). Keynote address. Utah Association of School
Psychologists, Salt Lake City, UT.
Reschly, D., & Stumme, J. (1989, March). The school psychologist in the courtroom. PreConvention Workshop (full day). National Association of School Psychologists,
Boston, MA.
Reschly, D. (1989, April). Minority overrepresentation in programs for the mildly
handicapped. Keynote address. Arkansas Department of Education Conference, Little
Rock, AK.
Reschly, D. (1989, June). Behavior consultation and school psychology in the 1990s.
Two-day workshop. California Department of Education, San Jose, CA.
Reschly, D. (1989, July). Presentation. School Psychologists, California Department of
Education, Lake Tahoe, CA.
Reschly, D. (1989, August). Presentation. School Psychologists, California Department
of Education, San Diego, CA.
Reschly, D. (1989, August). Presentation. School Psychologists, Tampa, FL.
Reschly, D. (1989, August). Presentation. School Psychologists, Clearwater, FL.
Reschly, D. (1989, September). Assessment and intervention in adaptive behavior and
social skills. Presentation. Psychologists. Little Rock, AK.
Reschly, D. (1989, October). Colloquium. Ohio State School Psychology Program,
Columbus, OH.

APP.431

Reschly: p. 34

•
•

•
•
•
•
•

•
•
•
•
•
•

•

•
•
•

•

•

Reschly, D. (1989, November). Keynote address and workshop. British Columbia
Association of School Psychologists, Vancouver, BC.
Reschly, D. (1989, November). Presentation to faculty representing 11 Ohio
university school psychology programs regarding NASP approval procedures,
Columbus, OH.
Reschly, D. (1990, January). Adaptive Behavior: Definition, assessment, and developing
interventions. Presentation. Iowa Department of Education, Des Moines, IA.
Reschly, D. (1990, March). Keynote address. Connecticut Symposium on Special
Education, Hartford, CT.
Reschly, D. (1990, March). Special education law and practice. Workshop. ED Law
Institute, Costa Mesa, CA.
Reschly, D. (1990, April). Keynote address. Adaptive Behavior Conference, St. Paul,
MN.
Reschly, D. (1990, May). Found our intelligence: What do they mean? Invited
Presentation. Invitational Conference Center for Applied Psychological Research,
Memphis State University, Memphis, TN
Reschly, D. (1990, June). Presentation on social competencies. Pinellas School Officials,
Tampa, FL.
Reschly, D. (1990, September). Colloquium. Riverside County School Psychologists
Association, University of California-Riverside, Riverside, CA.
Reschly, D. (1990, September). Keynote address. San Bernardino County School
Psychologists Association, San Bernardino, CA.
Reschly, D. (1990, September). School psychology national standards. Testimony.
Oregon Teacher Licensing Commission , Salem, OR.
Reschly, D. (1990, October). Keynote address. Oklahoma School Psychological
Association Fall Meeting, Oklahoma City, OK.
Reschly, D. (1990, October). NASP program approval procedures and trends in
graduate education. Presentation. Faculty representing universities in northern
California, San Jose, CA.
Reschly, D. (1990, November). Evaluation of the Iowa Renewed Services Delivery
System. Invited address. Iowa Educational Research and Evaluation Association, Des
Moines, IA.
Reschly, D. J. (1991, February). Behavioral models and the 1990s school psychology
revolution. Colloquium. Syracuse University, Syracuse, NY.
Reschly, D. J. (1991, February). Keynote address. 20th Annual School Psychology
Institute, University of Wisconsin-Eau Claire, Eau Claire, WI.
Reschly, D. J. (1991, February). School psychology program approval and
accreditation: Current standards and trends. Colloquium. Southern California
Consortium of School Psychology Faculty, Los Angeles, CA.
Reschly, D. J. (1991, April). The research base for delivery system reform and 1990s
changes in school psychological services. Keynote Address. New Jersey School
Psychology Association, Newark, NJ.
Reschly, D. J. (1991, May). Psychological and educational research and the legal basis
for ADHD in the Education of Children with Disabilities Act. Invited Address, Institute
on Law and Education of the Handicapped, Phoenix.

APP.432

Reschly: p. 35

•

•

•

•
•

•

•
•
•
•

•
•
•

•

•
•
•
•

•
•

Reschly, D. J. (1991, August). Interventions for social skills and adaptive behavior
deficits. Continuing Education Workshop. Loess Hills Area Education Agency, Council
Bluffs, IA.
Reschly, D. J. (1991, August). Evidence for changes in the delivery system and the roles
of support services providers. Continuing Education Workshop. Pine County Special
Services Cooperative, Pine City, MN.
Reschly, D. J. (1991, September). The two disciplines of scientific psychology and the
struggle for the future of school psychology. Colloquium. University of Kentucky,
Lexington, KY.
Reschly, D. J. (1991, October). The 1990s and school psychology. Keynote address.
Alabama Association of School Psychologists Annual Convention, Gulf Shores, AL.
Reschly, D. J. (1991, October). Preparation of expert witness testimony for when (not if)
school psychologists appear in legal proceedings. Workshop. Alabama Association of
School Psychologists Annual Convention, Gulf Shores, AL.
Reschly, D. J. (1991, November). Trends in research and legal analyses of bias in
assessment and classification. Keynote address. Tennessee Association of School
Psychologists Annual Convention, Chattanooga, TN.
Reschly, D. J. (1992, January). Keynote address. Illinois Directors of Special Education,
Bloomington, IL.
Reschly, D. J. (1992, January). Colloquium. Psychology Department, Illinois State
University, Normal, IL.
Reschly, D. J. (1992, February). Keynote address. Alaska School Psychology
Association, Anchorage, AK.
Reschly, D. J. (1992, March). NASP training program standards and preparation of
program approval applications. Workshop. National Association of School
Psychologists, Nashville, TN.
Reschly, D. J. (1992, October). Colloquium. Indiana State University, Terre Haute, IN.
Reschly, D. J. (1993, March). The future of assessment. Debate. National Association of
School Psychologists, Washington, DC.
Reschly, D. J. (1993, March). Functional assessment for classification and intervention.
Preconvention Workshop. National Association of School Psychologists, Washington,
DC.
Reschly, D. J. (1993, April). Assessment as it relates to diagnosis and 1990s trends.
Oklahoma School Psychological Association Continuing Education, Oklahoma City,
OK.
Reschly, D. J. (1993, May). Social skills intervention with survivors of traumatic brain
injury. Keynote address. Phoenix, AZ.
Reschly, D. J. (1993, June). Colloquium. University of Oregon, Eugene OR.
Reschly, D. J. (1993, June). Workshop. California Summer Institute, Fresno, CA.
Reschly, D. J. (1993, August). Behavioral consultation for school psychologists.
Continuing education presentation. Consortium of northern California counties, Red
Bluff, CA.
Reschly, D. J. (1993, October). Continuing education presentations. Orlando, FL..
Reschly, D. J. (1993, October). Keynote address. Michigan Association of School
Psychologists. Traverse City, MI.

APP.433

Reschly: p. 36

•
•
•
•
•

•
•
•
•
•
•
•

•
•
•

•
•
•
•
•

•

Reschly, D. J. (1993, November). Keynote address and workshop. Florida Association
of School Psychologists, Miami, FL.
Reschly, D. J. (1993, November). Continuing education presentation. Illinois school
psychologists. Galesburg, IL.
Reschly, D. J. (1994, February). Behavioral problem solving. Workshop. Psychologists
in the High Plains Educational Cooperative, Garden City, KS.
Reschly, D. J. (1994, March). Minority assessment issues and the identification of
children and youth with ADHD. Colloquium. San Diego State University, San Diego, CA.
Reschly, D. J. (1994, April). Minority overrepresentation in mild disabilities: Expanded
educational opportunities or denial of equal rights? Colloquium. University of
California-Irvine, Irvine, CA
Reschly, D. J. (1994, April). Re-learning social skills: Children and adolescents with
traumatic brain injury. Presentation. Columbus, OH.
Reschly, D. J. (1994, September). Behavioral problem solving. Workshop. Central
Illinois School Psychologists, Galesburg, IL.
Reschly, D. J. (1994, September). Workshop. Michigan Psychologists, Detroit, MI.
Reschly, D. J. (1994, October). Colloquium. Penn State School Psychology Program
University Park, PA.
Reschly, D. J. (1994, October). Continuing Education Presentation. Pennsylvania
Association of School Psychologists, University Park, PA.
Reschly, D. J. (1995, May). System Reform and Roles of School Psychologists. MidEastern Pennsylvania School Psychology Association.
Reschly, D. J. (1995, September). Interventions for Children and Youth with ADHD and
Conduct Disorders. North Dakota Association of School Psychologists, September,
1995.
Reschly, D. J. (1996, January). Pre-convention workshop and Keynote Address.
Minnesota Association of School Psychologists, St. Cloud, MN.
Reschly, D. J. (1996, February). Avoiding Due Process Hearings. School
Administrators of Iowa, Des Moines.
Reschly, D. J. (1996, March). System Reform and the Problem of Minority Overrepresentation in Special Education Programs. Keynote Address, California Association
of School Psychologists.
Reschly, D. J. (1996, April). Pre-Convention Workshop and Keynote Address. Tri-State
(ID, OR, WA) School Psychology Conference, Portland, OR.
Reschly, D. J. (1996, August) Behavioral Consultation. Sacramento Public Schools
School Psychologists.
Reschly, D. J. (1996, October). Legal Constraints on Disciplining Students with
Behavior Disorders. Iowa Behavioral Initiative Fall Conference.
Reschly, D. J. (1996, October). Conducting Section 504 Hearings. Iowa Association of
School Boards Workshop.
Reschly, D. J. (1997, June). Outcomes Criteria and Behavioral Intervention: The Keys
to School Psychology in the 2000s. Continuing Education Conference for the State of
Washington and the Washington Association of School Psychologists, Seattle.
Reschly, D. J. (1997, September). Behavioral Consultation as the Base for System
Reform. LaGrange Area Special Education Services Cooperative, Chicago.

APP.434

Reschly: p. 37

•

•

•

•
•
•

•
•

•

•

•

•
•

•
•

•
•

Reschly, D. J. (1997, October). Legal, Policy and Assessment Issues. Major address at
the State of Iowa sponsored conference, Iowa’s Culturally and Linguistically Diverse
Children with Special Needs, Iowa City, IA.
Reschly, D. J. (1998, March). Disproportionality: Questions, Statistics, Rationale, and
Solutions? Keynote Address at the Twelfth Annual Conference on the Management of
Federal/State Data Systems, WESTAT and OSEP, Bethesda, MD.
Reschly, D. J. (1998, August). Analyses of Overrepresentation: Different Approaches
and Different Outcomes. BEUNO National Conference, Sponsored by the University of
Colorado, Vail, CO.
Reschly, D. J. (1998, September). The Demise of the Old-time Religion and the System
Reform Imperative. Iowa Department of Education inservice for special educators.
Reschly, D. J. (1998, October). Securing the Future of School Psychology Through
Data-Based Decision Making. Clark County School Psychologists, Las Vegas.
Reschly, D. J. (1998, October). School Psychology and Leadership in System Reform
and Workshop on Disproportionate Minority Representation in Special Education,
South Carolina Association of School Psychologists, Columbia SC.
Reschly, D. J. (1998, October). School Psychology in the 2000s. Keynote Address,
Maryland Association of School Psychologists, Baltimore.
Tilly, W. D. III, Reschly, D. J., & Knoster, T. (1998, November) Using functional
assessment to improve the special education process. National Association of State
Directors of Special Education Annual Conference, Baltimore.
Reschly, D. J. (1998, November). School Psychology: Change or Stagnation, Keynote
Address for the Mid-South (TN, AL, and MS) Biannual Conference on School
Psychology, Tunica, MS.
Reschly, D. J. (1999, January) Shifting from the old-time religion: Reform trends and
system design alternatives. University of Oregon and Willamette Valley special
educators. Eugene, OR.
Reschly, D. J. (1999, January). System Reform in Special Education and School
Psychology. South Carolina state-wide conference for directors of special education.
Columbia, SC
Reschly, D. J. (1999, February). The Charge for School Psychologists. Metro Nashville
Public Schools Inservice for School Psychologists. Nashville, TN.
Reschly, D. J. (1999, February) System Reform in Special and General Education.
Inservice for general and special education personnel in the Dubuque (IA)
Community Schools and the Keystone Area Education Agency
Reschly, D. J. (1999, March) Design of system reform waivers for performance. Horry
County (SC) Public Schools, Myrtle Beach.
Reschly, D. J. (Multiple Occasions) Special Education Overrepresentation: Assessment
Reforms and System Change. Alliance Project Seminars, Los Angeles March, 1999;
Nashville, November 2000; Miami, January 2001, Honolulu, February 2001;
Reschly, D. J. (April 2000). Keynote Address. System Reform and the Future of School
Psychology. Tennessee Association of School Psychologists.
Reschly, D. J. (June 2000). Classification Criteria in a Problem Solving System. Area
Education Agency 5, Marshalltown, IA.

APP.435

Reschly: p. 38

•
•
•
•

•

•

•

•

•

•
•
•
•
•
•

Reschly, D. J. & Fagan, T. K. (November 2000). The Past and Future of School
Psychology. Mid-South Regional School Psychology Conference, Mobile Alabama.
Reschly, D. J. (March 2001). State-wide Testing and Students with Disabilities. Law
and Education Conference, Washington DC
Reschly, D. J. (June 2001). Avoiding Stereotypes: Overrepresentation Statistics, Risk
or Composition? Council for Exceptional Children, IDEA Summit, Washington DC
Reschly, D. J. (July 2001). Overrepresentation, It’s Not What You Think It Is: Equal
Treatment Studies. US Department of Education, Office of Special Education
Programs, Project Directors Summer Meeting. Washington DCReschly, D. J. (August
2001). Keynote address, System Reform and the Design of Services for Students with
Learning Disabilities. Minnesota Special Education Director’s Conference, Grand
Rapids MN
Reschly, D. J. (August 2001). Reaction paper, Minority Overrepresentation: The Silent
Contributor to LD Prevalence and Diagnostic Confusion. US Department of Education,
Office of Special Education Programs. Learning Disabilities Summit.
Reschly, D. J. (September 2001) Keynote Address, System Reform, Learning
Disabilities, and the Future of School Psychology. Kentucky Association of School
Psychologists, Louisville KY.
Reschly, D. J. (October, November, December 2001). Disproportionate
Representation: Facts, Myths, and Solutions. US Department of Education, Improving
America’s Schools Regional Conferences. Mobile, Reno, San Antonio.Reschly, D. J.
(October 2001). Keynote Address, Overrepresentation Patterns and LD Classification
Issues: Converging Trends to System Reform. Tennessee Association of School
Psychologists, Nashville Reschly, D. J. (December 2001). Continuing Education
Workshop, Metro Nashville Public Schools, "Converging Themes: Overrepresentation,
MR and LD Classification Issues, and System Reform"
Reschly, D. J. (February, 2002). National Academy of Sciences Study on
Disproportionality of Minority Students in Special Education. U.S. Department of
Education, Office of Special Education Programs, Joint Personnel Development/State
Improvement Conference, Crystal City, VA.
Reschly, D. J. (February, 2002). Invited Testimony, Minority Students in Gifted and
Special Education. President’s Commission of Excellence in Special Education,
Houston.
Reschly, D. J. (March, 2002). Minority Students in Gifted and Special Education. MidSouth Regional Resource Center, Nashville, TN.
Reschly, D. J. (March, 2002). Minority Students in Gifted and Special Education.
WESTAT Conference for State IDEA Data Managers. Washington, DC.
Reschly, D. J. (April, 2002). Summary of Testimony: Research Recommendations.
President’s Commission of Excellence in Special Education, Nashville.
Reschly, D. J., (April, 2002). System Reform Principles: The New Special Education
Establishment. Innovations Conference, Kansas City.
Reschly, D. J., (October, 2002). Reforms in Special Education Eligibility Criteria.
Missouri Council of Special Education Administrators, Columbia, MO.
Reschly, D. J. (July 2002). Legal Issues in School Mental Health Services. Memphis City
Schools.

APP.436

Reschly: p. 39

•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•

•

Reschly, D. J. (October 2002). Mild Mental Retardation Identification. National
Organization of Social Security Claimants’ Representatives. San Francisco.
Reschly, D. J. (October 2002). Keynote, RTI and Special Education Reform. 4th Annual
Golden Empire Special Education Partnership Conference, Bakersfield, CA .
Reschly, D. J. (November 2002). Response to Intervention. Northwest Ohio SERRC,
Kitland, OH.
Reschly, D. J. (February 2003). Keynote: SLD Identification and RTI. (psychologists,
special educators, and principals) Charleston, SC.
Reschly, D. J. (June 2003). Disproportionality Statistics and Interverntions. IDEA
Partnerships 2nd National Summit on Implementation of IDEA 1997. Arlington, VA.
Reschly, D. J. (October 2003). Keynote. RTI and Special Education Reform. Kern
County School Psychology Conference, Bakersfield, CA.
Reschly, D. J. (October 2003). Keynote. RTI and Special Education Reform.
Washington Association of School Psychologists, Spokane, WA.
Reschly, D. J. (October 2003). Keynote. RTI and Special Education Reform.
Pennsylvania Association of School Psychologists.
Reschly, D. J. (November 2003). Keynote Address. Keynote. RTI and Special Education
Reform Florida Association of School Psychologists. Tampa
Reschly, D. J. (September 2003). Keynote: The Dog Catches the Truck: What Next?
National Innovations Conference. Charleston, SC.
Reschly, D. J. (January 2004). Keynote. RTI and Special Education Reform. Bremerton
Public Schools, Bremerton, WA.
Reschly, D. J. (March 2004). Keynote. RTI and Special Education Reform. West Central
Ohio SERRC, Wapakoneta, OH.
Reschly, D. J. (March 2004). Keynote: RTI and Special Education Reform. Clark County
School District, Las Vegas, NV.
Reschly, D. J. (April 2004). Colloquium: Disproportionality Causes and Solutions.
University of Texas, Austin, TX.
Reschly, D. J. (October 2004). Keynote: Special Education Overrepresentation: Causes
and Solutions. Mississippi Department of Education. Tunica, MS
Reschly, D. J. (October 2004). Keynote: School Psychology and the Future. Mid-South
Regional Conference on Psychology in the Schools. Memphis, TN.
Reschly, D. J. (November 2004). Problem Solving and Key Intervention Principles.
Clark County School District Related Services Personnel. Las Vegas NV
Reschly, D. J. (February 2005). Keynote: Problem Solving and SLD Identification.
School Psychology Institute, Normal IL.
Reschly, D. J. (February 2005). Keynote: RTI at Three Tiers of Intervention.
Pennsylvania Training and Technical Assistance Network. Hershey, PA>
Reschly, D. J. (February 2005). Response to Intervention. West Chester, PA Schools.
Reschly, D. J. (July 2005). Keynote: Preparation of School Personnel for RTI. Florida
Department of Education Summer Institute for the Florida Association of Student
Services Administrators. Stuart, FL.
Reschly, D. J. (July 2005). Keynote: Alternatives for SLD Identification. National
Association of School Psychologists Summer Institute, Las Vegas, NV.

APP.437

Reschly: p. 40

•
•

•
•
•
•
•

•
•
•

•
•

•
•

•
•
•
•

Reschly, D. J. (August 2005). Keynote: IDEA Re-authorization and RTI Principles.
Wyoming School Psychologists Summer Institute. Jackson Hole, WY.
Reschly, D. J. (August 2005). Keynote: RTI and Prevention of Prevention of Special
Education Disproportionality. Louisiana Fall Pupil Appraisal Institute. Baton Rouge,
LA
Reschly, D. J. (August 2005). Fall In-service: RTI and Improving Classroom Results.
Westside School District, Omaha NE.
Reschly, D. J. (September 2005). Keynote: RTI and General Education Reforms.
Oregon Confederation of School Administrators. Eugene, OR.
Reschly, D. J. (September 2005). Keynote: Improving IEPs and Special Education
Outcomes. Illinois Alliance of Administrators of Special Education. Chicago.
Reschly, D. J. (September 2005). Keynote: RTI in General, Remedial, and Special
Education. National Innovations Conference, Lansing, MI.
Vanderbilt University, Kennedy Center for Research on Human Development,
Developmental Disabilities Grand Rounds, Persistence of Minority Overrepresentation
in Mild Mental Retardation Despite Court, Legislative, and Social Science Prohibitions.”
Nashville, TN, November 2, 2005.
Reschly, D. J. (October 2005). RTI and Identification of SLD. South Carolina Special
Education Administrators Conference, Columbia, SC.
Reschly, D. J. (October 2005). State policy and RTI. Ohio Department of Education,
Columbus, OH.
Reschly, D. J. (October 2005). Keynote Address. RTI and the Future of School
Psychology. North Carolina Association of School Psychologists Fall Conference.
Charlotte NC.
Reschly, D. J. (November 2005) Response to Intervention. Mississippi State
Department of Education, Jackson, MS.
Reschly, D. J. (January 2006). Keynote: Reducing Disproportionality through Early
Identification-Treatment and Special Education Exit Criteria. Texas Council of
Administrators of Special Education, Austin, TX.
Reschly, D. J. (February 2006). Keynote: RTI and Special Education System Reform.
Minnesota Council for Exceptional Children Winter Conference. Rochester MN.
Reschly, D. J. (February 2006). Aligning Assessment with Improving Special
Education Outcomes. Presentation to South Carolina Department of Education Staff,
Columbia, SC.
Reschly, D. J. (February 2006). Keynote: RTI and School Psychology Services. MidWinter Conference, Calhoun Intermediate School District, Marshall, MI.
Reschly, D. J. (March 2006). Keynote: RTI and Learning Disabilities Identification.
IDEA Partnership Regional Meeting. Miami, FL.
Reschly, D. J. (May 2006). Keynote: Problem Solving. Illinois Problem Solving
Conference, DeKalb, IL.
Reschly, D. J. (May 2006). Keynote: Understanding RTI: What It Is and Why It Works.
LRP National Institute on Legal Issues of Educating Individuals with Disabilities.
Orlando, FL.
Note: Presentations 2007-2011 to be updated

APP.438

Reschly: p. 41

•

•

•

•

•
•

•

•
•
•

•

•

•

•

Reschly, D. J. (2009, October 3). Overcoming Barriers to Effective Implementation of
Response to Intervention. Council for Learning Disabilities National Conference
Keynote Address,. Dallas, , 2009
Reschly, D. J. & Smartt, S. M. (2009, May 24). Barriers to scientifically-based reading
instruction. Invited address, B. F. Skinner Lecture, Association for Applied Behavior
Analysis International, Phoenix
Reschly, D. J. (2010). Teacher preparation and research-based principles of tiered
instruction. Invited keynote address, Wing Conference on Effective Educational
Practices, Berkeley, CA.
Reschly, D. J. (2011, February 7). Mild intellectual disability: Characteristics and
controversies. Vanderbilt University Grand Rounds, Department of Hearing and
Speech Services.
Reschly, D. J. (2011, March 24). Special education: Sky is falling or best is yet to be?
University of Iowa, Center for Disability Research and Education.
Reschly, D. J. (2011, April 28). Innovation configurations: Helping pre-service and inservice teachers implement effective classroom practices in urban schools. Conference
Great Teachers for Our City Schools National Summit, Denver, CO.
Reschly, D. J. (2011, May 20). Psychological testimony in death penalty appeals due to
intellectual disability. Annual Conference of the Tennessee Association of Criminal
Defense Lawyers. Knoxville.
Reschly, D. J. (2011, June 1).Improving mathematics achievement through response to
intervention. District Teacher In-Service, Boone Co KY, Florence, KY.
Reschly, D. J. (2011, June 13). Developing great teachers for all schools. Metro
Nashville Public Schools.
Reschly, D. J. (2011, July 20). Improving the efficacy of teacher preparation programs:
General and special education. Invited paper on Office of Special Education Programs
Panel, Improving the efficacy of teacher preparation programs. OSEP Project Directors
Summer Meeting, Washington DC.
Reschly, D. J., Holdheide, L. R., & Hougen, M. (2011, July 20). Improving teacher
preparation: Including knowledge and skills in evidence-based practices. Invited
Workshop at OSEP Project Directors Meeting, Washington DC.
Reschly, D. J. (2011, October). Issues in the implementation of RTI multiple tiers.
Keynote address, North Carolina School Psychologists Association, Winston-Salem,
NC.
Reschly, D. J. (2011, November 14). US death penalty and the continuing dilemma of
mild intellectual disability. Colloquium, Department of Psychology, University of
Otago, Dunedin, NZ.
Reschly, D. J. (2011, November 22). Closing gaps with response to intervention.
Keynote Address, Annual Educational Psychology Forum, Auckland, NZ.

University/Department Service (Since 1975)
•
•

Chair, Iowa State University School Psychology Program Committee, 1975-1998
Chair, ISU Psychology Department Teaching Evaluation committee, 1977-1980

APP.439

Reschly: p. 42

•
•
•
•
•

•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•

Member (elected), ISU Psychology Promotion and Tenure Committee, 1978-1981;
1984-1989, 1991-1997.
Member, ISU College of Sciences and Humanities Promotion and Tenure Committee,
1982-1983
Member, ISU Department Affairs Committee, 1977-1983
Member, ISU Department of Psychology Graduate Program Committee, 1985-1997
Member, ISU College of Liberal Arts and Sciences Representative Assembly (elected
to represent department), 1987-1995; Executive Committee, 1992-1994; Chair,
Executive Committee, 1994-1995
Chair, ISU Faculty Search Committees, 1979; 1982; 1985; 1986; 1988; 1990, 1992,
1995
Chair, ISU Department Head Search Committee, 1987-1988 (appointed by Dean,
College of Sciences and Humanities)
Member, ISU Psychology Department Grievance Committee, 1983-1988
Member (elected), ISU Department of Psychology Executive Committee, 1988-1992;
1995-1997
ISU Department of Psychology Faculty Enhancement (Chair, 1996-1997)
ISU School/Counseling Diversity Search Member 1994-1996
Member, ISU University Committee on Handicapped, 1979-1989
Member, ISU Department of Psychology Faculty Development Committee, 1992-1996
College of Liberal Arts and Sciences Committee on Faculty and Alumni Recognition
(1992-98) (Chair, 1993-1998)
ISU Provost’s Ad Hoc Committee on Selection of University Distinguished Professors
(Chair, 1994)
ISU Ad Hoc Grievance Committee, Professional Studies in Education (Chair, 1994)
ISU Ad Hoc Committee on Behavior Management, Department of Curriculum and
Instruction (1995)
ISU College of Liberal Arts and Sciences Associate Dean Search Committee (1994)
ISU College of Liberal Arts and Sciences Five-Year Strategic Plan Writing Committee
(1994-95)
ISU Graduate College Premium for Academic Excellence Committee, 1997-1998
ISU Co-Chair, College of Education and College of Family and Consumer Sciences Task
Force on Collaborative Programs and Services, 1996-1998.
Vanderbilt University Committee on Peabody College Undergraduate Programs,
Member, 1998-2000
Vanderbilt University Committee on Promotion and Tenure Grievances, Member,
1999-2002
Vanderbilt University Ad Hoc Committee on the Human Development Counseling
Program, Chair, 1998-1999
Vanderbilt University Department of Leadership and Organizations Chair Search,
Member, 1999-2001
Vanderbilt University Search Committee for Kennedy Center Director, Co-Chair,
2000-2001

APP.440

Reschly: p. 43

•
•
•
•
•
•
•
•
•
•

Vanderbilt University Search Committee for Dunn Family Chair in Psychoeducational
Assessment, Chair, 1999-2006
Vanderbilt University Council on Teacher Education, 2000-2007
Vanderbilt University, Chair Search Committee, Counselor Education 2001-2002
Vanderbilt University, Member Mental Retardation Search Committee 2001-2002
Vanderbilt University Chair Department of Special Education, 1998-2006
Vanderbilt University Dean’s Cabinet, 1998-2006
Vanderbilt University Faculty Senate, 2007-2010
Faculty Senate Committee on Professional Ethics and Academic Freedom, (Chair,
2008-2009)
Vanderbilt University, Peabody College Promotion and Tenure Committee, 2008-09.
Vanderbilt University, university-wide Promotion and Tenure Committee, 2009-2013
(Chair 2010-11 and 2011-12)

Professional Service and Leadership (Sample Activities)
•
•

Editor, 1979-1981, School Psychology Review
Editorial Board Memberships:
• School Psychology Review, 1974-2000
• Journal of School Psychology, 1982-1996
• School Psychology Quarterly, 1984-1990 (Associate Editor, 1991-1994)
• Journal of Psychoeducational Assessment, 1983-1988
• Exceptional Child Quarterly, 1983-1988
• Canadian Journal of School Psychology, 1990• Contributing Editor, EDLAW Briefing Papers, 1990-1995
• Journal of Learning Disabilities 1998-

•

Ad Hoc Reviewer
Journal of Consulting and Clinical Psychology
American Psychologist
Exceptional Child
American Educational Research Journal
Review of Educational Research
American Journal of Mental Retardation
Journal of Educational Psychology
School Psychology International
Psychological Bulletin

•
•
•
•

President, National Association of School Psychologists (NASP), 1984-1985
Chair, NASP Program Approval, 1989-1992
Member, American Psychological Association Committee on Psychological Tests and
Assessment, 1991-1994.
Site Visitor, American Psychological Association Doctoral Program Accreditation

APP.441

Reschly: p. 44

•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•

•
•
•
•
•
•
•

Chair, NASP Publications Committee, 1982-1984, 1986-1988
Member, NASP Accreditation, Certification and Graduate Training Committee, 19761980
President, 1974-1975, Arizona Association of School Psychologists
Member, NASP Executive Board, 1976-1978, 1981-1986
Member, American Psychological Association, Division 16 Task Force on School
Psychology Reform, 1990-1992
Member, American Psychological Association (APA) Task Force on Children, Youth,
and Families, 1981-1983.
Member, APA Division 16 Committee on Testing Issues, 1982-1984
Member, APA Division 16 Convention Program Committee, 1981-1985
Member, APA Division 16 Task Force on the Future of the Practice of Psychology in
Education, 1983-1985
Chair or Member of numerous committees for the Arizona Association of School
Psychologists and the Iowa School Psychologists Association
President, Iowa School Psychologists Association, 1994-1995
Member, National Academy of Sciences Panel on Goals 2000 and the Education of
Students with Disabilities (7 meetings in 1995-1996)
Member, State of Iowa Task Force on Mental Disabilities Classification Criteria 19951996
Member, State of Iowa Task Force on Disproportionate Representation of AfricanAmerican Students in Programs for Students with Disabilities 1995-1997
External Reviewer, Lehigh University Personnel Preparation Grant, Preparing School
Psychologists to Provide Services to Children with Developmental Disabilities
Member, Iowa Department of Education Task Force on Assessment of Outcomes for
Students with Disabilities, 1995-1997.
Member, Seven Person Writing Team, Assessment and Eligibility in Special Education:
An Examination of Policy and Practice with Proposals for Change, National Association
of School Psychologists under contract with the Office of Special Education Programs,
U. S. Department of Education, 1994
President, President-Elect, and Past-President, Society for the Study of School
Psychology, 1995-1998; 2001-2004
President (1998-1999) and Board Member (1996-1999) Council of Directors of
School Psychology Programs
Member, National Academy of Sciences Panel on Overrepresentation of Minorities in
Special Education, member 1999-2001
Chair, National Academy of Sciences Panel on Disability Determination in Mental
Retardation, 2000-2002
Member, Office of Special Education Programs SLD Summit. November, 2003,
Washington DC.
Member, Disproportionality Determination Task Force, Office of Special Education
and WESTAT, 2003.
Co-chair, Division 33 (Mental Retardation and Developmental Disabiities) Program.
American Psychological Association Annual Convention (Toronto 2003)

APP.442

Reschly: p. 45

•
•
•
•

•
•
•
•
•

Member, Executive Board, Higher Education Consortium in Special Education, 20022005.
President, Division for Research, Council for Exceptional Children, 2005-2006.
Invited testimony, US Commission on Civil Rights, December 3, 2007.
US Department of Education, Institute for Educational Sciences, Task Force on the
Evaluation of the Office for Special Education Programs Personnel Preparation and
Doctoral Leadership Grants, 2008-2010.
Member, Institute for Educational Sciences Proposal Review Board (Special
Education), 2009-2012
Co-chair, Transformation Leadership Group: Special Needs Students. Metro Nashville
Public Schools, 2009-2012.
Advisory Member, State of Wisconsin Governor’s Panel on Educational Reform,
March 30, 2011.
External Review Team and author of chapter on special education, Webster Co. Parish
Public Schools, April-October, 2011.
Advisor, statistical analyses, and reports on special education disproportionality,
Clark County School District, 2003-2019

Expert Witness and Case Consultation
3. *AZ v. Coleman, 1972; (State Court Tucson, AZ; No. 20854). (Expert Witness
Testimony). (State)
4. Marshall v. Georgia 1983; (Federal District Court); Savannah, GA. (Report and
expert witness testimony). (Federal)
5. Bradley, v. Robb, 1985; (Federal District Court); Richmond, VA. (Expert witness
testimony). (Federal)
6. S-1 v. Turlington, 1986; (Federal District Court); Miami, FL. (Report and expert
witness testimony). (Federal)
7. Little Rock v. Pulaski Co., 1986. (Federal District Court); Little Rock, AR. (Expert
witness testimony). (Federal)
8. Egg Harbor Township Board of Education v. S. O., 1992 (Federal District Court)
(Expert witness testimony). (Federal)
9. Coalition to Save Our Children v. Board of Education, 901 F. Supp. 784 (D. Del. 1995),
aff’d 90 F.3d 752 (3d Cir. 1996). (Report and expert witness testimony). (Federal)
10. Campaign for Fiscal Equity, Inc. v. State, 719 N.Y.S. 2d 475, 485-487 (Sup. Ct. N.Y.
Ctny.2001) (Report and expert witness testimony). (State)
11. Harper et al. v. Patterson et al., 2003 (GA State Court, Civil Action No. 2:99-CV-0200
WCO); Elijay, GA. (Expert witness testimony) (State)
12. *Darick Demorris Walker v. William Page True, United States District Court for the
Eastern District of Virginia, Alexandria Division, Case No. 1:03-cv-00764 (CMH).
(Report and expert witness testimony in 2005; Executed May 20, 2010). (Federal)
13. School Districts’ Alliance for Adequate Funding of Special Education v. The State of
Washington. State of Washington, Thurston County Superior Court, NO. 04-202000-7 (Report and expert witness testimony in November 2006) (State)

APP.443

Reschly: p. 46

14. *Kevin Green v. Gene M. Johnson, US District Court, Eastern District of Virginia, NO.
2:05cv340. (Report and expert witness testimony in October, 2006, Executed May
27, 2008 ). (Federal)
15. Consortium for Adequate School Funding in Georgia, Inc., et al. v. State of Georgia et
al. (Report, Deposition, case dropped). (State)
16. *Penry v. Texas, Death Penalty Appeal (Consultant, 2006-2008. Case Settled LWOP).
(State)
17. *John Lionel Neal Jr. v. State of Alabama, 28th Judicial Circuit Court, Baldwin Co., No.
CC 87-520.60. (Consultant to Petitioner, 2006-2008, Case Settled LWOP). (State)
18. *Winston v. Kelly, US District Court, Western District of Virginia, Roanoke, Case No.
7:ev00364. (Report and expert witness testimony in November 2008, Case Settled
LWOP). (Federal)
19. *Bridgers v. Texas, (Evaluation, Report, May 2009, Death Sentence pending). (State)
20. *Rollins v. Tennessee, Circuit Court of Sullivan County, TN, Second Judicial District at
Blountville. (Evaluation, Report and Expert Witness Testimony October, 2009; Case
Settled Life Sentence). (State)
21. *Chase v. Mississippi, Circuit Court, Copiah County, MS. (Expert Witness Report and
Testimony August 2010, Atkins Claim Denied, Execution Pending) (State)
22. *Keen v. State of Tennessee, Criminal Court of Shelby County Tennessee at Memphis
Division 8. No. P-25157. (Report, August 2010, Trial pending). (State)
23. S.R v. El Campo Independent School District et al. Civil Action in District Court,
Southern District of Texas. (Expert Report March 2011, Case settled)
24. *State of Tennessee v. Willie Clyde Puckett, Sullivan County Criminal Court, No.
S54,153. (Report May 2011, Case Settled LWOP). (State)
25. Blunt, et al. v. Lower Merion Sch. Dist., 826 F.Supp. 749 760-61 (E. D. Pa., 2011).
(Report & Deposition, June-July, 2011, Case Dismissed). (Federal)
26. *State of Tennessee v. Jawaune Massey, Sullivan County Criminal Court No. S52,127.
(Report, Expert Testimony 2012, Case Settled LWOP). (State)
27. *Chalmers v. Tennessee (Evaluation, Report 2012-2014, Pending). (State)
28. *John Henretta v. Tennessee (Evaluation, Report 2012, Case Settled LWOP). (State)
29. *David Jackson v. US (Consultant 2013, Evaluation, Case Settled LWOP). (Federal)
30. *Pervis Payne v State of Tennessee (Evaluation, Report 2012, Case Pending). (State)
31. *State of Texas v. Stanley R. Robertson (Report 2011, Report, Expert Witness
Testimony 2013, Case Settled LWOP). (State)
32. *State of Tennessee v. Lasergio Wilson (Evaluation, Report 2013, Death Sentence
2017). (State)
33. *US v. Chastain Montgomery (Report 2013, Report, Testimony, Atkins denied,
LWOP). (Federal)
34. *State of Tennessee v. Calvin Rogers, (Report 2013, Testimony, Case Settled LWOP).
(State)
35. *State (GA) v. Favors, 2014 (Evaluated Gregory Favors, Case Settled LWOP). (State)
36. *US v. Naeem Willians, 2014 (Consultation, Brief Evaluation). (Federal)
37. * People (CA) v. Townsell, 2014 (Consultation, Reviewed Records, Report, LWOP).
(State)
38. *US v. Guerrero 2013-2014. N0 1:08-cr-00259-pmp (Evaluation, Report, Case
Settled LWOP). (Federal)

APP.444

Reschly: p. 47

39. *Eaton v. Wilson (WY), No 09-cv-00261-J, 2014 (Evaluation, Report, Case settled
LWOP). (State)
40. *KY v. Allman, 2014 (Evaluation, Case settled LWOP). (State)
41. *Odom v. TN, 2014 No 91-07049 (Evaluation). (State)
42. *Rice v. TN, 2014, No. 01-0035 (Evaluation). (State)
43. *Caruthers v. TN, 2014 (Evaluation, Report, Client deceased natural causes). (State)
44. *Corey Johnson v. VA, 2014, (Evaluation, Report, Case Pending). (State)
45. *AZ v. Boyston, 2014, No CR 2004-007442-001, (Evaluation, Report, Case Pending).
(State)
46. *US v. Ronell Wilson, 2014, No 04-CR-1016 (NGG). (Record Review, Consultation,
Report, Case Settled LWOP). (Federal)
47. *SC v. Brown, 2014 (Evaluation, Report, Expert Testimony, Court Opinion Atkins
claim approved, LWOP). (State)
48. *TX v. Allen 2014-2015 (Evaluation, Report, Case Settled LWOP). (State)
49. *Tuilaepa v. US, 2014-2015, (Evaluation). (Federal)
50. *TX v. Adams, 2014-2015, No 1372221. (Evaluation, Report, Case Settled LWOP).
(State)
51. *AR v. Friar, 2015, No CR-2013-75 (Consultation, Record Review, Case Settled
LWOP). (State)
52. *KY v. Taylor, 2015, (Evaluation, Case Settled LWOP). (State)
53. *US v. Bolton, 2015, (Evaluation). (Federal)
54. *People (CA) v. Griffin, 2010-2015, (Report 2010, Expert Testimony May 2015,
Judicial decision for LWOP, Reversing Death Penalty Sentence). (State)
55. *Lard v. Arkansas, 2015 (Evaluation, Report, Expert Testimony, Decision Pending)
(State)
56. CJEFF v State of Connecticut, (Report, Deposition, Testimony [April, 2016], Decision
Pending). (State)
57. *State of Texas v. Charles E. Brownlow Jr., 422 Judicial District of Kaufman County,
Kaufman TX. (Evaluation, Report, testimony, Atkins appeal denied. (May 16-17,
2016). (State)
58. *Debra Brown v. Shirley A. Jones, Case, No.: 1:99-CV-00549. (2016, Evaluation,
Report, LWOP). (Federal)
59. *US v James Nathaniel Watts, Criminal No. 14-40063-JPG. (2016-2017). (Evaluation,
Report, Case settled LWOP). (Federal)
60. *USA v Ulysses Jones Jr., Case No. 10-03090-CR-S-DGK. US District Court for the
Western District of Missouri, Southern Section. (Evaluation, Report, Expert
Testimony, Atkins Claim Denied September, 2017; Jury Trial October 2017 awarded
LWOP). (Federal)
61. *State of Oklahoma v Alton Alexander Nolen. (Review of records and adaptive
behavior evaluation, Report, Expert Testimony, Atkins Claim denied, April, 2017).
(State)
62. *Smith v Dunn (State of Alabama). Civil Action No.: 05-04744-CG-M. (Reviewed
records and evaluations, Report, Expert Testimony May 2017, Decision Pending).
(State) (Joseph Clifton Smith)

APP.445

Reschly: p. 48

63. Yazzie et al and Martinez et al v. New Mexico Public Education Department, NO: D101-CV-2014-0224. (Report, Expert Testimony August, 2017, decision pending).
(State)
64. *Texas v. Antonio Cochran (Evaluation, Report, Case settled LWOP, December 2017.
(State)
65. *South Carolina v. Stephen Corey Bryant (Evaluation, December 2017). (State)
66. *Robbins v. California (Review of records, report, January 2018). (State)
67. *Eric Royce Leonard v. Ron Davis, Warden, United States District Court, Eastern
District of California, No. 2:17-CV-0796 JAM-AC (Evaluation, report, LWOP, 2018).
(Federal)
68. *California v. Pearl Fernandez, Case No. BA 425180 (Evaluation, report, LWOP, June
2018). (State)
69. *State of Texas v. Shaun Ruiz Puente (Adaptive behavior evaluation only, testimony,
LWOP awarded by a jury, February 2018). (State)
70. *US v. Chattam, US District Court Eastern District of Michigan Southern Division,
Case No: 17-20184. (Evaluation June 2018). (Federal)
71. *State of Nevada v. Paul Darrell Jones, Case No. C-17-326614-1. (Evaluation, Report,
Prosecution agreed to Intellectual Disability, October 2018.) (State)
72. *US v. Alonzo Horta, US District Court for the Northern District of Illinois Eastern
Division, Case No. 16 CR 463-23 (Evaluation December 2018). (Federal)
73. Maestas v State of Utah, Case No. 130907856, July 2018 (Adaptive behavior
evaluation, report, client deceased in 2019).
74. *Webster v. Lockett, Cause No: 2:12-cv-86-WTL-MJD, US District Court Southern
District of Indiana Terre Haute Division, upheld at the 7th Circuit, USCOA-7th Circuit,
No 19-2683, September 22, 2020 (Evaluation, Report, Testimony, Atkins granted,
June 2019). (Federal)
75. *Texas v. Armando Luis Juarez, 292nd Judicial Court of Dallas County, Texas N0 F1870634-V (Evaluation, report 2019-2020)
76. *Florida v. Reginald Jackson, Circuit Court of the 11th Judicial Circuit, Miami-Dade
County, Florida, Case N0 F13-017684-A. (Report, Deposition, 2019-2020).
77. *US v. Juhwun Foster, US District Court, Northern District of Illinois Eastern Division,
N0. 17 CR 611-4 (Evaluation, LWOP awarded, 2019-2020).
78. Gallegos v. Shinn, et al., No. CV-01-01909-PHX-NVW, United States District Court for
the District of Arizona. (Adaptive Behavior analysis from records).
79. Fiorella
80. Davis.
81. Davis, R
* Cases involving mild intellectual disability and death penalty issues, (N=57)
Summary: Expert witness in 29 cases, 19 state courts and 10 federal courts. Have never been
denied expert witness status.
Consultant Activities (Sample Activities)

APP.446

Reschly: p. 49

•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•

•
•

•

•
•
•
•
•
•
•
•

Baltimore Public School Psychological Services, 1972-1974
National Follow Through, 1971-1975
Pima County Pluralistic Assessment Project, 1973-1975
Iowa Department of Education Nonbiased Assessment Project, 1976-1979;
Iowa Department of Education Adaptive Behavior Project, 1980-1982;
State of Georgia, 1980 (Handbook for School Psychologists)
Illinois-Indiana Race Desegregation Center, 1981-1982
Florida Atlantic University SOMPA Standardization Project, 1982-1983
University of California-Berkeley Nondiscrimination Assessment Project, 1982-1985
Chicago Public Schools, 1984-1986
Charles E. Merrill Test Division, 1983-1986
Psychological Corporation, 1984, 1986, 1988
Minnesota Department of Education, 1986-1987 (MR Classification Criteria)
Florida Department of Education, 1986-1989 (MR Classification Criteria)
ETS-NASP, 1989-1991 (regarding bias in the National School Psychology Licensing
Examination)
Administrative Law Judge, State of Iowa (Hearings Regarding Education of the
Handicapped), 1989-1998
Consultant, American Association on Mental Retardation Committee on Classification
in Mental Retardation, 1989-1992.
Consultant to Board on Testing and Assessment, National Academy of Sciences, Issues
Related to the Appropriate Assessment of Minority Children and Youth with
Disabilities, 1994.
State of Florida, Development of Criteria for Identification of Learning Disabilities and
Mild Mental Retardation, 1995-1997.
Consultant to Department of Psychology, Minot State University, Development and
Need of School Psychology Graduate Program Opportunities in North Dakota, May,
1994.
Consultant, U. S. DE Office of Special Education Programs and U.S. DE Office for Civil
Rights, Task Force on Over-representation of Minority Students in Special Education
Programs, 1993-1995
Member, U. S. Department of Education, Office of Special Education Programs, Task
Force on Educational Outcomes for Students with Disabilities, March, 1994
Member, Ford Foundation Task Force, Equity and Educational Assessment, May, 1996
Grant Review Panel, U.S. Department of Education, Behavior Disorders Prevention and
Intervention
National Association of School Psychologists Panel, Blueprint for School Psychology in
the 21st Century (July, 1996 to March, 1997).
State of Iowa Committee on Implementation of the Federal Education of the
Handicapped Act 1979- 1983
National Advisory Panel for Buros-Nebraska Institute of Mental Measurements, 19811988
Erlbaum Series Advances in School Psychology, 1983-1991
United States Department of Education Task Force on At Risk Students, 1984-1986

APP.447

Reschly: p. 50

Guilford Press Child Practitioner Series, 1985-1991
United States Department of Education Project: Research Integration on Handicapped
Students, 1985-1988
• State of Georgia Advisory Committee on Student Assessment, 1986-1996
• State of Iowa Task Force on Special Education Reform, 1989-1991
• Member, United States Department of Education Task Force on ADHD Assessment and
Interventions, 1991-1992
• Grant Review Panel, ADHD Grant Competition, United States Department of Education,
Office of Special Education Programs, 1991
• Consultant, National Center for Educational Outcomes, University of Minnesota and U.S.
Office of Special Education Programs, 1995-1998
• Consultant, State of Kansas Board of Regents, Wichita State University Proposal re:
School Psychology Doctoral Program 1996
• Member, Leadership Council, State of New York, Department of Education, Division of
Vocational Education and Special Education, 1997-2003
• Consultant, (Pro bono) European Roma Rights Center, Budapest, 1999- (Evaluations
and consultation regarding Roma children placed in special education programs in
Ostrava, Czech Republic.)
• Williamson County Schools, Franklin TN, School Psychology Department, 1998-2000
• Consultant, Florida Department of Education. Project on Identification of Educable
Mental Retardation. 2000-2001.
• State of Tennessee Department of Education Task Force on IDEA rules revisions, 19992001
• Minneapolis Public Schools, Waiver Project Evaluation, December, 2001.
• Consultant, New York Department of Education Disproportionality Task Force,
Presentation to State Board, December 2002
• State of Indiana Disproportionality Project. 2000-2003
• State of Missouri Department of Education, Division of Special Education, Criteria for
Disability Determination, 2002-2004
• Grant review panels, Office of Special Education Programs, several grant competitions
2002-2013
• Clark County School District (Las Vegas), Disproportionality Analyses and reports,
2003-2015.
• Connecticut Department of Education, 2003-2005, Mental retardation criteria and
manual.
• Member, National Advisory Committee, Voyager Learning Inc., Dallas, TX, 2008• Hancock County Schools (Georgia), Achievement gap and disproportionality. 2008
• Jefferson County School District (Louisville, Kentucky). Achievement gap and
disproportionality. 2009-10
•
•

Awards/Honors
•

Distinguished Service Award, “Outstanding Services in the Editing and Design of the
School Psychology Review,” National Association of School Psychologists, 1980

APP.448

Reschly: p. 51

•
•
•

•
•
•
•

•
•

•
•
•
•

•

•

New Jersey Association of School Psychologists Award for “Outstanding Contributions
to the Development of School Psychology,” 1983
Distinguished Service Award, “Dedicated Service and Leadership as President,”
National Association of School Psychologists, March, 1987
Fellow, Division 16 (School Psychology), “In recognition of outstanding contributions
to the science and profession of psychology,” American Psychological Association
(Elected in 1985)
Charter Fellow, American Psychological Society, 1989
James B. Stroud Award, “Outstanding contributions to the practice of school
psychology,” Iowa School Psychologists Association, October 1989
Distinguished Service Award, “Design and administration of the NASP program
approval service,” National Association of School Psychologists, 1990
Fellow, Division 15 (Educational Psychology), “In recognition of outstanding
contributions to the science and profession of psychology,” American Psychological
Association (Elected in 1990)
Distinguished Professor of Liberal Arts and Sciences, a career title representing,
“…the highest academic honor bestowed by Iowa State University,” May, 1991
Dorthy H. Hughes Memorial Award for Distinguished Service in Educational and
School Psychology by the Department of Applied Psychology, New York University,
May, 1994
Charter Member, Iowa Academy of Education (one of 15 persons appointed by the
FINE Foundation as Charter Members)
Outstanding Alumnus Award, College of Education, University of Oregon, 1996
Cited in 1999 as in top five of school psychologists providing service to the profession
as editor, associate editor, or editorial board member on school psychology journals
National Association of School Psychologists Lifetime Achievement Award, “In
Recognition of Outstanding Achievement and Distinguished Service to the Profession
of School Psychology, March, 2000
Vanderbilt University Opportunity Development Center Award for “Exemplary Effort
in Support of the University’s Commitment to Promoting Opportunities for Persons
with Disabilities, October 2004
National Association of School Psychologists “Legend in School Psychology Award”
March 27, 2007

APP.449

APP.450

interviewed more than two dozen family members, friends, and professionals who had
significant interactions with him and knew him well during various times throughout his
life, and I reviewed written statements submitted by many of those individuals. Finally, I
administered a standardized adaptive behavior instrument to three individuals who knew
Corey Johnson particularly well in varied contexts. The information I considered as part
of my adaptive behavior evaluation led me to conclude that Corey Johnson has
significant limitations in all three domains of adaptive behavior—Conceptual, Social, and
Practical—that are related to his intellectual functioning deficits. Based on my thorough
evaluation and detailed analysis of the available information, discussed in detail below,
the evidence is compelling and consistent that Corey Johnson is intellectually disabled
and that his intellectual disability originated during his childhood and has continued into
adulthood.
Overview
This report is sequenced chronologically and addresses the key factors that must
be considered in determining a diagnosis of intellectual disability (“ID”). My
qualifications are set out in Appendix A to this report.
As part of my evaluation, I reviewed records related to Corey Johnson’s
childhood, adolescence, and adulthood, including all available school records; foster care
and social services records; psychological, psychiatric, and educational/achievement
evaluations and treatment records; and residential placement and treatment records. I
also interviewed over two dozen individuals who have known Corey Johnson, including
family members; friends; peers; teachers; mental health evaluators and treatment
professionals; and residential placement staff. I have reviewed declarations and
statements obtained by Mr. Johnson’s attorneys from these individuals and from others
who have known Corey Johnson. I also administered a standardized adaptive behavior
instrument to three individuals who knew Corey Johnson well. Finally, I have reviewed
materials related to the criminal charges that led to Corey Johnson’s 1993 death
sentences. I have attached as Appendix B a list of the materials that I have reviewed as
part of my evaluation.
a. Intellectual Disability Definition and Diagnosis
The most widely accepted definitions of intellectual disability are those of the
American Association on Intellectual and Developmental Disabilities (“AAIDD”) and the
American Psychiatric Association (“APA”). The framework for defining intellectual
disabilities by the AAIDD and the APA has been in substantial agreement for many years
and consists of significant impairment in general intelligence (which has been recognized
to mean approximately two standard deviations below the mean using properly
administered and scored standardized IQ tests) concurrent with significant impairment in
adaptive behavior, both of which must have originated in childhood before the age of 18,
which is also referred to as the developmental period.
Specifically, the AAIDD, in its Intellectual Disability: Definition, Classification,
and Systems of Supports (11th ed., 2010) (hereafter “AAIDD Manual”) states:
2
A University Center for Excellence in Developmental Disabilities Education, Research, and Service
APP.451

“Intellectual disability is characterized by significant limitations both in intellectual
functioning and in adaptive behavior as expressed in conceptual, social, and practical
adaptive skills. This disability originates before age 18.” The AAIDD stresses the
importance of clinical judgment in the accurate diagnosis of intellectual disability. The
AAIDD defines clinical judgment as “a special type of judgment rooted in a high level of
clinical expertise and experiences that emerge directly from extensive data.”
The APA, in its Diagnostic and Statistical Manual of Mental Disorders (5th ed.,
2013) (also known as the “DSM-5”), states: “Intellectual disability (intellectual
developmental disorder) is a disorder with onset during the developmental period that
includes both intellectual and adaptive functioning deficits in conceptual, social, and
practical domains.” The APA states that adaptive behavior deficits must be related to
deficits in intellectual functioning in order to clarify that the three parts of the diagnostic
criteria are not separate characteristics but interrelated parts of one disability.
b. Factors that influence IQ test scores and adaptive behavior
assessment
Clinicians and research scientists recognize the research-supported factors that
influence intelligence test scores and adaptive behavior assessment. Several of the
factors summarized below, but not all of them, were not widely known or were not
customarily applied by practitioners at the time Corey Johnson was sentenced to death:
i.

While the essential diagnostic framework for intellectual disability diagnoses has
remained constant, there has been significant shift over time in the emphasis and
weight accorded to the general intelligence and adaptive behavior prongs of the
diagnosis and stress on the importance of clinical judgment in making an accurate
diagnosis. The most recent example of this shift, as far as APA is concerned, is
its DSM-5, which was released in 2013, and states that:
IQ scores are approximations of conceptual functioning but
may be insufficient to assess reasoning in real-life
situations and mastery of practical tasks. For example, a
person with an IQ score above 70 may have such severe
adaptive behavior problems in social judgment, social
understanding, and other areas of adaptive functioning that
the person’s actual functioning is comparable to that of
individuals with a lower IQ score. Thus, clinical judgment
is needed in interpreting the results of IQ tests.
This is a significant change from the diagnostic criteria existing in 1993
when Corey Johnson was sentenced to death.

ii.

Extensive research has indicated that average IQ scores have been rising and
continue to rise at a rate of approximately three points per decade (the actual
calculation is .33 points per year), although the reasons for this phenomenon are
3

A University Center for Excellence in Developmental Disabilities Education, Research, and Service
APP.452

not well understood. The phenomenon, known as norm obsolescence, aging
norms, or the Flynn effect, should be taken into account by correcting IQ scores
obtained from older tests. As an example, an individual given an IQ test in 1980
that was normed in 1980 and who received an IQ score of 70 (two standard
deviations below the mean) would meet the intellectual functioning prong for an
intellectual disability diagnosis. An individual given that same test (normed in
1980) 10 years later, in 1990, and who obtained an IQ score of 73 would also
meet the intellectual functioning prong for an intellectual disability diagnosis,
because .33 point per year rise in average IQ scores, identified as the Flynn effect,
demonstrates that two standard deviations below the mean would then be a score
of 73.3, rather than a score of 70. The validity of the Flynn effect is noted in the
DSM-5.1 Flynn first published his research related to norm obsolescence in the
mid-1980s, but his research did not become widely known and generally accepted
until well after Corey Johnson was sentenced to death.
iii.

Experience with repeat administration of IQ tests commonly results in higher
scores, particularly when repeat administration of the same IQ tests occurs close
in time. This “practice effect” should be taken into consideration when a
defendant has taken multiple IQ tests or multiple administrations of the same test
or when the same test is given to an individual close in time to a previous
administration of the same test, and when there is a demonstrated and unexplained
rise in test scores.

iv.

Whether considering assessment of intelligence or adaptive behavior, the
examiner must acknowledge that people of low intelligence frequently have
relative strengths that accompany their deficits. Because intellectual disability is
defined by deficits, its diagnosis is a matter of documenting deficits (in both
intelligence and adaptive behavior). Further, because relative strengths often
accompany deficits, documenting strengths is not a valid method for ruling out
intellectual disability.

v.

The retrospective use of standardized adaptive behavior instruments is currently
recognized as one method for gathering information on adaptive functioning.
However, before the time that Corey Johnson was sentenced to death, there were
few instances in which retrospective analyses were needed.

1

See, Trahan, L., Stuebing, K. K., Hiscock, M. K., & Fletcher, J. M. (2014). The Flynn effect: A metaanalysis, Psychological Bulletin. 140, 1332–1360.

4
A University Center for Excellence in Developmental Disabilities Education, Research, and Service
APP.453

In order to diagnose a person with intellectual disability, it is not necessary to
identify the causes of his or her impairment; in fact in about half of the cases of
individuals with a mild intellectual disability, no specific cause can be determined.
However, there are risk factors that can increase the probability that someone might
develop intellectual disability. I have found several of these risk factors in Corey
Johnson’s social history.
In the AAIDD Manual, risk factors for intellectual disability are organized by
type of risk. During Corey Johnson’s prenatal development and his childhood, he was
exposed to most of these risk factors.
a. Risk factors for intellectual disability
Biomedical factors: genetic disorders; prenatal nutrition and disease; young
parental age.
Emma Johnson was Corey Johnson’s mother, and James Sykes was his
father. Both his parents were 17 years old when Corey was born.
Environmental factors: poverty, domestic violence; lack of access to
prenatal care; impaired child-caregiver interaction; lack of adequate
stimulation; family poverty; parental drug use; parental alcohol use; parental
smoking; parental immaturity; parental rejection of caretaking; parental
abandonment of child; child abuse and neglect; domestic violence; inadequate
safety measures; social deprivation; parental lack of preparation for
parenthood; impaired parenting; inadequate early intervention services; and
inadequate family support.
James Sykes was in prison when Corey was born, and Corey did not meet
his father (other than a brief encounter when Corey was an infant) until
Corey was approximately 9 or 10 years old.
Corey lived in poverty through his childhood. His mother, Emma, rarely
worked and was often on public assistance.
Corey and his mother and brother lived in at least 11 different apartments
between his birth and age 13 in Brooklyn, Manhattan, Queens, Long
Island, and New Jersey.
Corey’s mother was emotionally and physically abusive toward Corey.
She was also involved in several relationships with men who were not
Corey’s father; one of them was emotionally abusive toward Corey, his
brother, and his mother, and another was physically abusive toward all
three.
5
A University Center for Excellence in Developmental Disabilities Education, Research, and Service
APP.454

APP.455

with Corey at age 17, and her family members believe she likely continued her drug use
while pregnant with Corey. According to family members, Emma’s drug abuse became
progressively worse after she had Corey and his younger half-brother Robert Johnson.
Emma lost multiple jobs due to her drug use, was on and off welfare, and spent much of
her money on drugs when she was using heavily. Emma left drug paraphernalia around
their apartment and spent time with drug users. In 1995, after many years of chronic drug
use, Emma died of a cocaine overdose at the age of 45.
Corey’s father, James became a heroin user at age 18 when he was released from
incarceration sometime after Corey was born. James Sykes has battled a heroin addiction
for most of his adult life.
iii.

Family academic/educational history

Both Emma and James experienced significant academic challenges during their
school-aged years. Emma was a poor student and usually received grades in the 60s on
her school work. In high school, Emma still could not read well and dropped out.
Emma’s younger son, Robert Johnson, also faced significant learning challenges. Robert
took intelligence tests in 1979 and 1983 at the ages of 8 and 12 and obtained IQ scores of
76 and 75, respectively. Robert was placed in Special Education in the first grade but
failed to make any progress in the special classes. At the age of 11, he was still reading
at a second grade level and could not relate to his peers and adult caretakers in an ageappropriate manner.
Corey’s father, James Sykes, dropped out of high school in the ninth grade. At
the time, he was reading at a fifth grade level. As he got older, James discovered that he
had a learning disability and spatial deficits. He was diagnosed as learning disabled and
dyslexic. As an adult, James Sykes was evaluated by the Office of Vocational and
Educational Services for Individuals with Disabilities (VESID) and was found to qualify
for services. Years after Corey’s birth, James had a son, James, Jr. (Corey’s other halfbrother), with another woman. James, Jr. was in Special Education classes growing up
and never attended high school.
iv.

Transient home life

Corey spent his first years in Brooklyn with Emma and his maternal grandmother,
Esther Johnson. When Corey was a toddler, Emma began to date Robert Butler, and they
had Corey's half-brother, Robert Johnson, when Corey was 2-years-old. Corey, Robert,
Emma, and Robert Butler lived with Emma's mother before moving into an apartment in
Manhattan together.
When Corey was about 6 years old, Robert Butler left Emma due to her drug use
and associated lifestyle. After the breakup, Emma moved frequently because of her drug
use, volatile relationships with men, and inability to hold a job. Between boyfriends and
apartments, Emma, Corey, and Robert Johnson stayed with Esther or with Emma’s
father, Love Johnson, in Brooklyn. At times, Corey and Robert also stayed with other
relatives and friends for prolonged periods.
7
A University Center for Excellence in Developmental Disabilities Education, Research, and Service
APP.456

When Corey was 7, Emma moved with her sons to Jersey City, New Jersey to live
with her then boyfriend, Robert “Mitch” Mitchell. Mitch lived in public housing and was
unemployed. After about 18 months, Emma and Mitch split up. Emma and her sons
moved in with Emma’s brother Amos, and his family in Hollis, Queens. After a few
months, Emma again moved with her sons, this time to an apartment in Harlem.
In Harlem, Emma met a new boyfriend named Bobby Koger, who was a violent
heroin addict. When Corey was about 9 years old, Emma and her children moved in with
Bobby Koger in an apartment in Harlem. When Corey was about 10 years old, after his
mother lost her temper and was physically abusive toward him, Corey lived with his
mother’s close friend, Antoinette Joseph, for approximately six months.
When Corey was about 11 years old, his mother sent him to live with her father,
Love Johnson, in Brooklyn, because she claimed that Corey exhibited behavior problems
that she could not handle. Love Johnson was an active alcoholic. After living with his
grandfather for several months, Corey returned to live with his mother and brother in
Manhattan. When Corey was 13 years old, his mother surrendered custody of him to the
foster care system, and Corey was placed in the Pleasantville Cottage School. Corey
remained at the Cottage school for three years and then was transitioned to a group home
in an attempt to prepare him for independent living. For about two years, he lived in the
group home called Elmhurst Boys Home and attended Newtown High School.
Shortly before graduation, Corey was suspended from school and left Elmhurst to
return to live with his mother. He then lived for several months with his mother’s former
boyfriend, Robert Butler and his wife, Ann, in Goldsboro, North Carolina before
returning to Brooklyn. Not long after his return, Corey moved to Trenton, New Jersey
with a group of people selling drugs there, and he lived in Trenton for several years,
sometimes with his drug associates and other times with girlfriends. Finally, after the
leaders and others in that drug gang were arrested, Corey and two of his later codefendants in his capital case moved to Richmond, Virginia and continued selling drugs
there.
v.

Domestic abuse and neglect

Emma was volatile and angry toward her children. She screamed at her sons, hit
them, and threw things when she got mad. Corey wet the bed fairly often as a child, and
he sometimes had bowel-movement accidents while sleeping as well (encopresis). When
Emma found wet or soiled sheets that Corey hid after having an accident, she screamed at
Corey, sometimes beat him, and sometimes refused to wash Corey’s sheets, making him
sleep in the soiled sheets. Although she got angry frequently at both her sons, Emma was
particularly physically abusive to Corey, and she would smack and hit him, sometimes on
the head. Emma’s best friend, Antoinette Joseph, reported that Emma said she was tired
of her sons, described them as getting on her nerves, and even threatened to kill them.
During this period Emma continued to be physically and emotionally abusive toward her
children. She repeatedly punished Corey for bedwetting, which he continued to do until
he was 11 years old.

8
A University Center for Excellence in Developmental Disabilities Education, Research, and Service
APP.457

Even when Corey and Robert were young, Emma would leave them home alone
while she was out on the streets or with friends and abusing drugs. Sometimes she would
leave them with family, friends, and acquaintances for days upon end. In general, family
members and friends stated that Emma shirked her responsibilities of motherhood and did
not show much affection or concern for her sons.
Emma was also the victim of abuse. Robert Butler was emotionally abusive to
Emma, and the children regularly witnessed their arguments. Emma’s next boyfriend,
Mitch Mitchell, was militant and inflexible. He and Emma constantly fought and created
a turbulent environment for Corey and Robert.
After breaking up with Mitch Mitchell, Emma dated Bobby Koger, and she and
the children lived with him. Koger was violent and abusive man. Corey, Emma, and
Robert were all the targets of Koger’s emotional and physical abuse. Other family
members, including Emma’s sister, Minnie, Corey’s grandmother, Esther, Corey’s
biological father, James Sykes, Corey’s godmother, Antoinette, and Bobby Koger’s older
son, Kevin Koger, have reported seeing bruises on Corey, Robert, and Emma on several
occasions during Emma’s relationship with Bobby Koger. Koger inflicted injuries on
Emma that required hospital visits and once set fire to her apartment. Emma later
acknowledged to social workers that Koger was a violent heroin addict who was “abusive
to the kids” and that she and Bobby were prone to violent conflict. One social worker
noted:
Mrs. Johnson stated that her home environment has been unstable and
chaotic since she started living with Mr. Krager [Koger]. He required
numerous emergency hospitalizations and Corey and his brother witnessed
many fights and arguments between Mrs. Johnson and Mr. Krager . . . .
This has been a destructive and chaotic relationship and Mrs. Johnson who
has been quite depressed over this relationship has not been able to
extricate herself. Mr. Krager has been drug addicted and has been
involved with another woman over the past two years and this has been a
very painful situation for Mrs. Johnson who feels trapped and, wants help
to reorganize her life.
vi.
Corey attended at least six different elementary schools before he finished the
second grade, and he attended at least ten schools by the time he was 13 years old, all
because his family repeatedly moved as his mother began and later ended relationships
with a series of boyfriends. Corey struggled in school from an early age and exhibited
profound difficulties in all academic subjects. Although detailed school records from all
of his elementary school years and some of his middle school years could not be located,
the records that have been obtained paint a uniform picture of complete academic failure.
When Corey was 8, he was referred for an academic evaluation, and records note
that he was kept in second grade and required evaluation, because he “[c]ouldn’t perform
third grade work,” or follow directions. Corey’s results on an achievement tests
demonstrated that he was performing at the first grade level, though he was repeating
9
A University Center for Excellence in Developmental Disabilities Education, Research, and Service
APP.458

second grade for the second time. Despite being 8 years old, Corey’s developmental age
was 4 years and 9 months on one test and 5 years and 5 months on another. Corey
ultimately was retained in second grade for three years as he continued to struggle both at
school and at home.
Corey was referred to the Committee on the Handicapped for counseling and
services in 1978 and again in 1979 due to “ongoing school failure . . . .” Based on the
results of those evaluations, the Committee on the Handicapped determined that Corey
had special education needs and placed him in Special Education classes in August 1979.
Corey was only in Special Education for that one school year, as his mother then sent him
to live with his grandfather in Brooklyn, where he apparently briefly attended a private
parochial school.
In October 1981, when Corey was almost 13 years old, Emma brought Corey to a
mental health center, the Council’s Center for Problems of Living in West Harlem. The
Council’s Center was an outpatient treatment facility for adolescents and children. After
an evaluation by the Center in January 1982, Emma signed papers to voluntarily place
both Corey and his brother Robert in foster care; at the time, Corey was 13 and Robert
was 11 years old. Corey was placed by a court in the care and custody of the Department
of Social Services, which then placed Corey in a foster care placement under the
supervision of the Jewish Child Care Association (“JCCA”). The JCCA placed Corey in
the Pleasantville Cottage School in Pleasantville, NY. The Pleasantville Cottage School
was a residential program for youths with troubled backgrounds. Corey lived in a
residential cottage and spent several months in the Pleasantville Diagnostic Center. He
then he was placed in the Mount Pleasant School, which is also part of the larger
Pleasantville facility.
One of Corey’s Pleasantville evaluators, Leona Klerer, who worked with children
with significant learning disabilities, said that the other children with whom she worked,
unlike Corey, all learned to read at a reading level higher than a second grade level.
Based on her assessment of Corey and the “unusual and significant” facts that he was in
Special Education classes, was over 13 years old, and still was reading at a second grade
level, Ms. Klerer concluded that Corey could be mentally retarded.
Throughout the approximately three years Corey spent at Pleasantville, he stood
out as being particularly slow intellectually compared to the other residents. Corey’s
initial adjustment to school at Pleasantville was problematic, and he often wandered from
class like “a frightened animal,” unable to sit or pay attention. June 9, 1982, Report of
Gloria Caro. By the beginning of 1983, Corey’s teacher reported that his “progress in
class ha[d] been very, very, very slow almost to the point where one might feel that he is
not learning.” Even with Special Education and tutoring in reading and Pleasantville’s
efforts to use a variety of teaching strategies with Corey, his academic skills did not
progress, and Corey kept falling further behind his peers as he failed to respond to any of
Pleasantville’s teaching methods. Despite being placed in a small class setting, his
academic performance did not improve, and his reading and math performances were
consistently below his grade level. Corey's reading ability plateaued at the second grade
level.
10
A University Center for Excellence in Developmental Disabilities Education, Research, and Service
APP.459

During another assessment in March 1983, when Corey was almost 14 and a half
years old, Dr. Kenneth Barish, psychologist, “confirm[ed] the presence of severe learning
disabilities in reading, spelling and arithmetic . . . .” Corey obtained a reading score and
spelling score at the first percentile, or lowest one percent of the population, and an
arithmetic score at the second percentile, or lowest two percent of the population.
In 1985, after three years at Pleasantville, the JCCA transitioned Corey to an offcampus school program, because Corey was 16 years old, his mother, Emma, was not
willing to have him return to her care, and he needed to learn independent living skills to
prepare him to live on his own. JCCA, therefore, moved Corey to a residential program
in New York City called the Elmhurst Boy’s Residence.
Corey arrived at Elmhurst Boys’ Residence in June 1985. Elmhurst consisted of
two apartments and housed up to eight boys at a time, with staff living in a separate
apartment on site. To staff members and the social worker at Elmhurst, Corey stood out
as having significant intellectual limitations and being cognitively slower than the other
residents at the group home.
While living at Elmhurst, Corey attended Newtown High School where, unlike
most of the other boys in the residence who attended mainstream classes and were
expected to move on to college, he was placed in Special Education classes. Despite
receiving three years of special education and remediation at Pleasantville, Corey, at age
16, was still functioning at second and third grade levels for reading and math. After
arriving in Elmhurst, Corey was enrolled in Special Education and Vocational Education
classes at Newtown High School. He attended remedial math and reading classes in
summer school but failed those and many of his other classes as well. He also exhibited
significant attendance problems. Corey’s teachers noted that he would not be able to pass
any of the school competency tests and, therefore, would not be able to graduate but
would receive a certificate of completion if he completed his senior year. However, just
a short time before the end of his senior year, Corey was suspended for misbehavior and
ended his attendance at Newtown.
Intellectual Disability Evaluation
I have concluded, based on my thorough examination of a wide and
comprehensive array of materials and more than two dozen interviews, that Corey
Johnson is intellectually disabled, and his intellectual disability began before age 18 and
persisted into his adulthood, including at the time he committed the capital crimes for
which he is currently sentenced to death, which is the relevant time period. In my
opinion, the evidence for Corey Johnson’s intellectual disability diagnosis is strong and
deep, and it is corroborated by contemporaneous records created by professionals during
his childhood and adolescence, by my interviews of a diverse group of people who knew
him best from an array of perspectives, by statements given by many of those individuals
and by others, and by standardized testing.
My evaluation has also led me to conclude that no similar comprehensive,
exhaustive evaluation of Corey Johnson by experts in intellectual disability has been
11
A University Center for Excellence in Developmental Disabilities Education, Research, and Service
APP.460

previously conducted before two other experts, Drs. Daniel Reschly and Gary Siperstein,
and I were retained by Corey Johnson’s attorneys. Instead, my review of the available
materials related to Corey Johnson makes clear that despite many referrals and
evaluations during his childhood, beginning at age 8 through at least age 16, including at
least five known administrations to him of IQ tests, there was never a sophisticated
analysis of Corey Johnson’s IQ test results, and there does not appear to have been
consideration in later years (after he had taken several IQ tests) of the factors that may
have affected those IQ results. Nor was there a comprehensive evaluation that included a
thorough review of his adaptive functioning to determine if Corey Johnson was mentally
retarded (the term at the time, but what is now referred to as intellectually disabled).
Instead, the records contain, at times, the conclusion that Corey had a severe learning
disability, seemingly based almost exclusively on IQ test results, but lack any discussion
or analysis of whether he had limitations in adaptive functioning that would support a
diagnosis of mental retardation (intellectual disability).
The psychologist who conducted a mitigation evaluation of Corey in preparation
for the sentencing phase of his capital trial, Dr. Dewey Cornell, collected some of the
educational, social services, evaluation and treatment records related to Corey Johnson.
The records Dr. Cornell obtained labeled Corey as a severely learning disabled child, and
Dr. Cornell also spoke to a handful of staff members from his residential placements.
But Dr. Cornell did not obtain many critical records that would have revealed flaws in the
administration of some of the IQ tests nor did he interview some of the staff professionals
who knew Corey Johnson best. In addition, Dr. Cornell did not correct the results of the
IQ test he administered for the Flynn effect (likely because the Flynn effect was not a
widely known or discussed phenomenon in 1993 nor had it been at that point validated by
the enormous body of research that exists today). Finally, apparently because Dr. Cornell
concluded that Corey Johnson just missed the IQ score threshold for a mental retardation
(intellectual disability) diagnosis by a few points, he did not conduct a comprehensive
assessment of Corey’s adaptive functioning.
I have divided my discussion and analysis of Corey Johnson’s appropriate
diagnosis into two parts. First, I analyze the intellectual functioning prong, including the
six IQ tests administered to Corey and the factors that affected the results of those tests.
Next, I thoroughly review all of the relevant material to analyze Corey Johnson’s
adaptive functioning as a child, adolescent, and young adult.
a. Prong 1: Deficits in Intellectual Functioning
Psychologists, psychiatrists, and social workers conducted many evaluations of
Corey Johnson during his childhood and adolescence. This summary will refer only to
those tests that are relevant to a diagnosis of intellectual disability. For example,
personality tests and tests of motor skills are not discussed, nor are some
neuropsychological tests that are not directly related to the determination of whether Mr.
Johnson has intellectual disability.

12
A University Center for Excellence in Developmental Disabilities Education, Research, and Service
APP.461

IQ tests are approximations of intellectual functioning. The customary cutoff for
the intellectual functioning prong of a diagnosis of intellectual disability is two standard
deviations below the population mean. However, as noted in section II.b.i. above, the
APA’s most current expression of the diagnostic criteria for intellectual disability in the
DSM-5 notes that attained scores above two standard deviations, if accompanied by such
severe adaptive behavior problems, can support the conclusion by a practitioner applying
clinical judgment that the person’s actual functioning is comparable to that of individuals
with lower IQ scores.
Proper interpretation of obtained IQ scores takes into account the error inherent in
all tests. This error is expressed in the statistic called the standard error of measurement
(SEM). By applying the SEM of the test, one can compute a confidence interval around
the obtained score and note the probability that the “true” score lies within this range.
Applying the customary 95 percent confidence interval to this cutoff results in a range of
65-75 as the upper end of the range for intellectual disability for a typical IQ test. Thus,
obtained scores of 75 or lower have for many years been considered sufficient to support
a diagnosis of intellectual disability, assuming they are accompanied by significant
limitations in adaptive functioning.
Psychologists apply other psychometric principles to the interpretation of
obtained scores. These include the practice effect and the effect of aging or obsolete
norms, known as the Flynn effect. These factors are discussed below as they apply.
It is important to understand the context for Corey Johnson’s history of IQ testing.
During Corey’s childhood, he and his mother moved repeatedly from New York City
borough to borough, as well as from New York City to New Jersey and back to New
York City. He attended many different schools and was referred for educational and
psychological evaluations in New Jersey, Manhattan, and Westchester. It is clear from
the records from these agencies that they were not always aware of the results of previous
evaluations or of the specific test instruments that were used during those evaluations.
i.

Corey Johnson IQ Testing

With regard to intelligence testing, Mr. Johnson’s first test for which records are
available was on March 25, 1977, when he was 8 years, 4 months old. Jennifer Figurelli,
Ph.D. of the Jersey City Schools administered the Wechsler Intelligence Scale for
Children-Revised (WISC-R) and obtained a Full Scale IQ of 73. Corrected for aging
norms, this IQ score would be corrected to 71.8.
Two years later on May 3, 1979, Nathalie Smith, of the Evaluation Unit of the
West Manhattan Center administered the original Wechsler Intelligence Scale for
Children, which yielded a much higher IQ of 91. It must be noted that there are serious
problems with the choice of this test. First, the updated version of the Wechsler IQ test
for children, the WISC-R, had been available for 5 years, so administration of the WISC,
which had been published in 1949 and was 30 years old and well out of date when Smith
selected it, was a violation of the American Psychological Association’s Standards for
Educational and Psychological Testing at that time and now. Significantly, the norming
of the WISC, as noted, was more than 30 years old when Smith administered it to Corey
13
A University Center for Excellence in Developmental Disabilities Education, Research, and Service
APP.462

Johnson. By current psychometric standards, the norms were so old and so culturally
out-of-date that their use was inexcusable and their results invalid. Finally, not all of the
subtests of the WISC were administered, and the score was obtained by prorating. In my
opinion, these cumulative problems make this score uninterpretable, invalid, and
unreliable.
In October 1981, Ernest Adams, M.S., from the Council Center for Problems of
Living in Manhattan, administered the WISC-R to Corey Johnson again, and Corey
obtained an IQ of 78. Corey was 12 years, 1 month old, and this was his third
administration of a Weschler IQ test in 4 and a half years. Further, the WISC-R had been
normed almost nine years earlier. Taking into consideration norm obsolescence, the
obtained score should be corrected by nearly three points, to a fraction above 75
(specifically 75.36).
Only three or four months later, on February 8, 1982, Cary Gallaudet, Psy.D.,
administered another WISC-R to Corey at the Pleasantville Diagnostic Center in
Westchester, New York; this was the fourth administration of a Weschler IQ test to
Corey in 5 years. Dr. Gallaudet obtained an IQ of 88 on the WISC-R, which correcting
by three points for the Flynn effect, would become a score of 85. In addition, Dr.
Gallaudet has indicated that she was not aware that Mr. Adams had administered the
identical WISC-R test just a few months earlier at a different agency in Manhattan. Dr.
Gallaudet has also said that she would not have given Corey the WISC-R test if she had
known that Corey had taken it so recently. The practice effect surely inflated this score
to some unknown but likely significant extent.
Moreover, Dr. Gallaudet acknowledged in her test report that she provided
assistance to Corey during the testing process by refocusing him to keep him on task
when his attention strayed. Dr. Gallaudet has also acknowledged that she was an
inexperienced psychologist in 1982, and this has been substantiated by her supervisor at
the time. It is likely that Dr. Gallaudet’s assistance to Corey during testing also
artificially inflated his score. Her supervisor at the time, George Sakheim, Ph.D, has
indicated that providing this type of assistance compromises the results of the testing.
For all of these reasons, the February 8, 1982, WISC-R results have compromised
validity and cannot be properly interpreted.
On March 15, 1985, when Corey was 16 years, 4 months old, Kenneth Barrish,
Ph.D. again administered the WISC-R to Corey Johnson and obtained an IQ of 69.
Corrected for aging norms, the IQ test given to Corey Johnson by Dr. Barish is 65.04. I
interviewed Dr. Barrish who remembered Corey Johnson well. Dr. Barish described
Corey Johnson as the child with “the most profound impairment in learning” of any child
he evaluated in his more than 3 decades of clinical practice. Dr. Barish was an
experienced psychologist when he evaluated Corey Johnson. He also has stated that he
was not aware of the October 1981 administration of the WISC-R to Corey Johnson by
Adams and of the likely practice effect due to Dr. Gallaudet’s administration of the
identical IQ test just a few months later. This is corroborated by Dr. Barish’s report at
the time, because he noted that the significant drop in Corey’s IQ results from the results
obtained by Gallaudet “was difficult to account for.” In any event, Dr. Barish’s results
14
A University Center for Excellence in Developmental Disabilities Education, Research, and Service
APP.463

placed Corey Johnson solidly in the intellectual disability range on the intellectual
functioning prong of the diagnostic framework.
Finally, on October 9, 1992, when Corey Johnson was 23 years, 11 months old,
Dewey Cornell, Ph.D. of the University of Virginia, administered the Wechsler Adult
Intelligence Scale-Revised (WAIS-R) and obtained a score of 77. This was Corey’s sixth
administration of a Wechsler test, and the norms of the test were over 14 years old. If
corrected for aging norms, the score would be 72.8.
In summary, correcting scores for aging norms (without any consideration of
practice effects) would yield four scores compatible with the diagnosis of intellectual
disability (Figurelli 71.8; Adams 75.6; Barish 65.4; and Cornell 72.8). The 1979
administration of the extremely outdated WISC test, both temporally and culturally,
renders the results of that test invalid. Thus, only the February 1982 WISC-R was an
outlier, but that test was surely significantly artificially inflated by the practice effect, as
it was given on the heels of the same test in October 1981 and by the admitted assistance
given to Corey by an inexperienced examiner; its results lack validity. Based on my
clinical judgment and experience, I find the four IQ test administered by Figurelli,
Adams, Barish, and Cornell to be the only IQ tests valid for diagnosis. In my opinion,
based on my analysis of the valid IQ tests in this case and on the comprehensive analysis
conducted by Dr. Daniel Reschly, an expert in both intellectual disability and learning
disorders, Corey Johnson meets the intellectual functioning prong of the intellectual
disability framework, because his IQ test results show significant limitations in his
intellectual functioning before the age of 18.
b. Prong 2: Deficits in Adaptive Behavior
i.

Adaptive Behavior Standards

As noted earlier, significant deficits in adaptive behavior is the second prong of a
diagnosis of intellectual disability. The current definition used by the AAIDD refers to
three areas of adaptive behavior and requires a significant impairment in at least one of
the three areas—Conceptual skills; Social skills; and Practical skills—or significant
impairment in a measure of overall adaptive functioning.
The American Psychiatric Association in its DSM-5 uses a very similar construct
for an adaptive behavior assessment. Like the AAIDD structure, the DSM-5 identifies
three domains of adaptive behavior—Conceptual; Social; and Practical. Like the
AAIDD, the DSM-5 provides that in order to establish significant impairments in
adaptive functioning sufficient to support a diagnosis of intellectual disability, a person
must have significant limitations in at least one of the three areas or domains of adaptive
functioning. Moreover, as mentioned above, compelling evidence of adaptive behavior
impairments can be considered in the interpretation of intellectual functioning under
prong one of an intellectual disability diagnosis, according to the DSM-5.

15
A University Center for Excellence in Developmental Disabilities Education, Research, and Service
APP.464

ii.

Adaptive Behavior Assessment Methodology

A comprehensive collection of information concerning adaptive functioning
requires gathering information from a wide array of people who knew the individual at
different times in the person’s life, in a variety of settings, and from different
perspectives. The purpose of obtaining a broad spectrum of information is to try to
identify consistencies in functioning across times and settings. It is important to note that
some inconsistency is to be expected, and clinical judgment is, therefore, required to
synthesize all of the available information to reach a diagnostic conclusion.
In order to assess Corey Johnson’s adaptive functioning, I reviewed a wide array
of contemporaneous school, social services, treatment, and institutional records created
during his childhood, adolescence, and young adulthood before his current incarceration.
I also interviewed over 25 family members, friends, members of the drug dealing groups
with whom Mr. Johnson associated; and teachers, staff members, and other professionals
who knew him when he was placed in schools and institutional environments. I reviewed
statements prepared by many of these individuals and by others whom I did not
interview.
To complement the information obtained from documents and interviews and to
obtain a retrospective standardized assessment of Mr. Johnson’s adaptive functioning, I
administered a standardized adaptive behavior rating instrument to three people who
knew Corey Johnson well, although each had a different relationship with him. The
Adaptive Behavior Assessment System (2nd ed.) (“ABAS-II”) is a rating scale of adaptive
behavior administered to people who knew the individual well enough to provide ratings
in each of the areas used to assess adaptive functioning. In Mr. Johnson’s case, I was not
able to obtain a standardized assessment of his work history, because he did not have
enough of a work history to allow for valid ratings.
The three raters were (1) Antoinette Daniels Joseph, best friend of Corey
Johnson’s mother, (2) Minnie Hodges, maternal aunt of Corey Johnson, and (3) Richard
Benedict, former teacher and administrator at Pleasantville Cottage School. Ms. Joseph
and Ms. Hodges completed ratings using the Parent Form of the ABAS-II, and Mr.
Benedict completed the Teacher Form. The items on the Teacher Form are limited to
adaptive behavior shown in school.
It is important to note that Mr. Benedict knew Corey Johnson only in an
institutional setting, the Pleasantville Cottage School, where staff and other professionals
provided many supports to residents. As I noted above, while administering standardized
instruments to raters who knew or observed an individual only in an institutional setting
is permissible, caution should be used when interpreting the results, because adaptive
functioning for purposes of an intellectual disability diagnosis is focused on adaptive
behavior in the community setting, which is significantly different from an institutional
setting. Mr. Benedict’s ratings must be considered in this context; institutional settings
can artificially inflate assessments of adaptive functioning, because they do not take into
account the significant institutional supports provided to residents.

16
A University Center for Excellence in Developmental Disabilities Education, Research, and Service
APP.465

On the ABAS-II, scores for the three areas of adaptive behavior are derived from
scores in nine areas. A mean score on the nine areas rated is 10 with a standard deviation
of three. Thus, a score indicating significant impairment (two standard deviations below
the mean) is a score of 4 or lower. Attached as Appendix C are charts depicting the full
ABAS-II results.
As I explain below, I have concluded that Corey Johnson demonstrates significant
limitations in all three adaptive behavior domains. Corey Johnson’s adaptive behavior
limitations are well documented in contemporaneous school and treatment records. They
are also reflected in numerous statements from the people who knew him best during his
childhood, adolescence, and adulthood. And they are corroborated, particularly in the
Conceptual and Practical domains, by the results of the retrospective administration of
standardized adaptive behavior instruments.
As noted above, significant limitations in only one domain is all that is required to
support a diagnosis of intellectual disability, as long as there are accompanying
significant limitations in intellectual functioning as measured by standardized IQ tests
and as long as the significant limitations in intellectual functioning and adaptive
functioning were manifested in the developmental period.
I have structured my evaluation and analysis below for each of the three domains
in the same manner, starting with an explanation of the skills encompassed by the three
separate domains. I then include a summary of my significant findings and conclusions
for each domain, followed by selected examples of support found in the
contemporaneous institutional records created during Corey Johnson’s childhood and
adolescence and from the recollections of professionals who worked with, evaluated, or
treated Corey. I then highlight relevant observations from Corey’s family, friends, and
others who have known him over the years. Finally, I summarize the results from my
administration of the ABAS-II standardized adaptive behavior instrument for each
domain and the relevant categories.
iii.

Conceptual Adaptive Behavior Domain

The AAIDD definition of the Conceptual domain encompasses the following
areas: language; reading and writing; and money, time, and number concepts. The
DSM-5 definition is very similar, as it includes: competence in memory;
language/reading/writing; math reasoning; acquisition of practical knowledge; problem
solving and judgment in novel situations; among others. For ease of analysis, I have
grouped these areas into the following four areas for the Conceptual domain: (a)
Academic performance; language and communication; (b) Number comprehension,
money, and time; and (c) Judgment, planning and problem solving.
As the discussion below vividly demonstrates, Corey Johnson had significant
limitations in all of the areas encompassed by the Conceptual functioning domain during
his childhood and adolescence, and into adulthood. Corey failed educationally and
academically. He was never able to learn to read or write adequately, to analyze or
understand rudimentary subjects, or to develop a more than superficial store of
17
A University Center for Excellence in Developmental Disabilities Education, Research, and Service
APP.466

knowledge. For these reasons, Corey repeated grades over and over without success and
never came close to graduating from high school. Various achievement tests
administered to Corey over the years placed him far below his age and grade level, and
even as an adult, his achievement plateaued at a young middle school level for the most
part.
Corey Johnson also demonstrated from an early age significant challenges with
language and communication. As a youngster, he stuttered and had a lisp. But his
limitations went well beyond those obvious speech impediments. In addition to his
rudimentary reading and writing ability, Corey’s oral language abilities and
comprehension have been compromised throughout his life. He has often had to rely
upon simple language or slang to communicate with others, and those who have known
him have limited their conversations with him to basic, concrete language. But even so,
they report that he often did not grasp what was being said to him.
Similarly, Corey Johnson lacked proficiency in math, particularly when tasks
involved more than basic computation. Those challenges expressed themselves in related
life skills, such as telling time or correctly calculating change when making purchases.
Finally, the results of the standardized ABAS-II instrument that I administered
corroborate that Corey Johnson had significant limitations in the Conceptual domain. For
all of these reasons, in my opinion, there is overwhelming evidence that Corey Johnson
has significant limitations in adaptive functioning for skills encompassed within the
Conceptual domain that manifested when he was child, adolescent, and an adult at the
time of the crime in this case.
A. Academic performance
Corey Johnson’s school and academic performance history reflects a persistent
pattern of failure. As I described above, Corey experienced a chaotic childhood
characterized by constant upheaval and repeated moves from place to place—a pattern
that involved living with his mother and close family members, then living with his
mother and one of her boyfriends, and back with family—in various boroughs in New
York City and in New Jersey. That disruptive and transient life led to Corey’s being
enrolled and attending school after school. He attended at least ten different schools in
Manhattan, Brooklyn, New Jersey, and the Bronx before he was placed in the
Pleasantville residential program in Westchester County, New York at age 13 for middle
school and high school. Corey also attended a high school in Queens after his transfer
from the Pleasantville residential facility.
From the very beginning, Corey’s contemporaneous school and treatment records
show that he was failing academically and far behind his peers. At times, Corey repeated
grades because he could not progress. However, despite remaining in the same grade as
his peers advanced, Corey could not improve his performance. At other times, the
records suggest that Corey was advanced to the next grade, despite his continued

18
A University Center for Excellence in Developmental Disabilities Education, Research, and Service
APP.467

academic failure. As he got older, the records show that Corey fell further and further
behind, because, simply put, he could not learn.
Nevertheless, school and treatment records created when Corey was a child reflect
numerous attempts by educators and clinical treatment providers to assist him. They
document a variety of strategies and efforts by those professionals to assist him in his
academic performance and a range of supports to address his significant needs. The
records also regularly reported that Corey tried hard, exhibited good effort, and the
records repeatedly noted that he was motivated to learn. Despite the variety of strategies
and supports he received and his sincere efforts, Corey could not learn and failed
academically at every turn. Corey’s academic deficits in childhood cut across all
academic subjects and generalized to applications in community life, such as shopping
and reading for pleasure or for general information.
Despite significant efforts by Corey Johnson’s current attorneys to gather his
school records, comprehensive educational records could not be located. However,
references in later records help fill in some of the gaps in his school history. Most
importantly, the contemporaneous records summarized below starkly demonstrate Corey
Johnson’s educational and academic failure.
Corey appears to have attended first grade at both PS 103 and PS 63. This is
corroborated by later records from the Bureau of Child Guidance, Upper West Side
Center when Corey was in third grade, which indicate that he was retained in the first
grade and had a history of poor academic performance.
There are also records suggesting that, for a period of time in 1974 (when Corey
was 6 years old), he attended first grade at St. Rita’s, a private Catholic school. Records
show that Corey was in the second grade at PS 309 in Brooklyn when he was 6 years old
in 1975 and that he repeated the second grade at PS 16 in Jersey City, New Jersey when
he was 7 years old. Records also show that Corey was still in the second grade when he
attended PS 134 in Queens in 1978 when he was 9 years old, and they show that he
remained in the second grade at PS 76 in Manhattan in 1979 after he turned 10 years old.
The first documented concern about Corey’s academic performance that has been
located was when he was identified for testing when he was 8 years old and repeating the
second grade in New Jersey. In March 1977, at the age of 8 years, 4 months and in the
second grade, Corey participated in an evaluation by the Learning Consultant to the Child
Study Team of the Jersey City Public Schools. The report of this evaluation by Cheryl
Spillane, Learning Consultant, indicated that Corey was enrolled in PS 16 Elementary
School in Jersey City and that he was referred for evaluation because he:
[c]ouldn't perform third grade work. Being retained in second. Cannot
follow directions. No concept of number facts, low comprehension. No
reading skills. Unable to retain sight vocabulary.
In February 1979, when Corey was 10, he was referred to the Committee on the
Handicapped, by the Bureau of Child Guidance for reason described as “school failure.”
Records from the Evaluation Unit of the West Manhattan Center in May 1979 (age 10
19
A University Center for Excellence in Developmental Disabilities Education, Research, and Service
APP.468

years, 5 months) included an Education Assessment. Corey was administered the
Peabody Individual Achievement Test, Reading Recognition subtest, and scored a grade
equivalent of 1.3, which placed him at the first grade level with visual discrimination and
reversals noted. Arithmetic on the Wide Range Achievement Test was at the 3.9 grade
level. This evaluation determined that Corey had special education needs and placed him
in Special Education classes with a curriculum that included (1) a special reading
program to teach visual discrimination of letters and words; (2) perceptual motor training
to improve writing skills; and (3) maximize auditory processing by giving small chunks
of information which Corey could act upon in meaningful ways.
Records show that Corey was placed in the third grade in the fall of 1979 at PS
200, when he was 10 years old. But the next academic year (in the fall of 1980), records
show that Corey was placed in Special Education classes in the fifth grade at PS 92.
There is no explanation for why Corey skipped from the third grade to the fifth grade,
and it is not clear if he ever was placed in the fourth grade at any school.
A Social History at Pleasantville Cottage School (3-19-85) noted, “Corey was left
back in school in the 3rd and 4th grade[s] and was placed in a special class in 1980.”
Records of St. Rita’s Catholic School indicate that Corey also attended that school in
1980 at age 11, when his mother then sent him to live with his grandfather in Brooklyn.
Corey was only enrolled briefly at St. Rita’s, and then he enrolled at a public school, PS
213, in Brooklyn.
A Child Assessment Evaluation Summary dated December 9, 1981, when Corey
was 13 years old, indicates that Corey’s mother took him to the Washington HeightsWest Harlem Community Mental Health Center for assistance “due to academic failure
and behavior problems.”
When Corey was 13, his mother placed him in foster care through the supervision
of the Department of Social Services (“DSS”), and the DSS put Corey in the care of the
JCCA. The JCCA placed Corey in its facility at the Pleasantville Cottage School in
Pleasantville, NY and conducted a diagnostic screening of Corey upon his admission.
The screening records noted that his Wide Range Achievement Test scores showed
functioning on second and third grade levels in word recognition, spelling, and
arithmetic. He could only recite the months of the year up to August.
Despite the specialized services at Pleasantville, his report cards indicate that
Corey continued to perform far below grade level, even though he demonstrated
“sustained . . . effort” and was seen as “extremely cooperative.” The Pleasantville
records repeatedly describe Corey as having a severe learning disability, a label that does
not have any diagnostic significance for intellectual disability. The records note time and
again that Corey was barely able to read.
Pleasantville prepared an Individualized Education Program (“IEP”) for Corey in
June 1985, when he was 16 years old and when he was at the end of his last academic
year at Pleasantville before transferring to a group home and Newtown High School.
Corey’s IEP notes an assessment of his reading comprehension on the Brigance Inventory
of Essential Skills as 40 percent at the third grade level and his oral comprehension
20
A University Center for Excellence in Developmental Disabilities Education, Research, and Service
APP.469

ability on the Gray Oral Reading Test at 75 percent at the second and third grade level.
Other achievement testing assessed his sight vocabulary level on the Wide Range
Achievement Test as a grade equivalent of 3.7 (third grade) and his arithmetic ability on
the Wide Range Achievement Test as a grade equivalent 3.4 (also third grade). Thus,
after three years in Special Education and remediation classes at Pleasantville, Corey was
still functioning at the second and third grade levels for reading and math at age 16.
It should be noted that every staff member from Pleasantville who provided an
interview or declaration remembered Corey Johnson, and each described Corey as the
slowest student or the most impaired student they had ever known to come through that
institution. For instance, Ann Harding, a residential staff member wrote, “Corey was
very slow intellectually. I knew this by the way he would talk to me. I do not remember
anyone else at Pleasantville who was similarly slow intellectually.”
The JCCA placed Corey at the Elmhurst Boys Residence when he was 16 years
old and aged out of Pleasantville. This placement was supposed to prepare Corey for
independent living, because his teachers and counselors concluded that returning to the
care of his mother was not an option that was in Corey’s best interest. Ms. Odette Noble
conducted individual and group therapy sessions while Corey was at Elmhurst, and Corey
Johnson attended those weekly. Ms. Nobel stated in her affidavit, “Compared to virtually
all of the other boys I encountered at Elmhurst, Corey was much weaker cognitively.”
Corey attended Newtown High School, his last school placement, while he lived
at Elmhurst. At Newtown, Corey was placed in remedial, Special Education, and
Vocational Education classes. Corey failed almost all of his classes, despite regular
support from his friend, Courtney Daniels. Courtney recalled helping Corey several
times a week for a couple of hours in the afternoon, providing particular support to Corey
in math by giving him step-by-step instructions about how to tackle a problem. Yet those
efforts did not help Corey succeed. For example, in his “junior year” of high school,
Corey took fifth and sixth grade English classes and barely passed with a D. He was
placed in fundamentals of math both his junior and senior year and received a D his
junior year and failed his senior year. He also received a D in typing his junior year.
Corey attended remedial math and reading classes in summer school but failed those
classes and failed nearly every class his senior year. During his time at Newtown,
teachers determined that he was unable to pass school competency tests. Corey left
Newtown without graduating or obtaining a certificate of attendance.
After Corey Johnson was charged with the capital offenses that have prompted
this evaluation, his court-appointed defense psychologist, Dr. Dewey Cornell, conducted
the mitigation evaluation noted above. Dr. Cornell testified briefly at the capital
sentencing hearing in Corey’s case about some of Corey’s adaptive functioning. Dr.
Cornell stated: “Certainly, functional academics, the ability to do academic work is one
in which he has impairment.”
Dr. Cornell also administered the Test of Written Language (“TOWL”) and the
Woodcock-Johnson Test of Achievement-Revised in January 1993, when Corey was 24years-old. On both tests, Corey Johnson obtained age equivalents substantially below his
chronological age and obtained grade equivalents between second and sixth grades.
21
A University Center for Excellence in Developmental Disabilities Education, Research, and Service
APP.470

Since that time, Corey Johnson has diligently studied while in prison in pre-GED classes,
because he has stated that one of his most important life goals is to pass the GED.
Despite several decades of study, Corey Johnson’s achievement has remained relatively
constant. In 2014, Dr. Daniel Reschly administered the latest version of the Woodcock
Johnson Test of Achievement-III to Corey Johnson. With the exception of concrete math
calculations, on which his performance has improved after diligent study, the vast
majority of Corey Johnson’s grade equivalent achievement test results remain in the
second to the fourth grade range.
B. Language and communication
Corey Johnson’s school and treatment records show that he had language and
communication deficits that began at an early age and continued throughout his life. He
had marked speech impediments at an early age. Records show that he exhibited
“marked stuttering” when he was young up until age 5, and had “some stuttering
problems” later on as well as a slight lisp.
While those obvious speech difficulties eased as he got older, his school and
mental health evaluations during Corey’s childhood and adolescence documented
communication difficulties, debilitating disabilities in reading, writing, and oral
expression, and limitations in his ability to understand others. Achievement testing
showed that as an adolescent and even as an adult, his reading, comprehension, and oral
communication skills were far below his age. As noted earlier, his oral comprehension
ability on the Gray Oral Reading Test was at 75 percent at the second and third grade
level. In other words, as a mid-teenager, he understood little of what people spoke to
him.
Family members and friends similarly described Corey’s having difficulty
understanding what others say, which required that they communicate with him using
simple words and phrases. Nevertheless, they said he often did not comprehend what
they said to him. In my interview with Corey Johnson’s capital defense attorney, he
similarly stressed that he had more difficulty explaining issues to Corey than he had with
“other low-intelligence” clients he has represented during his career. He had to explain
thing to Mr. Johnson more times than with his typically low-intelligence clients and said
that Mr. Johnson would sit there and nod his head but not understand. All of the
information I reviewed, some of which is summarized below, demonstrates Corey
Johnson’s significant limitations in language and communication.
The earliest set of school records that have been located document his reading and
communication deficits. In March 1977, at the age of 8 years, 4 months and in the
second grade, Corey participated in an evaluation by the Learning Consultant to the Child
Study Team of the Jersey City Public Schools. Cheryl Spillane, Learning Consultant,
described Corey’s speech as “at times quality is unclear . . . [s]ays v for b sometimes.
Needs further investigation.” The evaluations done at this time show that Corey was
functioning below his chronological age on speech and language tests. Among other
deficits, the evaluation shows that he could not perform the most basic function of

22
A University Center for Excellence in Developmental Disabilities Education, Research, and Service
APP.471

writing his own name. The recommendations at the conclusion of the evaluation
included a recommended referral for a speech evaluation.
Dr. F. A. Figurelli, a psychiatrist who evaluated Corey for the Jersey City Board
of Education in October 1977, when Corey was 8 years old, wrote that “[h]e reveals a
speech defect.” Additional records consistently show that serious concerns about Corey’s
speech and language development were repeatedly noted. However, as late as when
Corey was a teenager at Pleasantville, despite several evaluations recommending speech
therapy from the time he was 10 until he was 15, he did not receive those services.
Elizabeth Clemmens, Psychiatric Summary, December 1984.
The Pleasantville records, beginning when Corey was 13, repeatedly describe him
as having speech impediments and disorders, receptive and expressive language
disorders, as well as noting that he is barely able to read and functions at a second grade
level. They note that Corey’s deficits were evident during his initial evaluations. Corey
spoke with “markedly slurred speech,” had very poor reading skills, a poor understanding
of what he was reading and no understanding of how to read. Barely able to write his
own name and unable to recognize the sounds of many letters on the page, Corey was
reading on a second grade level, indicating “a significant deficit in his abilities.” Lynda
Coccaro Speech and Language Evaluation, October 5, 1983.
Janet Valentine (former counselor and clinical social worker at Pleasantville
Cottage School) described Corey to me as follows: “He wasn’t very expressive.” She
reported that he didn’t use many sentences, was basically a listener. “I thought it was a
processing problem.” She said that he had difficulty processing both receptive and
expressive language. She said that she “Didn’t know if he couldn’t express or just didn’t
understand.” “He could follow one or two step directions, but nothing elaborate.” “You
had to show him, I’m talking about basic living things.” “I couldn’t take for granted that
he understood, so I showed him.” “I remember him because he just wasn’t getting it.”
As noted above in Section IV.a.iii.A., Corey’s assessment on the Brigance
Inventory of Essential Skills showed that he understood less than half of what he read at
the third grade level and his oral comprehension was only 75 percent at the second and
third grade level.
In January 1993, at age 24, Dr. Cornell administered the TOWL. The oldest age
group for the results of this test was 17 years old, and on two portions of the test,
contextual vocabulary and syntactic maturity, Corey scored as low as one to two percent
of the 17 year age group population respectively. His score on the latter of those two
tests was comparable to children aged 7 to 8. Based on those TOWL results and the rest
of Dr. Cornell’s evaluation, he testified that, in the context of adaptive functioning,
“communication deficits with his speech impairment and communication problems, he
has some deficits there.”
Corey’s family members and friends described communication difficulties that
mirrored the evaluations of his teachers, case workers, and mental health professionals
and his performance on various evaluations. Corey’s Aunt Minnie Hodges stated that
“Corey had difficulty following certain instructions, and I would have to repeat myself
23
A University Center for Excellence in Developmental Disabilities Education, Research, and Service
APP.472

many times before he could comprehend what I was directing him to do. (Esther Johnson
said the same thing in her affidavit.) Sometimes he appeared to be puzzled or mixed up
when I would tell him certain things.” Corey’s friend from childhood, Holly Scott,
described his communication as all slang and said she had difficulty picking up on it.
She said in her affidavit, “Our conversations were always very simple.” Her comments
were mirrored by Sonya Hilton, who dated Mr. Johnson when he was about 20. She
stated that: “He had a limited vocabulary, and he spoke mostly using street words and
slang.” She further recalled that: “If Corey was in the room with four other people, it was
clear that Corey was not on the same intellectual level as the other people and had
difficulty keeping up with the conversation. For example, if the group was talking about
the weather, Corey would abruptly talk about a race car show.” Corey’s cousin, Queenie
Hodges, described Corey as “quiet; he may not have understood.” She said that Corey
would often change topics and was disorganized in his conversations. She stated that
although someone had been helping him to write letters to her recently, his “letters are
just nonsense.” She described them as disorganized like his conversation.
Similarly, maternal aunt Minnie Hodges reported, “He wouldn’t understand
others but didn’t want to look bad.” She also felt that he had difficulty making himself
understood. She said that even when he calls her today, she has to tell him to explain,
because she doesn’t understand him.
In my discussion with former Warden Mark Bezy, he indicated that he met with
all death-row inmates weekly. He described his conversations with Mr. Johnson as “very
simple” and noted that Mr. Johnson never raised any legal discussion or engaged in
discussion of any other complex matter.
These comments and others by people who have known Mr. Johnson well
indicate that his communication has been adequate for some of the simple
communication demands of everyday life but were at the concrete level of a child. All of
the information I reviewed clearly establishes that Corey Johnson has never demonstrated
the conceptual aspects of communication appropriate for his age, and, instead, his
language and communication abilities are significantly impaired.
C. Number comprehension, money, and time
The records I reviewed and my interviews with those who knew Corey Johnson
uniformly portray him as a child, adolescent and adult with impaired abilities with respect
to number concepts, the use of money, and the concept of time. Even the leaders of the
drug operation in New Jersey for whom Corey Johnson sold drugs recognized his
unreliability in keeping track of how much money customers owed him for the drugs and
how much money Corey owed his superiors. Corey’s achievement testing at various
stages during his educational career reinforce and corroborate those conclusions. His
performance on the Arithmetic subtest on the valid IQ tests that Corey Johnson was
administered also reflect his limitations with numbers.
Corey’s first documented academic evaluation at age 8 revealed that he
demonstrated “[n]o concept of number facts . . . .” That same evaluation showed that
24
A University Center for Excellence in Developmental Disabilities Education, Research, and Service
APP.473

Corey: “had no understanding of his date of birth. He thought he was born in March,”
although he was born in November.
When he was repeating second grade for the first time, records note that Corey
was not able to work out math problems that children his age and younger were able to
do by themselves, and they describe Corey’s math skills as similarly poor and state that
they did not improve despite receiving help. In addition, Corey was only able to tell time
on the hour, and although he knew there were 12 months in the year, he could only recite
the months in sequence up to August. He also could not multiply by three, divide a
single digit by two, or read numbers of more than four digits.
At Pleasantville Cottage School, as a teenager, records show that despite being
placed in a small class setting, Corey’s math performance was consistently below his
grade level. Later, when Corey was 16 and 17 years old at the Elmhurst group home, one
of his counselors, Odette Noble, recalled that: “Mr. Johnson’s limitations in school
achievement and functional academics continued in his later adolescence and adulthood.”
While at Elmhurst, goals for Corey included “learn how to handle money so that [Corey]
can shop for himself.” She also noted: “Caseworker, houseparents [sic] and teachers will
help Corey learn enough simple arithmetic that he will be able to figure out correct
change.” These objectives were not obtained, because handling money was consistently
identified as a goal for Corey throughout his stay at Elmhurst.
Interviews and statements from family and friends sketch a similar picture.
Cousin Queenie Hodges reported to me in interview that at age 11 or 12, Corey could not
tell time and that even at later ages, he consistently spelled her name wrong. Aunt
Minnie Hodges recalls that when Corey was 12 or 13 years old, unlike other children his
age, he could not count small change without making mistakes, a problem she said
continued into his late teens. Priscilla Hodges and Antoinette Joseph said they ordinarily
would have to accompany Corey to the store and would need to tell him whether he
received the proper change after buying something.
The affidavit of Esther Johnson states that she did not feel comfortable trusting
Corey with money and would send his younger brother, Robert, to accompany Corey to
the store to make sure the purchase was done correctly and the proper change was
received. Many similar examples of problems in both school achievement and functional
academics in childhood can be found in affidavits and interviews.
After leaving Elmhurst and after about a 6 month stay with his mother’s former
boyfriend, Robert Butler and his wife, Ann, in Goldsboro, North Carolina, Corey began
working under the Brown brothers in their drug selling operation in Trenton, New Jersey.
Their statements to me during my interviews detail the problems that Corey Johnson had
with handling money. The Browns limited Corey’s role to be sure he did not handle and
lose their money.
D. Judgment, planning and problem solving
Corey Johnson also exhibited significant limitations in judgment, planning, and
problem solving, the final aspect of the Conceptual adaptive behavior domain. In later
25
A University Center for Excellence in Developmental Disabilities Education, Research, and Service
APP.474

pages of Corey Johnson’s adaptive functioning in the Social domain, I document the
records and the anecdotes from a range of reporters who described Corey Johnson as
highly gullible and naïve. Several of those anecdotes also demonstrate his poor judgment
and rash, impulsive actions. For example, Corey’s willingness on a dare to ride his bike
across a street through traffic and to roller skate down a steep hill show his limited
judgment and inability to consider the consequences of his actions, in addition to
reflecting his susceptibility to peer pressure. Another time, when Corey was living with
Robert Butler and his wife, they reported that he borrowed a 10-speed bicycle and rode it
in the woods as if it were a dirt bike. He did this while wearing nice church clothes and
returned from his ride in the woods covered in mud.
My evaluation also shows that Corey Johnson thought little about the future but
instead simply reacted to events as they occurred to him. My review has also revealed
that Corey Johnson had very limited problem solving skills. Those who knew him best
said that he would do as he was told by peers, regardless of whether it was the best course
of action or the right thing to do. As the records and anecdotes discussed below show,
Corey Johnson exhibited significant impairment in judgment, planning, and problem
solving.
When he was evaluated in 1979 at the West Manhattan Center, Nathalie Smith
reported that at age 10 years, 5 months, “Corey would like to be a policeman when he
grows up. His range of interests appeared very limited in view of his intelligence . . . .”
In discussing Mr. Johnson’s time at Pleasantville with Ms. Janet Valentine, I asked
whether he had any plans for the future or independent living. Ms. Valentine replied that
Corey did not take initiative in many things. “He didn’t process things like that. I don’t
think he gave things like that a thought. I don’t think he was on that level.” She also
said, “I saw no skills of being independent at all” compared to others his age.
By adolescence Corey Johnson still had not developed any plan for his future life.
In reporting on Corey’s time at Elmhurst, Ms. Odette Noble, social worker, said that he
could not plan life decisions. She described such planning as “too complex a series of
tasks for him.” Ms. Noble discussed with Corey in counseling about the need to make
good decisions, such as determining who is trustworthy. She said that he could talk about
the future but “in the moment, he couldn’t make sensible decisions that would help his
future.” She said Corey “lived in the moment.” When I asked Robert Johnson whether
his brother had plans for the future, Robert remembered that Corey said he planned to go
to college, which given his complete academic failure, was impossible, and that he
wanted to play basketball in the NBA, which, while a common teenaged boy’s dream,
was also unrealistic.
Dr. Dewey Cornell testified that in his early 20s, Corey Johnson had impaired
ability to reason, use good judgment to control his behavior, and understand and foresee
the consequences of his actions. This is consistent with Odette Noble’s observation
during Corey Johnson’s time at Elmhurst that Corey “lacked the ability to understand the
consequences that his actions could have.”
In my interview with her and in her affidavit, Corey’s friend, Holly Scott, said
that he never discussed his future plans. Queenie Hodges reported (to me and in her
26
A University Center for Excellence in Developmental Disabilities Education, Research, and Service
APP.475

affidavit) that she did not remember Corey ever having stated any goals. She stated in
her affidavit, “Corey was definitely not a leader and he never took authority over
anything. He was a passive follower; he just went with the flow.” Robert Butler said he
never heard Corey speak about his goals in life. Darnell Brown stated in his affidavit that
“Corey also seemed incapable of taking any initiative on his own . . . .” In her affidavit,
Priscilla Hodges stated, “Corey struck me as directionless.” Former girlfriend, Monica
Dawkins, stated in her declaration, “[h]e would follow directions, whether they were
good or bad.”
E. Conceptual domain ABAS-II results
Using the current AAIDD and APA system of assessing adaptive behavior, the
ABAS-II standardized results for all three raters demonstrate significant limitations in
adaptive functioning in the Conceptual domain, as shown by the following chart. The
reported scores are standard scores with a mean of 100 and a standard deviation of 15 and
can be interpreted in a similar way as IQ scores. Thus, two raters provided scores below
70, and one rater provided a score approximately two standard deviations below the mean
using the 95 percent confidence interval.

F. Conceptual domain conclusion
Based on all of the information I reviewed, it is my opinion that that the evidence
is persuasive that Corey Johnson had a significant impairment in all aspects of adaptive
behavior domain of Conceptual beginning in childhood and continuing through his
adolescence and adulthood.
iv.

Social Adaptive Behavior Domain

The AAIDD defines the Social domain as encompassing the following:
interpersonal skills; social responsibility; self-esteem; gullibility/naïveté (i.e., wariness);
follows rules/obeys laws; avoids being victimized; and social problem solving.
Similarly, the APA DSM-5 definition of the Social domain includes: awareness of others’
thoughts, feelings, and experiences; empathy; interpersonal communication skills;
friendship abilities; and social judgment, among others. For purposes of this evaluation, I
have grouped these skills as follows: (a) Interpersonal skills and friendship; and (b)
Leisure activities; and (c) Leadership, gullibility, naiveté, and victimization.
The records I reviewed and my interviews show that Corey Johnson was a
solitary, fearful child who had few friends and felt most comfortable playing by himself
or with younger children. As an awkward, anxious child, he was teased by other children
27
A University Center for Excellence in Developmental Disabilities Education, Research, and Service
APP.476

and had few if any skills to cope, other than turning to adults to intervene. My review
suggests that as he got older and became an adolescent, Corey had real problems in
understanding how to interact with peers and adults and marked difficulty in
understanding social cues and norms. His inability to master basic social interactions led
him at times to engage in disruptive behavior, such as playing the role of class clown, and
left him with few friends as an adolescent. The only close friends he had were girls,
particularly those who took a protector role. While Corey had a few recreational
activities that he enjoyed—sports and watching cartoons—family and friends repeatedly
portrayed Corey as someone who was passive, who followed others’ leads, and engaged
in whatever activities those around him pursued. Corey is also described in
contemporaneous records as naïve, easily influenced by others, and someone who was
vulnerable to and succumbed to peer-pressure, which on a number of occasions led him
to misbehave or even break the law.
Time and again, those I interviewed or the records and statements I reviewed
described Corey as engaging in behavior suggested by others without considering the
consequences to him or others. His lack of social skills led him to be easily victimized by
others, including his mother, brother, and school peers. My review of contemporaneous
records created during Corey’s childhood and adolescence and the more recent
statements and my interviews with those who knew him, provide support for the finding
that Corey Johnson had significant limitations in the Social domain, starting in childhood
and continuing as an adolescent and young adult. The retrospective standardized ABASII results are mixed, ranging from one reviewer whose responses clearly placed Corey in
the significantly impaired range, another who placed him in the borderline range, and the
third (the teacher who only knew Corey in the structured Pleasantville Cottage School
setting, with its range of supports) rating him higher.
A. Interpersonal skills, friendship
Corey Johnson’s school and treatment records are filled with references to his
limitations in making friends and interacting with peers and adults. For example, a March
1977 home visit report when Corey Johnson was 8 years old stated that he could be easily
manipulated and would become upset when teased by other children. In her
psychological evaluation four months later, Dr. Jennifer Figurelli described Corey as a
“solitary figure.” In December 1978, when Corey was 10 years old and in third grade, an
evaluation by the Bureau of Child Guidance, Upper West Side Center stated that Corey
was referred by teacher due to, among other reasons, “poor peer relations.”
During his time in the Pleasantville Diagnostic Center, a psychosocial summary in
March 1982 noted that Corey “relates like a younger child and appears limited . . . .
Corey does not have friends, he appears frightened of children and does not like any
physical contact with them.” A Cottage School Initial Conference, Current Assessment
and Transfer Summary dated June 9, 1982, described Corey as “frequently isolated from
the other children . . . . He does not appear ready to engage with other children . . . .”
The Assessment went on to say: “He is frightened and expects to be rebuffed. He will
need a good deal of experience and contact before he will be ready to engage.”
28
A University Center for Excellence in Developmental Disabilities Education, Research, and Service
APP.477

In reflecting on Corey’s time at Pleasantville, Janet Valentine told me that she
observed “teasing by other children, poor social judgment, not being aware of why others
were upset with him; he just didn’t fit in.” She added: “He could be quite vulnerable with
other kids.” “He initiated it (e.g., teasing, just outright lying) to get a rise out of kids.”
“Peer relations were a significant problem.” “Initially, the other students ignored him,
and then he would provoke others and he would go to the female staff for protection. He
didn’t seek out the staff except when he was in trouble with the other kids.” Ms.
Valentine also reported silliness and immaturity. She said that Corey never took
initiative with the girls like the other boys did. “We used to have a prom. I don’t
remember him ever participating.” This is despite other references to Corey being “girlcrazy” at the time, which suggests that his interest in girls exceeded his constrained
ability to interact with them.
Odette Noble, a social worker at Elmhurst, remembers stark details about Corey’s
peer relations based on the 20 months that Corey participated in weekly individual and
group counseling with her when Corey was ages 16 to 18. According to Ms. Noble, “[i]n
social settings, he did not initiate action, but rather went along with what others did . . . .
Corey did not have a good ‘read’ of situations or other people. He was not very sensitive
to social cues. He had difficulty ‘learning the rules of the game’ and understanding who
was in charge.”
Observations by Corey’s family and friends paralleled the observations from
Corey’s treatment professionals and educators. Corey’s Aunt, Minnie Hodges,
remembered that Corey played by himself as a child most of the time, because the other
children would tease him or try to take the ball, money, candy, or other possessions away
from him. Aunt Minnie described how his limitations constrained his interactions with
peers when things did not go his way, noting: “He wouldn’t understand others but didn’t
want to look bad.” Similarly, his grandmother, Esther Johnson, said that growing up,
Corey did not engage much with other children and did not make friends easily. She
said he was withdrawn socially both as a child and a teenager and, even when he did have
friends, he did not appear to be close to any of them.
Corey spent time from infancy through early adulthood with his mother’s best
friend, Antoinette Daniels Joseph, and her daughter, Courtney Douglas. Antoinette
Joseph stated in her affidavit that “Both as a child and as a teenager, Corey was
withdrawn socially.” Ms. Joseph said that she thought hanging out with her family was a
stabilizing influence for Corey. She expressed concern that “people would take
advantage of him” (e.g., ask for money and never give it back).” “Robert [Corey’s
younger brother] took advantage of him.”
Courtney Douglas is just a few months older than Corey. In an interview with
me, Courtney described Corey as shy and withdrawn. She also described him as mild
and meek. She said that as a teenager, Corey probably had friends, but he did not bring
them home. She said that he hung out with Courtney, Holly Scott, and their friends. In
Courtney Daniels’ affidavit, she described Corey as he was growing up as “a cautious
observer, rather than an active participant.” “Corey rarely talked about himself or shared
if he was upset by something. Instead Corey always asked me how I was doing and
whether or not anyone was bothering me.” She described how protective he was of
29
A University Center for Excellence in Developmental Disabilities Education, Research, and Service
APP.478

friends and family, particularly women. “Corey was generally very quiet around girls. I
never saw him approach a girl on his own. Corey would ask me to talk to girls for him.”
“Through all the years that I knew Corey, Corey and I did not have serious
conversations.”
B. Leisure activities
With regard to leisure interests, the records I reviewed and my interviews paint a
mixed picture. Janet Valentine reported that Corey never talked about sports. She said
he would watch others play basketball, but she did not recall his playing. She said there
was so much teasing going on, he would have been scapegoated if he played and was not
good enough. (This report is inconsistent with records that show he played on the
basketball team later at Newtown High School.)
Mr. Johnson did have an early interest in playing basketball, but apparently he
had no other consistent interest and did not use his leisure time to do more than hang
around the house of whomever he was staying with. He did not initiate leisure interests
or explore available community leisure opportunities. Affidavits of Minnie Hodges,
Antoinette Joseph, Sonya Hilton, and Darnell Brown.
With regard to leisure interests, JCCA conference notes (2-19-86) indicated that
while at Elmhurst Boys Residence and attending Special Education classes at Newtown
High School, Mr. Johnson was on the wrestling team. The same document identified a
goal that “Corey will pursue his wrestling activity which will help build his self-esteem
and build confidence.” There is no indication that he followed up on this interest.
Another goal was “Corey will learn to seek out leisure activities on his own and take
initiative to participate.” In his affidavit, David Washington, former staff member at
Elmhurst, stated Corey “did not join other residents to play games or for other
recreational activities.”
Queenie Hodges reported (in my interview and her affidavit) that she could not
remember Corey having any leisure activities other than basketball and TV cartoons.
Minnie Hodges’s affidavit also identified only cartoons and playing by himself as leisure
activities. Courtney Daniels, Robert Johnson, and Kevin Koger also remembered Mr.
Johnson’s playing basketball when he was younger. His friend, Holly Scott, said that he
just hung out when he visited her and Courtney; sometimes they would go to a park. She
said that they never went to parties or movies. The leisure activities that Mr. Johnson
participated in were usually initiated by someone else, as indicated in cousin Priscilla
Hodges’s affidavit. She gave the examples of skating and going to the movies together.
Ms. Noble said that while at Elmhurst, Mr. Johnson engaged in passive activities, such as
listening to music or hanging out at the mall, but she could not recall his having any
particular interests.
In describing Mr. Johnson’s role within the group of drug-sellers in New Jersey,
Darold Brown described Mr. Johnson’s leisure interests as going to people’s houses,
drinking, and listening to music. He went with the group when they went to hang out at
someone’s house. He did not go to clubs. Mr. Brown could not think of any other leisure
interests besides hanging with the group. Although Mr. Johnson appeared to know his
30
A University Center for Excellence in Developmental Disabilities Education, Research, and Service
APP.479

way around the areas in which he lived, and by adolescence he had learned to use public
transportation, he did not participate in community life or take advantage of the
opportunities that his community offered.
C. Leadership, gullibility, naiveté, and victimization
Everyone whom I interviewed described Corey Johnson as a follower rather than
a leader. In describing Corey’s time at Pleasantville, Ann Harding, a supervisor at the
Pleasantville Cottage School’s older boys’ cabin, where Corey lived in 1984 and 1985,
stated, “I do not think Corey possessed leadership qualities. To the contrary, he was
more of a follower than a leader in his interactions. I believe that Corey was probably
taken advantage of by the other students occasionally.”
Janet Valentine, who was also a counselor at Pleasantville, said, “He was a
follower. He was not a leader at all.” “Peers could lead him to do things, but he never
initiated except for that teasing thing (e.g., he wouldn’t get a group of guys together to
play basketball or something).” She added: “He just did that immature teasing like a
much younger child.” When asked if he had friends, Ms. Valentine said that the other
kids tolerated him: “He’d play the role of ‘victim’ a lot. I didn’t see any maturing. He
had poor self-esteem.”
In describing Corey Johnson at Pleasantville, Richard Benedict reported that
Corey wanted to “please” adults and was not a leader. “It would baffle me if he could get
a group to do anything. He couldn’t do it.” “Being a leader doesn’t match Corey.” “In
class he was more of a clown than a leader.” Mr. Benedict reported that Corey “sought
out adult approval, but didn’t have the ability to do it.” As noted above, Pleasantville
records indicated that Mr. Johnson did not make friends easily, often stayed by himself,
and was afraid of the other children at the facility. In fact, Mr. Benedict said that Corey
often required protection from the other children in his class, because they “frequently
scapegoated him.” Benedict further explained that Corey was desperate to be accepted
by his peers and would do anything that someone told him to do.
Odette Noble noted many things identified by others who knew Mr. Johnson, such
as going along with others, susceptibility to peer pressure, failure to make good social
decisions, and trusting the wrong people. In her affidavit, Ms. Noble noted that in
August 1986, Corey was persuaded to go along with an older resident’s plan to rob
another resident of his paycheck. Although he was not the leader and went along with
the plan just to be accepted and make friends, this incident resulted in Corey’s being
arrested and jailed at Riker’s Island for robbery.
Dr. Dewey Cornell testified during the sentencing phase of Corey Johnson’s death
penalty trial about Corey’s “social skills.” In the context of the consideration of Corey
Johnson’s adaptive functioning, Dr. Cornell testified that social skills were an area,
among others, that Corey’s functioning was not at a normal level.
Corey’s family and friends provided similar descriptions. Corey’s cousin Priscilla
Hodges and his Aunt Minnie Hodges both flatly said that Corey was a follower, not a
leader. Similarly, Holly Scott remembered, “Corey never seemed to be a leader during
31
A University Center for Excellence in Developmental Disabilities Education, Research, and Service
APP.480

any of the years I saw him – even the years in which I saw him less frequently. Courtney
and I used to be able to talk him into just about anything. We would ask him to go places
with us, and he would end up coming even when he did not want to.”
Corey’s Aunt Minnie Hodges reported that “Other people took advantage of him,
such as taking his lunch money. People found it easy to take advantage of him all
throughout his childhood and teen years. He wouldn’t understand others but didn’t want
to look bad, so other children easily tricked and manipulated him.” She further stated:
He would cry much longer than the other children. He would get very
upset when he was teased by the other children. When Corey would
interact with the other children, he would mainly play by himself, but the
other children would tease him and try to take his ball away from him. If
my children or Robert didn’t intervene, the children in the neighborhood
would bully him and take his ball or candy away from him. He could not
defend himself or stick up for himself without protection and chose to play
by himself most of the time instead.
Cousin Priscilla Hodges described similar experiences in her affidavit. “As a
child, Corey complained that other kids bothered him and would take his money, ball, or
other possessions. Corey would not assert himself with these other kids.” “Corey was a
follower, rather than a leader, first as a child and then as a teenager. Corey was easily
influenced by others and could be persuaded to do things that, in my view showed very
poor judgment. He would go to great lengths – and jeopardize his own well-being – just
to fit in with the crowd.” Priscilla remembered an incident that captured Corey’s poor
judgment and susceptibility to peer-pressure: “Once, when Corey was in his early teenage
years, his ‘friends’ dared him to roller skate down an incredibly steep hill, an act that no
one else would attempt. I told him not to do it, but his friends insisted. He ended up
falling and suffering a bruise and scrapes. I believe he accepted the dare only to please
his ‘friends.’” She gave another example of Corey’s riding a bike across a busy 2-way
street. “Corey would do whatever his ‘friends’ told him to do, even if it could have killed
or seriously hurt him.” This deficit in judgment is also indicative of a deficit in Safety,
which is a component of the Practical adaptive behavior area.
Corey and Robert Johnson both spent time regularly with Emma’s mother, Esther
Johnson, whom many described as the ruler of the family and the strict one. At the time
of my interview, she was 84 years old and in frail health. Her memory for details was
poor; however, she did remember instances of other children taking advantage of Corey.
She said, for instance, every time he got a new sweater, somebody at school took it.
When I asked if the same was true for Robert, she clearly said no. When I asked if
Robert could stand up better to the other kids (although 2 years younger), she said, “You
know it!” She described Corey as the easy one to take advantage of. This same
information is confirmed in Esther Johnson’s affidavit.
Mr. Johnson’s maternal aunt, Minnie Hodges, told similar stories of other children
taking advantage of him (e.g., taking his lunch money). She said that throughout his life,
he was easily taken advantage of. She said that he was never a leader and just followed
32
A University Center for Excellence in Developmental Disabilities Education, Research, and Service
APP.481

others. Kevin Koger also described Corey in childhood as someone who “could be
manipulated by others.”
Corey Johnson spent most of his weekends before going to Pleasantville with his
maternal aunt, Minnie Hodges and Ms. Hodges’ daughters, Queenie and Priscilla. In
interview, Aunt Minnie remembered Corey as a child who liked to be by himself a lot.
She felt that she needed to look after him and that he needed more attention because “he
played by himself and his mind wandered.” “He liked to be alone.” Aunt Minnie said
that other children teased him, because he was considered strange and maybe slow, and
he could not keep up conversation like other kids his age. Other kids took advantage of
him by taking his ball and other toys. Cousin Priscilla independently reported that kids
realized that they could take advantage of Corey. “They could get him to do anything.”
D. Social domain ABAS-II results
Using the current AAIDD and APA system of assessing adaptive behavior, the
ABAS-II standardized results by Antoinette Joseph demonstrate significant limitations in
Corey Johnson’s adaptive functioning in the Social domain. In contrast to my interview
with her and the descriptions she provided in a later statement, which highlight Corey’s
social limitations, Minnie Hodge’s ratings of Corey on the ABAS-II Social domain are
higher. Similarly, Richard Benedict’s ratings for Corey Johnson on the Social domain,
are bit higher than and are inconsistent with the information he gave me in my interview
of him.

E. Social domain conclusion
The contemporaneous records I reviewed contain numerous descriptions of Corey
Johnson’s deficiencies interacting with his peers and with adults at various times in his
childhood and adolescence and in different social contexts and situations. They also
document his gullibility and susceptibility to peer pressure, and his poor judgment. My
interviews with the professionals who worked with Corey during that time and with
family, friends, and associates who have known him throughout his life paint similar
pictures of Corey Johnson’s substantial deficiencies in social interactions and judgment.
As indicated earlier, the adaptive behavior evaluation relies upon information
from as many different sources as possible. This approach has the advantage of gathering
information that describes the individual at different time in his life and from the vantage
point of different individuals who knew him in different ways. Thus, it is to be expected
that there would be inconsistencies in the obtained information. For example, Mr.
Benedict knew Corey Johnson in the structured environment of a residential school where
33
A University Center for Excellence in Developmental Disabilities Education, Research, and Service
APP.482

students’ performance would be expected to be higher than in the unstructured
environment in their neighborhood. Further, ratings of adaptive behavior can be
influenced by the rater’s positive feelings toward the individual. Ms. Joseph and Ms.
Hodges knew Corey Johnson in different settings and over a longer period of time than
Mr. Benedict. Inconsistencies are not unusual when considering information from many
sources spanning many years. What is important is to examine the comprehensive
evidence to determine an overall assessment.
Overall, the historical, documentary evidence I obtained related to Corey
Johnson’s adaptive functioning with respect to the Social domain and my interviews
provide strong support for the conclusion that he had significant limitations in the Social
adaptive behavior domain, while the standardized test results are mixed. Corey’s school
and treatment records document a consistent pattern of social impairments and significant
limitations in judgment. Many of the professionals and family and friends whom I
interviewed also described significant adaptive functioning impairments in the Social
domain. Given the strong support in the records and the vivid descriptions from a wide
array of professionals and lay-persons describing Corey’s social abilities, I have
concluded that Corey Johnson has significant limitations in the Social Domain that
manifested themselves during his childhood, adolescence, and adulthood.
v.

Practical Adaptive Behavior Domain

The AAIDD definition for the Practical adaptive behavior domain consists of the
following skills: activities of daily living (personal care); occupational skills; use of
money; safety/health care; travel/transportation; schedules/routines; and use of the
telephone. The APA’s DSM-5 defines the Practical domain as learning and selfmanagement across life settings in similar terms to the AAIDD definition, including:
personal care; job responsibilities; money management; recreation/leisure; selfmanagement of behavior; and school and work task organization; among others. I have
grouped my assessment of Corey Johnson’s adaptive functioning in the Practical domain
into the following categories: (a) Personal care/self-care; (b) Community use, travel, and
transportation; (c) Health and safety; (d) Home living; and (e) Work.
The records and information I have considered demonstrate that Corey Johnson
had significant limitations in personal and self-care from an early age that continued all
the way up to his young adulthood. Corey wet his bed and soiled his sheets until he was
about 12 years old. He needed constant reminders to clean himself after these accidents
and to generally keep his body clean. He neglected cleaning his teeth and developed
dental problems as a result. His self-care performance improved only slightly in the
structured environments at Pleasantville and Elmhurst, and those who visited him as an
adult, particularly when he lived in Trenton, described his living in apartments that were
dirty and strewn with trash, dishware, and clothes. Corey demonstrated similar
limitations in getting around in his neighborhoods. As a child, his caregivers did not trust
him to travel alone, and his younger brother, Robert, was asked to lead Corey when they
went out together. As a teenager and adult, Corey apparently never obtained a driver’s
license nor owned a car, and those who knew him recall that he often took cabs to get
from place to place, although he sometimes used public transportation.
34
A University Center for Excellence in Developmental Disabilities Education, Research, and Service
APP.483

During the last few years that he was in a structured environment, Corey’s
caseworkers recognized that he would need to focus on independent living skills, because
returning to his mother would not be in his best interest. Despite this critical goal, Corey
was not able to develop independent living skills, nor did he possess the judgment to
ensure his safety. He continued to succumb to the influence of others to engage in risky
and unhealthy behavior. As I noted in the previous section on Corey Johnson’s
limitations in the Conceptual domain, he also demonstrated long-standing limitations
with math and counting as it relates to the use and managing of money. As a result, he
was never able to learn how to perform simple money management tasks, such as paying
bills or making and following a budget. When he did earn money through drug dealing,
friends often kept it for him so he would not spend it. Sometimes, family members
(including his mother) and others took advantage of Corey by borrowing money from
him and never paying him back.
After leaving Elmhurst abruptly, Corey never was able to live on his own but
instead moved from living with his mother and brother, to a brief stay with his mother’s
ex-boyfriend and his wife in North Carolina, and then with a series of girlfriends and
drug colleagues in New Jersey and later in Richmond, Virginia. Other than participating
in structured work programs while at Elmhurst, Corey never held a job other than dealing
drugs. Those with whom he engaged in the drug trade described Corey as challenged in
his ability to count money and to keep track of drug sales, and described him as a passive
participant who followed the directions of others.
Finally, two of the raters on the ABAS-II standardized rating scale produced
scores corroborating his significant limitations in the Practical domain. Richard
Benedict’s ratings, which again were based only on his interactions with Corey Johnson
in a structured setting, were substantially higher. Based on the information I have
reviewed, some of which is highlighted below, I have concluded that Corey Johnson has
significant limitations in the Practical adaptive functioning domain that demonstrated
themselves when he was a child, adolescent, and adult up to the time of his crime.
A. Personal care/self-care
The Committee on the Handicapped records from the time when Corey was 10
years old noted that Corey was enuretic (wetting the bed) and encopretic (soiling himself)
well into his middle school years.
When Corey was 13, a Child Assessment Evaluation Summary noted that he had
dental cavities and gingivitis, evidence that he did not properly care for and brush his
teeth. Consistent with that note, Janet Valentine said that Corey’s self-care at
Pleasantville was a problem initially, but over time he was able to slightly improve his
self-care. As she put it: “He didn’t come with those skills, but got a little better.”
However, a Comprehensive Service Plan for Corey from May 1985 indicates that by age
16 and a half and shortly before he was transferred to a group home as part of an attempt
to transition him to independent living, Corey had not acquired independent living skills.

35
A University Center for Excellence in Developmental Disabilities Education, Research, and Service
APP.484

Dr. Dewey Cornell testified during the sentencing phase of Corey Johnson’s
capital that self-care was one of areas in which Corey’s functioning was not at a normal
level. Specifically, Dr. Cornell stated:
Self care . . . work, the ability to maintain a job, to have good work habits,
to use the kind of common sense you need to hold a job, all of those are
possible areas in which his functioning is not at a normal level.
The reports from Corey’s family describe similar limitations in self-care.
Affidavits of Minnie and Priscilla Hodges also indicate that Corey Johnson wet the bed
until age 11 and also soiled himself sometime between ages 8 and 12. Corey’s Aunt
Minnie recalled that she needed to remind Corey not to drink too many fluids before he
went to bed, but he would still wake up with wet clothes, a wet bed, and an embarrassed
look on his face. After these accidents continued for a while, she started waking him up
in the middle of the night to use the bathroom. Minnie’s daughter, Priscilla Hodges,
remembered that Corey would try to cover the wet sheets with a comforter to hide the
fact that he had wet the bed. His brother, Robert and friend, Antoinette Joseph, also
remember Corey’s wetting the bed. Regarding self-care in childhood, Cousin Queenie
Hodges reported that Corey needed reminders to “wash up.” Her affidavit indicated that
he needed these reminders to bathe when he wet the bed up to about age 10. Queenie’s
mother, Minnie similarly reported to me that Corey was slower than other children to
learn habits of hygiene and that she was still looking after him at age 8 to 10 to wash up.
As noted earlier, Corey relied on reminders and structure in his early years but apparently
learned some minimal standards of self-care while living at Pleasantville and Elmhurst by
the time he was 18.
B. Community use, travel, and transportation
Mr. Johnson’s Individualized Education Program (IEP) at Pleasantville (7-1-85,
age 16 to 18) noted “Corey needs travel training until he is familiar with route and new
neighborhood.”
With regard to community use, in his affidavit, Robert Johnson noted, “Corey
also had a hard time finding his way around. In terms of travelling, I would be able to
pick up on a route the first time just by paying attention. But Corey needed a lot more
training in that area. Around the ages of 8 to 10, my mother would choose me rather than
Corey to go to my grandfather’s house in Brooklyn, because she knew that Corey would
get lost.”
C. Health and safety
With regard to health and safety, health decisions in childhood were made by
others. Corey did have a history of compromising his safety in order to ingratiate himself
to peers. Cousin Priscilla Hodges gave examples of times when “friends” dared Corey to
do dangerous things, and he foolishly complied. In the earlier section of this report on
Social adaptive behavior, the example is given of roller skating down a steep hill and

36
A University Center for Excellence in Developmental Disabilities Education, Research, and Service
APP.485

riding a bike across a busy street, which was unsafe. Priscilla told him not to do it, but he
did anyway and was nearly hit by a car.
D. Home living
With regard to home living, Mr. Johnson’s Comprehensive Service Plan Child,
dated May 28, 1985, when he was 16 and a half and winding down his time at
Pleasantville, stated: “Corey will use opportunities offered him to learn independent
living skills.”
While at Elmhurst, Corey’s team established goals for him to “learn how to
handle money so that [Corey] can shop for himself” and “Caseworker, houseparents [sic],
and teachers will help Corey learn enough simple arithmetic to figure out correct
change.” However, these objectives were not achieved; handling money was consistently
identified as a goal throughout Corey’s stay at Elmhurst.
Describing his time at Elmhurst, Odette Noble told me, “He’s the kind of kid who
I don’t think could make it on his own – pay his rent, etc. Some people should stay in a
protected setting all of their lives.” “He couldn’t negotiate all of the things that
community life means.” Ms. Noble repeated her concerns in her affidavit, stating, “I
questioned Corey’s ability to negotiate even the simple, day-to-day tasks that community
life requires, such as paying the bills, obtaining a driver’s license, or purchasing and
maintaining a car. Somewhat more complex skills—like planning a budget—were
clearly beyond Corey’s abilities.”
Ms. Noble reported that while living in the structured and supervised setting at
Elmhurst, Corey Johnson kept clean, kept his room clean, did the dishes, and set the
table. However, she recognized that the support structure at Elmhurst was critical to
Corey. He did not have much occasion to cook or shop for food or household supplies.
And, more fundamentally, she questioned whether he could live successfully on his own.
“Because of Corey’s intellectual limitations, I had concerns that Corey would not be able
to hold a job. In short, I doubted that Corey was equipped to make it on his own, to live
independently as an adult. Some people stay in a protected setting their entire lives and
that may have been what was appropriate for Corey.”
Corey’s family and friends provide similar descriptions of his inability to care for
himself and live on his own. For example, Queenie Hodges stated in her affidavit, “I do
not remember him ever preparing a meal for himself.” With regard to home living,
Queenie Hodges reported that her mother had rules and expectations, but she had to
remind Corey, “Pick up after yourself.” She said she did not remember Corey ever doing
any meal preparation. She also said that when he would pour milk in a bowl for cereal,
he would make a mess, so Minnie would just do it for him.
Aunt Minnie Hodges’s affidavit told a similar story. She said, “At age 10 to 13,
he couldn’t prepare a meal or even a simple sandwich. By age 15, he only improved a
little in that he didn’t make as much of a mess when preparing simple meals. I didn’t
give him much to do, because he couldn’t do it . . . . Even when he made a sandwich, I’d
37
A University Center for Excellence in Developmental Disabilities Education, Research, and Service
APP.486

have to stand there and check.” In my interview with Ms. Hodges, she told me
essentially the same thing.
Ann Butler noted that when Mr. Johnson was 18 and living with her and Mr.
Butler in Goldsboro, “he was still like a little boy. He could not have taken care of
himself on his own.” As noted earlier, the Butlers described an incident when Corey rode
a bike in the woods wearing nice clothes and returned covered in mud. Ms. Butler said
that she did things for him around the house, because he could not do them. According to
her, Corey was too child-like. Although he had been taught home living skills at
Pleasantville and Elmhurst, he still had to be reminded to carry out the simplest home
tasks.
Mr. Johnson’s brother, Robert, like others, indicated that Corey never lived by
himself. But Robert, unlike all other reporters who expressed an opinion, thought that
Corey could have lived independently. He had help from girls and guys he knew in New
Jersey. Robert indicated that Corey could not live in the streets, although he did not give
a clear reason why. People Robert was involved with would let Corey into their group,
because they knew Robert well. In his affidavit, Robert Johnson stated, “He lived in
several different places while in Trenton, always with others. Corey never lived by
himself.” In my interview and in his affidavit, Robert Johnson said Corey lived in New
Jersey with a young girl whose nickname was “Mudda” (Ayesha Harris). He described
the place where they lived as a shack. Robert said, “I thought it must be a crack spot. It
was not something I would have lived in. Everything was cold, dark, and untidy.”
Darnell Brown who was a leader of the group with which Mr. Johnson sold drugs
in New Jersey said with regard to living conditions that the group lived everywhere, often
crashing with whichever woman would provide meals. The group members did not have
to pay for meals or lodging. Mr. Brown pointed out that Mr. Johnson never had his own
place to live, never paid bills, and never had any responsibilities beyond his minor role in
selling drugs.
Monica Dawkins, who dated Corey for 2 and a half years during the time that he
lived in Trenton, New Jersey, said she once asked him to pay the phone bill in downtown
Trenton, because she had to go to school. She said that Corey went downtown but did
not pay the bill and instead claimed that he had forgotten, but she thought that the reason
was because he was not able to figure out how to pay the bill.
Corey’s friend, Sonya Hilton, knew Corey when he was living in Trenton, New
Jersey. She recalled that Corey was very forgetful, sometimes forgetting plans he made
in the morning by the afternoon. She said he frequently lost his keys and lost money. In
fact, she said that he began to leave the back door to his house unlocked, because he had
lost the front door key and had been locked out so many times.
The institutional records and my interviews showed that from his early
adolescence until he left institutional care, many of the staff attempted repeatedly to teach
Corey Johnson independence and home living skills. In fact, those were considered
important goals as he became an older teenager to prepare him for adult life. With
supervision and support in his institutional settings, Corey was able to make limited
38
A University Center for Excellence in Developmental Disabilities Education, Research, and Service
APP.487

progress. However, when that support ended and he left the institutional settings, my
evaluation shows that Corey failed to apply those skills.
E. Work
All of Corey Johnson’s work opportunities were in structured settings with
significant supports. With regard to Work, Dr. Cornell reported in his 1993 testimony
that Mr. Johnson had summer jobs involving manual labor while he was at Pleasantville
Cottage. Dr. Cornell went on to say “He also was placed in a more vocational-oriented
program called BOCES. It is a special educational program in which he was learning
carpentry and did reasonably well. He tended to do best when he did things with his
hands that did not involve language” (p. 3605). Mr. Benedict from Pleasantville said
Corey “had a job at the school and liked making money – some kind of clean up.”
A Psychiatric Summary from Pleasantville Cottage School (Elizabeth Clemmens,
M.D., 1-18-85) stated: “During the summer, he worked at the Pace Farm as part of the
Youth Employment Summer Program, doing manual labor. In September, he continued
classes at BOCES where he learns carpentry and apparently is doing well.”
Ms. Noble told me Mr. Johnson participated in a summer Neighborhood Youth
work program while at Elmhurst. In my interview with Mr. Johnson, reported
previously, he described several brief, unskilled jobs during this period. The jobs were, in
Mr. Johnson’s words, “simple.”
Mr. Johnson fared well in structured work preparation programs that required
manual labor. He did not demonstrate any skills or initiative at job-seeking, and he did
not make the effort to stay in jobs for more than brief periods. Priscilla Hodges, Robert
Johnson, Holly Scott, Darold Brown, and Darnell Brown each reported to me that Corey
never had a job that they knew about. Commenting on Mr. Johnson’s job prospects,
Darold Brown stated in his affidavit that the only “job I could have believed Corey to be
able to perform would have been a job requiring manual labor . . . where the work is
repetitive and a supervisor would have been available to tell Corey what to do. Corey
could not handle a job where unexpected problems came up, as he would not know what
to do. Corey was not a problem solver.” “Corey needed to be told what to do.”
F. Practical domain ABAS-II results
Using the current AAIDD and APA system of assessing adaptive behavior, the
ABAS-II standardized results by Antoinette Joseph and Minnie Hodges demonstrate
significant limitations in Corey Johnson’s adaptive functioning in the Practical domain.
The ABAS-II results from Richard Benedict were substantially higher. However, Mr.
Benedict’s results must be understood as having been based on observations that occurred
in the context an institutional environment, where supports and structure can artificially
inflate the scores.

39
A University Center for Excellence in Developmental Disabilities Education, Research, and Service
APP.488

G. Practical domain conclusion
In my opinion, the records, statements, interviews, and adaptive behavior
instrument in the Practical domain strongly demonstrate that Corey Johnson has
significant limitations in adaptive functioning in this area starting in his childhood and
continuing through his adolescence and into adulthood up until the time he committed the
crimes in this case.

vi.

Adaptive Behavior Conclusion

As I noted at the outset, in order to meet the adaptive behavior prong of an
intellectual disability diagnosis, it is only necessary to find significant limitations in
adaptive functioning on one of the three domains or significant impairment in a measure
of overall adaptive functioning. My review above of the contemporaneous records
created during Corey Johnson’s childhood and adolescence, my review of statements
from those who knew him well, and my interview of those individuals led me to conclude
that Corey Johnson demonstrated significant limitations in all three domains.
The ABAS-II results corroborate this conclusion, because the General Adaptive
Composite (“GAC”) score for all three raters, depicted below, demonstrates significant
impairments in adaptive functioning. A GAC score of 75 or below meets the diagnostic
standard for the adaptive behavior prong of an intellectual disability diagnosis.

Conclusion
This report summarizes extensive information regarding Corey Johnson’s
intelligence and adaptive behavior in childhood and in adolescence and adulthood. This
information supports my diagnostic opinion that Corey Johnson has significant
impairment in intellectual functioning and adaptive behavior, and that these impairments
originated in childhood. This conclusion is based on IQ testing between ages 7 and 24,
40
A University Center for Excellence in Developmental Disabilities Education, Research, and Service
APP.489

adaptive behavior information from numerous and varied sources, corroborated by a
standardized adaptive behavior scale. Mr. Johnson was administered six Wechsler
intelligence tests between ages 8 and 23, four of which produced valid and reliable results
and all four demonstrate significant limitations in intellectual functioning. Adaptive
behavior information from my interviews, administration of the ABAS-II to three raters,
and documents from numerous sources was consistent in indicating significant
impairment in adaptive behavior. Based on all of this information, it is my opinion that
Corey Johnson has intellectual disability originating in childhood and persisting into
adulthood.

J. Gregory Olley, Ph.D.
Psychologist
Date: August 24, 2016

41
A University Center for Excellence in Developmental Disabilities Education, Research, and Service
APP.490

Appendix A
John Gregory Olley received a bachelor’s degree in psychology from the College of
William and Mary in 1966, a master’s degree in general-experimental psychology from
Wake Forest University in 1968, and a Ph.D. in psychology with emphasis in mental
retardation (now intellectual disability) from George Peabody College (now George
Peabody College of Vanderbilt University) in 1973. He completed a clinical psychology
internship at the University of Kansas Medical Center in 1972. He has been licensed to
practice psychology since 1974.
Dr. Olley has held positions as Assistant Professor in the Department of Psychology at
the University of Massachusetts at Amherst and Clinical Associate Professor in the
Department of Psychiatry and the School of Education at the University of North
Carolina at Chapel Hill. During this period at UNC-Chapel Hill, Dr. Olley was Director
of Training for Division TEACCH, the statewide program for children and adults with
autism. After a brief stint at the Groden Center in Providence, Rhode Island, Dr. Olley
returned to UNC-Chapel Hill as a psychologist in the Clinical Center for the Study of
Development and Learning, which is now the Carolina Institute for Developmental
Disabilities. Dr. Olley retired in July 2016 but continues to hold an academic
appointment as Clinical Professor in the Department of Allied Health Sciences in the
UNC School of Medicine.
Dr. Olley has published extensively in many aspects of developmental disabilities. In
addition to his research and teaching roles, he has been engaged in a variety of
professional and public service activities. Dr. Olley is a Life Member and Fellow in the
American Psychological Association. He is a past President of the Division on
Intellectual/Developmental Disabilities and Autism of APA and is a member of the
Division’s Executive Council. He is a Life Member and Fellow of the American
Association on Intellectual and Developmental Disabilities.
Among his public service roles, Dr. Olley is a member of the Policy and Positions
Committee of the Arc of the United States and the American Association on Intellectual
and Developmental Disabilities, and he is Past Chairperson of the North Carolina
Commission on Mental Health, Developmental Disabilities, and Substance Abuse
Services.

A University Center for Excellence in Developmental Disabilities Education, Research, and Service
APP.491

Appendix B
The sources upon which this report is based are as follows:
School and residential records from Mount Pleasant Cottage School (a.k.a.
Pleasantville Cottage School) for Corey Johnson
Records of Bureau of Child Guidance, Upper West Side Center
Report of Learning Consultant Evaluation to the Child Study Team, Jersey City
Schools, 3-18-77
Report of Psychological Examination of Corey Johnson by Jennifer Figurelli,
Ph.D., 3-25-77
Report of Psychiatric Evaluation of Corey Johnson by F. A. Figurelli, M.D., 10-477
Psychological Report for Corey Johnson by Nathalie Smith, Ph.D., Manhattan
Center, 5-3-79
Report of Psychodiagnostic Evaluation of Corey Johnson by Ernest H. Adams,
The Council’s Center for Problems of Living, 12-11-1981
Report of Psychological Evaluation of Corey Johnson by Cary Gallaudet, Psy.D.,
Pleasantville Cottage School, 2-8-1982
Report of Speech-Language Evaluation at the Donald Reed Speech Center,
September and October 1983
Memo from Louise Sciaruto, Jewish Child Care Association, regarding speech
therapy, January 19, 1984
Report of Psychological and Educational Evaluation of Corey Johnson by
Kenneth Barish, Ph.D., Pleasantville Cottage School, 3-15-1985
Newtown High School records for Corey Johnson
Interview with Corey Johnson at Federal Correction Center, Terre Haute, IN,
February 7, 2011
Interview by telephone with Mark A. Bezy, former warden at the Federal
Correction Center, Terre Haute, IN, January 19, 2011
Interview by telephone with James Sykes, father of Corey Johnson, January 21,
2011
Affidavit of James Sykes, May 17, 2011
Interview with Robert West, former pastoral counselor to Corey Johnson, at his
church in Salem, VA, June 2, 2010
Interview with Sarah West, former pastoral counselor to Corey Johnson at her
husband’s church in Salem, VA, June 2, 2010
Interview by telephone with Pernell Williams, friend of Corey Johnson, June 25,
2010

A University Center for Excellence in Developmental Disabilities Education, Research, and Service
APP.492

Interview with Holly O. Scott, friend of Corey Johnson at her apartment,
Brooklyn, NY, July 17, 2010
Affidavit of Holly Scott, June 23, 2011
Interview with Courtney Daniels, childhood friend of Corey Johnson, New York,
NY, May 22, 2010
Affidavit of Courtney Daniels, May 21, 2011
Interview with Esther Johnson, grandmother of Corey Johnson at her apartment,
New York, NY, May 21, 2010
Affidavit of Esther Johnson, April 30, 2011
Interview with Robert Lee Johnson, half-brother of Corey Johnson, New York,
NY, May 7, 2010
Affidavit of Robert Johnson, June 29, 2011
Interview with Antoinette Daniels Joseph, best friend of Corey Johnson’s mother,
New York, NY, July 17, 2010
Affidavit of Antoinette Daniels Joseph, May 21, 2011
Interview with Minnie Lee Johnson Hodges, maternal aunt of Corey Johnson at
her apartment, New York, NY, May 8, 2010
Affidavit of Minnie Hodges, April 30, 2011
Interview by telephone with Kevin Koger, step-brother of Corey Johnson, August
3, 2010
Affidavit of Kevin Koger, May 26, 2011
Interview by telephone with Dr. Claire Barabash, former Deputy Superintendent
of the New York Board of Education, April 23, 2010
Interview with John McGarvey, former defense attorney for Corey Johnson,
Richmond, VA, June 3, 2010
Interview with Craig Cooley, former defense attorney for Corey Johnson,
Richmond, VA, June 3, 2010
Interview with Darold Brown, friend of Corey Johnson, New York, NY, May 21,
2010
Affidavit of Darnold Brown, June 15, 2011
Interview with Darnell Brown, friend of Corey Johnson, New York, NY, May 21,
2010
Affidavit of Darnell Brown, October 14, 2011
Interview with Queenie Hodges, cousin of Corey Johnson, at her apartment, New
York,
NY, May 8, 2010
Affidavit of Queenie Hodges, April 30, 2011
Interview with Priscilla Hodges, cousin of Corey Johnson, at her apartment, New
York, NY, May 8, 2010

A University Center for Excellence in Developmental Disabilities Education, Research, and Service
APP.493

Affidavit of Priscilla Hodges, April 30, 2011
Affidavit of Elizabeth Sykes, half-sister of Corey Johnson, October 15, 2011
Affidavit of Sonya Hilton, former girlfriend of Corey Johnson, June 15, 2011
Interview with Gerald Lefkowitz, M.S.W., former Unit Administrator of the
Pleasantville Diagnostic Center, and Richard Benedict, former teacher and
administrator at Pleasantville Cottage School, May 7, 2010
Declaration of Leona Klerer, a reading teacher formerly employed at the Mount
Pleasant Cottage School, June 3, 2011.
Declaration of George Sakheim, Ph.D., formerly a supervising psychologist at the
Pleasantville Diagnostic Center and Pleasantville Cottage School, June 17, 2011.
Affidavit of Gerald Lefkowitz, December 5, 2011
Interview with Ms. Odette Noble, M.S.W., former social worker at Elmhurst
Residential Home, New York, NY, May 7, 2010
Affidavit of Odette Noble, December 1, 2011
DVD of interview of Corey Johnson by Dewey Cornell, Ph.D., January 8, 1993
Transcript of testimony of Dewey Cornell, Ph.D. at trial of Corey Johnson,
January 1993
Transcript of testimony of Gerald Lefkowitz, M.S.W. at trial of Corey Johnson,
January 1993
Transcript of testimony of Odette Noble, M.S.W. at trial of Corey Johnson,
January 1993
Telephone interview with Janet Valentine, former counselor and clinical social
worker at Pleasantville Cottage School, May 5, 2011
Declaration by Ann Harding, former staff member at Pleasantville Cottage
School, November 21, 2011
Interview with Robert Lee Butler, step-father of Corey Johnson, at his home in
Lawrenceville, Georgia, December 17, 2011
Interview with Ann Butler, wife of Robert Lee Butler, at her home in
Lawrenceville, Georgia, December 17, 2011
Declaration by Robert Lee Butler, December 17, 2011
Declaration by Ann Butler, December 17, 2011
Affidavit of David Washington, former staff member at Elmhurst Boys
Residence, March 1, 2012
Declaration by Cary Gallaudet, Ph.D., psychologist formerly employed at the
Pleasantville Diagnostic Center, March 1, 2012
Affidavit of Mary Sitgraves, Ph.D., psychologist, July 5, 2012
Declaration by Monica Dawkins, former girlfriend of Corey Johnson, July 16,
2012

A University Center for Excellence in Developmental Disabilities Education, Research, and Service
APP.494

Declaration of Kenneth Barish, formerly a psychologist at the Pleasantville
Cottage School, July 22, 2014.

A University Center for Excellence in Developmental Disabilities Education, Research, and Service
APP.495

Appendix C
I. ABAS-II Results (3 Domains):

ABAS-II:
3 Domains

Antoinette Joseph

Minnie Hodges

Richard Benedict

Conceptual
Social
Practical

63
56
60

57
81
65

74
88
88

GAC
Percentile

60
0.4

64
1

74
4

II. ABAS-II Results (10 Domains):
The mean score for the general population is 10. A score of 4 or below indicates
significant impairment (two standard deviations below the mean).
ABAS-II:
10 Domains

Antoinette Joseph Minnie Hodges Richard Benedict

Communications

7

2

1

Functional
Academics

2

1

3

Self-Direction

1

4

4

Leisure

2

3

8

Social

1

9

7

Community Use

8

5

8

Home Living

3

1

8

Health-Safety

1

3

7

Self-Care

4

4

6

Work

-

-

-

GAC

60

64

74

Percentile

0.4

1

4

A University Center for Excellence in Developmental Disabilities Education, Research, and Service
APP.496

CURRICULUM VITA
John Gregory Olley
Address
Carolina Institute for Developmental Disabilities
CB# 7255
University of North Carolina at Chapel Hill
Chapel Hill, North Carolina 27599-7255
(919) 966-4613
FAX (919) 966-2230
E-mail: greg.olley@cidd.unc.edu
Education
College of William and Mary
Williamsburg, Va., A.B., 1966, Psychology
Wake Forest University
Winston-Salem, N.C., M.A., 1968, General-Experimental Psychology
George Peabody College for Teachers (now George Peabody College of Vanderbilt
University) Nashville, Tenn., Ph.D., 1973, Mental Retardation Research - Clinical Psychology;
"Related Area" - Special Education
Current Position
Psychologist, Adjunct Professor, Carolina Institute for Developmental Disabilities and
Clinical Professor, Division of Clinical Rehabilitation and Mental Health Counseling,
Department of Allied Health Sciences, School of Medicine, University of North Carolina at
Chapel Hill
Previous Positions Held
Program Director, Behavioral Associates of Massachusetts, Inc., Attleboro, MA and
Associate Clinical Director, The Groden Center, Inc., Providence, RI, June 1986 to July 1988.
Clinical Associate Professor, Department of Psychiatry, and Director of Training, Division
TEACCH (Treatment and Education of Autistic and related Communication
handicapped CHildren), and
Clinical Associate Professor, Division of Special Education, School of Education, University of
North Carolina at Chapel Hill, March 1978 to June 1986.
Assistant Professor, Department of Psychology, University of Massachusetts, Amherst, MA,
September 1972 - March 1978.
Director, Preschool Intervention Project, Psychological Services Center, University of
Massachusetts, June 1973 - June 1975.
Professional Preparation

APP.497

Graduate Assistant in Psychology, Developmental Evaluation Clinic, Bowman Gray School of
Medicine of Wake Forest University, Winston-Salem, NC, September 1966 - August 1968.
Fellow, Training Program for Research Behavioral Scientists in Mental Retardation, George
Peabody College, Nashville, TN, September 1968 - August 1971.
Clinical Psychology - Mental Retardation Intern, Division of Medical Psychology,
Neuropsychiatric Institute, Center for the Health Sciences, University of California, Los
Angeles, CA, June 1970 - August 1970.
Clinical Child Psychology Intern, Children's Rehabilitation Unit, University of Kansas Medical
Center, Kansas City, KS, September 1971 - August 1972.
Editorial Work
Served as Guest Editor for: American Journal on Mental Retardation, American Journal of
Psychiatry, Behavior Therapy, Applied Research in Mental Retardation, Child Development,
Journal of Applied Behavior Analysis, Journal of Autism and Developmental Disorders,
Journal of Child and Family Studies, Journal of Clinical Child Psychology, Journal of Mental
Health Research in Developmental Disabilities, Journal of the Association for Persons with
Severe Handicaps, Journal of Intellectual Disabilities Research, Journal of Policy and Practice
in Intellectual Disabilities, International Journal of Forensic Mental Health, Law & Social
Inquiry, Merrill-Palmer Quarterly, Research in Autism Spectrum Disorders, Research in
Developmental Disabilities
Book Review Editor: Journal of Autism and Developmental Disorders, 1982 - 1986.
Consulting Editor: Preventing School Failure (formerly The Pointer), 1979 - 2016.
Consulting Editor: Focus on Autism and Other Developmental Disabilities, 1995 - 2016
Grants and Contracts
Principal Investigator: Contract with the North Carolina Council on Developmental Disabilities:
-Year Plan (March 2005-November 2005)
Principal Investigator: Youths for Advocacy, a Project of National Significance funded by the
U. S. Administration on Developmental Disabilities. (October 2007-September 2010)
Principal Investigator: Work Group on the Role of Psychologists in Atkins Hearings, funded by
the American Psychological Association (January 2007-November 2008)
Principal Investigator: Next Generation: Acting for Advocacy, a Project of National Significance
funded by the U. S. Administration on Developmental Disabilities. (October 2004-September
2007)
Principal Investigator (with Anne Wheeler): Linking Learning with Neurodevelopmental
Functioning: Management Strategies for Children with Prader-Willi Syndrome. Grant from the
Prader-Willi Research Foundation. (May 2006-April 2007)
Principal Investigator: 5-Year Plan Project, grant from the North Carolina Council on
Developmental Disabilities. (October 2005-June 2006)

APP.498

Principal Investigator: Transition to Community, contract with the NC Division of Mental Health,
Developmental Disabilities, and Substance Abuse Services. (June 2005 September 2007)
Principal Investigator: Shifting the Power, a Project of National Significance funded by the U.S.
Administration on Developmental Disabilities. (October 2000 September 2003)
Principal Investigator: Steps Toward Independence and Responsibility funded by the North
Carolina Council on Developmental Disabilities (September 2001 August 2004)
Principal Investigator: contracts with Developmental Disabilities Section of NC Department of
Health and Human Services for surveys associated with the Core Indicators Project
(September 2000-June 2003), Summer Apprenticeship (April 1998-June 2000), Behavioral
Supports Clearinghouse (August 1998 June 2000), training in Problem Solving for Life
(August 1998 June 2000), Self-Determination and Self-Advocacy (April 1998 present), and
consultation to community programs (September 1995 June 2000).
Principal Investigator:
October 1994-June 1997; July 1997-June 2001.
Contract with Thomas S. Section of NC Department of Human Resources, Screening of Adults
for Eligibility in the Thomas S. Class, February 1995-March 1996.
Principal Investigator: "Survey of Summer Campers with Spina Bifida and Their Siblings,"
University Research Council, University of North Carolina at Chapel Hill, June 1991 - May
1992.
Principal Investigator, Grumman Grant for continuing education for teachers to use the
TEACCH communication and social skills curricula, from Division of Extension and Continuing
Education, University of North Carolina, July 1, 1984 - June 30, 1985.
Early Education Component Director, "Model Educational Program for Autistic Children and
Youth," contract from Office of Special Education, October 1980 - January 1984.
One of the Participating Trainers, "National Personnel Training Program for Teachers of
Children with Autism," grant from Office of Special Education to National Society for Children
and Adults with Autism, August 1981 - May 1985.
Co-Director (with Eric Schopler): "Special Project: Comprehensive Inservice Training Program
for Personnel Serving Autistic Children," Office of Special Education, June 1979 - May 1982.
Co-Principal Investigator (with R. J. Simeonsson and L. M. Marcus): "An Observational
Approach to the Investigation of Educational Skills of Autistic Children," Research Grants in
Education for Young Scholars in the Behavioral Sciences, School of Education, University of
North Carolina at Chapel Hill, July 1978 - June 1979.
Co-Director (with Beth Sulzer-Azaroff): "Training Grant for Educational Change Strategists for
the Severely Handicapped," Bureau of Education for the Handicapped, July 1974 - March
1978.
Principal Investigator: Faculty Research Grant, University of Massachusetts, "Investigation of
Effects of Modeling on Diversity of Children's Drawings" (in collaboration with Richard
Dubanoski, University of Hawaii), June 1976 - May 1977.

APP.499

Principal Investigator: Broadened Faculty Research Grant, University of Massachusetts,
"Relaxation as a Self-Control Procedure for Children," fall semester, 1975.
Principal Investigator: contract between University of Massachusetts and Massachusetts
Department of Public Welfare for the Preschool Intervention Project, May 1973 - June 1975.

Honors
Fellow, Division on Intellectual and Developmental Disabilities, American Psychological
Association
Fellow, American Association on Intellectual and Developmental Disabilities
Recipient of the North Carolina Arc LIFEguardianship Distinguished Service Award, 1994
Recipient of the Excellence in Applied Behavior Analysis Award from the North Carolina
Association for Behavior Analysis, 1991
Recipient of the Distinguished Teacher in Psychology Award from Council of Undergraduate
Students in Psychology, University of Massachusetts, Amherst, 1974 and 1976.
Research and Publications
Olley, J. G. (1968). The effect of ready signal contingency and partial reinforcement on eyelid
conditioning. Unpublished master's thesis, Wake Forest University, Winston-Salem, NC.
Stedman, D. J., & Olley, J. G. (1969). Bibliography of the world's clinical and research
literature on Down's syndrome: Behavioral, social and educational studies through 1968
(IMRID Papers and Reports, Vol. 6, No. 2). Nashville, TN: George Peabody College,
Institute on Mental Retardation and Intellectual Development.
Olley, J. G. (1971). Sex differences in human behavior in the first year of life. (Peabody
Papers on Human Development, Vol. 9, No. 1). Nashville, TN: George Peabody College.
Johnson, J. T., & Olley, J. G. (1971). Behavioral comparisons of mongoloid and nonmongoloid
retarded persons: A review. American Journal of Mental Deficiency, 75, 546-559.
Olley, J. G. (1974). Mother-infant interactions during feeding (Doctoral dissertation, George
Peabody College for Teachers, 1973). Dissertation Abstracts International, 34, 347B.
(University Microfilms No. 73-32646).
Olley, J. G., & Fremouw, W. J. (1974). The voting rights of the mentally retarded: A survey of
state laws. Mental Retardation, 12(1), 14-16. Reprinted in: (1974). Behavior Today, 5,
112. Reprinted in: Office of Handicapped Individuals (1976). Handicapping conditions: A
resource book. Atlanta: Transaction Systems.
Olley, J. G. (1977). Another influence on the direction of school psychology. American
Psychologist, 32, 779. (Comment).

APP.500

Olley, J. G., & Ramey, G. D. (1978). Voter participation of retarded citizens in the 1976
presidential election. Mental Retardation, 16, 255-258.
Loveland, K. K., & Olley, J. G. (1979). The effect of external reward on interest and quality of
task performance in children of high and low intrinsic motivation. Child Development, 50,
1207-1210.
McHale, S. M., & Simeonsson, R. J., Marcus, L. M., & Olley, J. G. (1980). The social and
symbolic quality of autistic children's communication. Journal of Autism and Developmental
Disorders, 10, 299-310.
Novak, M. A., Olley, J. G., & Kearney, D. S. (1980). Social skills of handicapped children in
integrated and separate preschools. In T. M. Field (Ed.), High-risk infants and children:
Adult and peer interactions (pp. 327-346). New York: Academic Press.
Olley, J. G. (1980). Organization of educational services for autistic children and youth. In B.
Wilcox & A. Thompson (Eds.), Critical issues in educating autistic children and youth (pp.
13-23). Washington, DC: US Department of Education, Office of Special
Education/Division of Innovation and Development. Reprinted in (1981). Counterpoint,
2(1), 1, 31-33.
Olley, J. G. (1980). Report of a survey on licensure of psychologists in mental retardation.
Mental Retardation Newsletter, 1, 6.
Schopler, E., & Olley, J. G. (1980). Public school programing for autistic children. Exceptional
Children, 46, 461-463.
Marcus, L. M., McHale, S. M., Olley, J. G., & Simeonsson, R. J. (1981). A Piagetian approach
to investigate educational skills of autistic children. In P. Mittler (Ed.), Frontiers of
knowledge in mental retardation. Proceedings of the Fifth Congress of IASSMD, Vol. 1,
Social educational, and behavioral aspects (pp. 91-99). Baltimore: University Park Press.
McHale, S. M., Olley, J. G., Marcus, L. M., & Simeonsson, R. J. (1981). Nonhandicapped
peers as tutors for autistic children. Exceptional Children, 48, 463-465.
Olley, J. G., DeVellis, R. F., DeVellis, B. M., Wall, A. J., & Long, C. E. (1981). The Autism
Attitude Scale for Teachers. Exceptional Children, 47, 371-372.
Schopler, E., & Olley, J. G. (1982). Comprehensive educational services for autistic children:
The TEACCH model. In T. B. Gutkin & C. R. Reynolds (Eds.), The handbook of school
psychology (pp. 629-643). New York: Wiley.
Sulzer-Azaroff, B., & Olley, J. G. (1982). Training of psychologists in mental retardation: A
graduate training program. Psychology in Mental Retardation: Division 33 Newsletter, 7(3),
6-7.
McHale, S. M., & Olley, J. G. (1982). Using play to facilitate the social development of
handicapped children. Topics in Early Childhood Special Education, 2(3), 76-86.
Olley, J. G., & Marcus, L. M. (1984). Considerations in the assessment of children with autism.
In S. J. Weaver (Ed.), Testing children: A reference guide for effective clinical and
psychoeducational assessments (pp. 71-84). Kansas City, MO: Test Corporation of
America.

APP.501

Olley, J. G. (1985). Social aspects of language in autistic children. In E. Schopler & G. B.
Mesibov (Eds.), Communication problems in autism (pp. 311-328). New York: Plenum.
Olley, J. G., & Rosenthal, S. L. (1985). Current issues in school services for students with
autism. School Psychology Review, 14, 166-170.
Schopler, E., Olley, J. G., & Lansing, M. (1985). Jiheisho no chiryo-kyoiku purogurame
[Remedial-education program for autism]. Tokyo: Budou-sha.
Olley, J. G. (1986). The TEACCH curriculum for teaching social behavior to children with
autism. In E. Schopler & G. B. Mesibov (Eds.), Social behavior and autism (pp. 351373). New York: Plenum. doi: 10.1007/978-1-4899-2242-7_17
Olley, J. G. (1987). Classroom structure and autism. In D. J. Cohen, & A. M. Donnellan (Eds.),
Handbook of autism and pervasive developmental disorders (pp. 411-417). Silver Spring,
MD: Winston.
Simeonsson, R. J., Olley, J. G., & Rosenthal, S. L. (1987). Early intervention for children with
autism. In M. J. Guralnick & F. C. Bennett (Eds.), The effectiveness of early intervention
for at risk and handicapped children (pp. 275-296). Orlando, FL: Academic Press.
Marcus, L. M., & Olley, J. G. (1988). Developing public school programs for autistic and other
severely developmentally disabled students. In M. D. Powers (Ed.), Severe developmental
disabilities: Expanding systems of interaction (pp. 179-197). Baltimore: Brookes.
Olley, J. G., & DiLavore, P. C. (1989). Special education. In T. B. Karasu (Ed.), Treatments of
psychiatric disorders: A task force report of the American Psychiatric Association (pp. 123129). Washington, DC: American Psychiatric Association.
Olley, J. G., & Marcus, L. M. (1989). Education for children with autism. In T. B. Karasu (Ed.),
Treatments of psychiatric disorders: A task force report of the American Psychiatric
Association (pp. 192-201). Washington, DC: American Psychiatric Association.
Olley, J. G., & Stevenson, S. E. (1989). Preschool curriculum for autistic children: Addressing
early social skills. In G. Dawson (Ed.), Autism: Nature, diagnosis and treatment (pp. 346366). New York: Guilford.
Olley, J. G. (1992). Autism: Historical overview, definition, and characteristics. In D. E. Berkell
(Ed.), Autism: Identification, education, and treatment (pp. 3-20). Hillsdale, NJ: Lawrence
Erlbaum.
Olley, J. G., Robbins, F., & Morelli Robbins, M. (1993). Current practices in early
intervention for children with autism. In E. Schopler, M. E. Van Bourgondien, & M.
Bristol (Eds.), Preschool issues in autism (pp. 223-245). New York: Plenum. DOI:
10.1007/978-1-4899-2441-4_11
Hooper, S. R., & Olley, J. G. (1996). Psychological comorbidity in adults with learning
disabilities. In N. Gregg, C. Hoy, & A. F. Gay (Eds.), Adults with learning disabilities:
Theoretical and practical perspectives (pp. 162-183). New York: Guilford.

APP.502

Olley, J. G., & Reeve, C. E. (1997). Curriculum and classroom structure. In D. J. Cohen (Ed.),
Handbook of autism and pervasive developmental disorders (2nd ed., pp. 484-508). New
York: Wiley.
Baroff, G. B., with Olley, J. G. (1999). Mental retardation: Nature, cause, and management (3rd
ed.). Philadelphia: Brunner-Routledge.
Olley, J. G. (1999). Curriculum for students with autism. School Psychology Review, 28, 595607.
Olley, J. G., & Gutentag, S. S. (1999). Autism: Historical overview, definition, and
characteristics. In D. E. Zager (Ed.), Autism: Identification, education, and treatment (2nd
ed., pp. 3-22). Hillsdale, NJ: Lawrence Erlbaum.
Paraschiv, I., & Olley, J. G. (1999). Problem Solving for Life: A training program in
interpersonal skills. The NADD Bulletin, 2, 107-109.
Olley, J. G. (2005). Curriculum and classroom structure. In F. R. Volkmar, R. Paul, A. Klin, &
D. Cohen (Eds.), Handbook of autism and pervasive developmental disorders (3rd ed., Vol.
2, pp. 863-881). Wiley.
Olley, J. G., Greenspan, S., & Switzky, H. (2006). Division 33 Ad Hoc Committee on Mental
Retardation and the Death Penalty. Psychology in Mental Retardation and Developmental
Disabilities, 31(2), 11-13.
Olley, J. G. (2006). The assessment of adaptive behavior in adult forensic cases: Part 1.
Psychology in Mental Retardation and Developmental Disabilities, 32(1), 2-4.
Olley, J. G. (2006). The assessment of adaptive behavior in adult forensic cases: Part 2. The
importance of adaptive behavior. Psychology in Mental Retardation and Developmental
Disabilities, 32(3), 7-8.
Olley, J. G. (2007). The assessment of adaptive behavior in adult forensic cases: Part 3.
Sources of adaptive behavior information. Psychology in Mental Retardation and
Developmental Disabilities, 33(1), 3-6.
Everington, C., & Olley, J. G. (2008). Implications of Atkins v. Virginia: Issues in defining and
diagnosing mental retardation. Journal of Forensic Psychology Practice, 8, 1-23.
Larson, K. A., Griffin, M. P., & Olley, J. G. (2008). Competency to be sentenced. In B. L.
Cutler (Ed.), Encyclopedia of psychology and law (Vol. 1, pp. 116-118). Sage.
Olley, J. G., & Cox, A. W. (2008). Assessment of adaptive behavior in adult forensic cases:
The use of the Adaptive Behavior Assessment System-II. In T. Oakland & P. L. Harrison
(Eds.), Adaptive Behavior Assessment System-II: Clinical use and interpretation (pp. 381398). Elsevier.
Macvaugh, G. S., Salekin, K. L., & Olley, J. G. (2009). Mental retardation and the death
penalty. In A. Jamieson & A. Moenssens (Eds.), Wiley encyclopedia of forensic science
(pp. 1730-1737). Wiley.

APP.503

Marinos, V., Griffiths, D., Gosse, L., Robinson, J., Olley, J. G., & Lindsay, W. (2009). Legal
rights and persons with intellectual disabilities. In F. Owen & D. Griffiths (Eds.), Challenges
to the human rights of people with intellectual disabilities (pp. 124-154). Jessica Kingsley.
Olley, J. G. (2009). Challenges in implementing the Atkins decision. American Journal of
Forensic Psychology, 27(2), 63-73.
Olley, J. G. (2009). Knowledge and experience required for experts in Atkins cases. Applied
Neuropsychology, 16, 135-140. doi:10.1080/09084280902864477
Salekin, K. L., & Olley, J. G. (2009). Mental retardation/intellectual disability. In A. Jamieson &
A. Moenssens (Eds.), Wiley encyclopedia of forensic science (pp. 1724-1730). Wiley.
Salekin, K. L., Olley, J. G., & Hedge, K. A. (2010). Offenders with intellectual disability:
Characteristics, prevalence, and issues in forensic assessment. Journal of Mental
Health Research in Intellectual Disabilities, 3, 97-116.
https://doi.org/10.1080/19315861003695769
Chen, D., Salekin, K., Olley, J. G., & Fulero, S. M. (2011). Research with offenders with
intellectual disability. In B. Rosenfeld & S. D. Penrod (Eds.), Research methods in forensic
psychology (pp. 421-432). Wiley.
Olley, J. G. (2012). Intellectual disability past, present and future. Psychology in Intellectual
and Developmental Disabilities, 38(1), 3-5.
Olley, J. G. (2012). The death penalty, the courts, and intellectual disability. In J. K. Luiselli
(Ed.), The handbook of high-risk challenging behaviors: Assessment and intervention (pp.
229-240).: Brookes.
Olley, J. G. (2013). Definition of intellectual disability in criminal court cases. Intellectual and
Developmental Disabilities, 51, 117-121. doi:10.1352/1934-9556-51.2.117
Olley, J. G. (2014). Capital sentencing: Atkins-type cases. In K. Heilbrun, D. DeMatteo, S. B.
Holiday, & C. LaDuke (Eds.) Forensic mental health assessment: A casebook (2nd ed., pp.
146-163).: Oxford University Press.
Greenspan, S., & Olley, J. G. (2015). Variability of IQ test scores. In E. Polloway (Ed.), The
death penalty and intellectual disability (pp. 141-153.).: American Association on
Intellectual and Developmental Disabilities.
Olley, J. G. (2015). Adaptive behavior instruments. In E. Polloway (Ed.), The death penalty
and intellectual disability (pp. 187-200). American Association on Intellectual and
Developmental Disabilities.

APP.504

Olley, J. G. (2015). Time at which disability must be shown in Atkins cases. In E. Polloway
(Ed.), The death penalty and intellectual disability (pp. 213-218). American Association on
Intellectual and Developmental Disabilities.
Olley, J. G. (2018). Death penalty and intellectual disability. In E. Braaten (Ed.), SAGE
encyclopedia of intellectual and developmental disorders (pp. 349-352). SAGE.
Aiello, P., Di Gennaro, D. C., Girelli, L., & Olley, J. G. (2018). Inclusione e atteggiamenti
Dei docent verso gli student con disturb dello spettro autistic:Suggestioni de uno studio
Reflections from a pilot study). Formazione & Insegnamento, 15 (1), 175-188.
doi: 107346/-fei-XVI-01-18_15
Olley, J. G., & Cox, A. W. (in press). Intellectual and developmental disabilities in the criminal
justice system. In L. M. Glidden (Ed.), APA handbook on intellectual and developmental
disabilities. American Psychological Association.
Papers presented (since 1990 only)
Olley, J. G. (1990, March). Behavioral services for adults with developmental disabilities in the
community. Invited address presented at the meeting of the North Carolina Association for
Behavior Analysis, Charlotte.
Olley, J. G. (1990, October). Workshop on assessment and treatment for people with dual
diagnosis. Workshop presented at the meeting of the Berkshire Association for Behavior
Analysis and Therapy, Amherst, MA.
Olley, J. G. (1991, February). A behavioral look at dual diagnosis. Invited presentation at the
meeting of the North Carolina Association for Behavior Analysis, Greensboro, NC.
Olley, J. G., & Larkins, C. H. (1991, February). Implications of the 'Thomas S.' lawsuit for
community services. Invited presentation at the Creative Dimensions in Developmental
Disabilities conference, Greenville, NC.
Olley, J. G., & Hooper, S. R. (1991, August). Do people with mental retardation understand
what they are asked in personality tests? Paper presented at the meeting of the American
Psychological Association, San Francisco.
Olley, J. G. (1991, October). The future of research and services in autism. Keynote address
at the annual EDEN Institute Conference on Autism, Princeton, NJ.
Olley, J. G. (1994, May). Psychopathology in individuals with mental retardation: A behavioral
look at dual diagnosis. Paper presented at the meeting of the North Carolina Psychological
Association, Atlantic Beach, NC.
Olley, J. G. (1995, August). Curriculum issues in autism. Invited presentation at the meeting on
autism of the Texas Education Agency, Austin, TX.
Olley, J. G., Jens, K. G., & Klindworth, L. M. (1995, November). Learning for Life: Adult
Education for Individuals with Mental Retardation. Paper presented at the meeting of
the National Association for Adults with Special Learning Needs, Chicago, IL.

APP.505

Olley, J. G. (1995, December). Psychopathology and mental retardation: Educational and
environmental approaches. Invited presentation at the meeting of the Alabama Council
for Children with Behavioral Disorders, Birmingham, AL.
Olley, J. G. (1996, February). Behavioral treatment of individuals with Prader-Willi syndrome.
Paper presented at the meeting of the North Carolina Association for Behavior
Analysis, Asheville, NC.
Olley, J. G., & Jens, K. G. (1996, May). Issues in the education of adults with mental
retardation. Paper presented at the meeting of the Commission on Adult Basic
Education, Pittsburgh, PA.
Olley, J. G. (1996, May). What information do policymakers need to make policy in
developmental disabilities? Symposium chaired at the meeting of the American
Association on Mental Retardation, San Antonio, TX.
Olley, J. G., Jacob, A. V., Paraschiv, I., Klindworth, L. M., & Jens, K. G. (1996, May).
Diagnosis of mental retardation in adults. Paper presented at the meeting of the
American Association on Mental Retardation, San Antonio, TX.
Olley, J. G., & Paraschiv, I. (1996, September). Problem Solving for Life: Instruction for adults
with mental retardation. Paper presented at the meeting of the National Association for
Adults with Special Learning Needs, New Orleans, LA.
Olley, J. G. (1996, October). Autism: Conventional wisdom, careful research, and controversial
approaches. Invited presentation at the 1996 Cornwell Lecture Series, Morganton, NC.
Olley, J. G. (1997, October). Curriculum for children and adults with autism. Paper presented
at the meeting of the North Carolina American Association on Mental Retardation,
Greensboro, NC.
Paraschiv, I., & Olley, J. G. (1998, April). Problem Solving for Life: Social skills training for
adults with mental retardation/developmental disabilities. Paper presented at the
conference of the YAI: National Institute for People with Disabilities, New York, NY.
Olley, J. G., Golden, J., & Bailey, J. (1998, May). One act with three players: Turning critics of
behavior analysis into partners for positive change. Symposium presented at the
meeting of the Association for Behavior Analysis, Orlando, FL.
Olley, J. G. (1998, May). Discussant for symposium The Ralph J. Bauduin Oral School:
Research and program design for children with autism. Symposium presented at the
meeting of the Association for Behavior Analysis, Orlando, FL.

APP.506

Olley, J. G. (1998, September). What do we know about autism that is new? Invited paper
presented at the meeting of the North Carolina American Association on Mental
Retardation, Greensboro, NC.
Olley, J. G., Carswell, R., & Palmer, G. (1998, October). Successful behavior interventions.
Invited presentation at Together We Can! Using Positive Behavior Support in the
Classroom and at Home. Greensboro, NC.
Olley, J. G., & Paraschiv, I. (1998, November). A program to teach problem solving skills for
independent living. Paper presented at the meeting of NADD: An Association for
Persons with Developmental Disabilities and Mental Health Needs, Albuquerque, NM.
Olley, J. G., Paraschiv, I., & Carswell, R. (1999, May). Problem solving as a format for
supporting self-determination and choice-making. Pre-conference workshop presented at
the meeting of the American Association on Mental Retardation, New Orleans, LA.
Olley, J. G. (1999, September). Mental retardation and the criminal justice system. Paper
presented at the meeting of the North Carolina American Association on Mental
Retardation, Greensboro, NC.
Olley, J. G. (1999, September). Progress in services and supports for people with disabilities:
One person makes a difference. Invited presentation at the meeting of the North Carolina
American Association on Mental Retardation, Greensboro, NC.
Olley, J. G. (1999, October). Prader-Willi syndrome and other low prevalence disorders. Paper
presented at the meeting of the Community Living Association, Atlantic Beach, NC.
Olley, J. G., Tassé, M., & Havercamp, S. (2000, February). Applications of applied behavior
analysis in community settings serving people with disabilities. Paper presented at the
meeting of the North Carolina Association for Behavior Analysis, Asheville, NC.
Olley, J. G., Carswell, R., Finks, W., & Dorton, R. (2000, April). Sex and relationships: When to
say yes and when to say no. Workshop presented at the North Carolina Self-Advocacy
Convention, Winston-Salem, NC.
Olley, J. G. (2000, May). Activity schedules as a guide to community consultation: A call for
research. Paper presented at the meeting of the Association for Behavior Analysis
International, Washington, DC.
Dykeman, C., Pennell, R. L., Dawkins, B., Holden, J., & Olley, J. G. (2001, May). Factors
associated with problem behavior in the Special Olympics World Summer Games. Paper
presented at the meeting of the Association for Behavior Analysis International, New
Orleans, LA.
Holburn, C. S., Vietze, P. M., Olley, J. G., & Baer, D. M. (2001, May). Is applied behavior
analysis adapting to the changing DD environment? Panel discussion at the meeting of the
Association for Behavior Analysis International, New Orleans, LA.
Golden, J. A., Strickland, D., Olley, J. G., & Cripe, M. (2001, May). Trauma in foster children:
Perspectives and contributions from behavior analysis. Pannel discussion at the meeting of
the Association for Behavior Analysis International, New Orleans, LA.

APP.507

Olley, J. G., & Yates, L. (2001, May). Criminal justice initiatives: A report from the DD/Criminal
Justice Work Group. Paper presented at the Best Practices in Developmental Disabilities
Conference, Greensboro, NC.
Olley, J. G. (2002, February). Effective services for students with autism: What do we know
and what do we need to know? Invited presentation at the Alaska Statewide Special
Education Conference, Anchorage, AK.
Olley, J. G. (2002, April). Autism and developmental disorders. Invited presentation at the
meeting of the Maryland School Psychology Association, Baltimore, MD.
Paraschiv, I., & Olley, J. G. (2003, February). Teaching problem solving for community living.
Paper presented at the meeting of the Council on Exceptional Children's Division on
Developmental Disabilities, Koloa, HI.
Olley, J. G. (2003, April). Autism: What do we know and what do we need to know? Invited
paper presented at the 19th Annual Sharing Our Best Conference, Hastings, NE.
Olley, J. G. (2003, May). Cautions in evaluating alternative therapies and approaches. Paper
presented at the Best Practices in Developmental Disabilities Conference, Greensboro,
NC.
Olley, J. G. (2003, November). Mental retardation and the death penalty: The psychologist as
expert witness. Invited presentation at the meeting of the Virginia Bar Association,
Richmond, VA.
Everington, C., & Olley, J. G. (2004, March). An analysis of forensic psychological evaluations
in capital cases involving defendants with mental retardation: Has Atkins made a
difference? Paper presented at the meeting of the American Psychology-Law Society,
Scottsdale, AZ.
Olley, J. G. (2004, May). Psychological assessment of mental retardation in capital cases.
Invited presentation at the Capital Habeas Unit Conference, Administrative Office of the
U.S. Courts, Ponte Vedra Beach, FL.
Olley, J. G. (2004, October). Recent advances in the education of children with autism.
Presentation at the Fall NCAAMR Institute, Morganton, NC.
Olley, J.G. (2006, May). The death penalty: Issues in expert testimony in Atkins hearings.
Paper presented at the meeting of The International Summit for the Alliance on Social
Inclusion, Montreal, Canada.
Olley, J. G. (2006, August). Symposium Chair: Mental retardation and the death penalty:
Challenges facing psychologists. Symposium at the meeting of the American
Psychological Association, New Orleans, LA.

APP.508

Olley, J. G. (2006, August). Search for professional standards in Atkins hearings. Paper
presented at the meeting of the American Psychological Association, New Orleans, LA.
Olley, J. G., & Everington, C. (2007, March). The measurement of adaptive behavior in Atkins
cases. Paper presented at the Off the Witness Stand conference, John Jay College of
Criminal Justice, New York.
Salekin, K. L., & Olley, J. G. (2008, March).
Workshop presented at the meeting of
the American Psychology-Law Society, Jacksonville, FL.
Olley, J. G. (2008, August). Psychology training in developmental disabilities at the University
of North Carolina at Chapel Hill. Paper presented at the meeting of the American
Psychological Association, Boston, MA.
Olley, J. G. (2008, August). Symposium Chair: Intellectual disability and the death penalty:
Current and future contributions of psychologists in Atkins cases. Symposium at the
meeting of the American Psychological Association, Boston, MA.
Salekin, K. L., & Olley, J. G. (2008, August). What does research tell us, and what research do
we need in Atkins cases? Paper presented at the meeting of the American Psychological
Association, Boston, MA.
Olley, J.G. (2008, November). Symposium Chair: Challenges facing professional organizations
in developmental disabilities. Symposium at the Annual Meeting of the Association of
University Centers on Disabilities, Washington, DC.
Olley, J. G., Salekin, K. L., & Siperstein, G. N. (2009, March). Diagnosis of intellectual
disability in high stakes conditions: Translating basic research to practice in death penalty
cases. Paper presented at the 43rd Annual Gatlinburg Conference on Research and
Theory in Intellectual and Developmental Disabilities, New Orleans, LA.
Olley, J. G. (2009, October). Investigating intellectual disabilities with a focus on adaptive
functioning. Invited presentation at the Capital Case Seminar of the Los Angeles County
, CA.
Olley, J. G., & Stevens, K. C. (2010, January). Recognizing and explaining mild mental
retardation. Death Penalty 2010: Continuing Legal Education Seminar of the North
Carolina Advocates for Justice, Cary, NC.
Olley, J. G. (2010, August). The death penalty, the courts, and what we have learned about
intellectual disability. Division 33 Presidential Address presented at the meeting of the
American Psychological Association, San Diego, CA.
Olley, J. G. (2011, February). The expert witness, intellectual disability, and the death penalty.
Invited address presented at the California Attorneys for Criminal Justice and California
Public Defenders Association Capital Case Defense Seminar, Monterey, CA.

APP.509

Olley, J. G., & Yackel-Christenson, J. (2011, March). Atkins investigation: Roles and
responsibilities of the mitigation specialist. Invited 3-part presentation at the meeting of the
National Alliance of Sentencing Advocates and Mitigation Specialists, Orlando, FL.
Olley, J. G. (2011, March). Lessons learned from Atkins v. Virginia: Implications for juveniles.
Children Adjudicated by Courts, Chapel Hill, NC.
Olley, J. G. (2011, August). Chair: Perspectives on intellectual disability and the death penalty
Toward more effective contribution of psychologists in Atkins cases. Invited Symposium
at the Convention of the American Psychological Association, Washington, DC.
Salekin, K. L. & Olley, J. G. (2011, August). Eligible for execution? Assessment of intellectual
disability as per Atkins. Continuing Education Workshop presented at the Convention of
the American Psychological Association, Washington, DC.
Olley, J. G., & Yackel, J. C. (2011, October). Building partnerships: The complementary role of
mitigation specialist and evaluating experts. Invited presentation at Advanced Capital
Training, New Orleans, LA.
Greenman, L., & Olley, J. G. (2011, November). Exploring intellectual disability in your client.
Invited presentation at the Virginia Bar Association Capital Defense Workshop, Richmond,
VA.
Olley, J. G., & Yackel, J. C. (2011, November). Investigating capital cases involving dual
diagnosis. Paper presented at the annual meeting of NADD: An Association for Persons
with Developmental Disabilities and Mental Health Needs, Nashville, TN.
Salekin, K. L., Olley, J. G., & Ellis, J. (2012, June). The assessment of ID in capital cases.
Workshop presented at the annual conference of the American Association on Intellectual
and Developmental Disabilities, Charlotte, NC.
Yackel, J. C., & Olley, J. G. (2012, November). Understanding the law and science between
Atkins and its progeny. Invited presentation at the Life in the Balance conference of the
National Legal Aid and Defender Association, St. Louis, MO.
Garvey, S., & Olley, J. G. (2013, October). Investigating and presenting evidence of adaptive
deficits. Invited presentation at the Habeas Corpus Resource Center Fall Conference
2013, San Francisco, CA.
Salekin, K. L., & Olley, J. G. (2014, March). Evaluation of intellectual disability in capital cases:
Twelve years post Atkins. Workshop presented at the meeting of the American
Psychology-Law Society. New Orleans, LA.

APP.510

Olley, J. G., & Miller, C. N. (2014), June). Challenges in assessing intellectual and adaptive
functioning in foreign nationals. Paper presented at the meeting of the American
Association on Intellectual and Developmental Disabilities, Orlando, FL.
Olley, J. G. (2014, November). People with intellectual disability and autism in the criminal
justice system. Paper presented at the meeting of NC Training, Instruction, Development,
and Education, Asheville, NC.
Nygren, M. A., Polloway, E. A., Tassé, M. J., & Olley, J. G. (2015, June). Focus on the death
penalty. Panel presentation at the meeting of the American Association on Intellectual and
Developmental Disabilities, Louisville, KY.
Olley, J. G. (2015, August). Stereotypes of intellectual disability affect death penalty decisions:
Examples from court opinions. Paper presented at the convention of the American
Psychological Association, Toronto, Ontario.
Olley, J. G. (2015, August). Adaptive deficits: The current state of the science. Invited
presentation at the Twentieth Annual National Federal Habeas Corpus Seminar, Charlotte,
NC.
Olley, J. G. (2016, September). Identifying persons with intellectual disability. Keynote
Address at the Georgia Capital; Defenders
, Atlanta, GA.
Olley, J. G. (2016, October) Intellectual disability: Understanding intelligence testing. Invited
address at the 2016 Association of Administrative Law Judges Education Conference, San
Diego, CA.
Olley, J. G., & Hazelrigg, M. (2017, May). Intellectual disability. Presentation at Capital Case
Management for Superior Court Judges, North Carolina Judicial College, Chapel Hill, NC
Olley, J. G. (2018, January). Gathering information and providing expert testimony on adaptive
behavior functioning in capital cases. Invited paper presented at the 2018 Texas
Summit on the Assessment of Adaptive Behavior in Capital Cases, Austin, Texas.
Olley, J. G. (2019, May). Interviewing victims: Key issues and challenges. Invited presentation
at the Annual Meeting and Conference of the North Carolina Partnership to Address
Adult Abuse, Raleigh, NC.
Olley, J. G., Reschly, D., Yackel, J., & Salekin, K. (2019, August). New developments in the
death penalty and people with intellectual disability. Continuing education workshop
presented at the Convention of the American Psychological Association, Chicago, IL.
Olley, J. G. (2020, July). Evaluation of intelligence in Atkins cases. Continuing education
symposium presented by Zoom at the National Association for Public Defenders
Symposium.
Posters

APP.511

Olley, J. G., Hooper, S. R., & Flagler, S. (1990, October). Assessment of the social-emotional
status of adults with mental retardation using self-report. Poster presented at the meeting
of the American Association of University Affiliated Programs in Developmental Disabilities,
Madison, WI.
Olley, J. G., Hooper, S. R., & Flagler, S. (1990, October). Personal adjustment counseling for
young adults with mental retardation. Poster presented at the meeting of the American
Association of University Affiliated Programs in Developmental Disabilities, Madison, WI.
Olley, J. G., Paraschiv, I., Allison, J., & Jacob, A. V. (1996, September). Problem Solving for
Life: Adult education for individuals with mental retardation. Poster presented at the
meeting of the North Carolina chapter of the American Association on Mental Retardation,
Raleigh, NC.
Olley, J. G., Paraschiv, I., & Jacob, A. V. (1997, May). Learning for Life: A training program to
assist the Compensatory Education of adults with mental retardation. Poster presented at
the meeting of the American Association on Mental Retardation, New York, NY.
Paraschiv, I., & Olley, J. G. (1997, May). Effectiveness of a training program in social problem
solving skills. Poster presented at the meeting of the American Association on Mental
Retardation, New York, NY.
Olley, J. G., & Carswell, R. (1998, September). The behavioral supports clearinghouse. Poster
presented at Together We Can! Using Positive Behavior Support in the Classroom and at
Home, Greensboro, NC.
Paraschiv, I., Olley, J. G., & Carswell, R. L. (1999, April). A program to teach problem solving
as a skill for independent decision making. Poster presented at the meeting of the Council
for Exceptional Children, Charlotte, NC.
Book Reviews
Olley, J. G. (1979). Review of Mental Retardation: A developmental approach by C. C.
Cleland, Mental retardation: The changing outlook by R. P. Ingalls, and Retardation:
Issues, assessment, and intervention by J. T. Neisworth & R. M. Smith. Journal of Autism
and Developmental Disorders, 9, 131-133.
Olley, J. G. (1986). Review of Annotated bibliography of autism: 1943-1983 by A. J. Tari, J. L.
Clewes, & S. J. Semple. Journal of Autism and Developmental Disorders, 16, 245-246.
Olley, J. G. (1986). Review of Classic readings in autism by A. Donnellan (Ed.). Journal of
Autism and Developmental Disorders, 16, 394-395.
Olley, J. G. (1987). Review of Management of autistic behavior: Information service for
educators. Edited by R. L. Simpson & M. Regan. Journal of the Association for Persons
with Severe Handicaps, 12, 72-73.
Olley, J. G. (2006). Review of Lessons learned from a lawsuit: Creating services for people
with mental illness and mental retardation, Social Science & Medicine, 62, 523-524.

APP.512

Instructional Materials
Olley, J. G., Paraschiv, I., Allison, J., & Jacob, A. V. (2000). Problem solving for life: Teaching
problem solving to adolescents and adults with developmental disabilities. Clinical Center
for the Study of Development and Learning, University of North Carolina at Chapel Hill:
Chapel Hill, NC.
Memberships in Professional Associations
American Psychological Association (Life Member; member of Divisions 25 & 41; Fellow in
Division 33)
President, Division on Intellectual and Developmental Disabilities 2009-2010
American Association on Intellectual and Developmental Disabilities (formerly American
Association on Mental Retardation) (Fellow, Life Member)
North Carolina Chapter, American Association on Intellectual and Developmental Disabilities
(Chair, Committee on Research)
North Carolina Association for Behavior Analysis (President 1992-93)
Licensure
Licensed Psychologist, North Carolina, license number 587.
Community and Professional Service (since 1990 only)
1990 - 1993

Member, Exceptional Children's Advisory Council, Chapel HillCarrboro City Schools

1992 - 1993

President, North Carolina Association for Behavior Analysis

1992 - 2007

Behavioral consultant to NC Arc Lifeguardianship

1993 - 1998

Member, National Community Education Directors Council,
American Association of University Affiliated Programs

1994 - 2002

Member, Area Board of the Orange-Person-Chatham Mental
Health, Developmental Disabilities, and Substance Abuse Services
(Secretary 1999-2002); Committee on Developmental Disabilities
(1994-2002); Client Rights Committee (1994-2008)

1995 - 2006

Consultant: The North Carolina Mentor Network

1995 - 2000

Consultant: Southeastern Regional MH, DD, and SA Services,
Thomas S. Section

1996 - 1998

Consultant: Piedmont Area MH, DD, and SA Services,
Thomas S. Section

1998

Grant Application Panel Review Member. National Institute on

APP.513

Disability and Rehabilitation Research, U.S. Dept. of Education
1998 - 2008

Member, North Carolina Council on Developmental Disabilities

2000

2012

Chair, Committee on Research, North Carolina American
Association on Intellectual and Developmental Disabilities

2002

2007

Ex Officio Member, North Carolina
for Persons with Disabilities

2002
2000

Advocacy Council

Member, NC Health Choice Task Force
2007

Member, North Carolina Partners in Justice Advisory Committee

2005 - present

Member, ad hoc Committee on Developmental Disability and the
Criminal Justice System, Division 33, American Psychological
Association (Chair 2005-2015)

2008

Ex Officio Member, Disability Rights North Carolina

2008 - 2014

Member, North Carolina Commission for Mental Health,
Developmental Disabilities, and Substance Abuse Services
(Vice-Chair, 2009 2011 ; Chair, 2011-2014)

2009 -2011

Member, American Association on Intellectual and Developmental
Disabilities Task Force on Intellectual Disability and the Death
Penalty

2014-2019

Member, Policy and Positions Committee, Arc of the United States

2018-2020

Chair, Committee on the Constitution and By-Laws, Division 33 of
the American Psychological Association.

APP.514

APP.515

APP.516

APP.517

APP.518

APP.519

APP.520

APP.521

APP.522

APP.523

APP.524

APP.525

APP.526

APP.527

APP.528

Journal of Special Education
AAMR’s Research Monograph Series
American Journal on Intellectual & Developmental Disabilities
American Journal on Intellectual & Developmental Disabilities
Exceptional Children
Intellectual and Developmental Disabilities

APP.529

Educational Researcher.

Journal of Park and Recreation Administration

American
Journal on Intellectual and Developmental Disabilities.

Camping Magazine
Journal
of Educational Leadership and Policy Studies

Research in Developmental Disabilities, 80

Encyclopedia of Intellectual
and Developmental Disorders

Inclusion, 5

Intellectual and Developmental
Disabilities, 54

Journal of Vocational Rehabilitation, 44

Journal of Research in
Childhood Education

Handbook of Social and Emotional
Learning

APP.530

The Death Penalty and Intellectual Disability

Journal of Vocational Rehabilitation,
41

Journal of Vocational Rehabilitation

Handbook of Social and Emotional Learning

Determining Intellectual Disability in the Courts: Focus on Capital Cases

Oxford Handbook of Positive Psychology and
Disability.

Journal of Vocational Rehabilitation

The American Public’s Perception of Illegal Steroid Use: A National
Survey

Adapted Physical Activity Quarterly

Encyclopedia of
Autism and Related Disorders

Behavioral
Disorders

Disability in the Global Sport Arena:
A Sporting Chance

Behavioral Disorders 36
.

APP.531

Journal of Intellectual
Disability Research,

Journal of Child and Family
Studies.

Intellectual and Developmental
Disabilities.

Journal of
Intellectual Disability Research.

Teaching Exceptional
Children Plus.

Camping Magazine.

American Journal of Forensic Psychology

Behavioral disorders.

Intellectual and
Developmental Disabilities

Adapted
Physical Actively Quarterly.

Exceptionality

Autism

Exceptional
Children

APP.532

Camping Magazine

Social
Competence of Young Children.

Journal of Vocational
Rehabilitation. 24,
Encyclopedia of Measurement & Statistics

What is Mental Retardation? Revised - Ideas for an Evolving Disability in the 21st Century

Handbook of Intellectual and
Developmental Disabilities

Promoting Social Success

Identification of Learning
Disabilities: Research to Practice.

International
Review of Research in Mental Retardation:

Harvard Educational Review, 71

International
Journal of Behavioral Development, 25

Exceptional Children, 66

APP.533

Exceptional Children, 65

Exceptional Children, 65

Focus on Exceptional Children, 30

Teacher Education and
Special Education, 20

American Journal on Mental Retardation,
102
American Journal on Mental Retardation, 101

Journal of Early Adolescents, 17

American Journal on Mental Retardation, 100,

Exceptional Children, 62,

American
Journal on Mental Retardation, 100

Education and Training in
Mental Retardation and Developmental Disabilities, 31

APP.534

School Psychology Quarterly, 10

American Journal on
Mental Retardation, 100
mproving social competence: A resource for
elementary school teachers

Their World
Publication of the National Center for Learning Disabilities

American Journal on Mental Retardation, 98

American Journal on Mental Retardation, 96
Quality of Life: Perspectives and Issues

Education and

Training in Mental Retardation, 27

Advances in
developmental & behavioral pediatrics

Journal of Developmental and Behavioral
Pediatrics, 12

Adolescence and stress: Causes and consequences

Developmental Medicine and Child Neurology, 33

Journal of Educational Psychology, 82

APP.535

Education and
Training of the Mentally Retarded, 25

Mental Retardation, 27

The Journal of
Pediatrics, 113

American Journal on Mental
Retardation, 93

Exceptional Parent, 18

Journal of Learning Disabilities, 21

American Journal of Mental Deficiency, 91

American Journal of Mental Deficiency, 92

Exceptional Children, 54

Pediatrics, 80

American Journal of Mental
Deficiency, 91

merican Journal of Mental Deficiency, 91,

Dimensions of fatherhood

Journal of Learning Disabilities, 18

APP.536

Mainstreaming handicapped children:
Outcomes, controversies, and new discoveries

American Journal of Mental Deficiency,
90

Mental Retardation, 21

Advances in learning and behavioral
disabilities,

American Journal of Mental Deficiency, 86
Children's perceptions of their peers: Evidence of implicit
personality theory

American Journal of Mental Deficiency,
86
for the 80's

Exceptional Children and Special Education
American Journal of Mental Deficiency, 86

American Journal of Mental
Deficiency, 84

Educating mentally retarded persons in the mainstream

Journal
of Visual Impairment and Blindness

Instruments for measuring children's attitudes

Education and Training of the Mentally Retarded, 14

APP.537

American Journal of Mental Deficiency,
82

Mental Retardation, 16

Journal of Learning Disabilities, 11
A scale for measuring (parents'/teachers') attitudes toward mildly and
severely retarded persons

International encyclopedia of psychiatry, psychology, psychoanalysis and neurology,

American Journal of Mental
Deficiency, 81

Journal of Educational Research, 70

American Journal of Mental Deficiency, 80,

Oral sensation and perception: The mouth of an infant

Rehabilitation Literature, 29

APP.538

APP.539

APP.540

APP.541

APP.542

APP.543

Applications of and Outcomes from Community-Based Public
Health Research and Education.

APP.544

APP.545

APP.546

APP.547

APP.548

APP.549

APP.550

APP.551

APP.552

APP.553

APP.554

APP.555

APP.556

APP.557

APP.558

APP.559

APP.560

APP.561

APP.562

APP.563

APP.564

APP.565

APP.566

APP.567

APP.568

APP.569

APP.570

APP.571

APP.572

APP.573

APP.574

APP.575

APP.576

APP.577

APP.578

APP.579

APP.580

APP.581

APP.582

APP.583

APP.584

APP.585

APP.586

APP.587

APP.588

APP.589

APP.590

APP.591

APP.592

APP.593

APP.594

APP.595

APP.596

APP.597

APP.598

APP.599

APP.600

APP.601

APP.602

APP.603

APP.604

APP.605

APP.606

APP.607

APP.608

APP.609

APP.610

APP.611

APP.612

APP.613

APP.614

APP.615

APP.616

APP.617

APP.618

APP.619

APP.620

APP.621

APP.622

APP.623

APP.624

APP.625

APP.626

APP.627

APP.628

APP.629

APP.630

APP.631

APP.632

APP.633

APP.634

APP.635

APP.636

APP.637

APP.638

APP.639

APP.640

APP.641

APP.642

APP.643

APP.644

APP.645

APP.646

APP.647

APP.648

APP.649

APP.650

APP.651

APP.652

APP.653

APP.654

APP.655

APP.656

APP.657

APP.658

APP.659

APP.660

APP.661

APP.662

APP.663

APP.664

APP.665

APP.666

APP.667

APP.668

APP.669

APP.670

APP.671

APP.672

APP.673

APP.687

APP.688

APP.689

APP.690

APP.691

APP.692

APP.693

APP.694

APP.695

APP.696

APP.697

APP.698

APP.699

APP.700

APP.701

APP.702

APP.703

APP.704

APP.705

APP.706

APP.707

APP.708

APP.709

APP.710

APP.711

APP.712

APP.713

APP.714

APP.715

APP.716

APP.717

APP.718

APP.719

APP.720

APP.721

APP.722

APP.723

APP.724

APP.725

APP.726

APP.727

APP.728

APP.729

APP.730

APP.731

APP.732

APP.733

APP.734

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 1 of 58

EXECUTION SCHEDULED FOR JANUARY 14, 2021

No. 21-1
__________________________________________________________________
IN THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
__________________________________________________________________
UNITED STATES OF AMERICA,
Plaintiff

Appellee,
v.

COREY JOHNSON, A/K/A O, A/K/A CO,
Defendant Appellant.
__________________________________________________________________
CAPITAL CASE
INFORMAL PRELIMINARY BRIEF, WITH
REQUEST FOR CERTIFICATE OF APPEALABILITY
ORAL ARGUMENT REQUESTED
__________________________________________________________________
Donald P. Salzman
Jonathan Marcus
David E. Carney
Skadden, Arps, Slate, Meagher & Flom LLP
1440 New York Avenue, NW
Washington, DC 20005
(202) 371-7983
donald.salzman@skadden.com
Counsel for Appellant Corey Johnson

APP.735

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 2 of 58

TABLE OF CONTENTS
Page
Table of Authorities ................................................................................................. iii
Introduction ................................................................................................................ 1
Statement of Jurisdiction............................................................................................ 1
Statement of the Issues............................................................................................... 2
Statement of the Case................................................................................................. 2
Summary of Argument .............................................................................................. 7
Argument.................................................................................................................... 8
I.

Corey Johnson is intellectually disabled. ................................................... 8

II.

Legal standard for Certificate of Appealability. ....................................... 12

III.

is a term of art that does not apply to all secondin-time § 2255 motions. ............................................................................ 13

IV.
-in-time § 2255 motion is successive. .......................... 15
A.

it is based on a
statutory provision that provides for review when an execution is
imminent. ............................................................................................. 16
1. The plain language of § 3596(c) demonstrates that a determination
of mental status must be made when an execution date is set. ...... 19
2. The Government itself has conceded that since § 3596 concerns the
time the execution date is set and not earlier. ................................ 20

i
APP.736

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 3 of 58

3. The other provisions of § 3596(c), as well as the broader structure
of the FDPA, reinforce that the § 3596(c) bar is properly raised
after an execution date is set. ......................................................... 22
4.
intent. .............................................................................................. 24
B.

... 26

Conclusion ............................................................................................................... 31
Request for Oral Argument ...................................................................................... 32
Certificate of Compliance ........................................................................................ 32
Certificate of Service
Statutory Addendum
Exhibit A (Excerpt of Brief of the Appellant and, in the Alternative, Petition for
Writ of Mandamus, United States v. Higgs, No. 20-18 (4th Cir. Dec. 31, 2020),
ECF No. 6)
Exhibit B (Excerpt of Government s Response in Opposition to Amended Motion
of Bruce Carneil Webster to Vacate Conviction and Sentence and for New Trial
Pursuant to 28 U.S.C. § 2255 and Rule 33 of the Federal Rules of Criminal
Procedure, Webster v. United States, No. 4-94-CR-0121-Y (N.D. Tex. Nov. 14,
2002)

ii
APP.737

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 4 of 58

TABLE OF AUTHORITIES
Page(s)
CASES
Barefoot v. Estelle, 463 U.S. 880 (1983) ...........................................................12, 13
Bourgeois v. Watson, 977 F.3d 620 (7th Cir. 2020) ..........................................28, 29
Calderon v. United States Dist. Ct., 163 F.3d 530 (9th Cir. 1998) ......................... 27
Castro v. United States, 540 U.S. 375 (2003).......................................................... 14
, 489 U.S. 803 (1989).......................................... 22
Ford v. Wainwright, 477 U.S. 399 (1986) ............................................................... 17
Garza v. Lappin, 253 F.3d 918 (7th Cir. 2001) .................................................14, 15
Hoxha v. Levi, 465 F.3d 554 (3d Cir. 2006) ............................................................ 18
Johnson v. United States, 546 U.S. 810 (2005) ......................................................... 7
Lambert v. Williams, No. 98-2070, 1998 WL 904731 (Dec. 29, 1998
4th Cir. 1998) (per curiam) .................................................................................. 27
Magwood v. Patterson, 561 U.S. 320 (2010) .......................................................... 13
Miller-El v. Cockrell, 537 U.S. 322 (2003) .......................................................12, 13
Moore v. Texas, 137 S. Ct. 1039 (2017) .................................................................... 9
Murphy v. Smith, 138 S. Ct. 784 (2018) .................................................................. 22
Panetti v. Quarterman, 551 U.S. 930 (2007).........................................14, 15, 17, 27
Slack v. McDaniel, 529 U.S. 473 (2000) ...........................................................12, 13
Stanko v. Davis, 617 F.3d 1262 (10th Cir. 2010) .................................................... 30
iii
APP.738

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 5 of 58

Stewart v. Martinez-Villareal, 523 U.S. 637 (1998)................................................ 15
United States v. Barrett, 178 F.3d 34 (1st Cir. 1999) .............................................. 27
United States v. Bourgeois

............................... 29

United States v. Davis, 139 S. Ct. 2319 (2019) ......................................................... 4
United States v. Davis, 611 F. Supp. 2d 472 (D. Md. 2009) ..................................... 5
United States v. Hairston, 754 F.3d 258 (4th Cir. 2014) ...................................14, 15
United States v. MacDonald, 641 F.3d 596 (4th Cir. 2011) .................................... 30
United States v. Roane, 378 F.3d 382 (4th Cir. 2004) ............................................... 6
United State v. Rodgers

h Cir. 2020) .................................... 15

United States v. Roland, 281 F. Supp. 3d 470 (D. N.J. 2017) ................................... 5
United States v. Salad, 959 F. Supp. 2d 865 (E.D. Va. 2013) ................................... 5
United States v. Winestock, 340 F.3d 200 (4th Cir. 2003)....................................... 30
STATUTES AND RULES
18 U.S.C. § 924 ...................................................................................................... 3, 4
18 U.S.C. § 1959 ........................................................................................................ 3
18 U.S.C. § 3591 ...................................................................................................... 23
18 U.S.C. § 3592 ...................................................................................................... 23
18 U.S.C. § 3593 ...................................................................................................... 23
18 U.S.C. § 3594 ...................................................................................................... 23
18 U.S.C. § 3595 ................................................................................................18, 23
iv
APP.739

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 6 of 58

18 U.S.C. § 3596 ...............................................................................................passim
18 U.S.C. § 3597 ...................................................................................................... 23
18 U.S.C. § 3598 ...................................................................................................... 23
18 U.S.C. § 3599 ...................................................................................................... 23
21 U.S.C. § 841 .......................................................................................................... 3
21 U.S.C. § 846 .......................................................................................................... 3
21 U.S.C. § 848 (repealed)................................................................................passim
28 U.S.C. § 1291 ........................................................................................................ 2
28 U.S.C. § 2241 ...................................................................................................... 15
28 U.S.C. § 2253 .................................................................................................. 2, 12
28 U.S.C. § 2254 ................................................................................................17, 30
28 U.S.C. § 2255 ...............................................................................................passim
Fed. R. App. P. 22 ...................................................................................................... 2
Local Rule 22 ............................................................................................................. 2

v
APP.740

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 7 of 58

INTRODUCTION

Corey Johnson, the Appellant in this capital case, is intellectually disabled.
Federal law explicitly prohibits the government from implementing his death
sentence among the first in the modern era of the death penalty

on account of

his infirmity, which is established by overwhelming evidence that no court or jury
has ever heard. His disqualifying condition notwithstanding, the government is
planning to carry out his execution on Thursday, January 14.
As explained in this brief, the district court erred in its interpretation of the
federal statute prohibiting a death sentence from being carried out upon a person
who is mentally retarded. Based on that erroneous reading, which is contradicted
by the statute s plain language, the legislative history, and the government s own
long-standing interpretation, the district court improperly determined Mr.
Johnson s pleading to be successive. For the reasons set forth herein, Mr. Johnson
respectfully requests that this Court grant a Certificate of Appealability ( COA )
and remand his case to the U.S. District Court for the Eastern District of Virginia
for further proceedings.
STATEMENT OF JURISDICTION
Corey Johnson moved to prohibit the carrying out of his death sentence
under 28 U.S.C. § 2255 (the § 2255 Motion or 2255 Mot. ). The district court
dismissed the § 2255 Motion as successive and denied a COA. On January 4, 2021,
1
APP.741

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 8 of 58

Mr. Johnson noticed his appeal, which is from a final order. Pursuant to Fed. R.
App. P. 22(b)(1), (2), and L.R. 22(a), Mr. Johnson files this brief and requests a
COA. If granted, jurisdiction will arise under 28 U.S.C. §§ 1291, 2253.
STATEMENT OF THE ISSUES
Corey Johnson respectfully requests that this Court issue a certificate of
appealability on the following question:
Whether a second-in-time § 2255 motion filed by a death-sentenced federal
prisoner seeking to establish his intellectual disability at the time of the
implementation of his sentence, pursuant to the express language of 18 U.S.C. §
3596(c) and 21 U.S.C. § 848(l), must be deemed successive, even where the
evidence proving his disability has never been considered by any court?

STATEMENT OF THE CASE
A. Trial and Sentencing Proceedings
Corey Johnson s 1993 trial was among the first federal capital trials in the
modern era of the death penalty. Mr. Johnson and six co-defendants were charged
in a 33-count indictment with offenses arising from a drug conspiracy pursuant to
the Anti-Drug Abuse Act (the ADAA ). (4/24/92 Indictment, Dkt. 1.) The

2
APP.742

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 9 of 58

government sought the death penalty for three of the co-defendants1
Richard Tipton, and James Roane

Mr. Johnson,

and tried them together.

In February of that year, the jury convicted Mr. Johnson of all the counts in
the government s superseding indictment, including seven murders in the course of
a continuing criminal enterprise ( CCE ) under 21 U.S.C. § 848(e)(1)(A).2
At his penalty phase hearing, Mr. Johnson s defense team presented
evidence to mitigate the death penalty, much of it through a University of Virginia
psychologist, hired by the defense, named Dewey Cornell.3 Dr. Cornell testified
about Mr. Johnson s tumultuous and traumatic childhood, and what he

1

The government initially filed a notice of intent to seek the death penalty against
co-defendant, Vernon Lance Thomas who was eventually convicted of killing four
people. 2255 Mot., Ex. 62 (10/28/92 Notice of Intention to Seek Death Penalty as
to Mr. Thomas). Mr. Thomas s case was severed from that of the other three
defendants for reasons related to the availability of his appointed counsel.
Following authorization, but prior to trial, Mr. Thomas presented an expert report
to the government that concluded Mr. Thomas had an IQ of 71 and was mentally
retarded. Shortly thereafter, the government withdrew its death authorization, and
Mr. Thomas faced a maximum penalty of life without parole at his trial. 2255
Mot., Ex. 66 (4/15/93 Mot. to Have Def. Declared Mentally Retarded).
2

The indictment also charged Mr. Johnson with conspiracy to violate provisions of
the ADAA under 21 U.S.C. § 846, murder in the course of a CCE under 21 U.S.C.
§ 848(e)(1)(A), using a firearm during a crime of violence under 18 U.S.C.
§ 924(c), possession of cocaine base with the intent to distribute under 21 U.S.C.
§ 841(a)(1), and killing and maiming in aid of racketeering under 18 U.S.C.
§ 1959(a). 2255 Mot., Ex. 61 (Second Superseding Indictment).
3

The defense specifically asked Dr. Cornell to: (1) determine whether Mr. Johnson
was competent to stand trial; (2) determine if he was criminally responsible for his
crimes; and (3) gather, analyze, and prepare potential mitigation evidence for the
capital sentencing hearing. 2255 Mot., Ex. 15 ¶ 9 (9/20/16 Aff. of C. Cooley).
3
APP.743

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 10 of 58

characterized as a severe learning disability. 2255 Mot., Ex 7 (2/10/93 Trial Tr.
3574). 4 Based on Dr. Cornell s conclusion that Mr. Johnson suffered from a broad
learning disability, and that, having scored score a 77 on the IQ score the Dr.
Cornell had administered, he could not have mentally retardation, the defense
informed jurors in both opening and closing arguments that Mr. Johnson was not
mentally retarded and that they would not be asked to make such a determination.
2255 Mot., Ex. 7 (2/10/93 Trial Tr. 3547); 2255 Mot., Ex. 9 (2/12/93 Trial Tr.
3921). The jury recommended Mr. Johnson be sentenced to death on each of his
CCE convictions.5 2255 Mot., Ex. 65 (2/16/93 Special Findings, Dkt. 508).

4

Exhibits to the § 2255 Motion are located in the Joint Appendix at J.A.148J.A.1434.
5

Mr. Johnson s death sentences, it should be noted, are infirm on several grounds.
He is therefore currently seeking authorization from the U.S. Court of Appeals for
the Fourth Circuit to challenge his § 924(c) convictions under United States v.
Davis, 139 S. Ct. 2319 (2019). Mot. for Authorization to File a Successive Mot.
Pursuant to 28 U.S.C. § 2255(h)(2), In re Corey Johnson, No. 20-8 (4th Cir. May
22, 2020), ECF No. 2-1. He is also appealing to the Fourth Circuit the denial of
relief he sought pursuant to the First Step Act. Mem. Order (E.D. Va. Nov. 19,
2020), ECF No. 75, appeal docketed, United States v. Johnson, No. 20-15 (4th Cir.
Nov. 23, 2020). Mr. Johnson has also separately filed a Motion for Authorization
in this Court raising two claims under the Eighth Amendment, one arguing that in
light of the unique circumstances of his case, a previously unavailable Atkins claim
should be heard, and the other asserting the unreliability of his death sentences.

4
APP.744

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 11 of 58

B. Appeal and 28 U.S.C. § 2255 Proceedings
Mr. Johnson timely appealed to this Court, raising issues relating to the guilt
and penalty phases of his trial. No issue regarding intellectual disability was raised.
In the subsequent motion for collateral relief pursuant to 28 U.S.C. § 2255,
Mr. Johnson s attorneys alleged for the first time that Mr. Johnson could not be
sentenced to death because he was intellectually disabled. His attorneys did not,
however, argue that Mr. Johnson met the criteria for a diagnosis of intellectual
disability nor present any evidence to prove his intellectual disability. Instead, they
asserted that trial counsel were ineffective for failing to challenge the IQ score
results of Dr. Cornell s testing of Mr. Johnson; and that if Dr. Cornell had adjusted
all of Mr. Johnson s IQ scores using the Flynn Effect, that would have led him to
more fully evaluate Mr. Johnson for intellectual disability.6
The district court, in 2003, granted the government s motion for summary
judgment, denying Mr. Johnson relief on all grounds. 2255 Mot., Ex. 73 (5/1/03

6

Although at the time it was not widely accepted, the Flynn Effect is now routinely
regarded as valid, persuasive, and best practice, by the courts considering
federal capital cases, including those in the Fourth Circuit, and must be taken into
account when expert testimony supports its use. See United States v. Davis, 611 F.
Supp. 2d 472, 488 (D. Md. 2009); United States v. Roland, 281 F. Supp. 3d 470,
503 (D. N.J. 2017); see also United States v. Salad, 959 F. Supp. 2d 865, 872 n.10
(E.D. Va. 2013) ( The Flynn Effect describes a documented increase in IQ levels
over time. As a result, IQ tests must be periodically re-normed to account for the
population becoming more intelligent; a score on an outdated test might overstate
IQ relative to the contemporary population. ).

5
APP.745

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 12 of 58

Mem. Op., Dkt. 896). In light of the fact that no new evidence had been offered
with respect to the issue of Mr. Johnson s mental retardation, the Court found that
the record before the Court demonstrates that Johnson is not mentally retarded
and that Mr. Johnson s trial counsel was not ineffective for failing to raise the issue
that Mr. Johnson s IQ score was overstated because counsel had reasonably relied
on Dr. Cornell s assessment at trial. Id. at 82-84.
Post-conviction counsel appealed to this Court, arguing the district court had
made a mistake in refusing to consider scores corrected for the Flynn Effect
because the court had simply assumed that Dr. Cornell had considered the Flynn
Effect, even though no evidence supported that assumption. 2255 Mot., Ex. 74 at
145-46 (Br. for Appellants Cory Johnson and Richard Tipton, United States v.
Johnson, No. 03-13(L), 03-26, 03-27 (4th Cir. Feb. 17, 2004) (Excerpt)). This
Court did not rule on that issue directly but instead adopted the district court s
rationale that the IQ score Dr. Cornell had assigned Mr. Johnson placed him
outside the diagnostic range for mental retardation and that ended the inquiry. The
Court also agreed with the district court that Mr. Johnson s counsel were not
ineffective for failing to consider the Flynn Effect at sentencing because they were
under no mandate to second-guess Dr. Cornell s report. United States v. Roane,
378 F.3d 382, 408-09 (4th Cir. 2004); see also id. at 408 ( Johnson exhibited an IQ
of 77, which indicated a generally impaired intelligence, placing him just above
the level of mental retardation. ).
6
APP.746

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 13 of 58

The U.S. Supreme Court denied his subsequent petition for certiorari.
Johnson v. United States, 546 U.S. 810 (2005).
In 2006, the government set an execution date for Mr. Johnson that was
stayed as a result of litigation challenging the government s planned method of
execution. That stay remained in effect until September 20, 2020, when it was
vacated by the district court. On November 20, 2020, the Bureau of Prisons
notified Mr. Johnson that they intended to execute him on January 14, 2021.
Shortly thereafter he filed the § 2255 Motion in district court which is the subject
of this appeal.
SUMMARY OF ARGUMENT
The Court should grant Mr. Johnson s request for a COA, reverse the district
court s dismissal of his § 2255 Motion, and remand this case to the Eastern District
of Virginia for further proceedings, because his § 2255 Motion was, contrary to the
district court s determination, non-successive. Rather, the claim asserted in his
motion is based on a provision of federal law

18 U.S.C. § 3596(c) (which the

district court correctly found was identical to now-repealed 21 U.S.C. § 848(l)
under which Mr. Johnson was convicted) that prohibits the implementation of his
death sentence on account of his intellectual disability, and provides for review
when an execution date is imminent. His asserted claim became timely when the
government set his execution date.

7
APP.747

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 14 of 58

This reading of the provision is correct based on the plain language of
§ 3596(c), which demonstrates that a determination of mental status must be made
when an execution date is set; is supported by the government s own concessions
making abundantly clear that because the provision concerns implementation of
the sentence, it governs the process at the time the execution date is set and not
earlier; and is evident when considered in the broader context of the other
provisions in the statute as well as legislative history that demonstrate Congress s
intent to ensure that intellectually disabled individuals like Mr. Johnson did not slip
through the cracks and that federal law would not condone their execution. The
decision of the district court below that it did not have jurisdiction to entertain this
claim although it clearly can be raised if viable at the time of execution is,
respectfully, incorrect and at the very least debatable by jurists of reason.
ARGUMENT
I.

COREY JOHNSON IS INTELLECTUALLY DISABLED
Overwhelming evidence establishes that Corey Johnson is intellectually

disabled and ineligible for execution. Three of the nation s most respected experts
in the field

Daniel J. Reschly, Ph.D., J. Gregory Olley, Ph.D., and Gary N.

Siperstein, Ph.D. all of whom comprehensively evaluated Mr. Johnson under
modern medical standard

independently agree that he meets the clinical and legal

criteria for intellectual disability: (1) he has significant deficits in intellectual
functioning, usually represented by IQ scores of 75 or below; (2) he exhibits
8
APP.748

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 15 of 58

significant deficits in adaptive functioning (i.e., the inability to learn basic skills
and adjust behavior to changing circumstances ); and (3) the onset of his
impairment was before the age of 18. See 2255 Mot., Ex. 75 (American
Association on Intellectual and Developmental Disabilities Definition Manual
( AAIDD-11 )); 2255 Mot., Ex. 77 (Diagnostic and Statistical Manual of Mental
Disorders ( DSM-5 )); see also Moore v. Texas, 137 S. Ct. 1039, 1042, 1045
(2017) (quoting Hall v. Florida, 572 U.S. 701, 710 (2014), 1048 (recognizing these
standards)); see also 2255 Mot. at 15-20.
Multiple IQ tests administered to Mr. Johnson when he was a child and
young adult

which included Flynn-adjusted7 scores of 72 at age 8, 75 at age 12,

65 at age 16, and 73 at age 23

as well as other contemporaneous records created

during his childhood, adolescence, and young adulthood contain evidence proving
his intellectual disability. Id. at 20-43 (setting forth in greater depth the evidence of
Mr. Johnson s intellectual disability). The records are corroborated by statements
from more than two dozen family members, friends, teachers, mental health
professionals, and others who have known Mr. Johnson and witnessed his

7

Under the prevailing clinical standards, these IQ testing results reflect scores
corrected for the Flynn Effect, which as noted previously is a testing phenomenon
that causes IQ scores to inflate over time and requires scores to be corrected
accordingly. 2255 Mot. at 17-18. Even uncorrected (though law and medicine
demand they all should be corrected), two of the scores still demonstrate Mr.
Johnson s intellectual functioning is consistent with intellectual disability. Id. at
21-24.
9
APP.749

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 16 of 58

profound limitations; this evidence is confirmed by adaptive behavior instruments
administered to individuals who knew Mr. Johnson well during his childhood and
whose standardized scores place him solidly within the intellectual disability range
for adaptive functioning. Id.
Indeed, bearing out these findings, Mr. Johnson s social history is rife with
telltale experiences of an intellectually disabled man with profound intellectual and
adaptive deficits. He remained in the second grade for three years; repeated third
and fourth grades; and, as he got older, fell further and further behind academically
despite having a strong motivation to learn. See e.g., id. at 25-29. At age eight,
Corey Johnson had no concept of number facts, no reading skills, [could not]
retain sight vocabulary words, and had difficulty saying the alphabet ; while in
the second grade, when asked his birthday, he thought it was in March even though
he was actually born in November. See e.g., id. at 25, 30 (internal citations
omitted). At age thirteen, he could barely write his own name; and while he knew
there were 12 months in the year, he could recite them only up to August. See e.g.,
id. at 27, 30. Corey was not able to tell time or perform arithmetic beyond a thirdgrade level. Id. at 30. At age 18, his teachers determined that he was unable to pass
school competency tests, and he ultimately left high school without graduating. Id.
at 26. In his early twenties, achievement testing demonstrated Mr. Johnson s
reading and writing abilities were no higher than the second-grade level, and when
he was last tested at age 45, he was still at an elementary school level. Id. at 28-29.
10
APP.750

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 17 of 58

Corey Johnson struggled throughout his life with self-care: He wet and
soiled his bed until he was 12 years old and needed constant reminders to keep
himself clean. Id. at 37-38. As he entered his teen years and into his adulthood, Mr.
Johnson continued to function like a younger child. At school, without the
assistance of an assigned aide, he would get lost on his way back to class and
wander into other classrooms. Id. at 38. He could not be expected to go to the store
and receive correct change. Id. at 31. He was never able to make his way alone
through any but the most familiar streets, even as he approached adulthood. Id. at
38. He has never managed to live on his own or hold down a job. Id. at 38-40.
Displaying other hallmarks of intellectual disability, Mr. Johnson had difficulty in
understanding social cues and norms, and was, over the course of his life, the
quintessential follower, easily influenced by and victimized by peers, who took his
money, tricked and manipulated him; his desire to be accepted by them
cousin put it, fit in with the crowd

to, as a

also led him to engage in risky behavior. Id.

at 33-36 (citations omitted).
Mr. Johnson is irrefutably intellectually disabled as is evident from the
evaluations of the field s foremost experts that were before the court below. He is,
nonetheless, now scheduled to be executed on January 14, 2021. But he cannot be
executed without the government violating the law.

11
APP.751

USCA4 Appeal: 21-1

II.

Doc: 5-1

Filed: 01/08/2021

Pg: 18 of 58

LEGAL STANDARD FOR CERTIFICATE OF APPEALABILITY
The Supreme Court has determined that the substantial showing necessary

for a COA to issue under the Antiterrorism and Effective Death Penalty Act (the
AEDPA )

a pre-condition to appellate review of the denial of a motion brought

pursuant to 28 U.S.C. § 2255 presents a low bar. 28 U.S.C. § 2253(c)(2). Proof
of ultimate success is not required and the grant of a COA is especially favored in
a capital case.
The leading cases on this issue are Miller-El v. Cockrell, 537 U.S. 322
(2003) and Slack v. McDaniel, 529 U.S. 473 (2000). These opinions demonstrate
that the Supreme Court has adapted to the AEDPA the standards that were
formerly applied to the issuance of a certificate of probable cause in pre AEDPA
habeas litigation. See Barefoot v. Estelle, 463 U.S. 880, 893-94 (1983). In
elaborating on the substantial showing language of the statute, Miller-El
explained that the standard is met if jurists of reason could disagree with the
district court s resolution of the claim or that the issues presented are adequate to
deserve encouragement to proceed further. Miller-El, 537 U.S. at 327. The
determination of whether the standard is met is a threshold inquiry that does not
require full consideration of the factual or legal bases adduced in support of the
claims. In fact, the statute forbids it. Id. at 336. In Slack, the Court noted that an
applicant met the standard if it was debatable whether the district court s
assessment of the claim was correct. Slack, 529 U.S. at 484.
12
APP.752

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 19 of 58

The Supreme Court also has been clear that a COA application does not
have to show entitlement to relief. Miller-El, 537 U.S. at 337. The holding in
Slack would mean very little if appellate review were denied because the prisoner
did not convince a judge, or, for that matter, three judges, that he or she would
prevail. Id. A COA should issue even if it is unclear that relief will ultimately be
obtained. Id. at 337-38 (holding that the COA standard does not require a showing
that the appeal will succeed, but merely

something more than the absence of

frivolity or the existence of mere good faith on his or her part. (citation
omitted)).
The fact that this is a death penalty case further counsels in favor of granting
a COA. In Barefoot, the Court emphasized that in a capital case, the nature of the
penalty is a proper consideration in determining whether to certify an issue for
appeal. Barefoot, 463 U.S. at 893.
III.

SECOND OR SUCCESSIVE IS A TERM OF ART THAT DOES
NOT APPLY TO ALL SECOND-IN-TIME § 2255 MOTIONS
As the Supreme Court has repeatedly explained, the phrase second or

successive

does not simply refe[r] to all [§ 2255] applications filed second or

successively in time.

Magwood v. Patterson, 561 U.S. 320, 332 (2010) (first

alteration in original) (quoting Panetti v. Quarterman, 551 U.S. 930, 944 (2007)).
Rather, the phrase is a term of art that takes its full meaning from the Supreme
Court s case law, including decisions predating the enactment of the AEDPA. To

13
APP.753

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 20 of 58

determine whether a second-in-time pleading should be deemed successive, a court
must look to the purposes of the AEDPA, which are to further the principles of
comity, finality, and federalism. Panetti, 551 U.S. at 947.8 The Supreme Court
has cautioned courts to ensure that petitioners [do not] run the risk under the
proposed interpretation of forever losing their opportunity for any federal
review

and to resist[] an interpretation of the statute that would . . . close our

doors to a class of habeas petitioners seeking review without any clear indication
that such was Congress intent.

Id. at 945-46 (citations omitted); see also Castro

v. United States, 540 U.S. 375, 380-81 (2003).
A second-in-time petition should be treated as non-successive where the
asserted claims did not arise until after a prior petition was filed, or where the
claim was premature, or where a subsequent filing is expressly contemplated by
statute. United States v. Hairston, 754 F.3d 258, 262 (4th Cir. 2014); see also
Garza v. Lappin, 253 F.3d 918 (7th Cir. 2001) (allowing second-in-time claim in
federal capital case where issue, by its very nature, could only be raised after first

8

It bears emphasis that two of these goals comity and federalism have no
relevance in the context of a federal post-conviction case where no state court
determination is being disturbed. This Court is interpreting federal law as applied
to a federal case.
14
APP.754

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 21 of 58

post-conviction review was completed).9 Mr. Johnson s motion presented such a
claim.
IV.

REASONABLE JURISTS COULD DEBATE THE DISTRICT
COURT S CONCLUSION THAT MR. JOHNSON S SECOND-INTIME § 2255 MOTION IS SUCCESSIVE
The district court s dismissal of Mr. Johnson s § 2255 Motion as successive

is plainly the type of issue that deserves encouragement to proceed further and is
debatable by jurists of reason. See Hairston, 754 F.3d at 259 (granting COA and
concluding second-in-time motion was not successive where basis for sentencing
claim did not arise until after first § 2255 motion was denied); United State v.
Rodgers, 803 F. App x 728, 729 (4th Cir. 2020) (per curiam).

9

Mr. Garza proceeded under 28 U.S.C. § 2241 but only after the Fifth Circuit
deemed his pleadings successive. The Seventh Circuit, in its subsequent opinion,
questioned that holding and suggested that, under Stewart v. Martinez-Villareal,
523 U.S. 637 (1998), his claim should have been considered non-successive.
Garza, 253 F.3d at 923. Ultimately, the Seventh Circuit speculated that the Fifth
Circuit must have rejected such an argument because Mr. Martinez-Villareal had
previously raised the claim and it had been dismissed whereas Mr. Garza had not
raised it in his initial § 2255 motion. Id. at 924. As this Court is aware, the
Supreme Court in Panetti explicitly rejected that Fifth Circuit reasoning several
years later.

15
APP.755

USCA4 Appeal: 21-1

A.

Doc: 5-1

Filed: 01/08/2021

Pg: 22 of 58

Mr. Johnson s Claim Is Not Successive Because It Is Based on a
Statutory Provision That Provides for Review When an Execution
Is Imminent

Mr. Johnson brings his claim pursuant to 18 U.S.C. § 3596(c)10, a statute
governing implementation of a death sentence. The plain language, structure, and
statutory history of the FDPA establish that Mr. Johnson is permitted to raise his
status as a person with intellectual disability now, at the time when he has a

10

The government argued strenuously below that Mr. Johnson cannot rely on §
3596 because he was convicted pursuant to 21 U.S.C. § 848. This argument is both
immaterial and questionable. First, as the district court found, § 848(l) and §
3596(c) contain identically worded prohibitions on executing intellectually
disabled individuals. Mem. Op. at 10 n.5 (Dismissing § 2255 Petition), ECF No.
99. The prohibition thus exists no matter which statute forms its basis, and both
prohibited the implementation of a death sentence on a person with mental
retardation. Discussion of the identical provision in the § 3596(c) legislative debate
is thus instructive. Mr. Johnson will refer to both provisions because his argument
is the same under either.
But second, the government has never been consistent in its view of whether the
cases of those convicted under § 848 should now be governed by that sincerepealed statute or by § 3596. See, e.g., Defendants Opposition to Plaintiff
Intervenor Dustin Lee Honken s Motion for a Preliminary Injunction at 5 n.1, In re
Federal Bureau of Prisons Execution Protocol Cases, No. 1:19-mc-00145, ECF
No. 36 (D.D.C. Nov. 12, 2019) (where government contended that [t]he FDPA
did not initially govern death sentences, like [Dustin] Honken s, under the ADAA,
21 U.S.C. § 848(e) (1988) and that [i]n 2006, Congress repealed the capital
provisions of § 848, effectively rendering the FDPA applicable to all federal
death-eligible offenses (quoting United States v. Barrett, 496 F.3d 1079, 1106
(10th Cir. 2007))); Mem. Op. at 5, In re Federal Bureau of Prisons Execution
Protocol Cases, No. 1:19-mc-00145, ECF No. 378 (D.D.C. Dec. 30, 2019) (court
holding that Defendants clearly took the position at the beginning of this litigation
that all plaintiffs were subject to the FDPA ).
This Court should grant a Certificate of Appealability on this important question
regardless of which provision it finds governs.
16
APP.756

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 23 of 58

pending execution date. Unlike other claims by federal inmates seeking to
challenge their convictions or sentences that must be raised in an initial § 2255
motion, this provision contemplates that, where applicable, a determination of
mental retardation will be made when the government sets an execution date.
Indeed, very the language of § 3596(c) and § 848(l) indicates that the question
arises only after a death sentence has been imposed and when it is to be
implemented. See 18 U.S.C. § 3596(c) ( A sentence of death shall not be carried
out upon a person who is mentally retarded. ) (emphasis added); 21 U.S.C. §
848(l) (same).
This statute creates an independent, substantive prohibition on the
implementation of the sentence based on intellectual disability. It is unique to the
federal death penalty: the § 2254 statute, pursuant to which state prisoners must
raise their challenges, lacks a corresponding proscription. At the same time, it is
not unlike the jurisprudentially required mechanism in § 2254 for resolving mental
competency claims when an execution becomes imminent. See Panetti, 551 U.S. at
934-35; Martinez-Villareal, 523 U.S. at 644-45; Ford v. Wainwright, 477 U.S. 399,
418 (1986). In both instances, the claim if viable must be heard at the time of
implementation even if presented in a second habeas motion.
As Panetti and Martinez-Villareal make clear, similar claims are not
successive even though they are second-in-time because they should be litigated
when an execution date is set. The Bureau of Prison s action setting an execution
17
APP.757

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 24 of 58

date triggers the question raised in § 3596(c) (or § 848(l)): if the individual has
mental retardation, is pregnant, or cannot appreciate the reason for the execution,
the execution cannot be carried out. In that sense, prior to the Bureau of Prison s
notice of an execution date, adjudication pursuant to § 3596(c) on the question of
implementation is premature. Cf. Hoxha v. Levi, 465 F.3d 554, 564-65 (3d Cir.
2006) (finding, in habeas proceeding challenging extradition, that Administrative
Procedure Act challenge under particular federal statute premature because agency
action had not yet occurred and the government may ultimately decide not to
extradite Petitioner ). Whether the person has earlier litigated the legality of his
sentence on the ground of intellectual disability thus would not obviate the
statute s stated prohibition on implementation which could, as is the case here,
come many years later.
Section 3596(c) (and § 848(l)) provide more specific process for inmates
with compelling claims of intellectual disability than is afforded by the Eighth
Amendment. Limiting § 3596 to the minimum process required by the Constitution
ignores the reality of the FDPA. Indeed, the FDPA includes provisions clearly
intended to provide greater protection than the minimum. This particular section,
however, differs from other such provisions because it is not restricted by or
dependent upon another avenue of review. Cf. 18 U.S.C. § 3595(c) (mandating
independent review of death sentence to ensure it is free from arbitrariness and
clearly stating this review is a part of the direct appeal). In contrast, the review
18
APP.758

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 25 of 58

required by § 3596 is not confined to an earlier stage of review, and it articulates
no limitation on claims previously raised.11 When there is evidence that a prisoner
scheduled for execution is a person with intellectual disability ( mental
retardation in the statute and legislative history), § 3596(c) requires that
assessment to be made when the sentence is set to be implemented, even if that
issue had been previously litigated.12
1.

The Plain Language of § 3596(c)13 Demonstrates That a
Determination of Mental Status Must Be Made When an
Execution Date Is Set

Section 3596(c) applies when the sentence of death is to be carried out. In
its plainest terms, the § 3596(c) bar pertains to the period of time in which the
sentence is complete[d] or accomplish[ed]

or put into execution. Carryout,

Merriam-Webster.com, https://www.merriam-webster.com/dictionary/carryout
(last visited Jan. 5, 2021). It applies after the defendant is sentenced and after a
federal death row inmate has exhaust[ed] . . . the procedures for appeal of the
judgment of conviction and for review of the sentence. 18 U.S.C. § 3596(a)
(emphasis added). As is made clear by the title of the section, § 3596(c) applies at

11

This is, again, the same for § 848, with the identical wording, in the ADAA.

12

As addressed below, this was openly discussed during Congressional debate. See
2255 Mot., Ex. 79 (136 Cong. Rec. S6873, S6876 (daily ed. May 24, 1990)).
13

Again, the language in § 848(l) is identical: sentence of death shall not be
carried out upon a person who is mentally retarded.
19
APP.759

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 26 of 58

the implementation of the sentence: both § 3596(c) and § 848 (l) contemplate
that a death sentence has already been imposed when the prohibition comes into
play. Congress did not otherwise qualify this bar.
2.

The Government Itself Has Conceded That Because § 3596
Concerns the Implementation of The Sentence, It
Governs the Process at the Time the Execution Date Is Set
and Not Earlier

Just over a week ago, the government filed a brief in this Court arguing the
very point that Mr. Johnson makes that because § 3596 concerns the
implementation of the sentence, it governs actions to be taken when the execution
date is set, and not earlier. See Exhibit A (Excerpt of Brief of the Appellant and, in
the Alternative, Petition for Writ of Mandamus, United States v. Higgs, No. 20-18
(4th Cir. Dec. 31, 2020), ECF No. 6) ( Higgs Brief ). In Higgs, the government
argues that under the plain terms of § 3596, a court s designation of the state law
that will govern the manner of execution cannot be restricted to the time that the
death sentence is imposed, but rather must include the time when the sentence will
be carried out. See Higgs Brief at 18-19 ( [T]he temporal terms in § 3596(a)
reinforce that the alternative-designation provision remains available postsentencing. . . . The unmistakable temporal flow and present-tense verbs in Section

20
APP.760

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 27 of 58

3596(a) leave no room for a reading that the fallback provision can be invoked
only at the time the death sentence is imposed. (emphasis added)).14
In fact, the government has accepted this reading of § 3596 for almost two
decades. As far back as 2002, the government had argued that § 3596 does not
prohibit a death sentence from being imposed on a person with intellectual
disabilities, but rather

like a Ford claim is triggered at the time that the

sentence is to be carried out to prevent or delay the execution.
[S]ubsection 3596(c) does not provide a defense to the imposition of
the death penalty. Section 3596 is entitled Implementation of a
Sentence of Death. Subsection 3596(a) - subtitled In general provides, inter alia, that [a] person who has been sentenced to death
pursuant to this chapter shall be committed to the custody of the
Attorney General until exhaustion of the procedures for appeal of the
judgment of conviction and for review of the sentence. Subsections
3596(b) and 3596(c) are subtitled Pregnant woman and Mental
capacity, respectively. Subsection 3596(b) provides that a sentence
of death shall not be carried out upon a woman while she is pregnant,
while subsection 3596(c) prohibits the carrying out of a sentence of
death upon a person who is mentally retarded or who, as a result of
mental disability, lacks the mental capacity to understand the death
penalty and why it was imposed on that person. See 18 U.S.C. § 3596.
From the language of these subsections and as is signaled by the title
of the statute, it should be clear that neither mental retardation nor
pregnancy precludes the imposition of the death penalty under the
statute, rather it prevents and/or may delay the implementation of the
death penalty.

14

See also id. at 18 (arguing that Congress explicitly recognized the temporal
distinction by enacting a separate provision of the FDPA 18 U.S.C. § 3594
that governs [i]mposition of a sentence of death. Section 3596, by contrast,
governs [i]mplementation of a sentence of death. (alterations in original)).

21
APP.761

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 28 of 58

See Exhibit B (Excerpt of Government s Response in Opposition to Amended
Motion of Bruce Carneil Webster to Vacate Conviction and Sentence and for New
Trial Pursuant to 28 U.S.C. § 2255 and Rule 33 of the Federal Rules of Criminal
Procedure at 44, Webster v. United States, No. 4-94-CR-0121-Y (N.D. Tex. Nov.
14, 2002) (emphasis added)).15
The government s own interpretation of § 3596

for nearly two decades,

and as recently as last month is sufficient to establish that Mr. Johnson s reading
of the statute is, at the very least, debatable.
3.

The Other Provisions of § 3596(c), as Well as the Broader
Structure of the FDPA, Reinforce That the § 3596(c) Bar Is
Properly Raised After an Execution Date Is Set

Statutory terms must be interpreted in their context and with a view to their
place in the overall statutory scheme. Davis v. Mich. Dep t of Treasury, 489 U.S.
803, 809 (1989). The statutory scheme surrounding the specific language of §
3596(c) reinforces its plain text. Murphy v. Smith, 138 S. Ct. 784, 789 (2018).
Congress placed the prohibition on carrying out the execution of persons
with mental retardation (containing language identical to that in § 848(l)) in the
implementation section of the FDPA statute, situating the intellectual disability
bar between the pregnancy bar and mental competency bar

all challenges that are

15

It should be noted that § 3596 took many of the same provisions of § 848 and
reordered them so that they would appear in chronological order in terms of
pretrial, trial, post-conviction, and execution. The provisions of the earlier statute
were disorganized in that regard.
22
APP.762

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 29 of 58

raised once execution is imminent. By structuring the statute in this manner,
Congress made plain and clear its intent that an inmate seeking relief under these
three prohibitions should do so when an execution is imminent.
The placement of the mental retardation provision within § 3596 is
dispositive. Whereas the first subsection, § 3596(a) (entitled In [G]eneral ),
circumscribes this section of the U.S. Code and provides instructions about how
and when the sentence is be implemented generally after all appeals have
concluded and the prisoner is released to the custody of a U.S. marshal
subsection (b) and (c) limit the marshal s implementation of the sentence by
enumerating prohibitions to be raised [w]hen the sentence is to be implemented.
See 18 U.S.C. § 3596(a).
The FDPA s entire structure, moreover, which generally follows the
chronological stages of a capital case, further supports this conclusion: the
implementation provisions in § 3596, including the prohibitions on
implementation, were placed after those subsections governing pre-trial and trial
proceedings, see §§ 3591-3594; direct appeal provisions, see § 3595; and before
those governing execution procedures once the U.S. marshals take custody of the
prisoner. See § 3597.16
16

The last two sections of the FDPA are miscellaneous provisions that do not have
any temporal components: § 3598 governs capital proceedings for crimes
occurring within the boundaries of Indian country, and § 3599 addresses the right
to counsel in capital cases.
23
APP.763

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 30 of 58

Congress s decision to place the mental retardation bar after the provisions
governing ordinary judicial review of a capital proceeding, and specifically in the
section titled Implementation of a sentence of death, is telling: It intended that
claims related to § 3596 prohibitions could be raised up to the eve of execution.
4.

The Legislative History of § 3596(c) Demonstrates
Congress s Intent

The legislative history of the intellectual disability bar confirms that
Congress understood that the FDPA would allow defendants to raise such claims
at any time, including between judgment and execution, and including after an
execution date has been set, even if a claim based on intellectual disability was
litigated earlier. See 2255 Mot., Ex. 79 (136 Cong. Rec. S6873, S6876 (daily ed.
May 24, 1990) (comments by Sen. Hatch)).
During debate of the FDPA in May 1990, Senator Strom Thurmond of South
Carolina introduced an amendment (the Thurmond Amendment ) to Senate Bill
1970, 101st Cong. (1990), which had been introduced by then-Senator Joseph
Biden of Delaware. The amendment proposed to modify the existing mental
retardation provision in the ADAA, which had passed two years earlier.
Specifically, Senator Thurmond proposed to limit the mental retardation
prohibition to only cases in which the defendant lack[ed] the capacity to
appreciate the wrongfulness of his actions so that it would prohibit the execution
of mentally retarded persons who do not know the difference between right and

24
APP.764

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 31 of 58

wrong. 2255 Mot., Ex. 79 (136 Cong. Rec. S6873, S6877, 6880 (daily ed. May
24, 1990) (comments by Sen. Thurmond)). During the debate on the Thurmond
Amendment, Senator Orrin Hatch expressed his understanding of the intellectual
disability prohibition both as incorporated in Senate Bill 1970, and as enacted in
the ADAA.
Let us understand something. The trial comes up. Defendants can
raise any issue about mental capacity, disability or retardation they
want. . . .
Then the sentencing comes up. They have the right to come in and do
it all over again. . . .
The Biden amendment in this bill17 then goes and gives them a third
time, only it says it a little bit differently. It says, if you can show you
are mentally retarded, you cannot be executed. You will stay in jail
the rest of your life, but do you not [sic] have to suffer the death
penalty. This is better than habeas corpus for prisoners. They can
raise it at any time.
2255 Mot., Ex. 79 (136 Cong. Rec. S6873, S6876 (daily ed. May 24, 1990)
(comments by Sen. Hatch) (emphasis added)).18

17

Senator Hatch s reference to the Biden Amendment in this bill is a reference to
the already enacted mental retardation death penalty bar in the 1988 ADAA. See
2255 Mot., Ex. 79 (136 Cong. Rec. S6873, S6876 (daily ed. May 24, 1990)).
18

Of course, this is not what has happened here. Corey Johnson s case relies not on
finding a new expert but on the development and refinement in the medical
profession, and the subsequent adoption by the courts, of standards for diagnosing
intellectual disability that did not exist at the time he was tried in 1993 or pursued
remedies in § 2255 in the late 1990s. No court has heard the compelling evidence
establishing Mr. Johnson s intellectual disability.
25
APP.765

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 32 of 58

Notably, no one, neither supporters nor opponents of § 3596(c), contradicted
Senator Hatch s interpretation of S. 1970 that an intellectual disability claim could
be brought long after an inmate was sentenced to death and could be brought more
than once. Instead, the Senate rejected the Thurmond Amendment by a vote of 59
to 38. 2255 Mot., Ex. 79 (136 Cong. Rec. S6873, S6883 (daily ed. May 24, 1990)).
Both houses of Congress passed the FDPA, with bipartisan support, and it was
signed into law in 1994, with the intellectual disability provision intact.19
B.

Mr. Johnson s Implementation Claim Was Not Ripe until the
Execution Date Was Set

The district court opined that since Mr. Johnson had an opportunity to
challenge the sentence based on intellectual disability at earlier stages, his claim
ripened prior to the setting of his execution date and further review is foreclosed.
Op. at 16, 18. This is not so. Although it is correct that the FDPA and the ADAA
permit such challenges at the time of trial and the initial § 2255 proceeding, it does
not follow from that fact that review of a prisoner s intellectual capacity should
therefore be precluded at the time of the implementation of the sentence. The plain
language and legislative history of § 3596 demonstrate that Congress intended that

19

The less lengthy legislative history of the ADAA, which preceded the FDPA,
reflects a similar commitment to ensuring that a person with intellectual disability
will not be executed by the federal government. See 2255 Mot., Ex. 78 (134 Cong.
Rec. 22,926, 22,993 (1988)) ( I think there is no danger here that there would be
effective abuse by someone who inappropriately claimed mental retardation. The
purpose of this is very much confined to prohibit execution of those who are
mentally retarded. ) (statement of Sen. Levin) (emphasis added).
26
APP.766

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 33 of 58

review be available at the time the sentence is carried out; indeed, it is only then
that a claim about the implementation of the sentence could become ripe. That the
statute does not preclude the raising of a claim earlier about the imposition of the
sentence does not transform that claim into one about implementation. The district
court s conclusion otherwise is, at the very least, debatable by jurists of reason.
So, too, is the district court s opinion that the claim is barred by res judicata.
Op. at 14. That doctrine does not apply to claims that were not yet ripe at the time
of the prior adjudication. See Lambert v. Williams, No. 98-2070, 1998 WL 904731,
at *1 (Dec. 29, 1998 4th Cir. 1998) (per curiam). Nor was the prior adjudication
based on the same facts as those presented in Mr. Johnson s second-in-time § 2255
motion: indeed, the only fact that prior opinions relied on was that the psychologist
trial counsel hired, who was not an expert in intellectual disability, believed that
(an unadjusted) IQ score of 77 precluded a finding of intellectually disability
altogether. (A fact we know now is incorrect.) Res judicata is not an issue here.20
The district court s attempt to distinguish Ford claims is unavailing, or at
least debatable. See Op. at 15-16. Congress itself made no such distinction between
20

First, it is questionable whether the doctrine is even applicable in habeas cases.
See Panetti, 551 U.S. at 947 (describing the AEDPA as encompassing its own,
modified res judicata rule (citation omitted)); United States v. Barrett, 178 F.3d
34, 44 (1st Cir. 1999) (holding that res judicata rule would not make sense in
litigation of second petitions); Calderon v. U.S. Dist. Ct., 163 F.3d 530, 538 (9th
Cir. 1998) (en banc) (holding that res judicata does not apply to habeas cases.).
But more significantly, that is a question that would arise for a court considering
the merits, only after it has assumed jurisdiction.
27
APP.767

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 34 of 58

lack of competency and intellectual disability. They are treated equally and are
even contained in the same subdivision of the implementation statute: § 3596(c).
Although the district court opined that it makes little sense to provide the same
statutory remedy to intellectually disabled prisoners as to those who are
incompetent at the time of execution, Op. at 18, the court was not entitled to
substitute its own judgment for that of Congress. Congress designed both § 3596(c)
and § 848(l) to act as one last safeguard

to ensure that an intellectually disabled

person with a death sentence did not slip through the cracks

regardless of any

prior litigation.
Indeed, the court s reliance on the permanency of intellectual disability,
Op. at 18-19, is wholly irrelevant to the question at hand: whether § 3596 or § 848
permits review of a prisoner s mental status at the time of the implementation of
the sentence. The fact that a court might at that stage be in a position to prevent
such a person from being executed, based on the most current science and best
evidence available, is entirely consistent with the plain language and legislative
history of the statute

ensuring that an individual with intellectual disability will

not be executed by the federal government.
The court s conclusion that Mr. Johnson s reading of the statute would
frustrate the purposes of AEDPA or override the ban on successive § 2255
motions, see Op. at 20, is similarly misplaced, or at least debatable. First, its
reliance on Bourgeois v. Watson, 977 F.3d 620 (7th Cir. 2020) is inapposite. The
28
APP.768

USCA4 Appeal: 21-1

Doc: 5-1

concern raised there

Filed: 01/08/2021

Pg: 35 of 58

that a fresh intellectual disability claim would arise every

time the medical community updates its literature, see Op. at 20

has no relevance

here.21 What triggers potential review under § 3596 or § 848 is the setting of an
execution date, not advancements in medical science.
Second, the population for whom this implementation provision is
potentially applicable is tiny. Indeed, Mr. Johnson s case is a relic: he was tried in
1993, at a time when there were no federal standards and little understanding of
how intellectual disability claims should be developed and litigated. The unique
convergence of conditions that made it possible for Mr. Johnson s intellectual
disability to be missed is also precisely what make his case so rare and unlikely to
be repeated. Resort to § 3596 to identify other intellectually disabled prisoners
simply will not be necessary in most cases. Here, though, there was essentially no
factual record on Mr. Johnson s intellectual disability at the time of his trial, and
what was presented

that a single, unadjusted (and therefore inaccurate) IQ score

of 77 meant he was not intellectually disabled

depended on an outdated, rejected

21

Unlike Mr. Johnson, Mr. Bourgeois, it should be noted, received a full
evidentiary hearing concerning his intellectual disability claim at the time of his
initial § 2255 proceeding. The courts also found that the district judge applied the
correct medical and legal standards in making the requisite determination.
Bourgeois, 977 F.3d at 625, 635-36. The fact-findings made in his robust postconviction proceedings, moreover, received review in the Fifth Circuit and
following that, in the Seventh Circuit. Bourgeois v. Watson, 977 F.3d 620, 625-26
(7th Cir.), cert. denied, 141 S. Ct. 507 (2020); United States v. Bourgeois, 537 F.
App x 604, 643-65 (5th Cir. 2013). Corey Johnson has never had a court consider
or review the facts that prove he is intellectually disabled.
29
APP.769

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 36 of 58

view of how to properly make such a determination. The remedy afforded by §
3596 therefore is necessary to ensure that an otherwise ineligible individual is not
executed.
Finally, unlike with claims brought by state prisoners under § 2254, federal
prisoners are not prohibited from raising the same claim in a second or successive
§ 2255 motion. Section 2244(b)(1) unambiguously states: A claim presented in a
second or successive habeas corpus application under section 2254 that was
presented in a prior application shall be dismissed. (Emphasis added). By the
plain language of § 2244, it is clear that Congress intended for the same claim
successor bar to apply only to claims brought by state prisoners under 28 U.S.C. §
2254, not to claims by federal prisoners, like Mr. Johnson. See, e.g., United States
v. Winestock, 340 F.3d 200, 204-05 (4th Cir. 2003) (noting that § 2244(b)(1) is
limited by its terms to § 2254 applications ); United States v. MacDonald, 641
F.3d 596, 614 n.9 (4th Cir. 2011) (noting application of § 2244(b)(1) to § 2255
motion is an open question in the circuit); see also Stanko v. Davis, 617 F.3d 1262,
1269 n.5 (10th Cir. 2010) (holding § 2244(b)(1) & (2) concern only habeas
corpus application[s] under section 2254

(citation omitted)). Thus, the district

court s conclusion that consideration of this claim would frustrate AEDPA s
purpose is, at the very least, debatable.

30
APP.770

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 37 of 58

CONCLUSION
Corey Johnson is an intellectually disabled man slated for federal execution
in less than a week. Federal law precludes the implementation of a sentence of
death previously imposed on a person with intellectual disability. Whether Mr.
Johnson, who has never even had a hearing on his ineligibility for a death sentence,
may avail himself of the law as written to protect someone like him or is precluded
from doing so by provisions of § 2255(h) is a question that reasonable jurists can
surely debate. For the foregoing reasons, Mr. Johnson respectfully asks this Court
to grant a COA, reverse the district court s dismissal of his § 2255 Motion, and
remand the case for further proceedings.
Dated: January 8, 2021

Respectfully submitted,
/s/ Donald P. Salzman
Donald P. Salzman
Jonathan Marcus
David E. Carney
Skadden, Arps, Slate, Meagher & Flom, LLP
1440 New York Avenue, NW
Washington, DC 20005
(202) 371-7983
donald.salzman@skadden.com
Counsel for Corey Johnson

31
APP.771

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 38 of 58

REQUEST FOR ORAL ARGUMENT
To counsel s present knowledge, this Court has not addressed the specific
issues presented by this case. Counsel for Appellant accordingly asserts that the
issues raised in this brief may be more fully developed through oral argument, and
respectfully requests the same.
CERTIFICATE OF COMPLIANCE
1.

This brief contains 8155 words, excluding the parts of the brief exempted

from the word count by Fed. R. App. P. Rule 27(d)(2) and Rule 32(f).
2.

This brief complies with the font, spacing, and type size requirements set

forth in Fed. R. App. P. Rule 32(a)(5).
/s/ Donald P. Salzman

32
APP.772

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 39 of 58

CERTIFICATE OF SERVICE
I certify that on this 8th day of January 2021, the foregoing document was
served on all parties or their counsel of record though the CM/ECF system, which
will then send notification of such filing to all parties and counsel included on the
Court s Electronic Mail notice list.

/s/ Donald P. Salzman
Donald P. Salzman
Skadden, Arps, Slate, Meagher & Flom LLP
1440 New York Avenue, NW
Washington, DC 20005
(202) 371-7983
donald.salzman@skadden.com
Counsel For Appellant Corey Johnson

APP.773

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 40 of 58

STATUTORY ADDENDUM
(Relevant Excerpts)
Key Statutes
18 U.S.C. § 3596 ..............................................................................................ADD-1
21 U.S.C. § 848 (1988) (repealed 2006) ..........................................................ADD-2
28 U.S.C. § 2244 ............................................................................................ADD-14
28 U.S.C. § 2255 ............................................................................................ADD-17

ADD-i
APP.774

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 41 of 58

UNITED STATES CODE ANNOTATED
TITLE 18. CRIMES AND CRIMINAL PROCEDURE
PART II. CRIMINAL PROCEDURE
CHAPTER 228. DEATH SENTENCE
18 U.S.C. § 3596. Implementation of a sentence of death
*

*

*

*

*

(a) In general. A person who has been sentenced to death pursuant to this chapter
shall be committed to the custody of the Attorney General until exhaustion of the
procedures for appeal of the judgment of conviction and for review of the sentence.
When the sentence is to be implemented, the Attorney General shall release the
person sentenced to death to the custody of a United States marshal, who shall
supervise implementation of the sentence in the manner prescribed by the law of
the State in which the sentence is imposed. If the law of the State does not provide
for implementation of a sentence of death, the court shall designate another State,
the law of which does provide for the implementation of a sentence of death, and
the sentence shall be implemented in the latter State in the manner prescribed by
such law.
(b) Pregnant woman. A sentence of death shall not be carried out upon a woman
while she is pregnant.
(c) Mental capacity. A sentence of death shall not be carried out upon a person
who is mentally retarded. A sentence of death shall not be carried out upon a
person who, as a result of mental disability, lacks the mental capacity to understand
the death penalty and why it was imposed on that person.
*

*

*

*

*

ADD-1
APP.775

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 42 of 58

UNITED STATES CODE
TITLE 21. FOOD AND DRUGS
21 U.S.C. § 848 (1988) (repealed 2006) Continuing criminal enterprise
*

*

*

*

*

(a) Penalties; forfeitures
Any person who engages in a continuing criminal enterprise shall be sentenced to a
term of imprisonment which may not be less than 20 years and which may be up to
life imprisonment, to a fine not to exceed the greater of that authorized in
accordance with the provisions of title 18 or $2,000,000 if the defendant is an
individual or $5,000,000 if the defendant is other than an individual, and to the
forfeiture prescribed in section 853 of this title; except that if any person engages
in such activity after one or more prior convictions of him under this section have
become final, he shall be sentenced to a term of imprisonment which may not be
less than 30 years and which may be up to life imprisonment, to a fine not to
exceed the greater of twice the amount authorized in accordance with the
provisions of title 18 or $4,000,000 if the defendant is an individual or $10,000,000
if the defendant is other than an individual, and to the forfeiture prescribed in
section 853 of this title.
(b) Life imprisonment for engaging in continuing criminal enterprise
Any person who engages in a continuing criminal enterprise shall be imprisoned
for life and fined in accordance with subsection (a) of this section, if
(1) such person is the principal administrator, organizer, or leader of the
enterprise or is one of several such principal administrators, organizers, or
leaders; and
(2)(A) the violation referred to in subsection (d)(1) of this section involved
at least 300 times the quantity of a substance described in subsection
841(b)(1)(B) of this title, or
(B) the enterprise, or any other enterprise in which the defendant was the
principal or one of several principal administrators, organizers, or leaders,
received $10 million dollars in gross receipts during any twelve-month
period of its existence for the manufacture, importation, or distribution of a
substance described in section 841(b)(1)(B) of this title.

ADD-2
APP.776

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 43 of 58

(c) "Continuing criminal enterprise" defined
For purposes of subsection (a) of this section, a person is engaged in a continuing
criminal enterprise if
(1) he violates any provision of this subchapter or subchapter II of this
chapter the punishment for which is a felony, and
(2) such violation is a part of a continuing series of violations of this
subchapter or subchapter II of this chapter
(A) which are undertaken by such person in concert with five or more
other persons with respect to whom such person occupies a position of
organizer, a supervisory position, or any other position of
management, and
(B) from which such person obtains substantial income or resources.
(d) Suspension of sentence and probation prohibited
In the case of any sentence imposed under this section, imposition or execution of
such sentence shall not be suspended, probation shall not be granted, and the Act
of July 15, 1932 (D.C. Code, secs. 24-203-24-207), shall not apply.
(e) Death penalty
(1) In addition to the other penalties set forth in this section(A) any person engaging in or working in furtherance of a continuing
criminal enterprise, or any person engaging in an offense punishable
under section 841(b)(1)(A) of this title or section 960(b)(1) of this title
who intentionally kills or counsels, commands, induces, procures, or
causes the intentional killing of an individual and such killing results,
shall be sentenced to any term of imprisonment, which shall not be
less than 20 years, and which may be up to life imprisonment, or may
be sentenced to death; and
(B) any person, during the commission of, in furtherance of, or while
attempting to avoid apprehension, prosecution or service of a prison
sentence for, a felony violation of this subchapter or subchapter II of
this chapter who intentionally kills or counsels, commands, induces,
procures, or causes the intentional killing of any Federal, State, or
local law enforcement officer engaged in, or on account of, the
ADD-3
APP.777

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 44 of 58

performance of such officer's official duties and such killing results,
shall be sentenced to any term of imprisonment, which shall not be
less than 20 years, and which may be up to life imprisonment, or may
be sentenced to death.
(2) As used in paragraph (1)(b), the term "law enforcement officer" means a
public servant authorized by law or by a Government agency or Congress to
conduct or engage in the prevention, investigation, prosecution or
adjudication of an offense, and includes those engaged in corrections,
probation, or parole functions.
(g) Hearing required with respect to death penalty
A person shall be subjected to the penalty of death for any offense under this
section only if a hearing is held in accordance with this section.
(h) Notice by Government in death penalty cases
(1) Whenever the Government intends to seek the death penalty for an
offense under this section for which one of the sentences provided is death,
the attorney for the Government, a reasonable time before trial or acceptance
by the court of a plea of guilty, shall sign and file with the court, and serve
upon the defendant, a notice
(A) that the Government in the event of conviction will seek the
sentence of death; and
(B) setting forth the aggravating factors enumerated in subsection (n)
of this section and any other aggravating factors which the
Government will seek to prove as the basis for the death penalty.
(2) The court may permit the attorney for the Government to amend this
notice for good cause shown.
(i) Hearing before court or jury
(1) When the attorney for the Government has filed a notice as required
under subsection (h) of this section and the defendant is found guilty of or
pleads guilty to an offense under subsection (e) of this section, the judge
who presided at the trial or before whom the guilty plea was entered, or any
other judge if the judge who presided at the trial or before whom the guilty
plea was entered is unavailable, shall conduct a separate sentencing hearing

ADD-4
APP.778

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 45 of 58

to determine the punishment to be imposed. The hearing shall be
conducted
(A) before the jury which determined the defendant's guilt;
(B) before a jury impaneled for the purpose of the hearing if
(i) the defendant was convicted upon a plea of guilty;
(ii) the defendant was convicted after a trial before the court
sitting without a jury;
(iii) the jury which determined the defendant's guilt has been
discharged for good cause; or
(iv) after initial imposition of a sentence under this section,
redetermination of the sentence under this section is necessary;
or
(C) before the court alone, upon the motion of the defendant and with
the approval of the Government.
(2) A jury impaneled under paragraph (1)(B) shall consist of 12 members,
unless, at any time before the conclusion of the hearing, the parties stipulate
with the approval of the court that it shall consist of any number less than
12.
(j) Proof of aggravating and mitigating factors
Notwithstanding rule 32(c) of the Federal Rules of Criminal Procedure, when a
defendant is found guilty of or pleads guilty to an offense under subsection (e) of
this section, no presentence report shall be prepared. In the sentencing hearing,
information may be presented as to matters relating to any of the aggravating or
mitigating factors set forth in subsections (m) and (n) of this section, or any other
mitigating factor or any other aggravating factor for which notice has been
provided under subsection (h)(1)(B) of this section. Where information is
presented relating to any of the aggravating factors set forth in subsection (n) of
this section, information may be presented relating to any other aggravating factor
for which notice has been provided under subsection (h)(1)(B) of this section.
Information presented may include the trial transcript and exhibits if the hearing is
held before a jury or judge not present during the trial, or at the trial judge's
discretion. Any other information relevant to such mitigating or aggravating factors

ADD-5
APP.779

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 46 of 58

may be presented by either the Government or the defendant, regardless of its
admissibility under the rules governing admission of evidence at criminal trials,
except that information may be excluded if its probative value is substantially
outweighed by the danger of unfair prejudice, confusion of the issues, or
misleading the jury. The Government and the defendant shall be permitted to rebut
any information received at the hearing and shall be given fair opportunity to
present argument as to the adequacy of the information to establish the existence of
any of the aggravating or mitigating factors and as to appropriateness in that case
of imposing a sentence of death. The Government shall open the argument. The
defendant shall be permitted to reply. The Government shall then be permitted to
reply in rebuttal. The burden of establishing the existence of any aggravating factor
is on the Government, and is not satisfied unless established beyond a reasonable
doubt. The burden of establishing the existence of any mitigating factor is on the
defendant, and is not satisfied unless established by a preponderance of the
evidence.
(k) Return of findings
The jury, or if there is no jury, the court, shall consider all the information received
during the hearing. It shall return special findings identifying any aggravating
factors set forth in subsection (n) of this section, found to exist. If one of the
aggravating factors set forth in subsection (n)(1) of this section and another of the
aggravating factors set forth in paragraphs (2) through (12) of subsection (n) of this
section is found to exist, a special finding identifying any other aggravating factor
for which notice has been provided under subsection (h)(1)(B) of this section, may
be returned. A finding with respect to a mitigating factor may be made by one or
more of the members of the jury, and any member of the jury who finds the
existence of a mitigating factor may consider such a factor established for purposes
of this subsection, regardless of the number of jurors who concur that the factor has
been established. A finding with respect to any aggravating factor must be
unanimous. If an aggravating factor set forth in subsection (n)(1) of this section is
not found to exist or an aggravating factor set forth in subsection (n)(1) of this
section is found to exist but no other aggravating factor set forth in subsection (n)
of this section is found to exist, the court shall impose a sentence, other than death,
authorized by law. If an aggravating factor set forth in subsection (n)(1) of this
section and one or more of the other aggravating factors set forth in subsection (n)
of this section are found to exist, the jury, or if there is no jury, the court, shall then
consider whether the aggravating factors found to exist sufficiently outweigh any
mitigating factor or factors found to exist, or in the absence of mitigating factors,
whether the aggravating factors are themselves sufficient to justify a sentence of

ADD-6
APP.780

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 47 of 58

death. Based upon this consideration, the jury by unanimous vote, or if there is no
jury, the court, shall recommend that a sentence of death shall be imposed rather
than a sentence of life imprisonment without possibility of release or some other
lesser sentence. The jury or the court, regardless of its findings with respect to
aggravating and mitigating factors, is never required to impose a death sentence
and the jury shall be so instructed.
(l) Imposition of sentence
Upon the recommendation that the sentence of death be imposed, the court shall
sentence the defendant to death. Otherwise the court shall impose a sentence, other
than death, authorized by law. A sentence of death shall not be carried out upon a
person who is under 18 years of age at the time the crime was committed. A
sentence of death shall not be carried out upon a person who is mentally retarded.
A sentence of death shall not be carried out upon a person who, as a result of
mental disability
(1) cannot understand the nature of the pending proceedings, what such
person was tried for, the reason for the punishment, or the nature of the
punishment; or
(2) lacks the capacity to recognize or understand facts which would make
the punishment unjust or unlawful, or lacks the ability to convey such
information to counsel or to the court.
(m) Mitigating factors
In determining whether a sentence of death is to be imposed on a defendant, the
finder of fact shall consider mitigating factors, including the following:
(1) The defendant's capacity to appreciate the wrongfulness of the
defendant's conduct or to conform conduct to the requirements of law was
significantly impaired, regardless of whether the capacity was so impaired as
to constitute a defense to the charge.
(2) The defendant was under unusual and substantial duress, regardless of
whether the duress was of such a degree as to constitute a defense to the
charge.
(3) The defendant is punishable as a principal (as defined in section 2 of title
18) in the offense, which was committed by another, but the defendant's

ADD-7
APP.781

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 48 of 58

participation was relatively minor, regardless of whether the participation
was so minor as to constitute a defense to the charge.
(4) The defendant could not reasonably have foreseen that the defendant's
conduct in the course of the commission of murder, or other offense
resulting in death for which the defendant was convicted, would cause, or
would create a grave risk of causing, death to any person.
(5) The defendant was youthful, although not under the age of 18.
(6) The defendant did not have a significant prior criminal record.
(7) The defendant committed the offense under severe mental or emotional
disturbance.
(8) Another defendant or defendants, equally culpable in the crime, will not
be punished by death.
(9) The victim consented to the criminal conduct that resulted in the victim's
death.
(10) That other factors in the defendant's background or character mitigate
against imposition of the death sentence.
(n) Aggravating factors for homicide
If the defendant is found guilty of or pleads guilty to an offense under subsection
(e) of this section, the following aggravating factors are the only aggravating
factors that shall be considered, unless notice of additional aggravating factors is
provided under subsection (h)(1)(B) of this section:
(1) The defendant(A) intentionally killed the victim;
(B) intentionally inflicted serious bodily injury which resulted in the
death of the victim;
(C) intentionally engaged in conduct intending that the victim be
killed or that lethal force be employed against the victim, which
resulted in the death of the victim;
(D) intentionally engaged in conduct which

ADD-8
APP.782

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 49 of 58

(i) the defendant knew would create a grave risk of death to a
person, other than one of the participants in the offense; and
(ii) resulted in the death of the victim.
(2) The defendant has been convicted of another Federal offense, or a State
offense resulting in the death of a person, for which a sentence of life
imprisonment or a sentence of death was authorized by statute.
(3) The defendant has previously been convicted of two or more State or
Federal offenses punishable by a term of imprisonment of more than one
year, committed on different occasions, involving the infliction of, or
attempted infliction of, serious bodily injury upon another person.
(4) The defendant has previously been convicted of two or more State or
Federal offenses punishable by a term of imprisonment of more than one
year, committed on different occasions, involving the distribution of a
controlled substance.
(5) In the commission of the offense or in escaping apprehension for a
violation of subsection (e) of this section, the defendant knowingly created a
grave risk of death to one or more persons in addition to the victims of the
offense.
(6) The defendant procured the commission of the offense by payment, or
promise of payment, of anything of pecuniary value.
(7) The defendant committed the offense as consideration for the receipt, or
in the expectation of the receipt, of anything of pecuniary value.
(8) The defendant committed the offense after substantial planning and
premeditation.
(9) The victim was particularly vulnerable due to old age, youth, or
infirmity.
(10) The defendant had previously been convicted of violating this
subchapter or subchapter II of this chapter for which a sentence of five or
more years may be imposed or had previously been convicted of engaging in
a continuing criminal enterprise.

ADD-9
APP.783

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 50 of 58

(11) The violation of this subchapter in relation to which the conduct
described in subsection (e) of this section occurred was a violation of section
845 of this title.
(12) The defendant committed the offense in an especially heinous, cruel, or
depraved manner in that it involved torture or serious physical abuse to the
victim.
(o) Right of defendant to justice without discrimination
(1) In any hearing held before a jury under this section, the court shall
instruct the jury that in its consideration of whether the sentence of death is
justified it shall not consider the race, color, religious beliefs, national origin,
or sex of the defendant or the victim, and that the jury is not to recommend a
sentence of death unless it has concluded that it would recommend a
sentence of death for the crime in question no matter what the race, color,
religious beliefs, national origin, or sex of the defendant, or the victim, may
be. The jury shall return to the court a certificate signed by each juror that
consideration of the race, color, religious beliefs, national origin, or sex of
the defendant or the victim was not involved in reaching his or her
individual decision, and that the individual juror would have made the same
recommendation regarding a sentence for the crime in question no matter
what the race, color, religious beliefs, national origin, or sex of the
defendant, or the victim, may be.
(2) Not later than one year from November 18, 1988, the Comptroller
General shall conduct a study of the various procedures used by the several
States for determining whether or not to impose the death penalty in
particular cases, and shall report to the Congress on whether or not any or all
of the various procedures create a significant risk that the race of a
defendant, or the race of a victim against whom a crime was committed,
influence the likelihood that defendants in those States will be sentenced to
death. In conducting the study required by this paragraph, the General
Accounting Office shall
(A) use ordinary methods of statistical analysis, including methods
comparable to those ruled admissible by the courts in race
discrimination cases under title VII of the Civil Rights Act of 1964
[42 U.S.C. 2000e et seq.];
(B) study only crimes occurring after January 1, 1976; and

ADD-10
APP.784

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 51 of 58

(C) determine what, if any, other factors, including any relation
between any aggravating or mitigating factors and the race of the
victim or the defendant, may account for any evidence that the race of
the defendant, or the race of the victim, influences the likelihood that
defendants will be sentenced to death. In addition, the General
Accounting Office shall examine separately and include in the report,
death penalty cases involving crimes similar to those covered under
this section.
(p) Sentencing in capital cases in which death penalty is not sought or imposed
If a person is convicted for an offense under subsection (e) of this section and the
court does not impose the penalty of death, the court may impose a sentence of life
imprisonment without the possibility of parole.
(q) Appeal in capital cases; counsel for financially unable defendants
(1) In any case in which the sentence of death is imposed under this section,
the sentence of death shall be subject to review by the court of appeals upon
appeal by the defendant. Notice of appeal must be filed within the time
prescribed for appeal of judgment in section 2107 of title 28. An appeal
under this section may be consolidated with an appeal of the judgment of
conviction. Such review shall have priority over all other cases.
(2) On review of the sentence, the court of appeals shall consider the record,
the evidence submitted during the trial, the information submitted during the
sentencing hearing, the procedures employed in the sentencing hearing, and
the special findings returned under this section.
(3) The court shall affirm the sentence if it determines that
(A) the sentence of death was not imposed under the influence of
passion, prejudice, or any other arbitrary factor; and
(B) the information supports the special finding of the existence of
every aggravating factor upon which the sentence was based, together
with, or the failure to find, any mitigating factors as set forth or
allowed in this section.
In all other cases the court shall remand the case for reconsideration under
this section. The court of appeals shall state in writing the reasons for its
disposition of the review of the sentence.
ADD-11
APP.785

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 52 of 58

(4)(A) Notwithstanding any other provision of law to the contrary, in every
criminal action in which a defendant is charged with a crime which may be
punishable by death, a defendant who is or becomes financially unable to
obtain adequate representation or investigative, expert, or other reasonably
necessary services at any time either
(i) before judgment; or
(ii) after the entry of a judgment imposing a sentence of death but
before the execution of that judgment;
shall be entitled to the appointment of one or more attorneys and the
furnishing of such other services in accordance with paragraphs (5), (6), (7),
(8), and (9).
(B) In any post-conviction proceeding under section 2254 or 2255 of title 28
seeking to vacate or set aside a death sentence, any defendant who is or
becomes financially unable to obtain adequate representation or
investigative, expert, or other reasonably necessary services shall be entitled
to the appointment of one or more attorneys and the furnishing of such other
services in accordance with paragraphs (5), (6), (7), (8), and (9).
(5) If the appointment is made before judgment, at least one attorney so
appointed must have been admitted to practice in the court in which the
prosecution is to be tried for not less than five years, and must have had not
less than three years experience in the actual trial of felony prosecutions in
that court.
(6) If the appointment is made after judgment, at least one attorney so
appointed must have been admitted to practice in the court of appeals for not
less than five years, and must have had not less than three years experience
in the handling of appeals in that court in felony cases.
(7) With respect to paragraphs (5) and (6), the court, for good cause, may
appoint another attorney whose background, knowledge, or experience
would otherwise enable him or her to properly represent the defendant, with
due consideration to the seriousness of the possible penalty and to the unique
and complex nature of the litigation.
(8) Unless replaced by similarly qualified counsel upon the attorney's own
motion or upon motion of the defendant, each attorney so appointed shall
represent the defendant throughout every subsequent stage of available
ADD-12
APP.786

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 53 of 58

judicial proceedings, including pretrial proceedings, trial, sentencing,
motions for new trial, appeals, applications, for writ of certiorari to the
Supreme Court of the United States, and all available post-conviction
process, together with applications for stays of execution and other
appropriate motions and procedures, and shall also represent the defendant
in such competency proceedings and proceedings for executive or other
clemency as may be available to the defendant.
(9) Upon a finding in ex parte proceedings that investigative, expert or other
services are reasonably necessary for the representation of the defendant,
whether in connection with issues relating to guilt or sentence, the court
shall authorize the defendant's attorneys to obtain such services on behalf of
the defendant and shall order the payment of fees and expenses therefore,
under paragraph (10). Upon a finding that timely procurement of such
services could not practicably await prior authorization, the court may
authorize the provision of and payment for such services nunc pro tunc.
(10) Notwithstanding the rates and maximum limits generally applicable to
criminal cases and any other provision of law to the contrary, the court shall
fix the compensation to be paid to attorneys appointed under this subsection
and the fees and expenses to be paid for investigative, expert, and other
reasonably necessary services authorized under paragraph (9), at such rates
or amounts as the court determines to be reasonably necessary to carry out
the requirements of paragraphs (4) through (9).
(r) Refusal to participate by State and Federal correctional employees
No employee of any State department of corrections or the Federal Bureau of
Prisons and no employee providing services to that department or bureau under
contract shall be required, as a condition of that employment, or contractual
obligation to be in attendance at or to participate in any execution carried out under
this section if such participation is contrary to the moral or religious convictions of
the employee. For purposes of this subsection, the term "participation in
executions" includes personal preparation of the condemned individual and the
apparatus used for execution and supervision of the activities of other personnel in
carrying out such activities.
*

*

*

*

*

ADD-13
APP.787

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 54 of 58

UNITED STATES CODE ANNOTATED
TITLE 28. JUDICIARY AND JUDICIAL PROCEDURE
PART VI. PARTICULAR PROCEEDINGS
CHAPTER 153. HABEAS CORPUS
28 U.S.C. § 2244 Finality of determination
*

*

*

*

*

(a) No circuit or district judge shall be required to entertain an application for a
writ of habeas corpus to inquire into the detention of a person pursuant to a
judgment of a court of the United States if it appears that the legality of such
detention has been determined by a judge or court of the United States on a prior
application for a writ of habeas corpus, except as provided in section 2255.
(b)(1) A claim presented in a second or successive habeas corpus application under
section 2254 that was presented in a prior application shall be dismissed.
(2) A claim presented in a second or successive habeas corpus application under
section 2254 that was not presented in a prior application shall be dismissed
unless
(A) the applicant shows that the claim relies on a new rule of constitutional law,
made retroactive to cases on collateral review by the Supreme Court, that was
previously unavailable; or
(B)(i) the factual predicate for the claim could not have been discovered previously
through the exercise of due diligence; and
(ii) the facts underlying the claim, if proven and viewed in light of the evidence as
a whole, would be sufficient to establish by clear and convincing evidence that, but
for constitutional error, no reasonable factfinder would have found the applicant
guilty of the underlying offense.
(3)(A) Before a second or successive application permitted by this section is filed
in the district court, the applicant shall move in the appropriate court of appeals for
an order authorizing the district court to consider the application.

ADD-14
APP.788

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 55 of 58

(B) A motion in the court of appeals for an order authorizing the district court to
consider a second or successive application shall be determined by a three-judge
panel of the court of appeals.
(C) The court of appeals may authorize the filing of a second or successive
application only if it determines that the application makes a prima facie showing
that the application satisfies the requirements of this subsection.
(D) The court of appeals shall grant or deny the authorization to file a second or
successive application not later than 30 days after the filing of the motion.
(E) The grant or denial of an authorization by a court of appeals to file a second or
successive application shall not be appealable and shall not be the subject of a
petition for rehearing or for a writ of certiorari.
(4) A district court shall dismiss any claim presented in a second or successive
application that the court of appeals has authorized to be filed unless the applicant
shows that the claim satisfies the requirements of this section.
(c) In a habeas corpus proceeding brought in behalf of a person in custody pursuant
to the judgment of a State court, a prior judgment of the Supreme Court of the
United States on an appeal or review by a writ of certiorari at the instance of the
prisoner of the decision of such State court, shall be conclusive as to all issues of
fact or law with respect to an asserted denial of a Federal right which constitutes
ground for discharge in a habeas corpus proceeding, actually adjudicated by the
Supreme Court therein, unless the applicant for the writ of habeas corpus shall
plead and the court shall find the existence of a material and controlling fact which
did not appear in the record of the proceeding in the Supreme Court and the court
shall further find that the applicant for the writ of habeas corpus could not have
caused such fact to appear in such record by the exercise of reasonable diligence.
(d)(1) A 1-year period of limitation shall apply to an application for a writ of
habeas corpus by a person in custody pursuant to the judgment of a State court.
The limitation period shall run from the latest of
(A) the date on which the judgment became final by the conclusion of direct
review or the expiration of the time for seeking such review;
(B) the date on which the impediment to filing an application created by State
action in violation of the Constitution or laws of the United States is removed, if
the applicant was prevented from filing by such State action;
ADD-15
APP.789

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 56 of 58

(C) the date on which the constitutional right asserted was initially recognized by
the Supreme Court, if the right has been newly recognized by the Supreme Court
and made retroactively applicable to cases on collateral review; or
(D) the date on which the factual predicate of the claim or claims presented could
have been discovered through the exercise of due diligence.
(2) The time during which a properly filed application for State post-conviction or
other collateral review with respect to the
pertinent judgment or claim is pending shall not be counted toward any period of
limitation under this subsection.

*

*

*

*

*

ADD-16
APP.790

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 57 of 58

UNITED STATES CODE ANNOTATED
TITLE 28. JUDICIARY AND JUDICIAL PROCEDURE
PART VI. PARTICULAR PROCEEDINGS
CHAPTER 153. HABEAS CORPUS
28 U.S.C. § 2255 Federal custody; remedies on motion attacking sentence
*

*

*

*

*

(a) A prisoner in custody under sentence of a court established by Act of Congress
claiming the right to be released upon the ground that the sentence was imposed in
violation of the Constitution or laws of the United States, or that the court was
without jurisdiction to impose such sentence, or that the sentence was in excess of
the maximum authorized by law, or is otherwise subject to collateral attack, may
move the court which imposed the sentence to vacate, set aside or correct the
sentence.
(b) Unless the motion and the files and records of the case conclusively show that
the prisoner is entitled to no relief, the court shall cause notice thereof to be served
upon the United States attorney, grant a prompt hearing thereon, determine the
issues and make findings of fact and conclusions of law with respect thereto. If the
court finds that the judgment was rendered without jurisdiction, or that the
sentence imposed was not authorized by law or otherwise open to collateral attack,
or that there has been such a denial or infringement of the constitutional rights of
the prisoner as to render the judgment vulnerable to collateral attack, the court
shall vacate and set the judgment aside and shall discharge the prisoner or
resentence him or grant a new trial or correct the sentence as may appear
appropriate.
(c) A court may entertain and determine such motion without requiring the
production of the prisoner at the hearing.
(d) An appeal may be taken to the court of appeals from the order entered on the
motion as from a final judgment on application for a writ of habeas corpus.
(e) An application for a writ of habeas corpus in behalf of a prisoner who is
authorized to apply for relief by motion pursuant to this section, shall not be
entertained if it appears that the applicant has failed to apply for relief, by motion,
to the court which sentenced him, or that such court has denied him relief, unless it

ADD-17
APP.791

USCA4 Appeal: 21-1

Doc: 5-1

Filed: 01/08/2021

Pg: 58 of 58

also appears that the remedy by motion is inadequate or ineffective to test the
legality of his detention.
(f) A 1-year period of limitation shall apply to a motion under this section. The
limitation period shall run from the latest of
(1) the date on which the judgment of conviction becomes final;
(2) the date on which the impediment to making a motion created by governmental
action in violation of the Constitution or laws of the United States is removed, if
the movant was prevented from making a motion by such governmental action;
(3) the date on which the right asserted was initially recognized by the Supreme
Court, if that right has been newly recognized by the Supreme Court and made
retroactively applicable to cases on collateral review; or
(4) the date on which the facts supporting the claim or claims presented could have
been discovered through the exercise of due diligence.
(g) Except as provided in section 408 of the Controlled Substances Act, in all
proceedings brought under this section, and any subsequent proceedings on review,
the court may appoint counsel, except as provided by a rule promulgated by the
Supreme Court pursuant to statutory authority. Appointment of counsel under this
section shall be governed by section 3006A of title 18.
(h) A second or successive motion must be certified as provided in section 2244 by
a panel of the appropriate court of appeals to contain
(1) newly discovered evidence that, if proven and viewed in light of the evidence
as a whole, would be sufficient to establish by clear and convincing evidence that
no reasonable factfinder would have found the movant guilty of the offense; or
(2) a new rule of constitutional law, made retroactive to cases on collateral review
by the Supreme Court, that was previously unavailable.
*

*

*

*

*

ADD-18
APP.792

APP.793

APP.794

APP.795

APP.796

APP.797

APP.798

APP.799

APP.800

APP.801

APP.802

APP.803

APP.804

APP.805

APP.806

APP.807

APP.808

APP.809

USCA4 Appeal: 20-15

Doc: 31

Filed: 01/14/2021

Pg: 1 of 5

FILED: January 14, 2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
___________________
No. 20-15
(3:92-cr-00068-DJN-2)
___________________
UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
COREY JOHNSON, a/k/a O, a/k/a CO
Defendant - Appellant
___________________
No. 21-1
(3:92-cr-00068-DJN-2)
(3:20-cv-00957-DJN)
___________________
UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
COREY JOHNSON, a/k/a O, a/k/a CO
Defendant - Appellant
-----------------------------THE CONSTITUTION PROJECT AT THE PROJECT ON GOVERNMENT
OVERSIGHT
Amicus Supporting Appellant

APP.810

USCA4 Appeal: 20-15

Doc: 31

Filed: 01/14/2021

Pg: 2 of 5

___________________
ORDER
___________________
The Court denies the petition for rehearing en banc for Case Nos. 20-15 and 21-1.
A requested poll of the Court failed to produce a majority of judges in regular active
service and not disqualified who voted in favor of rehearing en banc. Judge Wilkinson,
Judge Niemeyer, Judge Agee, Judge Diaz, Judge Floyd, Judge Richardson, Judge
Quattlebaum, and Judge Rushing voted to deny rehearing en banc. Chief Judge Gregory,
Judge Motz, Judge King, Judge Keenan, Judge Wynn, Judge Thacker, and Judge Harris
voted to grant rehearing en banc.
Judge Wilkinson wrote a separate opinion concurring in the denial of rehearing en
banc. Judge Wynn wrote a separate opinion dissenting from the denial of rehearing en banc.
Entered at the direction of Judge Wilkinson.
For the Court
/s/ Patricia S. Connor, Clerk

2

APP.811

USCA4 Appeal: 20-15

Doc: 31

Filed: 01/14/2021

Pg: 3 of 5

WILKINSON, Circuit Judge, concurring in the denial of rehearing en banc:
The reasons for my vote are set forth in my statement accompanying the panel’s
order denying the stay of execution.

3

APP.812

USCA4 Appeal: 20-15

Doc: 31

Filed: 01/14/2021

Pg: 4 of 5

WYNN, Circuit Judge, dissenting from the denial of rehearing en banc:
Corey Johnson is an intellectually disabled death row inmate who is scheduled to
be executed later today at 6 p.m. EST. His emergency motion to stay execution was denied
by a panel of this Court, and he seeks a rehearing en banc. Because Johnson has at least
two potentially meritorious claims against his execution, I respectfully dissent from the
denial of rehearing en banc.
In 20-15, Johnson seeks reconsideration of his death sentence under the First Step
Act. He was sentenced to death for the murders he had committed in relation to crack
cocaine distribution, in violation of 21 U.S.C. § 848(e). Under Fourth Circuit precedent,
his convictions under § 848(e) are “covered offenses” for purposes of the First Step Act.
See, e.g., United States v. Wirsing, 943 F.3d 175, 186 (4th Cir. 2019); United States v.
Woodson, 962 F.3d 812, 816 (4th Cir. 2020); United States v. Chambers, 956 F.3d 667,
670 (4th Cir. 2020). Therefore, Johnson is legally entitled to reconsideration of his
sentence, and the sentencing judge must properly consider factors including the
overwhelming evidence of his intellectual disability and his excellent prison record. The
district court clearly erred in holding that he would not be entitled to a sentence reduction
even if his convictions were “covered” by the First Step Act.
In 21-1, Johnson makes a compelling statutory argument that the Federal Death
Penalty Act, 18 U.S.C. § 3596(c), prohibits his execution. Under § 3596(c), a death
sentence “shall not be carried out upon a person who is mentally retarded.” The plain text,
structure, and history of the statute seem to clearly indicate Congress’s intent to allow an
inquiry at the time of execution. Although Johnson fell just 2 points short (77) of the IQ
4

APP.813

USCA4 Appeal: 20-15

Doc: 31

Filed: 01/14/2021

Pg: 5 of 5

threshold for intellectual disability (70–75) in 1993, the newly available evidence
convincingly demonstrates that his old IQ score is incorrect and that he is intellectually
disabled under current diagnostic standards. But no court has ever considered such
evidence. If Johnson’s death sentence is carried out today, the United States will execute
an intellectually disabled person, which is unconstitutional.
In sum, Johnson should be afforded an opportunity to have his meritorious claims
properly considered and to vindicate his rights. And contrary to the Government, he is not
making a “last-minute” attempt to unduly delay his execution. He has timely pursued his
challenges under both the First Step Act and the Federal Death Penalty Act. If anything,
these emergency motions became necessary only because the Government scheduled his
execution while his First Step Act claim was being litigated. Therefore, I vote to grant his
petition for rehearing en banc.

5

APP.814

USCA4 Appeal: 20-15

Doc: 32

Filed: 01/14/2021

Pg: 1 of 8

EXECUTION SCHEDULED FOR JANUARY 14, 2021 AT 6:00 P.M. ET
No. 20-15
_____________________________________________________________
IN THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
_____________________________________________________________
United States Of America
Plaintiff - Appellee,
v.
Corey Johnson, A/K/A O, A/K/A CO,
Defendant - Appellant.
_____________________________________________________________
No. 21-1
_____________________________________________________________
IN THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
_____________________________________________________________
United States Of America
Plaintiff - Appellee,
v.
Corey Johnson, A/K/A O, A/K/A CO,
Defendant - Appellant.
_____________________________________________________________
CAPITAL CASE
EMERGENCY MOTION FOR STAY OF EXECUTION
PENDING APPEAL
_____________________________________________________________

APP.815

USCA4 Appeal: 20-15

Doc: 32

Filed: 01/14/2021

Pg: 2 of 8

Donald P. Salzman
Jonathan Marcus
David E. Carney
Skadden, Arps, Slate, Meagher &
Flom, LLP
1440 New York Avenue, NW
Washington, DC 20005
Ph: (202) 371-7246
Fax: (202) 661-8295
Email: david.carney@skadden.com
Counsel for Corey Johnson

APP.816

USCA4 Appeal: 20-15

Doc: 32

Filed: 01/14/2021

Pg: 3 of 8

Appellant Corey Johnson respectfully moves for a stay of execution pending
his appeal of the Court’s January 13, 2021 order denying his motion to stay his
execution. (No. 20-15, ECF No. 26.) Mr. Johnson recognizes that the Court
concluded that he is not entitled to a stay and then denied his Emergency Petition
for Rehearing En Banc. Nevertheless, United States Supreme Court Rule 23.3
counsels that Appellant first move this Court for a stay pending appeal before
seeking such relief from the United States Supreme Court. Mr. Johnson intends to
file an emergency application to stay his execution with the United States Supreme
Court today.
Accordingly, for the reasons stated below and in Mr. Johnson’s earlier
motions for stay and Emergency Petition for Rehearing En Banc, Mr. Johnson
respectfully asks the Court to stay his execution pending appeal. (No. 20-15, ECF
Nos. 15 and 27; No. 21-1, ECF Nos. 8 and 26.) Mr. Johnson is entitled to a stay of
execution because (1) he has a significant possibility of success on the merits; (2)
he is likely to suffer irreparable injury otherwise; (3) the balance of equities tip in
his favor; (4) an injunction is in the public interest; and (5) he did not unduly delay
in bringing his claims. See generally Dunn v. McNabb, 138 S. Ct. 369 (2017).
First, Mr. Johnson is likely to prevail on the merits of his appeals. Because
Mr. Johnson’s convictions under 21 U.S.C. § 848(e) are “covered offenses” under
the First Step Act, he is permitted to ask a jury to reconsider his death sentences.

APP.817

USCA4 Appeal: 20-15

Doc: 32

Filed: 01/14/2021

Pg: 4 of 8

In addition, the Federal Death Penalty Act (the “FDPA”) prohibits Mr. Johnson’s
execution because he is intellectually disabled.
Second, because the United States intends to execute Mr. Johnson today, he
unquestionably faces irreparable injury. See Wainwright v. Booker, 473 U.S. 935,
935 n.1 (1985) (recognizing that irreparable injury “is necessarily present in capital
cases”).
Third, the balance of equities tips in favor of granting the stay. Staying Mr.
Johnson’s execution briefly for this Court to consider these grave issues will not
substantially injure the United States. Although the government normally has a
“strong interest” in “proceeding with its judgment,” Nelson v. Campbell, 541 U.S.
637, 649-50 (2004) (citation omitted), that interest should sensibly yield here to
afford Mr. Johnson the chance to vindicate those rights.
Fourth, the United States has no legitimate interest in executing a prisoner in
violation of federal law.
Fifth, Mr. Johnson did not unnecessarily delay in bringing his claims under
the FDPA and the First Step Act. Mr. Johnson sought relief under the First Step
Act in August 2020, just months after courts determined in non-capital cases that
21 U.S.C. § 848 was a covered offense, and after the district court determined that
any sentencing reconsideration had to consider post-conviction conduct. See e.g.,
United States v. Davis, No. 93-CR-30025, 2020 WL 1131147, at *2 (W.D. Va.
2

APP.818

USCA4 Appeal: 20-15

Doc: 32

Filed: 01/14/2021

Pg: 5 of 8

Mar. 9, 2020). And when the government scheduled Mr. Johnson’s execution for
January 14, 2021, Mr. Johnson promptly filed his § 2255 motion challenging the
implementation of his sentence under the FDPA.
For these reasons, Appellant Corey Johnson respectfully requests that the
Court stay his scheduled execution pending his appeal of the Court’s Memorandum
Opinion and Order denying a stay.

3

APP.819

USCA4 Appeal: 20-15

Doc: 32

Filed: 01/14/2021

Dated: January 14, 2021

Pg: 6 of 8

Respectfully submitted,
/s/ Donald P. Salzman
Donald P. Salzman
Jonathan Marcus
David E. Carney
Skadden, Arps, Slate, Meagher &
Flom, LLP
1440 New York Avenue, NW
Washington, DC 20005
david.carney@skadden.com
Counsel for Corey Johnson

4

APP.820

USCA4 Appeal: 20-15

Doc: 32

Filed: 01/14/2021

Pg: 7 of 8

CERTIFICATE OF COMPLIANCE
1.

This motion contains 542 words, excluding the parts of the brief exempted

from the word count by Fed. R. App. P. Rule 27(d)(2) and Rule 32(f).
2.

This motion complies with the font, spacing, and type size requirements set

forth in Fed. R. App. P. Rule 32(a)(5).
/s/ Donald P. Salzman

5

APP.821

USCA4 Appeal: 20-15

Doc: 32

Filed: 01/14/2021

Pg: 8 of 8

CERTIFICATE OF SERVICE
I certify that on this 14th day of January 2021, the foregoing
document was served on all parties or their counsel of record though the CM/ECF
system, which will then send notification of such filing to all parties and counsel
included on the Court’s Electronic Mail notice list.
/s/ Donald P. Salzman
Donald P. Salzman
Jonathan Marcus
David E. Carney
Skadden, Arps, Slate, Meagher &
Flom LLP
1440 New York Avenue, NW
Washington, DC 20005
(202) 371-7983
donald.salzman@skadden.com
Counsel for Corey Johnson

6

APP.822

